<html>
<title> - REVIVING OUR ECONOMY: THE ROLE OF HIGHER EDUCATION IN JOB GROWTH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 REVIVING OUR ECONOMY: THE ROLE OF HIGHER EDUCATION IN JOB GROWTH AND 
                              DEVELOPMENT

=======================================================================



                             FIELD HEARINGS

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             Full Committee

            HEARING HELD IN WILKES BARRE, PA, MARCH 21, 2011

                               __________

               HEARING HELD IN UTICA, NY, MARCH 22, 2011

                               __________

              HEARING HELD IN COLUMBIA, TN, APRIL 21, 2011

                               __________

                    Subcommittee on Higher Education
                         and Workforce Training



                  U.S. GOVERNMENT PRINTING OFFICE
65-154                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




            HEARING HELD IN GREENVILLE, SC, AUGUST 16, 2011

                               __________

                           Serial No. 112-14

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia\1\           Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          David Wu, Oregon\2\
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Todd Rokita, Indiana                 Susan A. Davis, California
Larry Bucshon, Indiana               Raul M. Grijalva, Arizona
Trey Gowdy, South Carolina           Timothy H. Bishop, New York
Lou Barletta, Pennsylvania           David Loebsack, Iowa
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

John Kline, Minnesota                Ruben Hinojosa, Texas
Thomas E. Petri, Wisconsin             Ranking Minority Member
Howard P. ``Buck'' McKeon,           John F. Tierney, Massachusetts
    California                       David Wu, Oregon\2\
Judy Biggert, Illinois               Timothy H. Bishop, New York
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Richard L. Hanna, New York           David Loebsack, Iowa
Larry Bucshon, Indiana               George Miller, California
Lou Barletta, Pennsylvania
Joseph J. Heck, Nevada

------------
    \1\ Appointed May 24, 2011.
    \2\ Resigned August 3, 2011, leaving a vacancy.


                            C O N T E N T S



                              ----------                              
                                                                   Page

Hearing held on March 21, 2011...................................     1

Statement of Members:
    Barletta, Hon. Lou, a Representative in Congress from the 
      State of Pennsylvania......................................     2
        Prepared statement of....................................     3
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Alesson, Jeff T., vice president of strategic planning, 
      Diamond Manufacturing Co...................................     8
        Prepared statement of....................................     9
    Angeli, Raymond S., president, Lackawanna College............    20
        Prepared statement of....................................    22
    Leary, Thomas P., president, Luzerne County Community College    30
        Prepared statement of....................................    32
    Perry, Jim, president, Hazleton City Council.................     5
        Prepared statement of....................................     7
    Seaman, Joan, executive director, Wyoming Valley campus, 
      Empire Education Group.....................................    23
        Prepared statement of....................................    25
    Verret, C. Reynold, provost, Wilkes University...............    16
        Prepared statement of....................................    18

Additional Submissions:
    Mr. Angeli:
        Additional information supplied for the record...........    45
    Ms. Seaman:
        Additional information supplied for the record...........    46
                              ----------                              
Hearing held on March 22, 2011...................................    47

Statement of Members:
    Hanna, Hon. Richard L., a Representative in Congress from the 
      State of New York..........................................    48
        Prepared statement of....................................    49
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................    47
        Prepared statement of....................................    48

Statement of Witnesses:
    Bay, John S., vice president and chief scientist, Assured 
      Information Security, Inc..................................    64
        Prepared statement of....................................    65
    Kirkpatrick, Judith, provost, Utica College..................    80
        Prepared statement of....................................    81
    Mathis, David, director of workforce development, Oneida 
      County.....................................................    56
        Prepared statement of....................................    58
    Murray, Ann Marie, president, Herkimer County Community 
      College....................................................    77
        Prepared statement of....................................    78
    Picente, Anthony J., Jr., Oneida County Executive............    51
        Prepared statement of....................................    54
    Williams, Phil, president, Utica School of Commerce, prepared 
      statement of...............................................    73
    Yeigh, Bjong Wolf, Ph.D., F. ASME, president, State 
      University of New York, Institute of Technology at Utica/
      Rome.......................................................    74
        Prepared statement of....................................    76
                              ----------                              
Hearing held on April 21, 2011...................................    93

Statement of Members:
    DesJarlais, Hon. Scott, a Representative in Congress from the 
      State of Tennessee.........................................    95
        Prepared statement of....................................    96
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................    93
        Prepared statement of....................................    94
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce, prepared statement of.........   156

Statement of Witnesses:
    Brown, Dr. Ted, president, Martin Methodist College..........   109
        Prepared statement of....................................   110
    Coakley, James, president, Nashville Auto-Diesel College.....   111
        Prepared statement of....................................   113
    Dickey, Hon. Dean, Mayor, City of Columbia...................   123
        Prepared statement of....................................   125
    Marlow, Susan, president and CEO, Smart Data Strategies......   126
        Prepared statement of....................................   129
    McKeel, Jan, executive director, South Central Tennessee 
      Workforce Alliance.........................................   138
        Prepared statement of....................................   140
    Prater, Margaret W., executive director, Dyersburg State 
      Community College--Northwest Tennessee Workforce Board.....   142
        Prepared statement of....................................   144
    Smith, Janet F., president, Columbia State Community College.    97
        Prepared statement of....................................    99
                              ----------                              
Hearing held on August 16, 2011..................................   159

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training, prepared statement of....   164
    Gowdy, Hon. Trey, a Representative in Congress from the State 
      of South Carolina..........................................   161
        Prepared statement of....................................   163
    Wilson, Hon. Joe, a Representative in Congress from the State 
      of South Carolina..........................................   159
        Prepared statement of....................................   161

Statement of Witnesses:
    Barker, James F., president, Clemson University..............   191
        Prepared statement of....................................   193
    Eikenbusch, Werner, manager, associate development and 
      training, BMW..............................................   169
        Prepared statement of....................................   171
    Harmon, Laura, project director, Greenville Works............   173
        Prepared statement of....................................   175
    Hickman, Amy, campus president, ECPI Greenville, South 
      Carolina Campus............................................   206
        Prepared statement of....................................   207
    Miller, Dr. Keith, president, Greenville Technical College...   202
        Prepared statement of....................................   204
    Moore, Tom, chancellor, USC Upstate..........................   196
        Prepared statement of....................................   198
    Thames, Brenda J., Ed.D., vice president--academic 
      development, Greenville Hospital System, University Medical 
      Center.....................................................   178
        Prepared statement of....................................   180
    White, Hon. Knox, Mayor, City of Greenville..................   166
        Prepared statement of....................................   168


                         REVIVING OUR ECONOMY:
                    THE ROLE OF HIGHER EDUCATION IN



                       JOB GROWTH AND DEVELOPMENT

                              ----------                              


                         Monday, March 21, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:00 a.m., in the 
Henry Student Center Ballroom of Wilkes University, Hon. John 
Kline [chairman of the committee] presiding.
    Members present: Representatives Kline and Barletta.
    Staff present: Casey Buboltz, Coalitions and Member 
Services Coordinator; Jimmy Hopper, Legislative Assistant; Amy 
Raaf Jones, Education Policy Counsel and Senior Advisor; 
Barrett Karr, Staff Director; and Brian Newell, Press 
Secretary--Workforce.
    Chairman Kline. Committee will come to order. Well, good 
morning. Welcome to our first field hearing of the 112th 
Congress. It is good to be here in Wilkes-Barre, Pennsylvania, 
my home State. I was born down the road here in Allentown, 
Pennsylvania. I was saying the other day, in doing an 
interview, that I am surely the only man in Minnesota whose 
favorite dessert is shoofly pie. In fact, I am one of the few 
people in Minnesota who knows what shoofly pie is.
    Anyway, thank you all for coming. A special thanks to our 
two panels of witnesses. We appreciate you taking the time to 
join us today, and we look forward to your testimony.
    Our Nation faces many challenges today. With unemployment 
still hovering around 9 percent and more than 13 million people 
out of work, the American people have made jobs their number 
one priority. Immediate solutions are required, but we must 
also look to the future to insure tomorrow's workers can lead 
in a global economy and are prepared to weather future economic 
downturns.
    Once you scratch beneath the surface, you discover 
education is a jobs issue. It is no secret--our current 
education system is failing. We all know the statistics of high 
school and college dropouts and test scores that leave students 
unprepared to tackle the challenges they will confront both in 
the classroom and the workplace.
    As we work to improve the Nation's education system and 
foster a growing economy, it is more important than ever to 
hear from folks on the ground about the challenges and 
opportunities they see in our schools and workforce. That is 
why we are here today. We want to learn about the policies that 
may be standing in the way of job creation right here in 
Wilkes-Barre. We want to hear your thoughts on encouraging 
academic success in our classrooms and get your ideas on how we 
can work together on the local, state, and federal levels to 
reinvigorate the American spirit of innovation and prepare the 
students of today to succeed in the workforce of tomorrow.
    Again, we are grateful to our panels for participating in 
today's hearing, and I am looking forward to getting this 
discussion underway. I also want to thank my committee 
colleague, Lou Barletta, for his gracious invitation to hold a 
field hearing here in his district. And without objection, I 
now yield to him for his opening remarks.
    [The statement of Mr. Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    Good morning, and welcome to our first field hearing of the 112th 
Congress. It is good to be here in Wilkes-Barre (WILKS BERRY), 
Pennsylvania with Representative Barletta. Thank you all for coming, 
and special thanks to our two panels of witnesses. We appreciate you 
taking the time to join us today, and we look forward to your 
testimony.
    Our nation faces many challenges today. With unemployment still 
hovering around 9 percent and more than 13 million out of work, the 
American people have made jobs their number one priority. Immediate 
solutions are required, but we must also look to the future to ensure 
tomorrow's workers can lead in a global economy and are prepared to 
weather future economic downturns.
    When you scratch beneath the surface, you discover education is a 
jobs issue. It is no secret our current education system is failing. We 
all know the statistics of high school and college dropouts and test 
scores that leave students unprepared to tackle the challenges they 
will confront both in the classroom and in the workplace.
    As we work to improve the nation's education system and foster a 
growing economy, it is more important than ever to hear from folks on 
the ground about the challenges and opportunities they see in our 
schools and workforce. That's why we're here today.
    We want to learn about the policies that may be standing in the way 
of job creation, right here in Wilkes-Barre (WILKS BERRY). We want to 
hear your thoughts on encouraging academic success in our classrooms, 
and get your ideas on how we can work together--on the local, state, 
and federal levels--to reinvigorate the American spirit of innovation 
and prepare the students of today to succeed in the workforce of 
tomorrow.
    This is Mr. Barletta's show here today, so I want to turn it over 
to him for his opening remarks. Again, we are grateful to our panels 
for participating in today's hearing, and I'm looking forward to 
getting this discussion underway.
                                 ______
                                 
    Mr. Barletta. Thank you, Chairman Kline. And we wanted to 
give you a Minnesota welcome. Again, I want to thank you for 
bringing the Committee on Education and the Workforce to 
Wilkes-Barre and for holding this important hearing today. I 
always appreciate the opportunity to hear from leading voices 
in our local community, and I am thrilled that Chairman Kline 
can share in this experience with us.
    The committee has assembled an extraordinary panel of 
witnesses from our community's business and higher education 
sectors, and I can assure you, Chairman Kline, that you will 
leave here today with a very clear picture of how Northeast 
Pennsylvania is taking strides to reviving our economy through 
higher-quality higher education.
    The fragile state of the economy remains a top concern for 
many in Pennsylvania, and the people who reside in Northeast 
Pennsylvania understand better than most the difficulties we 
still face as we struggle with an unemployment rate of 9.1 
percent, the highest level of unemployment in the State and 
higher than the current national average.
    After years of tough economic times, it is clear that we 
need smart solutions to get our economy moving again and people 
back to work. That is why we are here today. There is often 
more common sense on the corner of Main Street, America than in 
all the halls of Congress. Listening to the concerns and ideas 
of the people we are elected to serve is a good place to begin 
putting the economy back on track.
    We all must start with getting our fiscal house in order, 
here at home and in Washington, D.C. For far too long, 
governments have overtaxed, overspent, and over-borrowed and 
the time to address this crisis is long overdue. It is forcing 
entrepreneurs to the sidelines, undermining competence in the 
economy, and ultimately destroying jobs. We have to make hard 
but responsible choices to reign in government spending and 
ease the burden being placed on our children.
    I have been a resident of Northeast Pennsylvania my whole 
life. I lived the dream of raising my children here and I am 
thankful that I get to see my grandson, Gabriel Lewis, raised 
here as well. I know that it is a dream many Pennsylvanians 
share. We have faced some pretty difficult challenges. But I am 
confident that the people of this great State will lead us back 
to prosperity.
    Critical to that effort are our institutions of higher 
learning. They help ensure that students and workers have the 
tools they need to succeed in the workplace. Data from the 
United States Department of Labor documents the close 
relationship between higher education and employment. Today, 
workers with a high school diploma have a nearly one-in-ten 
chance of being unemployed while their colleagues with a 
college degree have only a 4.3 percent chance of being 
unemployed.
    Schools like Wilkes University, Empire Beauty School, 
Lackawanna College, and Luzerne County Community College offer 
diverse training and knowledge that individuals need to compete 
and succeed in the workforce. Business leaders such as Diamond 
Manufacturing understand firsthand the importance of locating 
workers with various skills that can be applied to a wide range 
of jobs. Business leaders, local officials, and institutions of 
higher learning all play a leading role in shaping the success 
of our economy.
    The people of this community and great State have a great 
deal to share with this committee. They will ultimately lead 
our economy out of these tough times. I look forward to hearing 
their thoughts and ideas and to ensuring policies in Washington 
do not stand in their way. Thank you.
    [The statement of Mr. Barletta follows:]

 Prepared Statement of Hon. Lou Barletta, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Kline, for bringing the Committee on Education 
and the Workforce to Wilkes-Barre and for holding this important 
hearing today. I always appreciate the opportunity to hear from leading 
voices in our local community, and I am thrilled that Chairman Kline 
can share in this experience. The Committee has assembled an 
extraordinary panel of witnesses from our community's business and 
higher education sectors, and I can assure you, Chairman Kline, that 
you will leave here today with a very clear picture of how Northeast, 
Pennsylvania is taking strides to revive our economy through quality 
higher education.
    The fragile state of the economy remains a top concern for many in 
Pennsylvania, and the people who reside in Northeast, Pennsylvania 
understand better than most the difficulties we still face as we 
struggle with an unemployment rate of 9.1 percent--the highest level of 
unemployment in the state and higher than the current national average.
    After years of tough economic times, it is clear we need smart 
solutions to get our economy moving again and people back to work. That 
is why we are here today. There is often more common sense on the 
corner of Main Street America than in all the halls of Congress. 
Listening to the concerns and ideas of the people we are elected to 
serve is a good place to begin putting the economy back on track.
    We also must start with getting our fiscal house in order, here at 
home and in Washington D.C. For far too long, governments have over 
taxed, over spent, and over borrowed, and the time to address this 
crisis is long overdue. It is forcing entrepreneurs to the sidelines, 
undermining confidence in the economy, and ultimately destroying jobs. 
We have to make hard but responsible choices to rein in government 
spending and ease the burden being placed on our children.
    I have been a resident of Northeast, Pennsylvania my whole life. I 
lived the dream of raising my children here, and I'm thankful that I 
get to see my grandson, Gabriel Louis, raised here as well. I know that 
is a dream many Pennsylvanians share. We face some pretty difficult 
challenges, but I am confident the people of this great state will lead 
us back to prosperity.
    Critical to that effort are our institutions of higher learning. 
They help ensure that students and workers have the tools they need to 
succeed in the workplace. Data from the U.S. Department of Labor 
documents the close relationship between higher education and 
employment. Today, workers with a high school diploma have a nearly one 
in 10 chance of being unemployed, while their colleagues with a college 
degree have only a 4.3 percent chance of being unemployed.
    Schools like Wilkes University, Empire Beauty School, and 
Lackawanna College offer diverse training and knowledge that 
individuals need to compete and succeed in the workforce. Business 
leaders such as Diamond Manufacturing understand firsthand the 
importance of locating workers with various skills that can be applied 
to a wide range of jobs. Business leaders, local officials, and 
institutions of higher learning all play a leading role in shaping the 
success of our economy.
    The people of this community and great state have a great deal to 
share with this committee. They will ultimately lead our economy out of 
these tough times. I look forward to hearing their thoughts and ideas, 
and to ensuring policies in Washington do not stand in their way.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
Committee Rule 7C, all committee members will be permitted to 
submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record, and other extraneous material referenced during the 
hearing to be submitted for the official period record.
    And now it is my pleasure to introduce our first panel. We 
do have two panels for today's hearing. The first panel, we 
have Mr. James Perry, who serves as the president of the 
Hazleton City Council. He has served the Bloomsburg Area School 
District for 39 years, 32 years of volunteer chemistry teacher, 
and 7 years as a science department chair. Mr. Perry has also 
been a mentor and co-operated teacher with the Department of 
Secondary Education of Bloomsburg University for 23 years. He 
previously served as an assistant varsity swim coach with the 
Hazleton Area High School, a supervisor for the Hazleton City 
Recreation Department, and treasurer of the Hazleton Parking 
Authority.
    Mr. Jeffrey Alesson is the vice president of Strategic 
Planning and Quality Assurance for Diamond Manufacturing 
Company, the largest perforated company in the United States. 
Mr. Alesson graduated from Wilkes University with a bachelor of 
science degree in engineering management and from Marywood 
University with a master's in business and industrial 
management. Welcome to you both.
    As we discussed earlier, there is a little light box there. 
Amy will turn on the green light when you start your testimony 
and will be on for 4 minutes and then it will turn yellow for a 
minute or so and then turn red. And we would look for you to 
try to wrap up your testimony shortly after the red light comes 
on.
    Mr. Perry, you are recognized, please.

              STATEMENT OF JAMES PERRY, PRESIDENT,
                     HAZELTON CITY COUNCIL

    Mr. Perry. Thank you. I would like to thank the Committee 
on Education and the Workforce for allowing me to offer 
testimony on the role of higher education and job growth and 
development. I am especially thankful to Bloomsburg Area School 
District for enabling me to be here today. As Hazleton City 
Council president and educator for over 30 years, I believe I 
have a unique perspective to offer the committee with regards 
to community education and job growth.
    As you are aware, our city, like most cities, is struggling 
with lost revenue, high unemployment, limited resources from 
the state and federal government. We are the victims of 
stimulus policies not benefitting our city and reckless 
spending that has fallen on the backs of working-class families 
like those in Hazleton, Bloomsburg, and other municipalities. 
Our city has seen an increase in population due mainly to an 
influx in immigrants, which have led to an increase in violent 
crimes, causing a strain on our police department and an 
unending burden on our citizens and our city budget. Our school 
district and hospitals are all burdened with increased expenses 
and limited resources as a result of our federal government 
passing the buck to the States that have passed it on to the 
school districts and communities like ours and that buck is 
mere pennies now.
    From a city council perspective, we need to stimulate our 
local economy, and that only happens when we have skilled jobs. 
We would like to see an increase in funding to be able to train 
and retrain our unemployed, especially those that need to learn 
English as a second language in addition to learning a skill. 
An example is a partnership between the Workforce Investment 
Board, CareerLink, who provided the grant, Luzerne County 
Community College, and the Manufacturers Employees Association, 
who provided the training, which resulted in a small graduating 
class that was able to be interviewed and offered jobs. This 
type of program must continue to be funded and expanded because 
it benefits the workforce as well as the community.
    And a way to improve our economy is to allow our local 
businesses to be able to grow and develop without the many 
layers of regulations from the federal, state, and local 
levels. One local businessman told me that we are regulating 
ourselves out of business. He felt it was easier to provide 
rental space properties than start a company and employ 
workers.
    From an educational viewpoint, we would like to see a 
greater focus on more efficient methods for colleges to adapt 
curriculum to new and emerging job fields in the natural gas 
industry and cyber technology industries. In talking to 
students at all levels, faculty, administration, and parents, 
there is a common thread that is evident in discussing local 
communities' needs from our local colleges and universities, 
and that is a lack of communication and a need for more 
collaboration. We need a triangle approach between local 
communities, school districts, and higher education to allow 
all of us to meet the needs of the students of all learning 
abilities in an ever-changing world.
    Many schools have collaborated with local universities and 
colleges, which allows select students to take college courses 
that reduce rates for the State in paying a portion of that 
cost. At the present time, this dual role is not being funded. 
Collaboration is very inconsistent from high school to 
colleges. The career education and work is the 13th academic 
standard required by all schools in the State of Pennsylvania. 
It needs to be a focal point for all schools because we need to 
prepare all of our students to enter the workforce directly 
from high school or after earning a degree. We need more 
cooperative education opportunities for all students at high 
school levels, which will allow students to experience 
internships in a business and work environment while they are 
in school, earning both educational credit and a paycheck.
    The recommendation from one administrator is to fund a 
career-in-the-workforce program for school districts, which 
would especially benefit those students who may not be going to 
college or are not enrolled in a career or vocational school. 
The student would earn academically an opportunity to work with 
industry volunteers in a job-shadowing project. It would be a 
benefit to everyone at all levels.
    At our school, as part of the school district's required 
graduation project, all the 10th grade class is exposed to a 
career day at Penn College of Technology where they explore all 
the careers that a technical school has to offer. Each student 
is to research three careers thoroughly, including a job-shadow 
day, along with a formal presentation in front of family and 
friends. As one recent graduate told me, because of his 
exposure, he knew that he wanted to pursue a career as an 
aeronautical engineer before he graduated.
    In discussion with students and staff administration, the 
topic always focuses on the problem that has an impact on our 
ability to prepare students to be lifelong learners, and that 
is the enormous amount of standardized assessment that all the 
students have to endure. Students from grades 3 to 12 are 
tested for nearly a month every year. Preparation time is a 
yearlong challenge. We want to be held accountable for our 
students, but we are losing valuable teaching time and the 
amount of stress and anxiety in all school districts is 
overwhelming.
    In closing, students need direction and purpose to meet the 
challenges that lie ahead. It is our job to make sure they are 
prepared academically and have the skills to meet the needs of 
a rapidly changing job market. There is very little room for 
error between our communities and schools and institutions of 
higher learning when it comes to our students. A skilled, 
prepared workforce will have a positive impact on our entire 
community.
    [The statement of Mr. Perry follows:]

   Prepared Statement of Jim Perry, President, Hazleton City Council

    I would like to thank the Committee on Education and the Workforce 
for allowing me to offer testimony on the role of higher education in 
job growth and development. I am especially thankful to the Bloomsburg 
Area School District for enabling to be here today.
    As a Hazleton City Council President and an educator for over 
thirty years I believe that I have a unique perspective to offer this 
committee with regards to communities, education, and job growth.
    As you are aware our city like most cities is struggling with lost 
revenue, high unemployment and limited resources from the state and 
federal government. We are the victims of a stimulus policy that did 
not benefit our city and reckless spending that has fallen on the backs 
of working class families like those in Hazleton, Bloomsburg, and other 
local municipalities. Our city has seen an increase in population due 
mainly to an influx of immigrants which have lead to an increase in 
violent crimes causing a strain on our police department and an 
unending burden on our citizens and our city budget. Our school 
district and hospital are all burdened with increase expenses and 
limited resources. The result is that our federal government is passing 
the buck to the states that have passed it on to the school districts 
and communities like ours. That buck is mere pennies now.
    From a city council perspective we need to stimulate our local 
economy and that only happens when we have skilled jobs. We would like 
to see an increase in funding to be able to train or re-train the 
unemployed, especially those that need to learn English as a second 
language in addition to learning a skill. An example is the partnership 
between the Workforce Investment Board, through our Career link which 
provided the grant, Luzerne county Community College and the 
Manufacturers and Employers Association who provided the training. The 
result was a small graduating class that was able to be interviewed and 
offered jobs. This type of program must continue to be funded and 
expanded because it benefits the workforce as well as the community. 
Another way to improve our economy is to allow our local businesses to 
be able to grow and develop without the many layers of regulations from 
the federal, state, and local levels. One local businessman told me 
that we are regulating ourselves out of business; he felt it was easier 
to provide rental space properties than start a company and employ 
workers.
    From an educational view point we would like to see a greater focus 
on more efficient methods for colleges to adapt curriculum to new and 
emerging job field such as the natural gas industry and cyber 
technology industries. In talking to students at all levels, faculty, 
administration, and parents there is a common thread that is evident 
when discussing local communities needs from our local colleges and 
universities and that is a lack of communication and a need for more 
collaboration. We need a triangle approach between local communities, 
school districts, and higher education. This will allow all of us to 
meet the needs of the students of all learning abilities in an ever 
changing world. Many schools have collaboration with local universities 
and colleges which allows select students to take college courses at 
reduced rates with the state paying a portion of the cost. At the 
present time this duel enrollment program is not being funded. The 
collaboration is very inconsistent from high schools to colleges.
    The Career Education and Work is the thirteenth Academic Standard 
required by all schools in the State of Pennsylvania. This needs to be 
a focal point for all school because we need to prepare all students to 
enter the workforce directly from high school or after earning a 
degree. We need more Cooperative Education opportunities for all 
students at the high school level, which will allow students to 
experience internships in the business and work environment while they 
are in school, earning both educational credit and a paycheck. A 
recommendation from one administrator is to fund a career in the 
workforce program for school districts which would especially benefit 
those students who may not be going to college or are not enrolled in a 
career or vocational technical school. A student would earn 
academically an opportunity to work with industry volunteers on a job 
shadowing project that would be a benefit to everyone at all levels.
    At our High school, as part of a student's required graduation 
project all of the 10th grade class is exposed to a career day at Penn 
College of Technology where they explore all of the careers that a 
technical school has to offer. Each student is to research 3 careers 
thoroughly including a job shadow day along with a formal presentation 
in front of family and friends. As one recent graduate told me, because 
of this exposure he knew that he wanted to pursue a career as an 
aeronautical engineer before he graduated.
    In my discussion with students, staff, and administration the topic 
always focuses on a problem that has an impact on our ability to 
prepare students to be lifelong learners, that is the enormous amount 
of standardized assessments that all of student have to endure. 
Students from grade 3 through 11 are tested for nearly a month every 
year. The preparation time is a yearlong challenge. We want to be held 
accountable for our students but we are losing valuable teaching time 
and the amount of stress and anxiety on all school districts is 
overwhelming.
    In closing students need direction and purpose to meet the 
challenge that lie ahead. It is our job to make sure they are prepared 
academically and have the skills to meet the needs of rapidly changing 
job market. There is very little room for error between our 
communities, schools and institutes of higher learning when it comes to 
our students. A skilled and prepared workforce will have a positive 
impact on our entire community.

                                 ______
                                 
    Chairman Kline. Thank you, Mr. Perry. I need to explain to 
both witnesses that somewhere between this spot and that light 
we have tripped on a wire. But you should know that you 
finished with 20 seconds to spare. So you can pretty much 
disregard that. Amy will hold up a little sign when you get 
down to 1 minute to go to just kind of let you know where we 
are. I am assured that it was working perfectly moments before 
I dropped the gavel, but I don't know, somewhere here between 
the two. Mr. Alesson, you are recognized.

   STATEMENT OF JEFFREY ALESSON, VICE PRESIDENT OF STRATEGIC 
     PLANNING AND QUALITY ASSURANCE, DIAMOND MANUFACTURING

    Mr. Alesson. Let me start by acknowledging how honored I am 
to be asked to offer testimony before this Committee on 
Education and the Workforce. I am Jeff Alesson, Vice President 
of Strategic Planning for Diamond Manufacturing Company. Along 
with performing the strategic planning duties at Diamond, my 
current position allows me to lead the dependable punch and 
fabricating divisions, as well as the engineering, quality, 
production control, and shipping and receiving departments.
    Diamond Manufacturing Company is a manufacturer of 
specialty engineered perforated materials with locations in 
Wyoming, Pennsylvania; Michigan City, Indiana; Cedar Hill, 
Texas; and Charlotte, North Carolina. The facility in Wyoming 
houses 125,000 square foot manufacturing facility, as well as 
45,000 square foot corporate offices. The Michigan City and 
Cedar Hill facilities add a combined 180,000 square foot of 
additional manufacturing. We also have 20,000 square foot 
distribution warehouse in Charlotte.
    Diamond was founded in 1915 to service the coal industry. 
Today, it serves in excess of 25 different industry groups. 
Diamond has been a pioneer in developing new applications and 
expanding into markets such as power generation, petrochemical 
processing, agricultural processing, and highway sound 
barriers. It also serves as the automotive appliance and 
computer markets.
    2011 combined sales will be in excess of 100 million this 
year and growing. Diamond has experienced continuous growth 
during the last several years. The key to maintaining this 
growth is our ability to react quickly to potential 
opportunities while having documented yet flexible systems in 
place to maintain organizational stability. We have in recent 
years hired a number of graduates in both the technical and 
non-technical areas to sustain this growth. We also heavily 
utilized the local universities' internship programs with three 
currently on staff. Current growth will facilitate the hiring 
of personnel both at the local facility, as well as our branch 
plants.
    I agree that higher education plays an important role in 
job growth and development. While it is important that today's 
graduates be technically competent in their field, I feel it is 
equally important that they be competent in the areas of 
communication and problem-solving. Companies in today's 
competitive environment live or die by their ability to 
communicate effectively. Efficient communication is critical 
both externally and, just as importantly, internally. We need 
the skills to be able to understand our customers' requirements 
and convey them accurately within the organization. Technology 
does allow us to communicate faster than we ever thought 
possible, not only the speed at which we can communicate, but 
the sheer amount of information that can be transferring in a 
millisecond is staggering.
    But all these different means and increased speed have not 
necessarily allowed us to be more effective. It has not 
increased our ability to listen or to understand. One of the 
hardest skills to master is the art of listening and truly 
understanding what is being said. This often requires the 
ability to read between the lines. In doing so, this will help 
decrease any misperceptions and enhance true effective 
communication. Many times there is a psychology behind what is 
being said. It is important to understand a person's viewpoint. 
And the better we understand this, the better we can 
communicate.
    In addition to effective communication, problem-solving 
skills allow for efficient utilization of a company's 
resources. Today's companies are required to be able to do more 
with less to remain competitive. We are always searching for 
continuous improvement in all our processes. Effective problem-
solving skills allow companies to capitalize on new challenges 
as they are presented. Having employees with an understanding 
of how companies function and interact internally aids in the 
ability to problem-solve. Having the skills to find the root 
cause of a problem goes a long way in finding the solution or 
potential improvement. The goal is to look at a company as a 
whole, not just a sum of the individual parts. In doing so, we 
have the opportunity to become a lean and competitive 
organization on the global stage.
    In conclusion, I feel the key to job growth and development 
is the company's ability to react to ever-changing paradigms. 
Our employees need the skills to react quickly and accurately. 
Effective communication and problem-solving skills are powerful 
tools to have in one's toolbox.
    [The statement of Mr. Alesson follows:]

  Prepared Statement of Jeff T. Alesson, Vice President of Strategic 
                  Planning, Diamond Manufacturing Co.

    Let me start by acknowledging how honored I am to be asked to offer 
testimony before this Committee on Education and the Workforce. I am 
Jeff Alesson, Vice President of Strategic Planning for Diamond 
Manufacturing Company. Along with performing the strategic planning 
duties at Diamond, my current position allows me to lead the Dependable 
Punch and Fabricating Divisions as well as the Engineering, Quality, 
Production Control and Shipping/Receiving Departments.
    Diamond Manufacturing Company is a manufacturer of specially 
engineered perforated materials with locations in Wyoming 
Pennsylvania., Michigan City Indiana., Cedar Hill Texas and Charlotte 
North Carolina. The facility in Wyoming houses a 125,000 square foot 
manufacturing facility as well as the 40,000 square foot corporate 
offices. The Michigan City and Cedar Hill facilities add a combined 
180,000 square feet of manufacturing. We also have a 20,000 square foot 
distribution warehouse in Charlotte. Diamond was founded in 1915 to 
service the coal industry. Today it serves in excess of 25 different 
industry groups. Diamond has been a pioneer in developing new 
applications and expanding into markets such as power generation, 
petrochemical processing, agriculture processing and highway sound 
barriers. It also serves the automotive, appliance and computer 
markets. 2011 combined sales will be in excess of 100 million dollars 
and growing.
    Diamond has experienced continuous growth during the last several 
years. The key to maintaining this growth is our ability to react 
quickly to potential opportunities while having documented, yet 
flexible systems in place to maintain organizational stability. We have 
in recent years hired a number of graduates in both the technical and 
nontechnical areas to sustain this growth. We also heavily utilize the 
local university internship programs, with three currently on staff. 
Current growth will facilitate the hiring of personnel both at the 
local facility, as well as our branch plants.
    I agree that higher education plays an important role in Job Growth 
and Development. While it is important that today's graduates be 
technically competent in their field, I feel it is equally important 
that they be competent in the areas of communication and problem 
solving.
    Companies in today's competitive environment live or die by their 
ability to communicate effectively. Efficient communication is critical 
both externally and just as importantly, internally. We need the skills 
to be able to understand our customers' requirements and convey them 
accurately within the organization. Technology has allowed us to 
communicate faster than we ever thought possible. Not only the speed at 
which we can communicate but the shear amount of information that can 
be transferred in a millisecond is staggering. But all these different 
means and increased speed have not necessarily allowed us to be more 
effective. It has not increased our ability to listen and to 
understand.
    One of the hardest skills to master is the art of listening and 
truly understanding what is being said, this often requires the ability 
to read between the lines. In doing so this will help decrease any 
misperceptions and enhance true effective communication. Many times 
there is a psychology behind what is being said. It is important to 
understand a person's viewpoint. The better we understand this the 
better we can communicate.
    In addition to effective communication, problem solving skills 
allow for the efficient utilization of a company's resources. Today's 
companies are required to be able to do more with less to remain 
competitive. We are always searching for continuous improvement in all 
our processes. Effective problem solving skills allow companies to 
capitalize on new challenges as they are presented.
    Having employees with an understanding of how companies function 
and interact internally aids in the ability to problem solve. Having 
the skills to find the root cause of a problem goes a long way in 
finding a solution or potential improvement. The goal is to look at the 
company as a whole, not just a sum of the individual parts. In doing 
so, we have the opportunity to become a lean and competitive 
organization on the global stage.
    In conclusion, I feel the key to job growth and development is a 
company's ability to react to ever changing paradigms. Our employees 
need the skills to react quickly and accurately. Effective 
communication and problem solving skills are powerful tools to have in 
ones tools boxes.
                                 ______
                                 
    Chairman Kline. Excellent. Thank you very much. We are 
going to now move back and forth, I think. I have got a couple 
of questions I want to ask and then Mr. Barletta will ask a 
couple of questions and so forth. We will try not to let that 
go too long. We can get carried away up here very easily and we 
have another panel of witnesses we would like to hear from.
    I just would like to start, Mr. Alesson, on where you 
finished, and you were talking about how important it is to 
have communications and problem-solving skills. Are the people 
that you are hiring now from 4-year colleges and 2-year 
colleges, do they have those skills?
    Mr. Alesson. To a degree they do. Problem-solving, like an 
engineer that we hired, problem-solving skills are there on a 
technical side. But as far as company-wide, there needs to be 
more of a cross-functionality to problem-solving. And we don't 
see that as much and we stress it, sometimes too quickly, to 
find out what the real problem is. We look at a symptom and say 
we found it when we really haven't. And not only what that 
problem is but how it interacts with all the other departments.
    Chairman Kline. So they are not arriving with those skills 
and you are having to develop that once you have brought them 
on?
    Mr. Alesson. Correct.
    Chairman Kline. I think that is a common occurrence. Mr. 
Perry?
    Mr. Perry. Yes.
    Chairman Kline. You said in your testimony that sometimes 
it seemed like we are regulating ourselves out of business. 
Have you got an example or is that just a sense of----
    Mr. Perry. Yeah, like I said, a businessman I was at a 
dinner with had mentioned that it was just the overlaying 
amount of regulations in terms of being able to start a 
business, layer upon layer, whether it is environmental or 
local or business or employee-related, it would seem to be a 
burden that took a lot of time. It wasn't an easy process. 
Obviously, you want to be regulated, but he thought it was too 
many layers. I can't give you the exact specifics but he just 
felt it was a layering effect.
    Chairman Kline. It seems to be a theme we have heard a lot 
lately. Where I was going to go----
    Mr. Perry. Sure.
    Chairman Kline.--with your line of questioning anyway, but 
since you brought it up, we have heard it again and again. And 
part of the regulatory burden seems to be the regulations that 
are placed on schools. And I hope that we can explore that a 
little bit probably in the next panel--where schools are 
finding that they have got so many rules and so many 
regulations they are adding more and more of a staff just to 
comply with those rules and regulations.
    You also mentioned that the collaboration between high 
schools and colleges wasn't happening.
    Mr. Perry. It is happening but not as much. Well, one of my 
past graduates said he had needed five credits his senior year 
and didn't know what else to do. And it wasn't consistent with 
universities that were close by. Now, that may be--I can't say 
through here, this location. I work in the Bloomsburg District 
with Bloomsburg University. There wasn't a continuous 
collaboration. Maybe one school down the street got more 
connection than the other because of a parent working at the 
school. There was more connection in terms of being able to be 
more intertwined with the district. We don't see it as much as 
we should. We are right in the city with the same university. 
So I think it needs to be more consistent I think is what I am 
seeing.
    I am hearing from parents that others have more 
opportunities than their kids did to utilize the university 
more so. And again, the dual enrollment program where they can 
do both is obviously not going to be funded, or at least on a 
state level. So we want to get them out there to expose them to 
universities as quickly as we can, especially those students at 
a higher end that are able to get out there quicker.
    Chairman Kline. So that they are better prepared when----
    Mr. Perry. Absolutely.
    Chairman Kline.--they go to university.
    Mr. Perry. Yeah. We do have some kids taking college 
courses, and that does happen and there is no question about 
it, but it is not on a consistent basis. That is what I am 
hearing from parents.
    Chairman Kline. Thank you. Mr. Barletta?
    Mr. Barletta. Yeah, thank you, Mr. Chairman. Mr. Alesson, 
do you have any suggestions of how businesses and institutions 
of higher education could better work together?
    Mr. Alesson. We do work with internship programs but it 
would be nice if--like we are right in Wyoming and we never 
have groups over to look at our facility and to really push 
manufacturing. We have had some international students over but 
really not the local colleges. In fact, most people don't even 
know we are there. We are the largest perforator and people go 
wow, you are in Wyoming? Yes. So I think we can work together 
maybe enlighten some of the--not only engineering but other 
disciplines as well of what is here locally.
    Mr. Barletta. Mr. Perry, you possess some unique 
qualifications in the fact that you have worked most of your 
life in the education system and you are now working on a 
municipal level on city council so you are seeing the 
connection between education and employment in a community.
    In Hazleton there is a program that I want to talk about, 
something that I am very proud of and would like to see 
elsewhere. But I want your opinion, Partners in Education.
    Mr. Perry. Yes.
    Mr. Barletta. This is a program where, you know, what we 
hear most often is that we are losing our young people. We 
educate them and they end up going somewhere else to a job and 
they would really like to stay at home, but they can't find 
those opportunities. And with Partners in Education, really 
what it does is we call ``tie.'' It brings to the table local 
industries, the school district, and the students. And it does 
a number of things, and one, it allows the students to see the 
many opportunities that exist right here at home, some that 
they might not be knowledgeable of. It allows local industry to 
talk about basic work skills that are needed for their 
industries. And it brings the school district together to tie 
this up in teaching some of those skills, those basic work 
skills. And it allows industry to almost have a farm system so 
to speak, of possibly having an employee who has some 
experience or knowledge in their industry. Do you think that 
that program, Partners in Education, is successful, is helping 
the Hazleton area, and is something that should maybe be 
explored elsewhere?
    Mr. Perry. I believe so. It is a great opportunity. And I 
think it needs to be expanded to all levels. I mean, again, a 
lot of times it is the hiring student that is able to do that. 
We need the student who may not be going to the college or may 
not be going to a vocational school where he is able to learn a 
skill but is going to go right to the workforce. And I think 
those students need to get that connection early on.
    And like I said, as we do in the 10th grade program, these 
kids are exploring it and not finding out that gee, I don't 
even know what I can do, or getting in college and saying I 
don't want this. I am changing my major so many times. But they 
need to have that idea that maybe this is the place for me. And 
I think that is the partnership we are looking for on a much 
larger scale. And I think we need to get the communities and 
the businesses together to meet the needs of all those kids. 
And I think it is going to be a great program if we could 
expand that. It is not everywhere I believe.
    Mr. Barletta. All right. That is true. How do local 
institutions of higher education play an important role in 
fostering that job growth and job creation?
    Mr. Perry. That is the key. We have prepared them to go on 
but I think we need to focus more on the careers that are out 
there so that they understand that opportunity. And like I 
said, in our district when those students get exposure and it 
is a fantastic program at the 10th grade level. So they are 
constantly exploring careers way back at that level and not 
when they are a senior. So they are learning to say hey, this 
is a career I like or I don't like this one. So they are 
exploring it and they are interviewing people; they are going 
out in the community. So I think that is a benefit that we 
would like to promote and I am sure all the districts should be 
doing something in that way.
    And like I said, we need more career guidance. And I have 
heard from even graduates who say, well, there is career 
development in the university but not everybody takes advantage 
of it. So it is almost something that needs to be part of their 
curriculum, need to get in there, need to find out what is 
necessary and not graduating people with degrees that they are 
not employable.
    Mr. Barletta. Thank you, Mr. Chairman.
    Chairman Kline. And thank you. Mr. Perry----
    Mr. Perry. Yes.
    Chairman Kline.--I want to explore this 10th grade thing--
--
    Mr. Perry. Okay.
    Chairman Kline.--a little bit here. I am a little bit 
confused. In the 10th grade----
    Mr. Perry. Yes.
    Chairman Kline.--there is a career day.
    Mr. Perry. Basically, as part of their graduation projects 
with the English department, they researched careers. They do 
that as part of their program and they research, right. And 
they research the programs. We take the whole student body out 
to the university like Penn College, which is a technical 
school for Penn State. And they explore and they put on 
displays of all the different careers that are possible.
    Chairman Kline. That is one day?
    Mr. Perry. Right. It is a one-day opportunity. And then 
after that they would then prepare a presentation and actually 
go out and do a day where they basically job-shadow someone in 
the field they have chosen. So again, every student in 10th 
grade goes out in the community and then gets exposure to that 
career. So we found that that is very beneficial to their, 
again, liking or disliking or following in that particular 
career.
    Chairman Kline. So I think I am getting----
    Mr. Perry. Yeah.
    Chairman Kline.--that it is career day where they go out to 
the college----
    Mr. Perry. Yes.
    Chairman Kline.--or school and they are exposed to what----
    Mr. Perry. Right.
    Chairman Kline.--career possibilities. But this is an 
ongoing project where they are actually----
    Mr. Perry. Yes.
    Chairman Kline.--shadowing somebody, perhaps writing a 
paper----
    Mr. Perry. Yes, they do that. That is in 10th grade. Right. 
And it is a part of the graduation project. They can't graduate 
until they complete that project. So it is a requirement from 
every--well, every student eventually has to go through that 
program.
    Chairman Kline. It is an interesting way to look at this. I 
mean, a lot of times when we are looking at higher education, 
you know, we are looking for what is the connection between our 
higher education and the job force.
    Mr. Perry. Um-hum.
    Chairman Kline. Somebody going out to Diamond 
Manufacturing, and what you are talking about is making a 
connection from high school thinking about their career before 
they to go college or community----
    Mr. Perry. Right.
    Chairman Kline.--college or a career college or something 
like that.
    Mr. Perry. Sure.
    Chairman Kline. Great. Thank you very much.
    Mr. Perry. You are welcome.
    Chairman Kline. Mr. Alesson, you mentioned the intern 
program and I think you said you have right now three interns. 
How do you use those interns? What is the value to them and to 
you?
    Mr. Alesson. We use them on different levels and cross-
functional. On the technical side they are really getting into 
engineering duties. They are setting up drawings. They are 
checking on how things transfer from drawings to actual 
equipment. We try to give them a feeling of the quality aspects 
of it and how our process fits in with the environment. We try 
to give them a well-rounded basis on what we are doing at 
Diamond and what they are doing in school.
    Chairman Kline. Thank you. Mr. Barletta?
    Mr. Barletta. Mr. Alesson, in your testimony you state that 
the key to Diamond Manufacturing's success is the company's 
ability to react to opportunities in the marketplace. Can you 
further explain how Diamond's management and employees are able 
to respond to these opportunities and the significance this has 
on your company's overall success?
    Mr. Alesson. Sure. An example would be we will have a 
customer that will come to us and they may have criteria from 
stocking programs to technical abilities that we actually have 
to perform to make the part to scheduled and to shipping. And 
we find, you know, some of our competitors, they may not try to 
get all five points. They will get four out of the five. We 
push very strongly to figure a way to get them the complete 
package. We may internally many times need to change our 
process to do that but that is where we excel. We look at the 
customer's requirements and basically change ourselves to meet 
those requirements.
    Mr. Barletta. And overall, I know you talked a lot about 
communication and problem-solving and how important it is. As a 
small business owner, I absolutely agree. You know, sometimes 
those entering the workforce may not understand the importance 
of some basic skills like communication and even the importance 
of showing up to work on time and making sure your employer has 
adequate notice of when you are going to be missing work, you 
know, some of those skills we take for granted.
    In your opinion, do you feel those entering the workforce 
are adequately prepared?
    Mr. Alesson. I think on the technical side they are. All 
our recent hires have been technically fine. It is the next 
step that makes them fit into our culture at Diamond. And like 
communication, we stress verbal communication with customers. 
You have to develop a relationship before you switch or start 
texting or emailing and a lot of the younger guys want to, you 
know, oh, I will send him an email. Have you talked to him? No. 
Okay, you don't really know, then, what you need.
    You know, it is okay to email and it is okay to use all the 
rest of the technology to do that, but you can't lose sight of 
the verbal communication and the relationship-building between 
customers and also internally. We are so fast internally of 
scanning something to somebody electronically or emails and a 
lot of times you miss really what is being said or does the 
person really understand what is being asked of them 
internally? And we have made it one of our large strategic 
plans at Diamond is to increase that communication because it 
is so critical.
    Mr. Barletta. Thank you, Mr. Chairman.
    Chairman Kline. Thank you, Mr. Barletta. I think we will 
thank these two witnesses and I mean that sincerely. Thank you 
very much for your testimony and for answering the questions. 
And we will move to the next panel. And we will take a couple 
of minutes to see if we can do some technical repairs here to 
lights and microphones.
    Welcome to the next panel. Before I make introductions, let 
me take some more technical observations if I can. You can see 
we have done some shuffling here. Apparently, our light box 
fell on the floor and may never work again. We will keep track 
of the time up here. You don't need to worry about it too much. 
Amy will hold up a little sign here and if for some reason you 
go on extensively, I will start tapping the gavel as gently as 
I can.
    The smaller microphones in front of you go to the official 
record for the stenographer. And he assures me that all the 
microphones are working there. The two larger microphones I 
will ask you to share them and keep them fairly close to your 
mouth so that we can hear you clearly and others in the room 
can hear you clearly. Okay, I think that ends my administrative 
remarks.
    Now, I am please to introduce our second panel. First, Dr. 
Reynold Verret serves as provost of Wilkes University. And 
thank you very much for letting us join you here today. Prior 
to his tenure at Wilkes, he served as dean and professor of 
chemistry and biochemistry in the Misher College of Arts and 
Sciences at the University of the Sciences in Philadelphia. Dr. 
Verret also served Clark Atlanta University for eight years as 
associate professor, interim chair, and chair of the department 
of chemistry. He currently serves on the Pennsylvania 
Humanities Council and the Studies Sections of the National 
Institute of Health.
    You are bringing back nightmares of organic chemistry, 
Doctor. I am sorry.
    Mr. Verret. I apologize.
    Chairman Kline. I am trying, but it just is the way it is.
    Dr. Raymond Angeli is the president of Lackawanna College, 
having been named to the position December 1994. He had 
previously served on the college's board from 1989 through 
1992. Prior to his appointment, Dr. Angeli served as a 
Pennsylvania Secretary to the Department of Committee Affairs 
under Governor Robert Casey. Before entering public service, 
Mr. Angeli was a career Army officer who obtained rank of 
lieutenant colonel.
    Ms. Joan Seaman relocated to Wilkes-Barre/Scranton area as 
the director of the Wyoming Valley campus in 2001. She 
graduated from the Operators Program from Empire Beauty School 
in 1974 and began working at a local salon in the Hazleton 
area. While employed in the salon, Ms. Seaman enrolled at 
Empire Beauty School's Teachers Program. In 1983 Ms. Seaman 
opened her own salon while she continued to teach. She has now 
been with Empire for almost 35 years. That must be a misprint 
here.
    Mr. Thomas Leary has been president of Luzerne County 
Community College since 2008. He began his career at the 
college 34 years ago as assistant director of admissions. He 
has worked in many administrative capacities at the college, 
including vice president of student development, the position 
he currently holds, along with his presidency. With the 
understanding of the failed light system, Dr. Verret, you are 
recognized.

             STATEMENT OF REYNOLD VERRET, PROVOST,
                       WILKES UNIVERSITY

    Mr. Verret. Good morning. I wish to address the committee 
on how we are preparing young people for the workforce and to 
take leading roles in developing our economy. I also wish to 
discuss the challenges that we must meet as educators. And I am 
speaking from my experience as we discuss as an educator and as 
a researcher in various institutional settings and also with 
very diverse student populations.
    What I would like to say is that Wilkes offers programs in 
a number of areas and Wilkes began as a junior college in 1933 
and eventually became a university 15 years ago. And we have 
five colleges offering programs in a range of areas in the 
arts/sciences, the health disciplines, pharmacy and nursing and 
also engineering and education. Throughout all this we have 
offered programs and studies that lead to specific career 
choices such as nursing and engineering to define careers.
    But the large number of our programs offer a wide range of 
career choice, especially in the arts and sciences and 
engineering, the option that students will be taking. We 
recognize many of our students throughout their lifetimes will 
be taking on many career choices and will be changing careers 
throughout their choices. And we provide them flexibility to 
face that flexible future by giving them a rich undergraduate 
education that gives them that option. And that is also, I 
think, an important piece for our--for the employees who use 
our students as, for example, the representative of Diamond 
Engineering did mention.
    Very importantly, our programs emphasize practice within 
the specific disciplines. For example, our biology majors, it 
is important that they do biology, our communication majors 
practice biology. Just as a pianist must practice the piano and 
not just hear the piano. Our students do this. For example, we 
have a program called Zebra Communications, a student-led 
program, the communications department, that while students 
take on a number of community communications program, important 
programs in the community and get real-life experiences that 
they take into the workplace later. It is very useful to their 
employers.
    We have an advisory board to our engineering division, 
which is composed of leaders of engineering firms throughout 
the area. And one of the things that they have told us is that 
when our students arrive in their workplace as employees, they 
bring with them real engineering skills, and that comes from 
the hands-on experience that they get in the laboratories. One 
of the things that we do have is that we also use that advisory 
board to actually tell us exactly what--are our laboratories 
keeping up to date? Are we putting on the experience that they 
need to have and that we have to continually meet that level of 
communications process in place. And that expertise, as I 
mentioned, is useful to future employers.
    One other thing that I would like to point out is that 
Wilkes and also many institutions like ourselves, a large 
number of our students are the sons and daughters of first-
generation college students. We have a survey that we offer to 
our undergraduates that asks questions, are either parents a 
graduate of a 2-year or 4-year institution? That number, 
roughly 35 percent of our students say no, and I don't think 
Wilkes is unusual in that respect.
    Also on the financial side, roughly about 36 percent of our 
students receive Pell Grants, about 17, 18 percent SEOGs, which 
are indicators of financial need. And that is not changing. And 
it has been like this for quite some time. That is because we 
are an opportunity institution. We began as Bucknell Junior 
College serving the sons and daughters of coalminers, and we 
continue to serve the sons and daughters of this region and 
also the larger geographic area that reaches into New York and 
into New Jersey as well.
    What I would say is that throughout the years, these sons 
and daughters who come to Wilkes have become leaders in 
industry. They have become leaders in science and engineering 
throughout the country. We have the leading engineer at 
Lockheed. We also have the recent editor of JAMA, the Journal 
of the American Medical Association is a graduate of Wilkes. We 
have members of the National Academies who are Wilkes 
graduates, and they have come from these children of Northeast 
Pennsylvania.
    Our purpose, I would say, is to bring all the talent to the 
floor to serve the community, the Nation, and also the world. A 
concern I would raise that has been raised before is the gulf 
between K-through-12 education and higher education. Too many 
of our high school graduates arrive ill-prepared for college. 
As noted journalist Tom Friedman has noted, the world is flat. 
And that flatness is important to us. We sense the urgency to 
educate fully all our young people for a multinational and 
changing world. We cannot afford to adequately educate a subset 
of our population while our international partners try to 
maximize the potential and talent of all their young. Our 
institutions are responding remarkably to enable students to 
succeed.
    However, we must acknowledge that those students who 
arrived at our doors are indeed the remnants, the survivors of 
an inadequate K-through-12 educational system. As a Nation we 
must expect that all high school graduates have acquired the 
skill to communicate effectively, have the quantitative 
ability, understanding of history and culture, that they can 
reflect critically on complex matters, et cetera, et cetera, et 
cetera. That should be the case.
    Another concern isSTEM education in the science and 
technical fields. Wilkes is a destination for science and 
engineering. We have the only ABET-accredited engineering 
program. Our life science program has been recognized by the 
Howard Hughes Medical Institute. Still, we and other American 
educational systems know that we must cultivate the talents of 
STEM education. And the important thing that we must understand 
is that young scientists are not made at college. They don't 
begin there. They are like cellists. Cellists do not begin at 
the age of 20. If I can give you examples where we have asked 
the question in informal settings of chemists and prominent 
ingenious members of the National Academy, how many of you 
thought of becoming scientists at the college level? No hands 
come up. It begins at seven, eight, or nine. So we have to dig 
into the middle schools, into the seventh, eighth grades. We 
are not doing that very well.
    I would quote, two days ago, the headline on NPR was 
``Young Brazilian scientists made their careers in the U.S. Now 
Brazil wants the scientists to come home to build Brazil.'' 
That can be said of China, of India, et cetera, et cetera, et 
cetera. If we do not build our own seed cord, we will lose. And 
that is not just a workforce issue. It has become a national 
security issue.
    Lastly, I want to say something else that I think whether 
it is science and health, graduates of higher education are the 
innovators and develop ideas that translate to businesses and 
sometimes lead to new industries. And we have seen it happen. 
Our institution instills the skills that we need, the truth and 
capacity for discovery, for innovation, for reasoning, for 
planning. It is that precious skill that we have depended upon 
for generations to build this Nation and that we still rely 
upon. And we cannot neglect it. Thank you.
    [The statement of Mr. Verret follows:]

  Prepared Statement of C. Reynold Verret, Provost, Wilkes University

    I am Reynold Verret, the Provost at Wilkes University, in Wilkes-
Barre Pennsylvania, and also Professor of Chemistry and Biochemistry. I 
wish to address the committee on the how we are preparing young people 
for the workforce and to take leading roles in developing our economy 
and to discuss the challenges that we must meet as educators.
    I speak from experience in higher education as an educator, 
researcher, and mentor, having worked with diverse student populations 
in varied institutional settings: on the faculty at Tulane and Clark 
Atlanta University, and as a fellow at MIT and Yale, and more recently 
as dean and provost at University of the Sciences in Philadelphia and 
Wilkes University.
    Founded as Bucknell Junior College in 1933, Wilkes became a four 
year institution soon after the end of World War II and attained 
university status 15 years ago. It now consists of 5 colleges and 
professional schools: Arts, Humanities and Social Sciences; Science and 
Engineering; Business; Pharmacy and Nursing; Education; and Graduate 
and Professional Studies.
    Our professional programs do prepare students for specific careers 
as nurses, pharmacists, engineers. These are much needed. Many of our 
students will likely have several careers over a lifetime. Thus we 
prepare them for a flexible and evolving future. Our major programs, 
especially in the arts, sciences and engineering prepare undergraduates 
for a wide range of career choices and also for postgraduate study, 
e.g. doctoral programs, medical or law school.
    These major programs emphasize practice in the disciplines, through 
undergraduate research and capstone projects. It is important that 
biology majors practice biology and communications majors learn the 
practice of their fields. Many of our students engage in research with 
the faculty and publish their work. The student led Zebra 
Communications takes on a number of important service projects in the 
community and our students graduate with expertise very useful to their 
future employers. The advisory board for our Engineering programs, 
consisting of leaders of engineering firms in the region, has noted 
that our graduates join their firms with concrete knowledge and skill, 
fully prepared to function as engineers. Our students in 
Entrepreneurship conceptualize and operate businesses as an essential 
element of their education, which culminates in senior capstone. Our 
students work on multidisciplinary teams to develop business plans, 
execute projects and compete in the regional Great Valley Business Plan 
Competition.
    We would like to note that many of our students, and those of 
institutions like ourselves, are first generation college students, who 
go on to make remarkable contributions in their fields of endeavor. To 
an annual survey question, whether either parents received a degree 
from either a 2 year or 4 year college, roughly 35% of our young people 
answer NO. Approximately 36% of our students receive PELL grants and 
17% receive SEOG. Wilkes alumni include leaders of industry, nationally 
acclaimed scientists and engineers, and the recent editor of the 
Journal of the American Medical Association. It is our purpose of 
institutions like us to bring all talent to the fore in service of 
community, nation and world.
    Unfortunately, a gulf separates K-12 education and higher 
education. Too many high school graduates are ill prepared to begin 
college work. Aware of the flatness of our world as indicated by Thomas 
Friedman, we also sense the urgency to educate and prepare fully all 
our young people for a wide range of careers and for a multinational 
and changing world. In this flat world, we cannot afford to adequately 
educate a subset of our population while our international partners 
strive to maximize the talents of their young. Our institutions have 
responded with a range of remedial programs that allow students to make 
the transition successfully. However, we must acknowledge that those 
students who arrive at our doors are indeed the remnant, survivors of 
an inadequate K-12 system. As a nation, we must expect that all college 
graduates have acquired the ability to communicate effectively orally 
and in writing, that they have the requisite mathematical ability, that 
they understand history and society, that they can reflect critically 
on complex matters.
    We also seek to respond to adults who must develop new skill and 
knowledge. For the Commonwealth of Pennsylvania, the recent census 
shows that 22.4% of adults over 25 years of age have earned a bachelors 
degree, 2% below the national average. For this county, the rate is 
20%. Thus, it is essential that institutions like ourselves assist 
adults who seek to complete the bachelors degree. This has required 
close work with community colleges in our region to facilitate 
matriculation of students to insure that they complete the 
baccalaureate. We have completed roadmaps for all available majors that 
tell students at our local community college what courses to take to 
smoothly transfer into a program at Wilkes University.
    A current effort in the Department of Education seeks a standard 
definition of the ``credit hour''. It is important that the definition 
have real flexibility. Promoting baccalaureate completion and 
addressing the needs of adult learners requires legitimate ways to 
grant academic credit for valid life experience. We and many 
institutions have established processes for Prior Learning Assessment. 
A rigid definition of the ``credit hour'' would preclude this valuable 
educational approach.
    We are a destination in this region for science and engineering 
students. We are the only ABET accredited engineering program in our 
region. Howard Hughes Medical Institute recently recognized the 
excellence of our Biology and life sciences. Yet, we and American 
education in general must do more to cultivate talent in the STEM 
discipline among our young. In his 2006 State of the Union Address, 
President Bush alerted the nation to a crisis in science education. In 
the 2011 State of the Union, President Obama also stressed that ``The 
quality of our math and science education lags behind many other 
nations''. A third or more of graduate students in the sciences are 
foreign nationals, who do contribute significantly to the nation. The 
shortage of scientifically or technologically educated Americans is not 
only a workforce issue; it is also a national security issue.
    It is imperative that we cultivate and capture the imagination of 
young scientists during their early years, middle school or earlier. 
Like professional cellist, scientist and engineers develop their 
inclinations early. If not nourished they move on. It is essential that 
they encounter passionate and skilled teachers. I recall a gathering of 
professional scientists. In response to the question, ``when did you 
discover your passion for sciences?'' Most replied before their teenage 
years. Very few recalled deciding while in college. At Wilkes, our WEBS 
program (Women in Biological Sciences) brings young women into our 
laboratories for enriching experiences. Our efforts to cultivate the 
pipeline of students seeking the bachelors in the sciences and 
subsequent advanced degrees call for a special efforts to encourage 
gifted science student to enter the teaching profession. This is a 
critical need, here and nationally. NSF programs such as the Noyce 
grants to support tuition for science students seeking teaching 
certification are much needed. We must also support reasonable pathways 
to allow career professional in the STEM areas to earn teaching 
certificates.
    Graduates of higher education contribute to the economy in an 
important way as innovators who renew the economy. Whether in science, 
finance or health, they develop ideas that translate to new businesses, 
in some instances that lead to entirely new industries. Our 
institutions instill in them broad sets of tools and capacities for 
discovery, planning and reasoning that prepare them for the unforeseen 
opportunities of tomorrow. It is this precious imagination and 
resilience that has built the nation thus far and on which we continue 
to rely.
                                 ______
                                 
    Chairman Kline. Thank you very much. Mr. Angeli?

   STATEMENT OF RAYMOND ANGELI, PRESIDENT, LACKAWANNA COLLEGE

    Mr. Angeli. Congressman Kline, Congressman Barletta, thank 
you very much for this opportunity to say a few words today. I 
am really happy to provide comments on how people can take 
advantage of higher education in Northeastern Pennsylvania.
    Just as a summary, though, I would just say a little bit 
about Lackawanna College. We are a private, accredited, 2-year 
social degree award institution with a campus in Scranton and 
we have four satellite centers. We have one in Hazleton, 
Honesdale, the Lake Region--which is Hawley, Pennsylvania--and 
New Milford. We also offer continued education programs, 
certificate programs, and enrichment and workforce training 
programs. In two of our locations in both Scranton and 
Hazleton, we offer the Act 120 Police Program where in the 
Commonwealth of Pennsylvania you have to be training in, you 
know, a 6-month program in order to become a police officer for 
certification.
    At each of these centers we have created a partnership with 
business and industry and with the local municipalities to take 
over buildings and areas that would be vacant if we weren't 
there. So it is a partnership that we have created that works 
very well for us and for the local community.
    Lackawanna was originally established in design to support 
the local industry in 1894, which was the coal industry. We 
provided accountants and secretaries, and that is how we got 
our start. Since then we have really evolved into many, many 
multiple programs that address the needs of the growth sectors 
of the workforce offering students the option of traditional 
education, which either leads to a four-year degree or a 
specialized education focused on a specific vocation. And that 
has been the hallmark of our growth and our success. With an 
enrollment of approximately 2,200 full-time and part-time 
students, we consider our diversity and our agility to respond 
to workforce needs as an educational niche in our region.
    One of the unique aspects of this region is a group of 
college universities called NEPACU, Northeastern Pennsylvania 
Association of College Universities. A group of us got together 
and thought to really send a message down to the high school 
level that says whatever you need to do, whatever you want to 
do in your future in education, one of us has the ability to 
offer that to you. And getting that message down into the high 
school is a very difficult, difficult task. And despite the 
abundance of educational opportunities in Northeastern 
Pennsylvania, only half of the population pursues higher 
education, which really we need to enhance the quality of any 
workforce. So the challenge for NEPACU continues to put forth 
to the community is how do we do this? Now, I know I speak to 
Lackawanna's involvement in training the workforce and not 
because we are unique but because of what the efficient use of 
federal and state aid, combined with the business and 
community's assistance, we have been able to design programs 
quickly and ensure they are affordable.
    Several years ago, along with the joint Chambers of 
Commerce of Wilkes-Barre and Scranton, we surveyed business and 
industry. Business and industry kept saying look at people 
coming out of high school and adult learners coming back in the 
workforce that don't have the skills that we need. So we 
surveyed everybody. I think we surveyed over 50 industries and 
businesses and said what do you want? And the answer was very 
simple in those days. It was, you know, math, reading, English, 
teamwork, and some basic computer skills. So we start to design 
programs to address some of those things.
    And from those early beginnings, we created a joint program 
between Lackawanna College, the Scranton Chamber of Commerce, 
and Johnson College. Using workforce investment dollars, we 
developed a program to train electricians for Tobyhanna Army 
Depot. For the local defense industry we trained people in 
pneumatic control technicians for the skills that were 
basically needed. We subsequently designed programs for 
displaced workers and created an allied program that trains 
faster technicians, stenographers, cardiac sonographers, and 
other technicians.
    Five years ago, in anticipation of the growth of the 
Marcellus Shale industry, we designed a gas field management 
program. Our first class will be graduating this May and all 
the people already have jobs and they have already done 
internships. And we just recently were approved by the 
Department of Education to start a gas compression technology 
program, which will start this fall.
    All of those things we have done to one thing and that is 
to be able to have the agility to be able to respond very 
quickly to the needs of business and industry and to students 
who want to go to college to pursue other avenues of education. 
And the secret to this is the agility to be able to do it and 
to have the federal and state aid which allows us to leverage 
these dollars to put these programs on the street. Thank you.
    [The statement of Mr. Angeli follows:]

 Prepared Statement of Raymond S. Angeli, President, Lackawanna College

    I am pleased to have the opportunity to provide commentary on the 
issue of how constituents can take advantage of what higher education 
has to offer in partnership with workforce initiatives. As president of 
Lackawanna College for over sixteen years, I have witnessed remarkable 
changes in both higher education standards, and those of an evolving 
workforce, both nationally and in the region of Northeastern 
Pennsylvania.
    One of the unique aspects of education in Northeastern Pennsylvania 
has been the establishment of NEPACU (Northeastern Pennsylvania 
Association of Colleges and Universities). NEPACU is the cooperative 
consortium of 16 Colleges and universities that work together to 
provide a wide array of offerings that prepare our students to work in 
the many fields of opportunity that are always evolving. Each of us has 
offerings that vary, including certificate programs, undergraduate 
programs, Master's and Doctoral programs.
    Despite the abundance of educational opportunity available in 
Northeastern Pennsylvania, only approximately half of the local 
population pursues higher education, which irrefutably enhances the 
quality of any workforce. The concept of ``brain drain'' continues to 
be an issue in our region, which basically means that our own students 
seek education elsewhere, while our own colleges and universities 
attract students from other parts of the country--especially 
Southeastern PA, New York and New Jersey--who, in turn generally leave 
our region upon graduation.
    So the one challenge NEPACU continues to put forth to the community 
of Northeast Pennsylvania is: No matter what an individual's interests 
are, one of our colleges or universities can meet his or her 
educational needs, whether one is a new high school graduate or adult 
learner seeking new employment or career change. Of course, I can only 
speak to Lackawanna College's involvement in training the workforce, 
not because we are unique, but because with the efficient use of 
federal and state aid, combined with the business community's 
assistance, we have been able to design programs quickly--and ensure 
they are affordable.
    Several years ago, Lackawanna College, along with the joint 
Chambers of Commerce (Scranton and Wilkes-Barre) surveyed business and 
industry in an attempt to understand what their needs were. In the 
beginning, the equation was simple. Students coming out of high school, 
and later, adult learners returning to the workforce needed to be 
trained up to a simple standard: math--reading--English--teamwork. From 
those early beginnings, a joint program was created between Lackawanna 
College, the Scranton Chamber and Johnson College. Using Workforce 
Investment dollars, we developed a program to train electricians for 
Tobyhanna Depot, and pneumatic control technicians for the many defense 
industries who were desperately short of workers with such skills.
    We subsequently designed special programs for displaced workers, 
and created an Allied Health Program that trains vascular technicians, 
sonographers, cardiac sonographers, surgical technicians, nurse aids 
and even paramedics to meet demands. To illustrate our success, 
consider that 100% of our Nurse Aid students have passed their license 
examinations, with 100% job placement upon completion of the program.
    Most recently as 5 years ago, in anticipation of the growth in the 
Marcellus Shale gas opportunity, we designed a gas field management 
program. Our first class will graduate in May, and each of the 25 
students has already served a paid internship on local drilling rigs. 
We have added a second class, and there is currently a waiting list of 
students for the following year.
    Just this week, Lackawanna College was approved by the Department 
of Education to start a gas compressor technician program that will 
come on line this fall. This is another example of workforce related 
education, born of industry demand.
    And an additional example of our ability to address local workforce 
opportunity is our certificate and Associate's degree programs for 
Entrepreneurship. As the Marcellus shale industry has taken off so 
rapidly, so have entrepreneurial business opportunities in order to 
serve the hundreds of gas and pipeline workers who have flooded the 
region: catering, laundry services, lodging, etc. One component we are 
addressing with this program includes training of veterans, both 
disabled and recently returning from deployment. Lackawanna College has 
received national recognition as a ``Military Friendly College.''
    We have in the past taken advantage of trade relocation dollars, 
Appalachian Regional Control Programs, and Department of Education 
Programs to retrain workers who are trying to improve their skills or 
just need a job.
    Lackawanna College is a private, accredited, two year, Associate's 
degree awarding institution with one main campus in Scranton, and four 
satellite centers in Hazleton, Towanda, New Milford and Lake Region 
(Hawley, PA). We also offer several continuing education programs, 
certificate programs and enrichment and workforce training programs. In 
two of our locations (Scranton and Hazleton), we maintain a Police 
Academy, which offers Act 120 certification and other law enforcement 
training.
    Originally established as a business school designed to support 
local industry in 1894, the college has continued to play a unique role 
in the ever evolving needs of the regional workforce. In the last 
decade, enrollment has more than doubled, largely due to our 
establishment of multiple programs that address the needs of the growth 
sectors of the workforce. Offering students the option of a traditional 
education leading to a four year degree, or a specialized education 
focused on a specific vocation has been the hallmark of our growth and 
success. With an enrollment of approximately 2,200 full and part time 
students, we consider our diversity and agility to respond to workforce 
needs as an educational niche in our region.
    In light of the recent threats on the state and federal levels to 
cut funding to education, I respectfully ask this committee to consider 
colleges similar to Lackawanna College as stellar examples of success 
in education, leading to tangible employment. For the majority of our 
students, Lackawanna College provides the foundation for a continued 
education, whether it is a four year degree or specialization. An 
example: many of our criminal justice students pursue Act 120 
certification upon earning their degree, and vice versa.
    Over 80% of our students are first generation college students. 
Lackawanna College has the most diverse student population in 
Lackawanna County, and with the exception of other regional community 
colleges, it provides the most affordable tuition available. We are 
committed, despite funding cuts in financial aid, to no increase in 
tuition for the 2011-2012 academic year. This comes at considerable 
expense to the college and its employees, but we remain cognizant of 
our mission and commitment to our own constituents--our students.
    Another reason for our growth has been the improvement in our 
transfer credit acceptance, and our establishment of several 
articulation agreements with other colleges and universities, including 
the Pennsylvania State System of Higher Education and Misericordia 
University. We continue to seek additional partnerships, both with 
other colleges and universities, and with regional workforce agencies.
    Higher education is at a palpable crossroad. The value of a two 
year degree is ever increasing for obvious workforce related reasons. 
Partnering with business has always been the strength of two year 
colleges, and particularly in NEPA, the hallmark of Lackawanna College. 
Despite the inevitable funding cuts to education, I implore this 
committee to judge the merits of community and private two year 
colleges, and the effects any cuts will have on the students 
themselves, and their access to viable employment.
    I could go on about how much success we all have had in making 
Northeastern, PA a place where opportunity meets preparation but I 
believe if you speak to the employers of our students, they will tell 
you that what we are doing works effectively. Thank you for the 
opportunity to communicate the importance of Lackawanna College in our 
community.
                                 ______
                                 
    Chairman Kline. Thank you very much. Ms. Seaman?

  STATEMENT OF JOAN SEAMAN, EXECUTIVE DIRECTOR, EMPIRE BEAUTY 
                            SCHOOLS

    Ms. Seaman. Good morning. My name is Joan Seaman, Executive 
Director of the Wyoming Valley Campus of Empire Education Group 
located here in the 11th District in Pennsylvania. I would like 
to thank Representative Barletta, Chairman Kline for hosting 
this important hearing on how higher education can help revive 
the economy through job growth and development.
    Today I would like to share with you my own professional 
journey, the role that Empire Education Group plays in helping 
students achieve those careers, and how the cosmetology school 
industry and professional beauty industry can and should be 
looked upon as a part of a solution to our economy recovery.
    My career and the realization of my passion and dreams was 
made possible because of the choices and access provided to me 
by Empire Beauty School. I graduated from Empire Beauty School 
in 1974, prior to the school being eligible to administer 
federal student financial assistance. Upon graduation, the 
school director helped me find a job in a local salon. While 
working in the salon in 1976, I started to return to Empire, 
which was now accredited, and I enrolled in the teaching 
program with the help of Title IV funding. Upon graduation from 
the teaching program, I was hired as an instructor and worked 
in that capacity for 17 years.
    The help and support I received from Empire also allowed me 
in 1983 to realize my lifelong dream of owning my own salon and 
becoming a small business owner. I am proud to say that I have 
been employed by Empire Beauty School for 35 years and 
presently serve as the executive director at the Wyoming Valley 
Campus. In my capacity as executive director, I am responsible 
for the operations of a total quality school.
    I would submit to you that Empire does an outstanding job 
preparing students that choose to enter the professional beauty 
industry. At Wyoming Valley over half of my students enroll in 
school with prior higher education experience, and sadly 
enough, prior debt. And this is typical of most institutions 
within the cosmetology community as we estimate that 20 to 35 
percent of students enroll with some prior higher education 
indebtedness.
    Wyoming Valley has a success rate that I am proud of and 
they are similar to the success enjoyed across Empire's 102 
campuses located in 23 states. Our graduation rate is 71 
percent. Our past rate on the state-mandated licensing test is 
86 percent and our placement rate is 77 percent.
    The cosmetology school industry is more heavily regulated 
than my peers on this panel. Believe it or not, Empire views 
this additional level of oversight as a positive. It provides 
that the individual has the entry-level skill sets to enter the 
workforce and begin their careers. Armed with this passport, 
cosmetologists have entry into a world of opportunity in areas 
where employment is expected to grow much faster than the 
average for all occupations according to the United States 
Department of Labor.
    Personal appearance workers will grow by 20 percent from 
2008 to 2018, which is much faster than the average of all 
occupations. Employment of hairdressers, hairstylists, and 
cosmetologists will increase by about 20 percent, much faster 
than the average.
    Today I would like to call to your attention three brief 
examples which illustrate key legislative and regulatory 
barriers which limit institutions from effectively enrolling, 
completing, and placing future employees into our Nation's 
workforce: student over-borrowing, misrepresentation, and 
gainful employment.
    In the terms of student over-borrowing, the Higher 
Education Act mandates that all institutions disclose to the 
potential borrower every type and amount to federal student 
financial that they are eligible to receive and prohibits an 
institution from limiting the amount a potential student can 
borrow, even if the student exceeds the funds needed to pay for 
tuition fees. As currently constructed, the law and regulations 
actually push more student aid onto the borrower than is 
necessary, increasing the potential that the student can and 
potentially will over-borrow.
    Secondly, the Department of Education's October 2010 final 
regulations included modifications to the definition of 
misrepresentation, which are illogical, unrealistic, and will 
likely open the door to countless lawsuits based upon the 
expansive terms now contained in this regulation.
    Lastly, what is certain is that the as-yet unpublished 
gainful employment regulation will limit students' access and 
choice. What is unknown is the degree to which the final 
regulation will have unintended negative impact on cosmetology 
schools like mine. One important issue which was not raised at 
last week's gainful employment hearing, which deeply concerns 
my institution, is the fact that the Missouri data used by the 
Department to access the impact of the proposed regulations 
failed to take into consideration any cosmetology school data. 
So neither the Department nor the cosmetology sector can say 
for sure when it passes the impact the final regulations will 
have on our program.
    In conclusion, institutions like Empire have the ability to 
help meet the Nation's local as well as national job demands. 
However, we need targeted relief from federal restrictions and 
unduly harm students and the institutions they chose to attend. 
It is my hope that through your leadership we can and will work 
together to make the necessary changes to the Higher Education 
Act, which will enable Wyoming Valley, all of Empire, and my 
peers on this panel representing traditional higher education 
meet the local and national workforce needs and do our share to 
help bring about economy recovery.
    [The statement of Ms. Seaman follows:]

 Prepared Statement of Joan Seaman, Executive Director, Wyoming Valley 
                     Campus, Empire Education Group

    Good morning. My name is Joan Seaman, Executive Director of the 
Wyoming Valley Campus, of Empire Education Group, located here in the 
11th District of Pennsylvania. I would like to begin my testimony by 
thanking both Representative Lou Barletta and Chairman John Kline for 
hosting this important hearing on how higher education can help revive 
the economy through job growth and development.
    I think we all agree that the path to a stronger and more 
competitive workforce is rooted in access to postsecondary education, 
and the ability and flexibility afforded to our nation's students to 
choose the education and training that best meets their own individual 
personal and professional career goals.
    In the time that I have with you gentleman this morning, I would 
like to describe a little bit about my own professional journey, the 
role that Empire Education plays in helping myself and others achieve 
success in our chosen professions/careers, and how the Cosmetology 
School Industry and Professional Beauty Industry can and should be 
looked upon as a part of the solution to economic recovery and a 
broader more robust workforce.
    And, I would be remiss if I didn't also share with you some of the 
legislative and regulatory barriers which currently exist that limit/
prohibit my institution from helping individuals and their families 
enroll, pursue, and complete their education, which is the ``passport'' 
to a world of ``in-demand'' employment, financial independence, and 
personal/professional growth and success.
My Professional Journey
    My career, and the pursuit of my passion and dreams, were made 
possible because of the choice and access provided to me by Empire 
Beauty Schools.
    I graduated from Empire in 1974 prior to the school being 
accredited and recognized by the U.S. Department of Education as an 
institution eligible to administer Federal Student Financial 
Assistance. Upon graduation, the school director helped me find a job 
in a salon.
    While working in the salon, in 1976 I decided to return to Empire, 
which was now accredited, and I enrolled in the Teacher Training 
Program with the help of Title IV funding. Upon graduation from the 
Teacher Training Program I was hired as an instructor and worked in 
that capacity for 17 years. The help and support I received from Empire 
also allowed me, in 1983, to realize my life long dream of owning my 
own salon and becoming a small business owner as well.
    I am proud to say that I have been employed by Empire for 35 years 
and presently serve as the Executive Director of the Wyoming Valley 
Campus. In my capacity as Executive Director I am responsible for the 
overall quality of the school. That includes delivery of the education, 
graduation and placement, community outreach, operation of the facility 
and anything else that needs to be done to insure our students have a 
positive learning environment.
Empire Education's Role
    I would submit to you that Empire Education, and the broader 
cosmetology school industry as well, do an outstanding job preparing 
students that choose to enter the Professional Beauty Industry.
    At Wyoming Valley, more than half of our students enroll in school 
with previous higher education experience and, sadly enough, prior 
debt--and this is typical of most institutions within the cosmetology 
community, as we estimate that 20-35% of students enroll with some 
prior higher education indebtedness.
    Many of these individuals are making a transition--whether it be 
from the pursuit of an education which was not the best fit for them or 
a new career path based upon the loss of their existing job due to the 
lagging economy--and are finally getting to follow their passion. Many 
also see the Professional Beauty Industry as a pathway to independence 
or are pursuing a dream that they have had since childhood, but either 
could not, or did not pursue previously. The one thing that they all 
have in common. * * * They have all chosen to attend our school and are 
counting on us to help them achieve their goals and dreams.
    And, with some humility, I believe we deliver.
    Wyoming Valley has success rates that I am proud of and they are 
similar to the success enjoyed across Empire's 102 campuses in 23 
states. Our graduation rate is 71%, our pass rate on the State mandated 
licensing test is 86% and our placement rate is 77%. I bring these 
rates to your attention in part because they are part of the metrics 
used by Empire Education Group, our accrediting agency, and other large 
and small cosmetology schools in our sector to determine quality of 
education.
The Cosmetology School & Professional Beauty Industries' Roles
    The cosmetology school industry is more heavily regulated than my 
peers on this panel, and this is true of cosmetology schools in every 
state.
    Not only must cosmetology institutions meet the federal higher 
education laws and regulations, but we must also comply with the state 
regulatory guidelines and licensure testing requirements of our 
Cosmetology and Barbering Boards. These entities quite literally 
establish the length of our programs, the curriculum that is to be 
taught in order to meet the state's licensure requirements, and the 
independently administered, state approved exams our students must pass 
in order to enter the profession.
    Believe it or not, Empire Education and the cosmetology school 
industry view this additional level of oversight as a positive. It 
helps us educate the students and their families on what is expected of 
them in order to achieve entry into the profession. It enables us to 
validate the quality of our programs based upon our outcomes and 
success in preparing individuals for licensure. And, it provides the 
Professional Beauty Industry with a clear, bright-line indication that 
the individual has the entry-level skill sets to enter the workforce, 
and begin their careers.
    Armed with this ``passport'' the cosmetologist has entry into a 
``world'' of opportunity in areas where ``employment is expected to 
grow much faster than the average for all occupations'' according to 
the U.S. Department of Labor's Occupational Outlook Handbook, 2010-
2011.
    As noted under ``Job Outlook'' for Barbers, Cosmetologists, and 
Other Personal Appearance Workers:
    ``Overall employment of barbers, cosmetologists, and other personal 
appearance workers is projected to grow much faster than the average 
for all occupations. Opportunities for entry-level workers should be 
favorable, while job candidates at high-end establishments will face 
keen competition.
    Employment change. Personal appearance workers will grow by 20 
percent from 2008 to 2018, which is much faster than the average for 
all occupations.
    Employment trends are expected to vary among the different 
occupational specialties. Employment of hairdressers, hairstylists, and 
cosmetologists will increase by about 20 percent, much faster than 
average, while the number of barbers will increase by 12 percent, about 
as fast as average. This growth will primarily come from an increasing 
population, which will lead to greater demand for basic hair services. 
Additionally, the demand for hair coloring and other advanced hair 
treatments has increased in recent years, particularly among baby 
boomers and young people. This trend is expected to continue, leading 
to a favorable outlook for hairdressers, hairstylists, and 
cosmetologists.
    Continued growth in the number full-service spas and nail salons 
will also generate numerous job openings for manicurists, pedicurists, 
and skin care specialists. Estheticians and other skin care specialists 
will see large gains in employment, and are expected to grow almost 38 
percent, much faster than average, primarily due to the popularity of 
skin treatments for relaxation and medical well-being. Manicurists and 
pedicurists meanwhile will grow by 19 percent, faster than average.
    Job prospects. Job opportunities generally should be good, 
particularly for licensed personal appearance workers seeking entry-
level positions. A large number of job openings will come about from 
the need to replace workers who transfer to other occupations, retire, 
or leave the labor force for other reasons. However, workers can expect 
keen competition for jobs and clients at higher paying salons, as these 
positions are relatively few and require applicants to compete with a 
large pool of licensed and experienced cosmetologists. Opportunities 
will generally be best for those with previous experience and for those 
licensed to provide a broad range of services.''
    It is the Professional Beauty Industry that will afford individuals 
with the ability to use their passport to choose from all manner of 
career paths and destinations. They can pursue employment in a salon, 
building up a clientele--which may one day lead to the opening of their 
own salon just like mine. They may enter into the manufacturing and 
merchandising side of the industry (wholesale trade), or the customer 
service and retail professions (retail trade), which are again 
classified by the U.S. Department of Labor as areas for occupational 
growth at above the national average. Regardless of their choice, the 
options are there and so is the demand.
Legislative and Regulatory Barriers
    Rep. Barletta and Chairman Kline, I believe that my campus, Empire 
Education Group, and the rest of the cosmetology school community can 
help get us back on the right track to full economic recovery, but in 
order to do so students and schools need your help.
    You have already heard me state that my institutions and our 
industry does not shy away from regulation, in fact, when it is fair 
and balanced at both the federal and state level we embrace it. But in 
far too many cases, especially at the federal level, statute and 
regulations proposed in the name of ``program integrity'', ``the 
interests of the taxpayers'', and ``the federal interest'' frankly go 
too far.
    These regulations can be unreasonable, unfair, and yes, even 
unjust, and often times come with unintended consequences which are far 
more detrimental to the students and schools than originally prescribed 
or intended.
    Today I would like to call to your attention three brief examples 
which illustrate key legislative and regulatory barriers which limit/
prohibit institutions from effectively enrolling, completing, and 
placing future employees into our nation's workforce. They include:
    <bullet> Federal statutory prohibitions on an institutions ability 
to limit student borrowing to only those funds needed/necessary for 
pursuit of their education;
    <bullet> Recently promulgated Federal regulations broadly defining 
``misrepresentation'' go well beyond reasonable interpretations of 
substantial misrepresentation with a clear intent to deceive; and
    <bullet> Pending Federal regulations seeking to define ``gainful 
employment in a recognized occupation.''
Student Over-Borrowing
    This may seem counter-intuitive, but in an effort to promote 
consumer transparency and greater access to student loan information, 
the Higher Education Act mandates that all institutions disclose to the 
potential borrower every type and amount of federal student financial 
that they are eligible to receive and prohibits an institution from 
limiting the amount the potential student and/or the family can 
borrow--even if that amount exceeds the funds needed to pay for all 
tuition, fees, and direct academically-related costs (including child 
care, transportation, et. al.).
    Student financial aid administrators do have the ability to limit 
student borrowing on a case-by-case basis, but are often cautious about 
doing so because of the potential adverse consequences if the 
discretion is overused.
    Thus, as currently constructed, the law and regulations actually 
push more student aid onto the borrower than is necessary, increasing 
the potential that the student can, and potentially will over-borrow.
    I'm certain the irony is not lost on the two of you. At a time when 
other Members of Congress, student rights and consumer advocates are 
vocally questioning college tuition increases, student debt, and the 
harms associated with large indebtedness, the ability to repay, and the 
potential for default, the fact of the matter is that the institutions 
are required to offer more of the taxpayers money than is actually 
necessary.
    Compounding the problem are the pending U.S. Department of 
Education regulations seeking to define ``gainful employment'', which 
focus on a borrower's ability to repay their loan and the relationship 
of the amount borrowed to the anticipated earnings immediately after 
graduation. Later in my testimony I discuss the broader implications of 
the pending regulations, but they are relevant to this concern as well.
    Several portions of the higher education community, including the 
for-profit and community colleges, have requested that both the 
Department of Education and Congress provide institutions with the 
ability to limit the amount a student can borrow.
    Department of Education officials have repeatedly noted during 
Federal negotiations that the Secretary requires statutory authority to 
enable institutions to make such determinations.
    To that end, I respectfully request that you consider granting 
institutions and their financial aid administrators the ability to 
limit the amount a student and/or their family can borrow. In doing so, 
you will enable institutions to prevent unneeded and unnecessary 
student indebtedness, while at the same time protecting the federal 
fiscal interest in terms of both funds attributed and the default risks 
associated with the over-awarding of taxpayers' dollars.
Misrepresentation
    The Department of Education's October 2010 final regulations 
implementing a series of changes designed to promote greater program 
integrity included modifications to the definition of 
``misrepresentation'' which are simply illogical, unrealistic, and will 
likely open the door to countless lawsuits based upon the expansive 
terms now contained in the regulations effective this July.
    Under the law, the Program Integrity Triad--made up of state 
authorizers, accrediting agencies, and the U.S. Department of 
Education--are all responsible in one form or another to prevent 
institutions from providing the consumer with false or misleading 
information.
    Specifically the HEA directs the U.S. Department of Education to 
make determinations regarding ``misrepresentations'' made by 
institutions of higher education to potential students and their 
families that are ``false, erroneous or misleading statements'' in 
relations to ``descriptions of educational programs, its financial 
charges or employability of its graduates.''
    For many years, all institutions of higher education have 
understood and abided by this regulation, and support its intent and 
that of the underlying statute.
    However, as part of the most recent efforts on the part of the 
Department to expand oversight and enhance program integrity, the 
Administration sought, and was successful in promulgating new 
regulations broadly defining ``misrepresentation'' in a manner that 
goes well beyond reasonable interpretations of substantial 
misrepresentation with a clear intent to deceive
    The new regulations dramatically expand the definition of 
``misrepresentation'' to include misstatements that have a ``likelihood 
or tendency to deceive or confuse.'' They also enlarge the scope of 
actionable misrepresentations to include any statement about the 
institution as a whole, not the narrower description of the program, 
financial charges and outcomes noted above. And, not only do the new 
regulations pertain to representations made to potential students and 
their families, but now, the new regulations open this up to 
misrepresentation made to the general public.
    Empire Education Group, the cosmetology school industry, and the 
broader for-profit community all agree that this regulation is a 
significant over-reach on the part of the Department, one fraught with 
potentially unintended consequences based upon the most minor of 
mistakes or even human error.
    I urge you to review the underlying law and the new regulations, 
which go well beyond what the law and Congress appear to have intended 
and respectfully request that you work with us to find remedies which 
will dial back this over-reaching and potentially very damaging new 
regulation.
Gainful Employment
    As was clearly demonstrated throughout last Thursday's (March 17, 
2011) Full Committee Hearing entitled, ``Education Regulations: 
Roadblocks to Student Choice in Higher Education'' the as yet 
unpublished U.S. Department of Education (Department) ``gainful 
employment'' regulations will limit student access and choice.
    What is unknown is the degree to which the final regulation will 
have unintended but profound negative impact on cosmetology schools 
like mine. While last week's hearings touched on a number of important 
concerns, one important issue which was not raised at the hearing in 
Washington, which deeply concerns my institution and the cosmetology 
school industry, is the fact that the Missouri data used by the 
Department to assess the impact of their proposed regulations failed to 
take into consideration any cosmetology school data. So neither the 
Department, nor the cosmetology sector can say for sure what impact the 
final regulations may have on our programs--which leads me to my second 
concern on gainful employment.
    The Department and supporters of the provision have repeatedly 
stated that the proposal is program specific, and that the institution 
does not loose eligibility, only the impacted program(s). Within the 
cosmetology school industry this simply isn't accurate. Wyoming Valley, 
like a majority or cosmetology schools across the country, offer core 
curriculum in the cosmetology arts and sciences and related fields. We 
do not offer multiple disciplines and as a result stand to be more 
negatively impacted by the proposed regulations--as elimination of our 
cosmetology programs eligibility will result in institutional 
ineligibility.
    But perhaps my biggest concern is the fact that I, as someone who 
is responsible for running a total quality school, will have little, if 
any, control over the outcomes of the two metrics (Annual Loan 
Repayment Rates and Student Debt-to-Earnings) which will be used to 
determine my institution's, not just a program's, continued 
eligibility.
<bullet> Annual Loan Repayment
    There are many problems with this metric but I will focus on 
several that are most evident and worrisome. First is the fact that 
this proposed regulation looks backward and, if implemented, will 
include students that attended and graduated from my school up to three 
years ago. I am concerned not only of the unfair nature of such a 
provision, but also with the precedent it may set for future 
retroactive regulations.
    Second, as proposed, there are certain classes of performing loans 
that will not be recognized as such because they are loans in deferment 
or forbearance. Also, many income contingent options while deemed to be 
performing statutorily by education law, will count against the 
institution as not in repayment. Add to the fact that all loans are 
serviced by the Department of Education and it creates a dichotomy as 
to how the institution and the Department will work to properly counsel 
and ultimately service those loans, when what is in the best interest 
of the student is in direct conflict with the assessment of the 
institution's compliance with the gainful employment regulation.
    Third, the calculation of median loan debt is not an accurate 
reflection of the proceeds of the loan debt received by the 
institution. Students may borrow well beyond the cost of education for 
living and other educationally related expenses. Institutions could 
actually charge zero for tuition and by law, the students could borrow 
up to their eligible maximum. Under the proposed regulation, the 
institution is held responsible for the student re-paying that debt 
even if the institution did not receive even a single penny from the 
proceeds of the loan.
<bullet> Student Debt-to-Earnings
    Simply put, I am not sure what this metric reflects or is trying to 
measure. As proposed, the institution will submit a roster of social 
security numbers to the Department of Education who will then turn that 
roster over to the Social Security Administration (SSA). The SSA will 
in return give the Department of Education the average earnings of the 
graduates on that roster so it can be compared against the median loan 
debt of recognized occupation(s) in that field.
    First, there is no way for the institution--or any external 
auditor--to identify the source of the income. While this may work to 
the advantage of the institution, it is not reflective of the 
difference in the value between what was borrowed and the subsequent 
earning power of the student as a result of the training that student 
received because of the loan.
    Second, there is no way to check the accuracy of the information 
coming back to the institution. The exclusion of a few graduates could 
dramatically impact the average, especially in institutions and 
programs with small cohorts.
    Third, programs with small enrollments will have average earnings 
and loan values with potentially large outliers that will be more 
attributable to economics than the quality of education at an 
institution.
    Based upon all of these concerns, and many more too numerous to 
include in my prepared or verbal testimony, Wyoming Valley, Empire 
Education Group, the cosmetology school industry, and the Professional 
Beauty industry all respectfully submit and agree with your statements 
Rep. Kline that these regulations should be withdrawn by the 
Department.
    I applaud both of you gentleman for taking the lead in seeking to 
slow down the rush to regulate in this area. The overwhelming House 
vote on this issue is an important first step. I hope that the Senate 
will see the wisdom of including the provision in their Fiscal Year 
2011 (FY11) Appropriations bill, but even if they do not, I hope you 
will fight to have the provision maintained in the House & Senate 
Conference and the final enacted FY11 funding legislation.
    The Wyoming Valley Campus, Empire Education Group, the cosmetology 
school industry, and the Professional Beauty Industry are all committed 
to working with you to see this regulation at a minimum delayed, and in 
a perfect world never published. We support accountability, and are not 
adverse to oversight and regulation, but only when it is fair and 
balanced, and this regulation is certainly far from that.
Conclusion
    Empire Education Group, the cosmetology school industry, and 
institutions like Wyoming Valley have the ability to help meet the 
nation's local, as well as national, job growth and development needs, 
helping to lead to a path of full economic recovery. However, to work 
at optimum efficiency and effectiveness we need targeted relief from 
federal legislative and regulatory restrictions that unduly harm 
students and the institutions they choose to attend.
    It is my hope that through your leadership we can, and will, work 
together to make the necessary changes to the Higher Education Act, 
which will enable Wyoming Valley, Empire Education Group, the 
cosmetology school industry, and my peers on this panel representing 
traditional higher education meet the local and national workforce 
needs, and do our share to help spur on full economic recovery.
                                 ______
                                 
    Chairman Kline. Thank you, Ms. Seaman. Mr. Leary?

            STATEMENT OF THOMAS P. LEARY, PRESIDENT,
                LUZERNE COUNTY COMMUNITY COLLEGE

    Mr. Leary. Thank you, Congressman, for this opportunity 
to----
    Chairman Kline. Would you share the microphone there with--
thank you.
    Mr. Leary. Yes. Thank you. Thank you. Thank you for the 
opportunity to present information of what we feel is extremely 
important with respect to the future of higher education.
    Community colleges play a very important role in the future 
of our State and, given the shifts in the economy, have a more 
significant impact every day. They have always played a key 
role in providing the workforce with the education and skills 
necessary to find sustainable employment in business and 
industry that supports the economy, including such high-
priority education, which for Pennsylvania includes such 
programs as nursing, surgical technology, computer information 
systems, architectural engineering, and early childhood 
education.
    During the current economic climate, there are climbing 
numbers finding themselves unemployed. The impact of community 
colleges has increased dramatically as more and more 
individuals are looking to our institutions to train--and in 
many cases, retrain--them so they may gain a competitive edge 
in today's limited workforce market. While community colleges 
are supported by state and local funding, that funding is 
currently under a great challenge. For Luzerne County Community 
College, the initial proposed budget from the state level calls 
for a cutback of approximately $1.2 million, which is reflected 
in federal stimulus funding.
    Like other community colleges, we have been making 
adjustments along the way to address the continually decreasing 
cuts while ensuring that the quality of education and training 
is not impacted. The staff is doubling up on their 
responsibilities and growth and development activities are 
stunted as we must reallocate existing resources to meet day-
to-day operational needs.
    However, the areas where we can make cuts and trim the 
budget are nearing completion. As the budget situation 
continues to be challenging, community colleges face no other 
alternative but to increase tuition and fees. Accessibility and 
affordability have been the mainstay of community colleges 
since their inception and are the reason that so many in our 
community are able to gain advanced training and education to 
aid the economic development of this region. Increasing tuition 
and fees can mean the difference between going to college and 
not going to college for those who are just outside the range 
of financial aid availability. Many of those who do receive 
financial aid rely on that funding to cover not only their 
tuition and fees but also their textbooks, which at times can 
cost as much as our tuition.
    If the Pell cuts proposed in H.R. 1 are approved, many of 
these students will not have adequate resources to attend 
college. Consider the fact that 68 percent of our first-time, 
full-time students at our college receive some form of 
financial aid. That financial aid covers not only tuition but 
also other expenses.
    Ladies and gentlemen, I spoke to a woman last week in my 
office and she is approximately 30 years of age. She is in a 
high-demand occupation. She is pursuing the nursing program. 
She has a 3.8 GPA coming into this semester. She works full-
time, raises two children on a salary of $25,000 a year. Her 
financial aid is critical for her to continue to pursue that 
program, which will allow her to have a job when she graduates 
in our nursing profession and raise her two children.
    Sufficient Pell funding is currently available and the 
current continuing resolution provides sufficient Pell Grant 
program funding to ensure $5,550 at maximum grant level for the 
2011/2012 year. However, the House passed H.R. 1 last month, a 
continuing resolution that cuts the maximum Pell Grant by $845 
from $5,550 to $4,705. Because of this Pell Grant reduction, it 
will have a detrimental impact on the woman that I mentioned 
before and several thousand other students. I urge you to 
consider maintaining the current level of Pell Grants.
    The students affected by any cuts are the ones counting on 
financial aid to fulfill their responsibilities to their 
families by finding sustainable employment without which they 
must rely on government assistance or the support of families 
and friends to get by, none of which enhances self-esteem or 
self-reliance, which can have a detrimental long-range effect 
on your children's ability to contribute to their economy in a 
meaningful way. The Pell Grant is the cornerstone of the 
federal student aid programs and in the academic year of 2009/
2010, we had 2,836 students receive a Pell Grant of which 1,268 
received a maximum Pell Grant award.
    I assure you that colleges are doing our part to support 
our students and support the economic development of our region 
during these difficult times in as many ways as possible. For 
example, Pennsylvania community colleges, 14 community colleges 
have come together to submit an application to the Department 
of Labor for the TEACH Grant. This grant will allow our 
capacity to place students--adult learners who may have lost a 
recent job or are in need of additional skills--to upgrade 
their employability or meet the changing demands of the 
workplace.
    Lifelong learning is a primary strategy for meeting the 
President's challenge that by 2020 America will have the 
highest proportion of college graduates in the world. About 40 
percent of our 7,000 students are over the age of 25 and could 
potentially benefit from the goals and objectives of the grant 
that I just mentioned. The jobs requiring at least an associate 
degree are projected to grow twice as fast as jobs requiring no 
college experience. The 14 community colleges in Pennsylvania 
are collaborating to make certain that we meet this challenge.
    The approach being taken is designed to transform and 
accelerate initial experiences of the TAA and TAA-like students 
at community colleges and to align educational programs with 
industry-recognized credentials and industry needs in specific 
focused areas leading to job placement. This is just one 
example of the many avenues community colleges seek to 
supplement funding resources.
    We hope that you will seriously consider funding Pell 
grants at their current rate and overall eliminating any 
potential cuts to education funding on the national level. 
Thank you very much.
    [The statement of Mr. Leary follows:]

           Prepared Statement of Thomas P. Leary, President,
                    Luzerne County Community College

    Community colleges are critical to the future of our state and, 
given the shifts in our economy, have a more significant impact every 
day.
    Community colleges have always played a key role in providing the 
workforce with the education and skills necessary to find sustainable 
employment in the business and industry that supports the economy, 
including high priority occupations which for Pennsylvania includes 
such programs as nursing, dental hygiene, surgical technology, 
Automotive Technology, and Computer Information Systems, Architectural 
Engineering, and Early Childhood Education.
    During the current economic climate, with record numbers finding 
themselves unemployed, the impact of community colleges has increased 
dramatically, as more and more individuals are looking to our 
institutions to train and, in many cases, retrain them so that they may 
gain a competitive edge in today's limited workforce market.
    While community colleges like Luzerne County Community College are 
supported by state and local funding, that funding, combined with 
student tuition and fees, is still not sufficient to allow for the 
needed flexibility in programming and maintenance of state-of-the-art 
equipment and facilities to ensure students are fully prepared for 
careers and continued education in their field, including and 
especially the high demand occupations. As a result, federal, state and 
private grants and donations have become a critical piece to the 
community college revenue puzzle.
    Unfortunately, at the same time that state and local funding has 
been decreasing over the past two years, LCCC and our sister community 
colleges across the nation have also experienced loss of some of these 
supplementary funding sources.
    For LCCC, this situation will likely worsen dramatically if the 
Governor's proposed budget which calls for $1.2 million cut (most of 
which is the result of a loss of federal stimulus money) is approved, 
as many anticipate will happen.
    Like other community colleges, LCCC has been making adjustments 
along the way to address the continually decreasing cuts while ensuring 
that the quality of education and training provided is not impacted. 
Staff are doubling up on responsibilities, and growth and development 
activities are stunted as we must reallocate existing resources to day-
to-day operational needs.
    However, the areas where we can make cuts and trim the budget are 
nearing depletion.
    Other ways these budget cuts impact economic development is in the 
loss of programs such as Pennsylvania's Dual Enrollment program, 
through which eligible high school students receive funding to attend 
college courses and gain a head start on their post-secondary 
education.
    As the budget situation continues to worsen, community colleges 
face no other alternative but to increase tuition and fees. 
Accessibility and affordability have been the mainstay of community 
colleges since their inception and are the reason that so many in our 
community are able to gain advanced training and education and 
contribute to the economic development of their regions.
    Increasing tuition and fees can mean the difference between going 
to college and not going to college for those who are just outside the 
range of financial aid availability. Many of those who do receive 
financial aid rely on that funding to cover not only their tuition but 
also their textbooks, which can at times cost as much as tuition. Also 
needed are the additional funds to cover transportation, supplies and 
other varied needs, such as child care.
    If the Pell cuts proposed in HR 1 are approved, many of these same 
students will not have adequate resources to attend college.
    Consider the fact that 68% of first time, full time students at 
LCCC receive some form of financial aid. Again, that financial aid 
covers not only tuition, but also the other expenses that are incurred 
by the student in order to attend college. Ladies and Gentlemen, we are 
talking here about, say, the single mother of a family of 4 earning 
$25,000 a year. The fact that she can manage a full-time job and raise 
a family while studying and completing homework and attending classes 
is remarkable enough. How do we expect her to find available money in 
her budget to pay for her textbooks or cover the additional cost of gas 
to get to and from campus?
    The Federal Government must provide sufficient Pell Grant funding 
to ensure the maximum award is not reduced in the 2011-12 academic 
year.
    The current continuing resolution (P.L. 111-322) provides 
sufficient Pell Grant program funding to ensure a $5,550 maximum grant 
level for the 2011-12 academic year. However, the House passed H.R. 1 
last week, a continuing resolution that cuts the 2011-12 maximum Pell 
by $845--reducing the maximum award from $5,550 to $4,705.
    Because this Pell Grant reduction will have a detrimental impact on 
low-income students, I urge you to oppose this provision in the 
continuing resolution.
    Any changes to Pell funding at this point could disrupt, delay, or 
halt low-income students and families' higher education aspirations. To 
prevent this, Congress must vote down any Continuing Resolution that 
reduces the maximum Pell Grant award.
    Our students at Luzerne County Community College rely on federal 
aid to attend our institution. The students affected by these cuts are 
the neediest individuals and are the ones counting on financial aid to 
fulfill their responsibilities to their families by finding sustainable 
employment, without which they must rely on government assistance or 
the support of families and friends to get by, none of which enhances 
self-esteem or self-reliance, which can have a detrimental long-term 
effect on their and their children's ability to contribute to their 
community in a meaningful way.
    We also count on the funding of the SEOG grants to our students. If 
they are cut as well, we would have many students unable to attend 
school because they could not afford books and necessary supplies.
    The Pell Grant program continues to be the cornerstone of the 
federal student aid programs and it provides students the opportunity 
to attend Luzerne County Community College each year. In the academic 
year 2009-10, we had 2836 students receive a Pell Grant during the year 
of which 1268 received the maximum Pell Grant of $2675. These students 
will be relying on Congress to ensure their awards are not reduced.
    I assure you that the colleges are doing our part to support our 
students and support the economic development of our regions during 
these difficult times in any way possible.
    For example, the PA community colleges are working together to 
submit an application for a TAACCCT Grant. This U.S. Dept. of Labor 
grant is designed to increase institutional capacity and student 
success for TAA-eligible students and ``TAA-like'' students--meaning 
adult learners who may have lost a recent job or are in need of 
additional skills to upgrade employability or meet the changing demands 
of their workplace.
    Life-long learning is a primary strategy for meeting President 
Obama's challenge that by 2020, America will have the highest 
proportion of college graduates in the world, and community colleges 
will produce an additional 5 million graduates.
    About 40% of LCCC's 7,000 students (2,800) are over the age of 25 
and can potentially benefit from the goals of and objectives of this 
grant. If the grant is successfully funded, a number of student 
supports already available through the College will be optimized and 
customized for its adult student population
    With jobs requiring at least an associate degree projected to grow 
twice as fast as jobs requiring no college experience, the 14 CC's in 
Pennsylvania are collaborating to submit a single grant application 
with a focus on student success and capacity-building to serve adults 
looking to re-train and upgrade their skills to compete in the 21st 
century workforce.
    The approach being taken is designed to transform, streamline, and 
accelerate the initial experiences of TAA and TAA-like students at a CC 
and to align educational programs with industry recognized credentials 
and industry needs in specific focus areas ultimately leading to job 
placement.
    The CC's plan to invest in the intake/assessment and collaborations 
with other human service and workforce development organizations, as 
well as employers in order to support student success and the 
attainment of an industry-recognized credential. The 14 CC's in 
Pennsylvania plan to redesign and accelerate basic skills development 
to help move students through the foundation skills and on to learning 
the specific workplace skills and competencies needed in today's 
economy.
    This is just one example of the many avenues community colleges 
seek to supplement funding resources.
    We are doing our part to support a workforce prepared with the 
skills needed by business and industry to address the current 
unemployment rates and help restore our country's financial stability.
    We urge you to do the same by fully funding Pell Grants at their 
current rate and overall eliminating any cuts to education funding on 
the national level.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Leary. Thank the entire 
panel for your testimony and for bearing with us on the timing 
system here. You all did very, very well. Let me get my notes 
together here. I took so many notes I had to change pencils, 
ran out of pencils.
    There is kind of a thread that I think we are seeing in 
previous hearings and in the testimony here today in sort of 
two pieces. One is a failure to connect between K-12 education 
and higher education, students are not ready. Perhaps we heard 
from the previous panel that the students don't know what to 
expect. And the other is between institutions of higher 
education and the workforce. And so Dr. Verret, you mentioned 
that you have here at Wilkes an advisory board of employers. 
How does that board work? What do they do?
    Mr. Verret. They work with the director of the engineering 
program, the chair of the engineering division, and also the 
dean in evaluating basically the currency of our programs with 
our laboratories actually providing the experiences that are 
important to students to keep abreast of the changing 
engineering fields----
    Chairman Kline. Um-hum.
    Mr. Verret.--and also to make sure to help our students 
with developing internships and also connections during their 
educational programs as well. Many of the members of the 
program are involved in overseeing some of the student projects 
and other student projects and things like that. So the 
advisory programs create connections with industry. They also, 
for example, help us--for example, we are also taking curricula 
to give writing to companies. For example, with one company in 
Scranton we are working with to create curricula to allow 
people who had not completed the baccalaureate to actually 
complete the baccalaureate on site. So we would be providing a 
two-year program on site and we have done that. And we are also 
working toward something similar.
    Chairman Kline. So this advisory board, then, helps you 
make sure that your curriculum is current and relevant to the 
needs of the workplace and it apparently is also through 
internships and so forth helps place----
    Mr. Verret. It helps----
    Chairman Kline.--your graduates--do you happen to know what 
your placement rate is?
    Mr. Verret. I cannot give it to you offhand. I can send it 
to you.
    Chairman Kline. Okay. All right. Thank you. Mr. Angeli, you 
said I think--if I can read my own writing here--that you are 
trying to send a message to the high school level but it is a 
difficult task. Could you just sort of expand on that? What 
does that mean, difficult task?
    Mr. Angeli. When we first looked at the--there are jobs 
available at Tobyhanna Army Depot and the defense industry in 
the future that go unattended to because of a lack of education 
in those skills. When we first went down to the high school, it 
is very difficult to convince parents that their child isn't 
going to go into industry. They are all going to go on to 
college or do something great. So the challenge was how do we 
get that message? And working with Chamber of Commerce and our 
own educational pass code program, we said you have to go down 
into the middle school. You have to start sending that message 
at the middle school that there are all kinds of different 
opportunities for young people out there and go to the old Army 
recruiting strategy, if you have convinced the mother, you have 
convinced the child. And I think that is what we try to do. We 
try to go down there and present our programs early on at the 
high school level. Thanks to the Chamber of Commerce, their 
skills program that they put together, along with what we do 
with education attachments, we actually go down into the 
seventh, eighth, and ninth grade level to talk about 
opportunities.
    Chairman Kline. What does that mean when you say you go 
down there?
    Mr. Angeli. We have staff----
    Chairman Kline. Faculty?
    Mr. Angeli.--faculty who are in charge of different 
programs who go to all the high schools and----
    Chairman Kline. And you arrange with the school an 
opportunity----
    Mr. Angeli. Right, to go out there in a skills program. We 
have what is called Strive for 35. We have 35 schools in the 
system that we actually go out to try and get that message out. 
And it was slow to start. It was very slow to start but now 
after about 4 or 5 years now we were running people through 
those programs, they are getting trained, they are getting jobs 
at the end, they are doing internships at different levels.
    Like the gas industry, you know, as the job opportunity for 
young people right now in the Marcellus Shale area in all of 
our five or six counties up here is tremendous if you just 
train people. Again, you have to get down there to that level 
to discuss that with parents and with young people about what 
the opportunities are. You are talking about jobs $38 to 
$45,000 a year and internships with all kinds of the different 
employers. Same thing in the health field, vascular technology, 
diagnostic medical stenography, those are all 2-year technical 
programs that offer great jobs at the end of the 2-year 
program. You just have to get that message down there at that 
level.
    Chairman Kline. Okay. Thank you. Mr. Barletta?
    Mr. Barletta. Yeah, Mr. Leary, I just want to say that 
Luzerne has a great baseball program there as well. I played 
there for a couple of years.
    But back in Washington, our committee has been holding 
hearings to examine the burden that federal regulations impose 
on colleges and universities. Do you have some thoughts on that 
topic and what federal regulations are most time-consuming from 
your perspective?
    Mr. Leary. Well, I think some of the major challenges that 
we face is in completing much of the compliance requirements 
for grants that support about 17 percent of our total budget. 
And although it is reasonable to expect that you are going to 
have some compliance regulations, there are some costs 
associated with that that actually diminish, I believe, from 
the overall grant and what you can provide the students. So I 
think there is a tendency to have, if you will, a little too 
much regulation with respect to some of the requirements of 
those grants.
    Mr. Barletta. How much of your time is spent on complying 
with those federal requirements?
    Mr. Leary. Well--various offices--there is a great deal of 
time spent in our grants office and our financial aid office in 
meeting those regulations, sir.
    Mr. Barletta. Thank you. Mrs. Seaman, in your testimony on 
the Department of Education's proposed gainful employment role, 
you state that the United States Department of Education's 
analysts did not include data or information on cosmetology 
institutions. Can you please provide more detail for me on 
this? And it appears the Department of Education is making more 
program, or in your case, institutional eligibility assumptions 
without any information at all on your sector. Would you say 
that is true?
    Ms. Seaman. Absolutely. According to my understanding that 
the surveys that were completed, the data that was submitted 
had no information concerning cosmetology schools. They had no 
information based on the employment of our stylists that are 
working out in the salons. So when our students become 
gainfully employed in the salons, this gainful employment 
regulation that is going to be implemented has no data to base 
their equation on. So they are trying to formulate numbers as 
to what the actual student should be hired at on an entry-level 
income and they have no information to base this on.
    Mr. Barletta. Thank you. Dr. Verret, how often do your 
institutions work with local industry to reshape curriculum to 
adapt to the local workforce needs?
    Mr. Verret. Often, in our business and accounting programs 
and engineering----
    Chairman Kline. Pull up the microphone, please.
    Mr. Verret. I am sorry.
    Mr. Barletta. Sorry.
    Mr. Verret. Our curricula and also we have both our 
industry linkages and also linkages to our crediting agencies 
in engineering and pharmacy, in nursing, we are keenly aware of 
industrial standards. For example, the educational standards 
for our nursing, we adapted our nursing standards. We 
established the doctor of nursing practice to advancing nursing 
practitioners. In engineering we have developed the skill 
accreditation for when the Board of Engineers and Technology 
comes in and also we have reshaped our curriculum. We have done 
some reshaping just recently. In the biological sciences, the 
drive for major reports in requiring the alignment of the 
education of life sciences by linking them more to the physical 
courses of sciences has caused a major reshaping of our 
curriculum. So we conduct periodically. And that review also 
comes through our accounting programs where we do periodic 
programming, used our programs at Wilkes as well, the 
individual programs.
    Mr. Barletta. Mr. Angeli, in your testimony you mentioned 
the ``brain drain'' problem. Can you explain the impact of this 
problem in Northeastern Pennsylvania?
    Mr. Angeli. For us and we talked about this amongst 
ourselves, among the 16 college universities around here, which 
is that we just don't have the ability really to get the 
message out that two things--we do have business and industry 
here that can use your skills and we have the ability, one of 
us can meet your needs. And it goes back to being able to 
provide the information on education to students coming out of 
high school and to parents. There is no reason why students 
should leave here to go someplace else to work when we have 
business and industry actually looking for those who are 
educated in the very fields here.
    Mr. Barletta. Thank you, Mr. Chairman.
    Chairman Kline. Thank you. I am going to start working my 
way down the table here but I am going to pick up, Mr. Angeli, 
where I left off. And sort of coming back to the same theme, 
you said in your testimony that you could design programs 
quickly and you also said that the secret is agility. And so I 
have got a couple of questions about that. What does quickly 
mean?
    Mr. Angeli. Well, I will use a couple examples in both our 
allied health programs and also our gas industry programs. We 
went to business and industry first and they designed our 
programs. And when the demand is there, they not only designed 
our programs, but they were able to provide us all the 
equipment we needed for all of our allied health programs and 
for all of our gas industry programs. So having the resources 
to be able to put programs on the street is the difficult task. 
Writing the curriculum and getting the Department of Education 
and other people to approve it is what we are used to and that 
is a skill we have. So being a private 2-year school not 
burdened by regulations and decisions that have to go through 
many, many layers, we are able to make those decisions very 
quickly and put programs on the street.
    Chairman Kline. Okay. And you said you are working with the 
Scranton Chamber of Commerce and others, I assume. I mean, how 
are you connecting with employers?
    Mr. Angeli. Actually, through the Chamber of Commerce was 
really our main--we have representation on there and actually I 
was the president of the chamber for several years. We are able 
to understand that various meetings of the educational 
committee that meets at the chamber where they discuss the 
local needs for business and industry. And at that table is 
where we interface with business and industry as to what is 
needed out there. And if you see a skill that is needed, well, 
then, put it on the street very, very quickly. Two-year 
programs are a lot easier to put on the street than 4-year 
programs.
    Chairman Kline. Will they come to the campus?
    Mr. Angeli. Does the business industry come to campus?
    Chairman Kline. Um-hum.
    Mr. Angeli. In those fields they do. And actually, in our 
Milford campus they help us actually train our people, our 
students.
    Chairman Kline. Thank you. Ms. Seaman, you said something 
that I find frequently when I am talking to schools in the 
cosmetology industry. You said that half of your students have 
some higher education experience. How many of them is this a 
second career choice, they have already worked someplace else? 
Do you have any kind of numbers on that?
    Ms. Seaman. I don't have exact numbers, but I know the 
majority of my students this is a second school for them. And 
they choose to either change careers, they found out that the 
traditional college setting was not for them, they are more the 
creative type of student, that they wanted to come show their 
skills, they are more people-oriented, and, you know, they have 
gone to school and it just wasn't for them. So now they are 
coming to a creative industry.
    Chairman Kline. Okay. I think it is interesting that you 
pointed out also that so many of them come who have gone to 
another school, perhaps a fine school, but didn't work out for 
them, they have accumulated some debt, they are bringing that 
debt along with them when they come to your school, which isn't 
free either.
    Ms. Seaman. Right.
    Chairman Kline. Neither one of us is pretending that. Okay. 
Thank you very much. And now, Mr. Leary----
    Mr. Leary. Yes, sir.
    Chairman Kline.--you have indicated that you and 14 other 
community colleges are working together in collaborative effort 
to improve your success with TAA Grants and some other sources 
to supplement your funding resources and it makes good business 
sense. I suspect I would be doing that as well. Do you have any 
sense of--I mean, you talked about where we can cut. What does 
that entail? Have you reduced salaries? Have you frozen 
salaries? Have you fired faculty? And I ask that because one of 
the things we have seen is frustrating, and this is a 
bipartisan frustration, by the way, when you look at the costs 
of higher education running quite a bit ahead of inflation, 
about 6 percent I think the figures show, a little under 6 
percent ahead of inflation, year after year costs of tuition 
and fees. And so we are sort of chasing, you know, trying to 
get grants and Pell Grants and student loans and things like 
that. Can you talk a little bit about the costs and what cost-
containment steps that you are taking?
    Mr. Leary. Yes, sir. That is a very good question because I 
think it is approximately three years ago when I assumed the 
presidency, and at that time, I realized that the trend was 
basically that funding was going to become more challenging, 
particularly due to the economic climate across the country. 
Specifically, we have cut approximately $700,000 from our 
administrative budget. And we do that by combining positions. 
And I thought I should set the example and I continued in my 
position of vice president of student development and the 
presidency. And I particularly was able to do that because of 
the many talented people around me. So across the board, we 
have done that in the academic affairs area and other areas and 
we have focused on the administration.
    Because at the same time that we are combining 
responsibilities, our college has grown by approximately 18 
percent over a 3-year period. So we have more students to serve 
and we believe we exercised some prudent controls by evaluating 
exactly where we can ``get by'' and make sure that the quality 
of education is not affected. And along those lines, last year 
we maintained a level tuition. We did not raise our tuition. 
And we were one of the few colleges that was able to do that. 
And we continue to have small classes because many of our 
students who have come to the college have different 
challenges. We have many students who come fully prepared, as 
was referred to by my colleagues earlier. There are many 
students who come to college and need some extra support. So we 
want to maintain small classes where our faculty get to know 
our students. We want to provide them with the tutoring and 
special skills assistance that they need to succeed. And as a 
result, I think we have been successful in addressing the 
current challenges that we face in terms of funding.
    Chairman Kline. Thank you. I appreciate that you mentioned 
you were freezing tuition. I certainly don't want to get in the 
position where the Congress of the United States even remotely 
considers such a thing, but it is frustrating to us all. And I 
meant absolutely what I said about this bipartisan frustration. 
We share this discussion back and forth because it seems like 
we can never catch up.
    You mentioned Pell Grants. I know that is a subject of 
great interest to everyone, a program that has also had 
bipartisan support. It is also a program that has tripled in 
cost in about 3 years and it is unsustainable at that rate. So 
there is no question. You mentioned previous legislation that 
passed in the House. That debate is going to go on. But the 
growth of the Pell Grant program simply can't continue the way 
it has been. It is shockingly expensive and it is part of the 
frustration as we continue to try to chase the higher tuition 
and fees that we can't seem to catch up with. So that is going 
to be an important part of the debate. I appreciate that you 
are engaged and concerned about it and we all are concerned 
about the cost of higher education and how students are going 
to pay for it. Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman. Dr. Verret, you have 
a sense about whether your graduates choose to stay in the area 
or are they moving away to find employment elsewhere?
    Mr. Verret. It varies. It varies because----
    Chairman Kline. Can we share the microphone, please? I am 
sorry.
    Mr. Verret. I think also that we have a number of graduates 
who do stay in the area. We have graduates who invest in the 
companies in this area and actually have built companies in 
this area. We also have graduates who go farther afield. We 
have graduates have gone away from the area and returned.
    On the issue of the brain drain, in fact, I addressed that 
about a year ago, I think it is both a blessing and a curse 
because we have students who actually develop their 
professional skills, go farther afield, and return and bring 
things back. And it is important for us that they are able to 
build to bring these things back to the region. So I am not 
always convinced that that is a loss. Sometimes they go off for 
graduate studies in other places and they have returned. And we 
have some of them in our faculty. We have some of them who have 
built companies in the area. But in a sense, overall, we have 
students--it depends on the discipline. In some disciplines, 
people do go away. For example, those who go away to medical 
school, the new medical school is only 2 years old in this 
area. The first class will be graduating in 2 years. So they 
have gone away. But the majority of physicians in this area 
keep throughout the medical programs. They have gone away and 
have come back. So we would expect more of that.
    I think we also have an important thing that we are also 
invested in working with adult learners, the fact that we are 
able to put programs at sites to help educate adults. The fact 
that we are working with Luzerne County Community College to 
create a roadmap to help students continue to finish their 
baccalaureates so that they understand what course they need to 
take in their first 2 years so that they can seamlessly get 
their BS because we have one of the lowest baccalaureate 
completion rates in the state. I believe we are at 20 percent. 
The State is at 22 and nationally the average of adults 25 or 
above with baccalaureates is 24 percent. So we are low in a low 
State. So we have a lot of work that we have yet to do. But 
these people are here and these people will remain here. So I 
think we have a double-edged sword.
    Mr. Barletta. And as we were discussing with the panel 
before you, I think it is very important that we continue to 
foster communications between higher education, local leaders, 
business leaders, and look at this as a region so that we can 
keep our young people here, we can educate them. We have such 
talented students here and we are blessed, as we can see today, 
with so many fine higher education opportunities. We need to 
always make sure we are making that connection with local 
industry and not so much only the ones that are here but what 
we are trying to act so that, you know, again, as an employer, 
it is very important to know that you have a workforce pool to 
choose from. And that helps attract other industries. So I 
applaud all of you for what you are doing.
    Ms. Seaman, I noticed some terminology in your testimony 
that I wanted to learn more about. Can you explain more 
specifically what Empire and Wyoming Valley mean by a ``total 
quality school?''
    Ms. Seaman. Part of Empire's core value is to make sure 
that all of its 102 school located throughout the country are 
running in a total quality sense. And there are four sections 
on this.
    The first area of concern would be the metrics. The metrics 
also deal with the 90/10 ratio rule. It is dealing with our 
compliance, and it is also dealing with outcomes assessment.
    The second category would be administration. Administration 
is totally my responsibility. I am responsible for the entire 
education. I monitor the financial aid process. I am working 
very closely with salons with job placement, and I just want to 
ensure the positive learning atmosphere that Empire has to 
offer to each and every one of its students.
    The third area would be compliance. And of course, 
compliance is meeting or exceeding all of the governing 
regulations that our accrediting body dictates to us.
    And lastly would be our students' satisfaction. We are 
working very closely with the students. We do a student 
inventory on a regular basis. We take the comments and concerns 
of the students very seriously. And we work with those students 
so we can assure that each and every student has the best 
possibility to graduate from Empire Beauty School and seek 
employment.
    Mr. Barletta. Thank you. Mr. Angeli, you mentioned 
Lackawanna College's new gas compressor technician program, 
which highlights your institution's ability to adapt and 
develop programs on industry demand. What is the benefit of 
your institution and institutions like yours to adapt to 
industry demand?
    Mr. Angeli. Well, first, the benefit is being able to 
design programs that they need. I mean, for us we went down to 
Texas 5 years ago and we heard this was going to happen. We 
surveyed business and industry down there. We talked to the 
college universities down there and asked, what is this all 
about and how many people are you going to employ? When you 
look at their gas bill that is \1/5\ as large as ours and they 
employ directly 250,000 people, we came back to try and figure 
out, how do we take advantage of that? And the first thing we 
have to do is go back to the industry themselves and say, what 
are your needs?
    And there is a second part of this that I think is equally 
important. We have established a school of entrepreneurship 
also because along with the business and industries that are 
being created in Northeastern Pennsylvania, a lot of new 
businesses are going to start, you know, dry cleaning, 
trucking, all kinds of different things that go along with it. 
So we also have to train young people to have the knowhow in 
order to get into these businesses. And actually, we geared our 
program to veterans, returning veterans who would like to start 
new programs.
    But the link is going back to the industry and asking them 
what they need and how can they help us. And it is all about 
partnership. It is all partnerships with us, the four-year 
schools, with federal government, with State government, and 
with these people to be able to design things. And with their 
help we can build them quickly.
    Mr. Barletta. And I agree, especially with Marcellus Shale 
as you are doing at Lackawanna. You know, we have only 
scratched the surface of what the needs and demands and job 
demands will be from that industry, many of which, you know, we 
may not be able to realize, you know, what we will need to make 
sure that we are supplying those jobs, because this industry 
will absolutely create more opportunities for people.
    Mr. Angeli. But there are different types of accounting 
that takes place, different type of administrative background, 
a different kind of mapping. All of that stuff has to take 
place yet. And you can design it but if you don't go to the 
people who are the users and ask them what they need, you are 
not going to design something that is going to work. So you 
have to start with those companies.
    Mr. Barletta. Mr. Leary, do you have any suggestions for 
how businesses and institutions of higher education could 
better work together?
    Mr. Leary. I think there is always room, certainly, for 
improvement and collaboration between business and industry. 
And particularly in our setting at a community college, the 
diversity of our disciplines suggest that we need to have good 
rapport in terms of just high-end curriculum. If it is a short-
term need rather than an associate degree need that will fill 
an employment basis, then that is something we need to work on 
immediately. And so as a result you have diploma programs which 
are short-term, several months.
    We have certificate programs for training, associate 
degrees, and we have a very engaged dime print program as well 
to develop, which we are designing in such a way that it is 
seamless to go from dime print to credit so that--sometimes 
people don't feel comfortable. Especially if you are 35 years 
or 40 years of age and you lose a job and you have to get some 
skills, you have to acquire some skills quickly. And in that 
regard we need to be able to respond to someone who comes in 
and says I need something in six months. And we try to figure 
out how we can match that individual's competency and skills 
with the appropriate program. And our career services office, 
along with our workforce development department, works very 
hard on that to succeed in that area so that we are helping 
each individual student.
    But there is collaboration in Northeastern Pennsylvania 
among the colleges and universities so we also attempt not to 
basically replicate other programs that are successful. 
Particularly in terms of business and industry, each of us 
has--I believe we do--advisory councils that tell us 
specifically what they need and how to design to the program 
because they are the experts. The educators provide the 
opportunity, provide the training and the education, but the 
individuals who are out there in the private sector--they 
provide us with keeping us updated on what is needed in the 
region.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman.
    Chairman Kline. Thank you, Mr. Barletta. Winding near the 
end here. Everybody has been patient in enduring the time at 
the table, but I have a couple more questions if you can just 
hang on for a just a minute. I want to explore a couple of 
things.
    One, Dr. Verret, I am sort of getting over my flashback to 
organic chemistry. It has taken me a while to do it. I was 
thinking about you have to practice. And I remember the 
professor when I went in with my hat in my hand and said, you 
know, this makes perfect sense to me when you are standing up 
there and you explain it to me, but I am just doing horribly on 
the tests. And he said almost exactly what you did. He said it 
is like playing the piano. You have to practice. So go get 
stacks of paper and learn to draw hexagons in your sleep and 
you will just be okay. And so I did that. And if you don't 
understand hexagons in organic chemistry, you have chosen a 
better field. Good for you.
    You did mention that in order to get students interested in 
science and technology, engineering, mathematics that you have 
got to go down to the middle schools. And I am on the Board of 
Visitors, a sort of board of trustees if you will to the U.S. 
Naval Academy. And they have had an active program for some 
time of reaching out to schools around the country, but 
particularly in the Maryland area to get kids interested. And 
they have special summer programs where they bring kids in and 
start to introduce them. Is that something that you see around 
here, either at Wilkes or other schools where you have got this 
real outreach to the middle schools to get the kids engaged 
and, you know, building robots and that sort of thing?
    Mr. Verret. It is something that we do at Wilkes, something 
that there is a larger interest. We have some with the medical 
college where we are doing this. Two examples that we have--we 
have an initiative called Science in Motion, which is state-
funded. And Science in Motion where our science faculty, they 
bring equipment and experiments or demonstrations to the 
schools and work with teachers in the middle and high schools 
to make the high schools in that region. We even have a van 
that takes things to the high schools. That is one issue.
    The other issue is we have WEBS, which is Women in 
Experimental Biological Sciences. We have summer academies and 
weekend programs for young women to encourage young women in 
middle school and above to help them consider the sciences. 
What I would say is that we probably don't have enough because 
the other piece I think that is really missing is that we mean 
to actually give greater help to teachers and general teachers 
in the much lower grades, to give them the skills to actually 
help develop the imagination of students at that level. But I 
think that is a larger program because we have difficulty 
getting our best students in the sciences to consider teaching 
professions. And it is not just here. It is a national problem. 
Unless we help--we deal with that, I think we will have a 
problem. And we did that better 50 years ago.
    Chairman Kline. So I didn't mean to interrupt but I am 
envisioning this trip down to school, that you have got a van 
with presumably I will just call them toys, so to speak. It 
seems to spark their interest. And these are your faculty or 
are these your students or both?
    Mr. Verret. These are faculty. We have students working 
with them and also we have some staff that are attached to that 
program. And we have the funding to continue that. We also have 
the WEBS program where we do that directly with our faculty. We 
bring the students on campus to work with our faculty.
    Chairman Kline. Okay. Thank you. Now, just very quickly, 
Dr. Verret, you said you were going to give me some figures on 
your placement ratings. Ms. Seaman, you gave us 77 percent. Mr. 
Angeli, do you know a job placement rate coming out of 
Lackawanna?
    Mr. Angeli. About 75 percent of our students transfer to 4-
year schools. But all of our other programs have a variety of 
figures. I will use the gas industry. It is 100 percent. Right 
now the vascular allied health services program, they are in 
the high 90th percentile. Those technical programs are in 
demand.
    Chairman Kline. Are you tracking those?
    Mr. Angeli. Yes, we do.
    Chairman Kline. Okay. Thank you. Mr. Leary, are you doing 
the same?
    Mr. Leary. Yes, sir. We are tracking it as described. It 
varies by program.
    Chairman Kline. Right.
    Mr. Leary. For our health sciences graduates, it is about 
100 percent. So we continually look at that to make certain 
that our programs are up to date with respect to what the 
opportunities are because we are more sensitive to that in 
terms of 85 percent of our graduates remain in the region. So 
we need to know, you know, basically what the region is 
demanding. But it does vary by program, Congressman.
    Chairman Kline. All right. And if you have those numbers, 
if you could just submit them for the record.
    Mr. Leary. Yes.
    Chairman Kline. I think that is an important part as we are 
trying to connect higher education to the workforce, that that 
is literally the connection if you walk out and you get a job. 
And I do understand that if you go to different schools and a 
lot of these numbers are difficult to track, graduation rates 
and things, the way the government has conspired to come up 
with that. Did you know that in order to count as a graduation 
rate you have got to be a first-time student? So if you have 
transferred someplace, your graduation doesn't even count. So 
we have got some interesting problems out there.
    Well, listen, thank you very much, everybody. I thank the 
witnesses for being with us today. Mr. Barletta, did you have 
any comments?
    Mr. Barletta. Again, Chairman Kline, I want to thank you 
again for coming back to my home, my part of the country, and 
again, to thank the panels for the very informative hearing 
that we had today as I said earlier, which we are blessed here 
in Northeastern Pennsylvania to have so many quality higher 
education opportunities. And the information you shared with us 
today will be helpful as we go back to Washington and continue 
to make the very tough decisions that we must make to get our 
fiscal house in order.
    But I believe we will all agree that the bottom line of 
what we are trying to accomplish here is job opportunities for 
not only the next generation but for the many Americans who 
have fallen out of the job market as we try to retool them. And 
many are now looking at other opportunities. I see so many now 
going back to higher education institutions to find a new path 
and a new job. And today we have a very diverse panel of junior 
college, community college, proprietary schools, and Wilkes 
University. And we have many more here in Northeastern 
Pennsylvania and I believe the Chairman will be able to go back 
to the committee and report what you are doing to create more 
jobs. And again, thank you to them.
    Chairman Kline. Thank you, sir. Again, thank all of you 
here, the people in the room, witnesses from both panels. This 
is very helpful for us to get out of Washington, come out, and 
see where the people are actually living and working and 
providing the education and the jobs and so we very much 
appreciate your input. We wish you all great success in your 
endeavors. Again, thanks to all. There being no further 
business, the committee stands adjourned.
    [Witness responses to questions for the record:]

     Additional Information Supplied for the Record From Mr. Angeli

                  lackawanna college graduation rates
    The average graduation rate of students enrolled in Lackawanna 
College in the most recent four years is 29%, and this academic year, 
it is 30%. Being a two-year institution, however, this statistic is not 
necessarily an accurate reflection of how many students actually 
complete their college degree--Associate's or Bachelor's, since many of 
our students transfer to four year colleges without actually completing 
their Associate's degree requirements. For example, if they switch 
their major and transfer to another college, our statistics only 
reflect that they attended Lackawanna College, and not that they 
graduated, which can significantly reduce the calculated graduation 
rate.
    Here is a comparison of other regional 2-year institutions, based 
on the IPEDS (Integrated Postsecondary Education Data system) reporting 
for the incoming class of Fall 2006:

                            GRADUATION RATES
                              [Percentage]
------------------------------------------------------------------------
                      School                             Percentage
------------------------------------------------------------------------
Lackawanna College...............................                   28%
Harcum College...................................                   22%
Northampton Co Area CC...........................                   21%
Luzerne Co. Community College....................                   20%
Harrisburg Area CC...............................                   14%
Bucks Co CC......................................                   12%
Delaware Co CC...................................                   10%
CC of Philadelphia...............................                   08%
------------------------------------------------------------------------

                             financial aid
    According to the numbers that we reported for College Board 1,151 
of our 1,483 (77%) of all students were awarded some type of financial 
aid.
    When you include Police Academy and students in the paramedic 
program, the percentage of students receiving some type of financial 
aid is 96.
              effect of pell grants on lackawanna college
    Per government statements, the cost to fund PELL has doubled over 
the past three years, largely because the number of recipients has 
increased so much due to downturns in the economy. But providing 
opportunities for low-income students to attend college is exactly why 
the PELL grant program was created.
    At Lackawanna, over the past 7 years, we have seen moderate growth 
in the PELL funds we award, primarily proportionate to increases in 
enrollment. Beginning in 2008 however, up until the present, we are 
seeing annual growth of over $1 million--$2.4 million awarded in 2008-
2009 and as of today, $4.1 million awarded for 2010-2011.
    For 2010-2011, to date, we have awarded PELL funds to 1,167 
students. Forty-eight percent (48%) of our students receive the maximum 
award. If PELL funds are cut by $845, our students will lose over 
$950,000. To date for this year, we have provided some kind of 
financial aid to 1627 students, including degree, Paramedic and Police 
Academy. So 72% of our aid recipients receive PELL.
    Looking from another prospective, PELL funds alone (at their 
current funding levels) will cover 49% of our annual tuition for a 
student who has maximum PELL eligibility. This certainly helps to make 
Lackawanna College affordable.
      other funding consideration for lackawanna college students:
                   state financial aid grants (pheaa)
    PHEAA state grants are limited to an amount authorized in each 
year's state budget. Over the past few years, due to budget 
constraints, PHEAA grants at Lackawanna have decreased from a high of 
$4000 in 2007-2008 to the amount PHEAA is proposing for this year 
$2608. Last year (2009-2010) Pennsylvania students attending Lackawanna 
who were fully eligible received $3014. For 2011-12 the same students 
would see a $406 decrease. We awarded PHEAA to 691 students and so the 
overall loss is over $250,000 (note: this is under estimated because 
not all students receive the full award). Last year if a student 
received a full PHEAA grant, the grant covered 27% of tuition. For the 
upcoming year, the grant will cover 23% of the same tuition cost.
                        job placement/employment
    We have not been able to successfully track employment statistics 
due to low post graduation participation in surveys. However, through 
our allied health programs, we have been able to study these figures 
through the program director. Here are some useful stats for 
employment-driven health programs:
    DMS (Diagnostic Medical Sonography) completed Dec 2010 walking in 
graduation May 2011: 2 employed out of 7 = 28%
    DMS completed Dec 2009 walking in graduation May 2010 working: 4 
out of 9 = 44%
    One student is furthering her education. 4 out of 8 = 50%
    Vascular technology degree: Graduated 2010. 6 employed out of 11 = 
54%
    One student is furthering his education. 6 out of 10 = 60%
    Also, our first graduating class in May 2011 in the Natural Gas 
Technology degree program has successfully provided 100 % placement in 
internships as well as post graduation employment offers.
                                 ______
                                 

     Additional Information Supplied for the Record From Ms. Seaman

    The following numbers are directly related to Empire Beauty 
School's Wyoming Valley Campus, located in Moosic, Pa. As a school 
system, we have 102 locations in 23 states.

                  Graduation Rate--71%
                  Placement Rate--77%
                                 ______
                                 
    [Whereupon, at 10:41 a.m., the committee was adjourned.]


                        REVIVING OUR ECONOMY:
                    THE ROLE OF HIGHER EDUCATION IN



                       JOB GROWTH AND DEVELOPMENT

                              ----------                              


                        Tuesday, March 22, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in the 
Campus Center, State University of New York, Institute of 
Technology (SUNY IT), 100 Seymour Road, Utica, New York, Hon. 
John Kline [chairman of the committee] presiding.
    Present: Representatives Kline and Hanna.
    Staff Present: Colette Beyer, Press Secretary, Education; 
Casey Buboltz, Coalition and Member Services Coordinator; 
Daniela Garcia, Professional Staff Member; Barrett Karr, Staff 
Director; and Brian Melnyk, Legislative Assistant.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good morning, and welcome to our second field hearing of 
the 112th Congress. It is good to be here in Utica, New York, 
with Representative Hanna. Thank you all for coming, and 
special thanks to our witnesses. We appreciate you taking the 
time to join us today, and we look forward to your testimony.
    These are tough times, and although our economic recovery 
remains uncertain, we are encouraged by recent progress and the 
resilience of the American people. Families, workers and small 
business owners from the great state of New York and across the 
country are leading us toward a more prosperous tomorrow.
    As members of the House Committee on Education and the 
Workforce, we are keenly aware of how closely related education 
is to the strength of the workforce. A student's success in the 
classroom will help determine his or her success in the 
workplace. The evidence overwhelmingly suggests that 
individuals who fail to advance in their education are more 
likely to be unemployed and earn lower wages.
    Understanding the challenges and opportunities facing local 
communities is critical to ensuring Washington does not stand 
in the way of growth and prosperity. As we work to improve the 
nation's education system and foster a growing economy, it is 
more important than ever to hear from folks on the ground about 
the challenges and opportunities they see in our schools and 
workforce. That's why we're here today.
    We want to learn about the polices that may be standing in 
the way of job creation, right here in Utica. We want to hear 
your thoughts on encouraging academic success in our 
classrooms, and get your ideas on how we can work together--on 
the local, state, and federal levels--to reinvigorate the 
American spirit of innovation and prepare the students of today 
to succeed in the workforce tomorrow.
    Again, we are grateful to our panelists for participating 
in today's hearing, and I'm looking forward to getting this 
discussion underway. Let me also thank my committee colleague 
Richard Hanna for his gracious invitation to hold a field 
hearing here in his district. And without objection, I now 
yield to him for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Chairman Kline: A quorum being present, the committee will come to 
order.
    Good morning, and welcome to our second field hearing of the 112th 
Congress. It is good to be here in Utica, New York with Representative 
Hanna. Thank you all for coming, and special thanks to our witnesses. 
We appreciate you taking the time to join us today, and we look forward 
to your testimony.
    These are tough times, and although our economic recovery remains 
uncertain, we are encouraged by recent progress and the resilience of 
the American people. Families, workers, and small business owners from 
the great state of New York and across the country are leading us 
toward a more prosperous tomorrow.
    As members of the House Committee on Education and the Workforce, 
we are keenly aware of how closely related education is to the strength 
of the workforce. A student's success in the classroom will help 
determine his or her success in the workplace. The evidence 
overwhelmingly suggests that individuals who fail to advance in their 
education are more likely to be unemployed and earn lower wages.
    Understanding the challenges and opportunities facing local 
communities is critical to ensuring Washington does not stand in the 
way of growth and prosperity. As we work to improve the nation's 
education system and foster a growing economy, it is more important 
than ever to hear from folks on the ground about the challenges and 
opportunities they see in our schools and workforce. That's why we're 
here today.
    We want to learn about the policies that may be standing in the way 
of job creation, right here in Utica. We want to hear your thoughts on 
encouraging academic success in our classrooms, and get your ideas on 
how we can work together--on the local, state, and federal levels--to 
reinvigorate the American spirit of innovation and prepare the students 
of today to succeed in the workforce of tomorrow.
    Again, we are grateful to our panelists for participating in 
today's hearing, and I'm looking forward to getting this discussion 
underway. Let me also thank my committee colleague Richard Hanna for 
his gracious invitation to hold a field hearing here in his district, 
and without objection I now yield to him for his opening remarks.
                                 ______
                                 
    Mr. Hanna. Good morning, and thank you to SUNY IT for 
hosting us here today. Thanks to our distinguished witnesses 
for participating and to everyone in the audience for their 
interest.
    We are very fortunate to have a special guest joining us 
for this event. My colleague and friend sitting next to me is 
Congressman John Kline.
    Congressman Kline serves as the Chairman of the Education 
and Workforce Committee in the House of Representatives. 
Chairman Kline was elected to represent Minnesota's 2nd 
Congressional District in 2002, and was re-elected to a fifth 
term in 2010. Chairman Kline is an undisputed advocate for 
workers and employers and a champion for students, parents and 
teachers. Thank you, Chairman Kline, for joining us today.
    This is an official hearing of the House Committee on 
Education and the Workforce. This is the committee through 
which reforms to the No Child Left Behind law are proposed and 
oversight of initiatives such as Race to the Top occurs.
    Although we are living in some of the most difficult times 
in our history, I am of the opinion that we now have a unique 
opportunity and obligation to reconsider and perhaps reinvent 
how we educate our people.
    The topic of today's hearing is Reviving our Economy: The 
Role of Higher Education in Job Growth and Development.
    We hope to learn about the economic environment of our 
community. In order that we may assist employers who have the 
need and ability to hire, and to suggest means by which we can 
match skill sets, education, and potential employment. We are 
also interested in how local higher education institutions in 
Central New York are fostering job creation, growth, and 
building partnerships with each other and industry to achieve 
the goal of building the best and most talented workforce.
    We all know that our part of New York State has suffered 
from brain drain for many years. And of course, like the rest 
of the country, we are still recovering from the recession. 
Unemployment in the Utica-Rome area remains at around 8 
percent.
    We can change that. We are blessed with dozens of fine 
colleges and universities and burgeoning 21st century 
industries. I hope this hearing will help shine a spotlight on 
some of the collaborative efforts already underway between 
schools and employers, and encourage more in the future.
    One of my top priorities in Congress is to find a way to 
help keep our children here at home. I want all of our children 
and theirs to have the same opportunity that we did, to live, 
succeed, and thrive here in Central New York. That will not be 
possible without the dedicated and thoughtful efforts of our 
higher education institutions, the innovation and 
resourcefulness of our local companies, and the critical 
support of state and county agencies and public officials.
    So let's get the hearing underway. We have two panels of 
witnesses. I would like to recognize Chairman Kline to 
introduce our guests on the first panel.
    [The statement of Mr. Hanna follows:]

   Prepared Statement of Hon. Richard L. Hanna, a Representative in 
                  Congress From the State of New York

    Thank you, Mr. Kline.
    Good morning and thank you to SUNY IT for hosting us here today. 
Thanks to our distinguished witnesses for participating and to everyone 
in the audience for their interest.
    We are very fortunate to have a special guest joining us for this 
event. My colleague and friend sitting next to me is Congressman John 
Kline.
    Congressman Kline serves as the Chairman of the Education and 
Workforce Committee in the House of Representatives. Chairman Kline was 
elected to represent Minnesota's 2nd Congressional District in 2002, 
and was re-elected to a fifth term in 2010. Chairman Kline is an 
undisputed advocate for workers and employers and a champion for 
students, parents, and teachers. Thank you, Chairman Kline, for joining 
us today.
    This is an official hearing of the House Committee on Education and 
the Workforce. This is the committee through which reforms to the No 
Child Left Behind law are proposed and oversight of initiatives such as 
Race to the Top occurs.
    Although we are living in some of the most difficult times in our 
history, I am of the opinion that we now have a unique opportunity and 
obligation to reconsider and perhaps reinvent how we educate our 
people.
    The topic of today's hearing is ``Reviving our Economy: The Role of 
Higher Education in Job Growth and Development.''
    We hope to learn about the economic environment of our community. 
In order that we my assist employers who have the need and ability to 
hire, and to suggest means by which we can match skill sets, education 
and potential employment. We are also interested in how local higher 
education institutions in Central New York are fostering job creation, 
growth and building partnerships with each other and industry to 
achieve the goal of building the best and most talented workforce.
    We all know that our part of New York State has suffered from 
``brain drain'' for many years. And of course, like the rest of the 
country, we are still recovering from the recession. Unemployment in 
the Utica-Rome area remains at around 8 percent.
    We can change that. We are blessed with dozens of fine colleges and 
universities and burgeoning 21st century industries. I hope this 
hearing will help shine a spotlight on some of the collaborative 
efforts already underway between schools and employers--and encourage 
more in the future.
    One of my top priorities in Congress is to find ways to help keep 
our children here at home. I want all of our children and theirs to 
have the same opportunity that we did: to live, succeed, and thrive 
here in Central New York. That will not be possible without the 
dedicated and thoughtful efforts of our higher education institutions, 
the innovation and resourcefulness of our local companies, and the 
critical support of state and county agencies and public officials.
    So let's get the hearing underway. We have two panels of witnesses. 
I would like to recognize Chairman Kline to introduce our guests on the 
first panel.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Hanna.
    Pursuant to Committee Rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our witnesses today. We 
have two distinguished panels of witnesses today and I would 
like to start with the first panel.
    Mr. Anthony Picente is the 10th Oneida County Executive and 
was unanimously appointed by the Oneida County Board of 
Legislators in 2006. During his tenure, County Executive 
Picente has focused his efforts on economic development, 
maintaining infrastructure, consolidation of services, and 
dealing with the numerous unfunded mandates placed on county 
government by New York State. He has led Oneida County through 
troubled economic times, and has reduced the county government 
by over 10 percent to help reduce the burden on taxpayers. 
Despite this reduction, Oneida County has still provided the 
quality services that residents have come to expect.
    Mr. Dave Mathis has been the Director of Oneida County 
Office of Workforce Development for 25 years. Prior to that, he 
served as Deputy Director of Oneida County Office of Employment 
and Training. He has also served as a trustee of Mohawk Valley 
Community College for more than 34 years. He has served as 
Chair of the MVCC Board of Trustees from 1983 to 1987, the 
first MVCC graduate to serve as Chair. Mr. Mathis served once 
again as Chair from 2004 to 2006 and currently serves as Board 
Vice Chair.
    Dr. John Bay is the Chief Scientist of Assured Information 
Security where he oversees their Research and Development 
Program. Prior to joining AIS, Dr. Bay was a member of the Air 
Force's Scientific and Professional Cadre of Senior Executives, 
and served as the Chief Scientist of the Information 
Directorate of the Air Force Research Laboratory in Rome, New 
York. Before his career in the Air Force, Dr. Bay was a Program 
Manager in the Information Exploitation Office of the Defense 
Advanced Research Projects Agency, Arlington, Virginia; a 
Tenured Professor of Electrical and Computer Engineering at 
Virginia Polytechnic Institute and State University, 
Blacksburg, Virginia; and an Engineering Fellow at the Raytheon 
Corporation.
    Welcome to you all. We are using a timing device here. Let 
me just go over that again, one more time.
    There is a little box here in front of the witnesses. When 
you start your testimony Daniela will start a timer, there will 
be a green light on for about four minutes and a yellow light 
for one minute, then a red light. And we would ask you to try 
to wrap up your testimony shortly after the red light comes on.
    Okay. With that, Mr. Picente, you're recognized.

             STATEMENT OF ANTHONY J. PICENTE, JR.,
                COUNTY EXECUTIVE, ONEIDA COUNTY

    Mr. Picente. Thank you, Chairman Kline, thank you 
Representative Hanna, and all who are gathered here today.
    My name is Anthony J. Picente, Jr., and I have had the 
honor to serve this county as their County Executive since 
2007. I welcome you here today and thank you for hearing our 
testimony and for allowing us in Herkimer and Oneida County to 
have our voices heard.
    As County Executive since 2007, and having worked in 
government for three decades, I have a strong background in 
working with employers and our community college. And also have 
the distinction of being the first graduate of MVCC to become 
Oneida County Executive.
    As Regional Administrator for the New York State Labor 
Department serving ten counties in the late 1990s and early 
part of this century, I helped lead the transformation of what 
was known as the Unemployment Office to the One-Stop System of 
Workforce Development. I've worked with CEOs across this county 
to understand their needs from what it takes to hire a skilled 
workforce and in developing financial incentive packages to 
help them grow.
    For another five years I served as vice president and 
regional director for Empire State Development Corporation, the 
State's arm for economic development. And with Empire State 
Development serving six counties, my office was involved in 
numerous projects resulting in millions of dollars in State 
assistance and leading to the creation of over 3,700 new jobs 
and the retention of over 1,300 existing jobs--13,000, excuse 
me.
    Successful economic development not only requires that we 
create shovel-ready sites, but also development of a workforce 
that can fill the plant the day that it opens. Our Workforce 
Development and Educational System must be ready to handle the 
challenges that are on our horizon. We cannot simply expect 
that the workforce of the future will develop on its own. We 
need to work differently.
    Let me tell you one anecdote about our region, and how we 
have worked collaboratively to help grow an important sector.
    Several years ago, Empire Aero, an aircraft repair firm 
located here. As those of us at the regional level looked at 
the economic potential of that sector, not just the one 
employer, we realized that we did not need to just create a 
course, train a few people and hope for the best. We needed a 
well-developed, intentional plan so that this sector could grow 
to its own potential, regardless of whether we had one or ten 
employees in the area.
    That process brought together a number of partners. These 
partners included Mohawk Valley EDGE, our economic development 
agency, the Workforce Investment Board, Oneida County Office of 
Workforce Development, the New York State Department of Labor, 
Empire State Development and Mohawk Valley Community College. 
The college looked at this workforce issue as an opportunity to 
increase our region's training capacity. MVCC went far beyond 
the needs of the moment by creating a full program aimed at the 
Airframe and Power plant credentials needed in the industry, a 
program that is still going strong. We all probably crossed 
over into one another's sphere of authority about a hundred 
times in the course of the process, but that is why the process 
worked. In the end, the entire partnership was developing the 
workforce for this sector, which is why even after the initial 
employer who started this chain of events has transitioned from 
the region, we still have a successful and growing sector, as 
well as programs that are meeting the needs of our employers.
    We built something from scratch to serve the needs of our 
region, and we have been successful because every partner 
invested time and resources.
    I think there is a very strong message in that, and one I 
wish to focus upon. I want to make sure that we are doing the 
same to meet the needs of employers and create a skills base 
that will enable us to attract new industry.
    For example, our region is working hard with a tremendous 
show of perseverance to develop a site right near this hearing 
that can become a nanotechnology facility. We are up to our 
ears in permitting and infrastructure and all of the other 
pieces of a major economic development project.
    At the same time, staff from our workforce system, Mohawk 
Valley Community College, Herkimer County Community College, 
Utica School of Commerce, SUNY Institute of Technology, and 
others, have been meeting to discuss how we can adapt current 
career pathway models to continually raise the bar in programs 
that lead towards advanced manufacturing. I think it says 
volumes about the commitment of our colleges and our workforce 
system that a partnership of staff members from both systems 
have been behind virtually every successful training grant 
project in the last few years. Not every partner gets a 
windfall on every project, but the partnership endures and our 
efforts become stronger due to all of this effort.
    From Oneida County, the stakes are getting higher and the 
challenges are growing. We know the day we enter the 
nanotechnology business there will be some very strong demands 
for some very high-skilled people. Whether our training 
programs build partnerships or try to refine ways to move 
training under the broad nanotechnology umbrella, the 
preliminary infrastructure for those training programs is being 
built through our workforce system and our colleges.
    It's slow going because this is one more task on top of 
many others. I believe this represents one of the great 
challenges facing our community; with understandably limited 
resources, how does a medium-sized community such as ours 
embark upon the capacity building it needs to do in order to 
develop a workforce, development education and training, and 
infrastructure that keeps pace with the needs of the future? 
Developing quality technical and professional curriculum is 
neither easy nor quick; however, it is essential.
    If we really want to plan for the future of our economy and 
build a system of postsecondary training and education that 
works, then we need to invest in that effort with strong 
federal leadership and support. One of the ways that all of us 
at all levels of government can address the reality that there 
are more needs than we can ever fully fund, is to ease 
regulatory burdens and mandates so that the agencies and 
governments on the front lines of delivering services, those 
who know best what is needed, can react and respond without 
being constrained by rules imposed with the best intentions 
that end up being burdens.
    One of the reasons we are here in the first place is that 
community colleges are able to operate with maximum flexibility 
because the decision-making capability is close to the 
community. Each community faces at least one complex problem 
that is so unique to their region that no best practice is 
going to work. Let's empower communities to tackle those issues 
and develop the capacity to create workforce and training 
solutions.
    We are living in revolutionary times. The Mohawk Valley 
economy must adapt to global economic changes and a demographic 
shift creating urgent needs to help upgrade workforce 
preparation for all segments of our population.
    Educating a workforce that requires extensive postsecondary 
education and training will not happen overnight, but we are 
working overtime to be ready for the day when opportunity 
arrives.
    We continue to look at every possible way to maximize the 
skills of the workers we have, the potential of those in 
transition and the educational achievement of those who have 
not yet graduated.
    Workforce development is cornerstone of economic 
development. Just as the jobs of the Industrial Revolution grew 
up around natural resources such as water, the jobs of the 
knowledge revolution of the 21st Century will cluster in 
regions that can provide a diverse, trained and highly 
motivated workforce.
    The strategies and programs we develop as part of our 
partnership between the workforce system and community college 
system will do more than shape the future of our economy; they 
will shape the lives of the Mohawk Valley's future generations.
    [The statement of Mr. Picente follows:]

 Prepared Statement of Anthony J. Picente, Jr., Oneida County Executive

    Good morning. My name in Anthony J. Picente, Jr., and I have the 
honor to serve the people of Oneida County as their County Executive. I 
wish to welcome you today and thank you for hearing our testimony and 
allowing us in Herkimer and Oneida Counties to have our voices heard. 
As the County Executive since 2007, and assistant to a prior county 
executive for five additional years in the early 1990s, I have a strong 
background in working with employers and our community college.
    As Regional Administrator for the New York State Labor serving ten 
counties in the late 1990s and early part of this century, I led the 
transformation of what was known as the unemployment office to the One 
Stop System of Workforce development. I've worked with CEOs across this 
county to understand their needs from what it takes to hire a skilled 
workforce and in developing financial incentives packages to help them 
grow.
    For the next five years I served as Vice President and Regional 
Director for Empire State Development Corporation, the state's arm for 
economic development. With Empire State Development serving six 
counties my office was involved in 87 projects resulting in over $29 
million of state assistance. These projects led to the creation of over 
3700 new jobs and the retention of over 13,000 existing jobs.
    Successful economic development not only requires that we create 
shovel ready sites, but also develop and attract the work force that 
can fill the plant the day it opens. Our work force development and 
educational system must also be ready to handle the challenges that are 
on our horizon. We cannot simply expect that the workforce of the 
future will develop on its own. We need to work differently.
    Several years ago, Empire Aero--an aircraft repair firm--located 
here. As those of us at the regional level looked at the economic 
potential of that sector--not just the one employer--we realized that 
we did not need to just create a course, train a few people and hope 
for the best. We needed a well-developed, intentional plan so that this 
sector could grow to its full potential, regardless of whether we had 1 
or 10 employers in the area.
    That process brought together a number of partners. These partners 
included Mohawk Valley EDGE, our economic development agency, the 
Workforce Investment Board, Oneida County Workforce Development, The 
New York State Department of Labor, Empire State Development and Mohawk 
Valley Community College. The college looked at this workforce issue as 
an opportunity to increase our region's training capacity. MVCC went 
far beyond the needs of the moment by creating a full program aimed at 
the Airframe and Power plant credentials needed in the industry--a 
program that is still going strong. We all probably crossed over into 
one another's sphere of authority about a hundred times in the course 
of the process, but that is why the process worked. In the end, the 
entire partnership was developing the workforce for this sector, which 
is why even after the initial employer who started this chain of events 
has transitioned from the region; we still have a successful and 
growing sector as well as programs that are meeting the needs of 
employers. We built something from scratch to serve the needs of our 
region, and we have been successful because every partner invested time 
and resources.
    I think there's a very strong message in that, and one I wish to 
focus upon. I want to make sure that we are doing the same to meet the 
needs of employers and create a skills base that will enable us to 
attract new industry. For example, our region is working hard with a 
tremendous show of perseverance to develop a site right near this 
hearing that can become a nanotechnology facility. We are up to our 
ears in permitting and infrastructure and all of the other pieces of a 
major economic development project.
    At the same time, staff from our workforce system, Mohawk Valley 
Community College, Herkimer County Community College, the Utica School 
of Commerce, SUNY Institute of Technology and others have been meeting 
to discuss how we can adapt current career pathway models to 
continually raise the bar in programs that lead towards advanced 
manufacturing. I think it says volumes about the commitment of our 
colleges and our workforce system that a partnership of staff members 
from both systems have been behind virtually every successful training 
grant project in the last few years. Not every partner gets a windfall 
in every project; but the partnership endures and our efforts become 
stronger due to all of this effort.
    For Oneida County, the stakes are getting higher and the challenges 
are growing. We know the day we enter the nanotechnology business there 
will be some very strong demands for very high-skilled people. Whether 
our training programs build partnerships or try to refine ways to move 
training under the broad nanotechnology umbrella, the preliminary 
infrastructure for those training programs is being built through our 
workforce system and our colleges.
    It's slow going because this is one more task on top of many 
others. I believe this represents one of the great challenges facing 
our community: with understandably limited resources, how does a 
medium-sized community such as ours embark on the capacity building it 
needs to do in order to develop a workforce development education and 
training infrastructure that keeps pace with the needs of the future? 
As our economy is requiring higher and higher skills, the capacity of 
our systems to deliver those skills must continue to grow.
    When the One-Stop System began, one central precept was to be ready 
to respond to employers. Even in the short time since WIA was adopted, 
that has taken on new meaning. Employers are now demanding--and 
needing--employees who cannot be trained in days or weeks, but require 
months or in some cases years. I believe that efforts to help regions 
build the capacity to deliver high-level skills training and 
postsecondary education are every bit as essential as the training 
provided to people in need. Developing quality technical and 
professional curriculum is not the same as hiring a machinist to teach 
a course in running an old-fashioned milling machine. However, support 
for those kinds of efforts is not consistent. If we really want to plan 
for the future of our economy and build a system of postsecondary 
training and education that works, then we need to invest in that 
effort. As someone who has to live within a budget and say the word 
``no,'' I'm not going to tell you the answer is in billions of new 
federal dollars. However, the way we invest resources should align with 
our critical priorities, and I am convinced that investments to build 
capacity are a critical priority to develop key growth sectors in our 
region, or any region.
    Management is the art of getting things done. We all have different 
styles. I commend the attention all of you must pay, when making 
allocations, to ensuring that there is strict accountability for the 
money the government spends. I'm a taxpayer. I want my money used 
wisely. I also know that flexibility is a vital element to success. As 
this committee looks at the Workforce Investment Act for refinements 
and updates, I strongly encourage you to provide the local Boards that 
make up the system with the greatest possible degree of flexibility to 
set needs and priorities. One of the ways that all of us at all levels 
of government can address the reality that there are more needs than we 
can ever fully fund is to ease regulatory burdens and mandates so that 
the agencies and governments on the front lines of delivering 
services--those who know best what is needed--can react and respond 
without being constrained by rules imposed with the best of intentions 
that end up being burdens. One of the reasons we are here in the first 
place is that community colleges are able to operate with maximum 
flexibility because the decision-making capability is close to the 
community. One of the two key partners in the workforce-college system 
can move fast. In a private sector world where employers move fast, all 
parts of the system need the flexibility to be innovative and creative. 
Each community faces at least one complex problem that is so unique to 
that region that no best practice is going to work. Let's empower 
communities to tackle those issues and develop the capacity to create 
workforce and training solutions.
    We are living in revolutionary times. The Mohawk Valley economy 
must adapt to global economic changes and a demographic shift creating 
urgent needs to upgrade workforce preparation for all segments of our 
population.
    Educating a workforce that requires extensive postsecondary 
education and training will not happen overnight, but we are working 
overtime to be ready for the day when opportunity arrives.
    We continue to look at ever possible way to maximize the skills of 
the workers we have, the potential of those in transition and the 
educational achievement of those who have not yet graduated.
    We will need to develop programs that learn from the past and focus 
on the changing demographics of our communities, so that we are not 
just providing one-shot training, we are engaging lifelong learners.
    Workforce development is the cornerstone of economic development. 
Just as the jobs of the Industrial Revolution grew up around natural 
resources such as water, the jobs of the knowledge revolution of the 
21st Century will cluster in regions that can provide a diverse, 
trained, highly motivated workforce.
    The strategies and programs we develop as part of our partnership 
between the workforce system and community college system will do more 
than shape the future of our economy; they will shape the lives of the 
Mohawk Valley's future generations.
                                 ______
                                 
    Chairman Kline. Mr. Mathis.

              STATEMENT OF DAVID MATHIS, DIRECTOR,
              ONEIDA COUNTY WORKFORCE DEVELOPMENT

    Mr. Mathis. Thank you for allowing me to give this 
testimony. I look forward to being in front of you this morning 
to testify. This is a unique opportunity for me and I 
personally thank you.
    However, when you sit next to your boss, you know that 
you're under immense pressure not to screw up because you might 
get called into his office later on today. So let me get to my 
testimony.
    Good morning. My name is David Mathis. I am director of 
workforce development for Oneida County. I have more than 30 
years of experience in Workforce Development, and have been 
director of Oneida County Office of Workforce Development for 
25 years. I am also a trustee of Mohawk Valley Community 
College, a position that I have held for over 34 years; two 
hats, however, does not mean two perspectives. Both the 
workforce system and the community college system are vital 
parts of Oneida County workforce partnership, and the 
collaboration runs so deeply that without both systems, the 
workforce, the present and the emerging one of the future, will 
be hard-pressed to succeed.
    At a time when middle skills jobs in New York are projected 
to increase 38 percent, the highest of all skill levels, strong 
community college workforce linkages are essential to meet the 
needs of our employers and communities. Our system of One-Stop 
career centers is a great resource to help guide workers 
towards new career pathways and to help them find future 
employment, but the community colleges are the backbone of our 
public workforce system's training mission. Through our close 
partnerships with the community college system, we prepare our 
workforce for lucrative job opportunities that can lead to 
life-long careers in high growth and emerging industries such 
as healthcare, technology, and clean energy.
    One of the pitfalls of discussing workforce issues is we 
end up in the minutia of formulas and acronyms to the extent 
where the point of our work is lost.
    I want to start at the root of our purpose. To that end, 
let me share this quote from Franklin Delano Roosevelt, who was 
speaking at a time much likes ours, its workforce system roots 
are in the Great Depression, so that a time much like ours, 
when people who lived up to their end of the bargain with 
society one day woke up and found the economy had changed and 
left their lives as collateral damage.
    Roosevelt said: Not only our future economic soundness but 
the very soundness of our democratic institutions depends on 
the determination of our government to give employment to idle 
men.
    The system was founded to connect people with work, it 
continues to pursue that goal, since the inception of the 
Workforce Investment Act, WIA.
    We have One-Stops in Oneida County downtown, and in a 
downtown office building in Rome that serves the needs of 
Griffiss and western Oneida County, and one in Utica's State 
Office Building which serves the eastern end of the county. 
These centers are the major points of contact between our 
system and job-seekers who are looking for work. In 2009-2010 
program year, more than 12,000 people were served at these 
centers. For a point of reference, that's a little over 10 
percent of the civilian labor force as measured by U.S. census. 
Let me stress that. One in 10 people in the civilian labor 
force of Oneida County came to a One-Stop Center, mostly due to 
unemployment.
    It's important to know who those people are. Sixteen 
percent of laid off workers did not have a high school diploma. 
Fifty-eight percent of laid off workers had education no higher 
than a high school diploma or a G.E.D. Eleven percent had 
either an associate's degree or bachelor's degree. Twenty-eight 
percent will work for their employer twenty to thirty years. 
Forty-eight percent were between the ages of thirty and fifty. 
In short, the people we see are people who have more barriers 
to employment than the average population. That's why they are 
at the One-Stops. They do not have a safety net of contacts, 
they have us.
    When they enter our One-Stops, we provide old-fashioned 
case management and counseling for workers who have no idea 
what to do with the next 20 to 30 years of their working lives, 
along with practical steps to find jobs. The people we serve 
are those who are less likely to find employment without our 
assistance.
    The traditional role of our One-Stops is to work very 
closely in connecting these people with employment. We also 
note the employers who have done focus groups, that they need 
people who have skills, the levels for adults who either have 
lost their jobs in the past few years, or those who have never 
successfully held a job. Employers want new hires with some 
very important qualifications, strong math skills that equate 
to roughly the level of algebra, strong technology skills to 
operate precision equipment, strong I.T. skills, strong science 
skills, strong writing skills, and strong reading skills. And 
all of these areas employers are responding to the changing 
face of work. The only way to get the skills employers demand 
is to get to a postsecondary or adult training course and learn 
them. The message from employers is very clear, they do not 
want us to train for job titles, they want training to prepare 
their workers for learning and doing. They want what a 
community college that's created to provide a combination of 
skills and theory that will not fade away at the next 
technological change.
    The past ten years have been a time of increased 
partnership between our colleges and our workforce system.
    Here at SUNY IT, the workforce development board and SUNY 
IT staff have worked with the concept of information technology 
apprenticeships in a project that had a 90 percent placement 
rate, and has served as a pilot for other efforts focusing 
training on employment competencies taught in any class instead 
of the more traditional college classes.
    In Madison County, the Renewable Energy Training Center at 
Morrisville State College was launched because of the 
partnership between the college and workforce system.
    In Herkimer County, Oneida County Workforce Development 
staff networked with the college to include Herkimer County-
based training options in the health care and technology 
training projects.
    Mohawk Valley Community College has been a centerpiece of 
our college-workforce efforts. When we wanted to power the 
concept of training disconnected youth in green careers, MVCC 
created a project that not only renovated facilities in 
downtown Rome and downtown Utica. We also had 70 percent of our 
young adults, who were ages 19 to 24, either enter employment 
or ended up going to college full-time. MVCC has been the home 
of our summer youth program for the last 15 years, where we 
bring disconnected youth onto the college campus to qualify for 
summer employment.
    All of our efforts with our four colleges have been 
strategic; however, community colleges are ideally suited to be 
partners in our workforce system, they can best move our 
customers from either being under-qualified or outdated to the 
level that they need to be, whether that means short-term 
training, certificate programs, degree programs, transfer 
programs, or a combination of on-line and in-person courses. 
The rich texture of opportunities offered at community colleges 
is unrivaled.
    However, we do need the support of this committee. It's 
about time that the Workforce Investment Act was renewed. It's 
been coming, and we look for support from this committee to 
move that effort forward. And we would like to see a strong 
connection to higher education in any reauthorization that 
occurs.
    And I thank you for this opportunity to testify.
    [The statement of Mr. Mathis follows:]

Prepared Statement of David Mathis, Director of Workforce Development, 
                             Oneida County

    Good morning. My name is David Mathis. I am the Director of 
Workforce Development for Oneida County. I have more than 30 years of 
experience in workforce development, and have been director of the 
Oneida County Office of Workforce Development for 25 years. I am also a 
trustee of Mohawk Valley Community College, a position I have held for 
over 34 years now. In my testimony, I will discuss the employment, 
training and education issues facing our region and our society wearing 
both hats. Two hats, however, does not mean two perspectives. It is 
important for me to note at the outset that both the workforce system 
and the community college system are vital parts of our Oneida County 
workforce partnership, and the collaboration runs so deeply that 
without both systems, the workforce of the present and the emerging one 
of the future will be hard-pressed to succeed. At a time when middle 
skills jobs in New York are projected to increase 38%--the highest of 
all skill levels--strong community college-workforce linkages are 
essential to meet the needs of our employers and communities. Our 
system of One-Stop Career Centers is a great resource to help guide 
workers towards new career pathways and to help them find future 
employment, but the community colleges are the backbone of our public 
workforce system's training mission. Through our close partnerships 
with the community college system, we prepare our workforce for 
lucrative job opportunities that can lead to life-long careers in high 
growth and emerging industries such as healthcare, technology and clean 
energy.
Oneida County Workforce Development/Background
    One of the pitfalls of discussing workforce issues is that we end 
up in the minutiae of formulas and acronyms to the extent where the 
point of our work is lost. I want to start at the root of our purpose. 
To that end, let me share this quote from Franklin Delano Roosevelt, 
who was speaking at a time much like ours--when people who lived up to 
their end of the bargain with society one day woke up and found the 
economy had changed and left their lives as collateral damage.
    Roosevelt said: ``Not only our future economic soundness but the 
very soundness of our democratic institutions depends on the 
determination of our government to give employment to idle men.''
    Ronald Reagan said it with less of a flourish when he said: ``I 
think the best possible social program is a job.''
    Both presidents reflect the pivotal role of the workforce system--
to get people working so they can have better lives, and we can have a 
stronger society. That is our goal, our mission and our guiding 
purpose. Oneida County has four main elements to our system:
    1. Our One-Stop Centers located in Utica and Rome
    2. Our community-based programming
    3. Education & Training Programs
    4. Our youth programming
    We have One-Stops in an Oneida County downtown office building, to 
serve the needs of Griffiss and western Oneida County, and one in 
Utica's State Office Building, which serves the eastern end of the 
county. These centers are the major points of contact between our 
system and job-seekers out looking for work. In the 2009-2010 Program 
Year, more than 12,000 people were served at these centers. For point 
of reference, that's a little over 10 percent of the civilian labor 
force as measured by the U.S. Census. Let me stress that. One in 10 
people in the civilian labor force of Oneida County came to a One-Stop 
Center, mostly due to unemployment.
    It's important to know who these people are. Let's be honest about 
the world of work. Networking is the most important way to get a job. 
Depending upon which study you read, between a third and half of all 
hires are made because a job-seeker knew someone who could steer them 
to a job, put in a good word, or otherwise open a door. The people who 
come to One-Stops who need help are the ones who don't have those 
connections. Some local data from last year helps paint a picture of 
who comes in our door:
    <bullet> 16.3% of laid off workers did not have a high school 
diploma, compared with 13.4% of the state overall.
    <bullet> 58% of laid off workers had education no higher than a 
high school diploma or GED, as opposed to 47.6% statewide.
    <bullet> 11% had either an associate's or bachelor's degree, as 
opposed to 16% statewide.
    <bullet> 28% had worked for their employer 20 to 30 years as 
opposed to 19% statewide;
    <bullet> 48% were between the ages of 30 and 50; far higher than 
the statewide figure of 34%
    In short, the people we see are the people who have more barriers 
to employment than the average population. That's why they are at the 
One-Stop. They do not have a Safety Net of contacts--they have us.
    When they enter our One-Stops, we provide core services available 
to anyone who enters the door. These include assessments of knowledge, 
skills and abilities, job search and placement assistance. Some of what 
we do is old-fashioned case management and counseling for workers who 
have no idea what to do with the next 20 to 30 years of their working 
lives. We provide an array of seminars about the process of finding 
work--from how to write a resume to how to deal with job interview 
questions. Partners at the One-Stops help out with the referrals and 
services they provide. For example, MVCC uses the One-Stop as a prime 
place to recruit out-of-work men and women for training programs.
    Our region operates One-Stops in Herkimer, Madison and Oneida 
Counties under the Working Solutions brand, with a commitment to 
combine the best of high-tech delivery of information and services 
along with personal counseling by trained experts. Working Solutions 
services include employment, career information, education and 
training, vocational rehabilitation, financial aid and scholarship 
assistance, information on hiring incentives and information on the 
latest grants to help upgrade employee skills. For employers, Working 
Solutions offers recruitment and screening of job applicants, 
computerized matching of job requirements and skills with Working 
Solutions' pool of thousands of applicants, information on hiring 
incentive programs and tax credits, resources to support the training 
of new hires and to upgrade the skills of existing workers, education 
and wage information, assistance to workers impacted by downsizing, 
interviewing and meeting space and more.
    For job seekers, Working Solutions offers a fully equipped Resource 
Room to access job listings on line and in print, workshops and 
seminars to help improve work skills, information on quality jobs with 
a future, education and training resources, and the one-to-one 
assistance of workforce professionals to craft and individualized job 
search strategy.
    In addition to people who have lost a job, the One-Stop Centers and 
One-Stop System are a vital part of the effort to find jobs for adults 
who may never have been employed. Let me be blunt. This population 
includes ex-offenders, disconnected youth and adults who may never have 
worked and may never have made it out of high school, as well as men 
and women whose lives have fallen apart along the way. The titles of 
two programs operated in our area say a lot: the Workforce Investment 
Board's ``Second Chance'' project for ex-offenders and my office's 
``Jobs and Hope'' project for the homeless. These programs are not all 
we offer. Major efforts include:


------------------------------------------------------------------------
   Program      Who funds it      Who it serves         What it does
------------------------------------------------------------------------
Green Careers  NY Dept. of    Offenders, adults,    Training in green
                Labor          disconnected youth    occupations with
                               aged 19-24            case management,
                                                     support services.
------------------------------------------------------------------------
Re-Entry Task  NYS Division   Adult state           Case management,
 Force          of Criminal    parolees, returnees   referral,
                Justice        from state prison,    counseling, job
                Services       other offenders       search assistance
------------------------------------------------------------------------
Life Skills    Federal        County jail inmates   Teaches life skills/
 Program        Workforce      under age 25          GED, referral to
                Investment                           community for
                Act, County                          support services,
                funding                              job search
------------------------------------------------------------------------
CareerLink     US Dept. of    Young adults 16-25    Provides skills
                Education,     with a disability,    training, job
                Projects       serves offenders as   placement, job
                With           part of the           retention
                Industry       population.
                Grant
------------------------------------------------------------------------
Second Start   Oneida         Older youth, 19-21,   Case management,
                County, WIA,   with no diploma/GED   referral,
                state grant    or low basic skills   counseling, job
                                                     search help,
                                                     education
                                                     assistance.
------------------------------------------------------------------------
Second Chance  NYS            Adult ex-offenders,   Case management,
                Department     with focus on those   referral,
                of Labor       leaving County        counseling, job
                               Jail.                 search assistance,
                                                     mentoring.
------------------------------------------------------------------------
Probation      Oneida County  Youth 16-21 who have  Case management,
 Employment     Youth Bureau   interacted with the   counseling, job
                               juvenile justice      search assistance,
                               system                assistance
                                                     completing school.
------------------------------------------------------------------------
Jobs & Hope    HUD            Homeless adults       Case management, job
                                                     search
------------------------------------------------------------------------
Jail-to-       Oneida County  Youth 19-21 who have  Case management,
 Community      Youth Bureau   interacted with the   referral,
                               justice system        counseling, job
                                                     search assistance,
                                                     GED referrals.
------------------------------------------------------------------------
YouthBuild     USDOL          High-risk youth 19-   Construction skills
                               24                    training,
                                                     placement, support
                                                     services
------------------------------------------------------------------------
Wheels for     NY Office of   Low-income area       State-funded project
 Work           Temporary      residents             to connect entry-
                and                                  level workers with
                Disability                           transportation
                Assistance
                (OTDA)
------------------------------------------------------------------------
Wage Subsidy   OTDA           Low-income adults     Provides wage
 Program                                             subsidy for adults
                                                     entering employment
------------------------------------------------------------------------
Career         OTDA           Low-income adults/    Provide training,
 Pathways                      older youth           supports for
                                                     Pathways Training
                                                     to help adults,
                                                     youth enter good-
                                                     paying jobs.
Renewable      USDOL/NYSDOL   Adults/youth          Regional project to
 Energy Task                                         convene partners to
 Force                                               support green jobs
                                                     in biofuels &
                                                     construction
------------------------------------------------------------------------
CyberJobs      USDOL          Adults                Regional project to
 (MVCC)                                              develop the IT
                                                     sector
------------------------------------------------------------------------

    The people we serve in these community partnership programs are 
much less likely to come into the One-Stop, because they've interacted 
with government in the past--school, military, justice system, social 
services system, and they don't want to see it again, even if they need 
it. That's why our workforce system developed strong community 
partnerships to meet the needs of these high-needs, high-risk 
customers. Many, such as the young adults in the WIB's YouthBuild 
project, are part of our system without ever going in our centers. Our 
system brings its services into the community. A few years ago, we 
successfully were awarded a federal grant to provide Life Skills 
training to offenders in the Oneida County Jail., and although funding 
to support this effort has all but dried up, we have maintained a small 
presence to start offenders on the road to employment before they ever 
leave the jail.
    That's not the traditional role of a workforce system, but we have 
adapted the system to serve as the community connecting point for 
various systems that need employment to succeed. For example, 
employment is the critical factor in offender recidivism, yet until our 
efforts began in the past five years, there was little community 
outreach focused on employment. This is not just a community issue. An 
Urban Institute study, ``Employment Dimensions of Reentry,'' suggested 
that 30% of the annual growth of the labor force is due to offenders 
leaving institutions and looking for work. Oneida County Workforce 
Development has had a unique role, along with the Workforce Investment 
Board, in bringing partners together to serve populations like 
offenders, the homeless, and young adults with minimal education and 
skills. We have done so through securing state and federal grants that 
provide an added layer of services on top of what we already provide 
through the One-Stop Centers. Even before declining funding required 
new alliances, we have been forging partnerships because the people we 
serve have needs that overlap traditional funding silos.
    Training and education are vital parts of making anyone ready for a 
better job. Our workforce system has taken a broad, regional view to 
providing training in health care, renewable energy and technology in 
partnership with our local colleges, chiefly our community colleges. 
It's a pretty simple formula. We ask employers what they need, we ask 
our colleges to adapt what they do to meet those needs, and we work to 
secure grant funding that lets us establish creative, flexible 
programming that focuses on the needs our employers have expressed. 
Over the past 10 years, we have totaled about $10 million in training 
scholarship funds alone that have helped workers acquire degrees and 
advanced higher certifications. This successful formula is facing some 
serious strains, because so much of what employers want is now getting 
to be costlier and require more training time. It's an accepted truth 
that most jobs being created in our economy require some type of 
postsecondary training. It's also a fact of life that the national 
average for community colleges is that about 23% of people who enroll 
(adults, traditional students, everyone) completes a degree in three 
years. It's also a fact of life that funding to support training and 
education has not kept pace with costs. This brings us to a situation 
where the training adults need may be too costly, take more time than 
they can afford to spend in training, and require developmental courses 
to fill holes in an academic background that might be 5 to 15 years in 
the past. The area of developing new, innovative, shorter term 
programming to move adults like those I mentioned earlier through 
training and education at a faster pace with a lower cost is a critical 
challenge to our system, because until we can do that, we cannot fully 
meet the needs of our employers.
    Having worked in the area of workforce development for 30 years, I 
can say without reservation that the Summer Youth Employment Program is 
one of the most important programs our governments can offer. A strong 
Summer Youth Employment Program can help low-income, unemployed youth 
get their first job, and point them towards increased academic and 
career success. The Center for Labor Market Studies at Boston 
University has made it very clear, year after year, that the job market 
for youth is drying up, and that lines of class and race separate those 
who find work through family connections from those who never get jobs 
because they don't have those connections. Our Summer Youth Employment 
Program, historically financed through TANF dollars annually 
appropriated by the state of New York, annually gets 800 or more 
applications for 300 or fewer slots. This program, which serves youth 
below 200% of poverty, is an important part of helping young people 
learn the lessons that come with work. We need to have a national 
investment in this effort. The youth who flood our program--mostly 
minority, all low-income--are the backbone of the emerging workforce. 
We use Workforce Investment Act funding to augment this and support 
year-round programs that offer summer sessions. This is what two of the 
youth we served this past summer said back then:

          ``My teachers in the Upward Bound Program taught me things 
        that I need to know and learn, and we all worked together as a 
        team to get the job done. When I got paid, I bought things that 
        I needed like clothes, things for school, and food for my 
        family and me. It was very helpful to get money to buy what I 
        need and not have to ask my parents all the time.''
                                                        Rebecca Di.
          ``I loved this opportunity because we worked hard and got 
        paid for it. We earned it, and that's what life is mostly 
        about. I bought many things with the money I earned, like 
        materials for school.''
                                                          Ehle Tha.
    This is what we do at Workforce Development: We provide those 
looking for work with the vital connections no one else can give them, 
and we start those looking for careers along a path that can help them 
succeed in life.
Employment opportunities
    At this point in our regional economic cycle, ripples of the 
recession are still dominant. The national economic recession continued 
a long-established trend of contraction in the manufacturing sector, 
while sectoral growth was chiefly in health care and technology. Within 
these broad trends, there are areas--such as human services or 
hospitality--that have experienced growth due to growth of either a 
major employer or several large ones. The aviation sector had a boom 
with Empire Aero, a lull when that employer left, and is now growing 
strong with new employers in the picture.
    Of greatest concern for our workforce system is the disconnect 
between what employers indicate through focus groups they will be 
needing as the recovery takes hold, and the skills levels of adults who 
have either lost jobs in the past few years or who have never 
successfully held a job.
    Overall, employers want new hires with some very important 
qualifications:
    <bullet> Strong math skills that equate to roughly the level of 
algebra
    <bullet> Strong technology skills to operate or oversee precision 
equipment in a manufacturing environment.
    <bullet> Strong IT skills to oversee networks, security and systems 
work in a service sector environment.
    <bullet> Strong science skills in health care, manufacturing and 
renewable energy sectors.
    <bullet> Strong writing skills to communicate with internal and 
external customers
    <bullet> Strong reading skills to understand e-mails and 
instructions
    In all of these cases, employers are responding to the changing 
face of work. Within my lifetime, a high school graduate was able to 
find a job--a good-paying job--and stay with that employer for decades. 
Training took place when a new machine arrived. Now, change is such a 
constant that only with a strong set of foundation skills can anyone 
ride the changes that are taking place in every sector of our economy. 
The only way to get the skills employers demand is to get to a 
postsecondary or adult training course and learn them. Community 
colleges have the very unique position of covering the range of skills 
that are so vital to the economic well-being of this region, and our 
country. That is why we need such strong efforts to link workforce 
programs with community colleges. I have tremendous respect and 
admiration for the adult education efforts provided locally by our 
Board of Cooperative Education Services (BOCES) and in other states by 
adult education providers. They are essential partners to bring the 
lowest-skills, highest-need adults to the level where they can 
participate in vital postsecondary programs. But the needs of our 
employers are such that we cannot expect success in a training 
continuum that stops short of a college campus. The message from 
employers is very clear: They do not want us to train for job titles: 
They want training to prepare their workers for learning and doing. 
They want what a community college is created to provide--a combination 
of skills and theory that will not fade away at the next technological 
change.
College partnerships
    The past 10 years have been a time of increased partnerships 
between our colleges and the workforce system. Funding secured through 
grants by Oneida County Workforce Development and the Workforce 
Investment Board has helped us develop partnerships with a number of 
our local colleges.
    1. Here at SUNY Institute of Technology, the WIB and SUNY IT staff 
worked to developed the concept of Information Technology 
apprenticeships in a project that had a 90 percent placement rate, and 
that has served as a pilot for other efforts to focus training on the 
employment competencies taught in any class instead of the more 
traditional college course catalog approach. Although most of the 
training efforts that are the major focus of our work take place at 
lower skill levels that those taught at SUNY IT, the college has 
remained a valuable strategic partner in all of our project development 
efforts, so that as we build career pathways, they can lead to the 
higher degrees offered at this campus.
    2. Over in Madison County, the Renewable Energy Training Center at 
Morrisville State College was launched because of the partnership 
between the college and workforce system.
    3. One county to the east, in Herkimer County, Oneida County 
Workforce Development staff have networked with the college to include 
Herkimer County-based training options in health care and technology 
training projects.
    4. Mohawk Valley Community College has been the centerpiece of our 
college-workforce efforts. For example, our Summer Youth Employment 
Program is entirely based at MVCC, which means our local high school 
youth have exposure to a college campus just from work readiness 
activities that are an integral part of our program. MVCC piloted a 
project called Ready, Set College to increase the numbers of young 
people getting a college degree before seeking work. That transitioned 
into an Upward Bound project that now functions as part of our summer 
workforce youth programming. When we wanted to pilot a concept for 
training disconnected youth in ``green careers,'' MVCC converted the 
concept into a summer program and created a project that not only 
renovated facilities in downtown Rome and downtown Utica, we also had 
about 70 percent of our young adults (aged 19-24) either employed or 
going to college full-time.
    5. All four of these colleges send staff to strategic planning 
sessions that outline how we can respond to employer needs in ways that 
fit the needs they see as well as the programs they offer. The dialogue 
has been constant for several years, and is a reason we are able to 
operate as a regional system. Yes, all the lines of geography are 
there. However, we plan regionally and act that way because employers 
and our customers care only about results, not turf.
    6. Our private colleges, which have less a focus on workforce 
training, remain a part of our workforce system. Utica College works 
with us in its Young Scholars program, so that summer work experience 
goes hand in hand with year-round academic skills training for at-risk 
students. Utica College is linked with MVCC in its current CyberJobs 
effort.
Workforce/community college perspective
    Community colleges are ideally suited to be partners with the 
workforce system. The emerging system that has been shaped by our 
experience is that the One-Stop Centers and its community-based 
outreach programs are ideally suited to assessing the skills and needs 
of unemployed adults and laid-off workers. One-Stop/workforce staff can 
understand the difference between someone who wishes he or she could 
have an IT career and someone who actually has the ability to find work 
in that sector. There are some hard calls to make, before we spend 
public money on training that will not work out. We're willing to make 
those calls.
    The many unemployed adults who need basic skills--including, in 
this community, refugees whose English is not sufficient to bring them 
up to the next level of wages--are served well by BOCES and the similar 
adult education providers in other states.
    Community colleges fit into the mix by serving as the connection 
that moves our customers from being either under-qualified or outdated 
to the level they need to be--whether that means short-term training, 
certificate programs, degree programs, transfer programs, or a 
combination of on-line and in-person courses. The rich texture of 
opportunities offered at community colleges is unrivaled.
    But there's a catch. Sooner or later, everything comes down to 
money. We love to think outside the box, but we cannot deliver powerful 
programs outside of funding streams. If local boards and local 
community colleges are going to be unleashed to address local problems 
in new, creative partnerships, the workforce and community college 
systems must have flexibility at the local end and the capability to 
respond to unique regional opportunities.
    Oneida County developed its strong partnership with community 
colleges over time. The type of partnership we enjoy is now a major 
workforce priority everywhere. As a recent National Skills Coalition 
report entitled ``New York's Forgotten Middle Skill Jobs'' notes: 
``Middle-skill jobs--those that require more than a high school diploma 
but not a four-year degree--account for nearly half of all current jobs 
in New York, and a substantial share of future job openings. Prior to 
the recession New York was experiencing shortages of middle-skill 
workers in crucial industries, like health care and information 
technology. Although the state has lost jobs across most skill levels 
during the economic downturn, this has not fundamentally changed the 
structure of New York's labor market: the majority of all jobs still 
require more than a high school diploma. As recovery takes hold in New 
York and across the nation, a large share of the new jobs created will 
require middle-skill credentials. With high unemployment in the state, 
now is precisely the time to ensure that New York is training its 
residents for the middle-skill job opportunities that will be critical 
to the state's recovery and long-term economic success.''
    If disaster tomorrow swept through this region, regardless of 
deficits, there would be action to help the people of this area rebuild 
their lives. The long-term economic contractions that have taken away 
job after job have been so gradual they lack the obvious impact of a 
disaster, but the result on the lives of those impacted has been the 
same. The response to this should be clear: empowering and 
strengthening the workforce system and its partner, the community 
college system, is the most essential step that can be taken to rebuild 
our workforce, to rebuild our economy and to rebuild the lives of 
people who deserve a hand up after the economy has knocked them down.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Mathis.
    Dr. Bay, you're recognized, sir.

   STATEMENT OF JOHN S. BAY, VICE PRESIDENT/CHIEF SCIENTIST, 
               ASSURED INFORMATION SECURITY, INC.

    Mr. Bay. Good morning, Chairman Kline, Mr. Hanna.
    I am pleased to have this opportunity to address the role 
of institutions of higher education in fostering job creation 
and growth. I'm currently a Vice President and Chief Scientist 
at Assured Information Security, Inc, or AIS, in Rome, New 
York. I've been in this position since December of 2009. Prior 
to joining AIS, I served for eight years as a Senior Executive 
with the Department of Defense, most recently as Chief 
Scientist of the Air Force Research Laboratory Information 
Directorate.
    Prior to government service, I was a professor of 
Electrical and Computer Engineering at Virginia Tech, and an 
Engineering Fellow at Raytheon Company. It is with these 
multiple perspectives that I offer my observations on the 
relationships between private employers, higher education and 
job growth.
    AIS is a small business founded in 2001 to conduct research 
and development on computer network security issues and 
methods, national infrastructure protection, law enforcement 
technology support and related areas of research. Over the past 
ten years, AIS' national reputation for its innovative 
cybersecurity has repeatedly demonstrated success in the 
development of unique cyber capabilities, as well as the 
associated infrastructure, that enables effective and 
controlled use of cyber capabilities to achieve national 
objectives.
    AIS, Inc. is headquartered at 245 Hill Road in the Griffiss 
Business and Technology Park, but we have operating locations 
in Chantilly, Virginia; Fairborn, Ohio; Portland, Oregon. We 
have 110 employees and we're proud to have sustained annual 
growth rates of over 25 percent in each of the past two years. 
This year we're now in the process of hiring 28 new scientists 
and engineers for the Rome location and project similar growth 
in the coming years.
    Our primary customers are the science and technology 
acquisition offices of the Department of Defense, the 
intelligence community, and both local and national law 
enforcement agencies. This is a government-focused high-
technology business that requires our staff to be highly-
educated and cleared. Over 50 percent of our staff hold or are 
pursuing masters or doctorate degrees in computer sciences, 
engineering, mathematics, or related fields, and 85 percent 
hold top secret security clearances.
    To maintain our growth, AIS, Inc. aggressively recruits new 
graduates at the bachelor's, master's, and Ph.D. levels with 
high academic grades. We first screen candidates for necessary 
academic and professional credentials, but then focus on 
finding within that group those individuals who exhibit a 
passion for technology and a drive to make a difference. We 
work on cutting edge problems that may have no solution. We 
seek employees that can solve a problem that has never been 
solved before.
    We recruit all over the Northeast and Mid-Atlantic regions, 
but we find that our highest success rate is with institutions 
in New York State.
    Today joining SUNY IT among our most fertile recruiting 
grounds are Clarkson University and Binghamton University.
    To a great extent the education of our employees is only 
beginning when they join the company. AIS strongly encourages 
continuing graduate education and pays 100 percent of the costs 
of our employees earning graduate degrees. We maximize the 
value of this policy by forming enduring partnerships with the 
institutions by which we recruit. With SUNY IT, for example, 
three of the senior management of AIS, including myself and 
Charles Green, serve on advisory boards, academic programs in 
cyber technology, computer science, and electrical and computer 
engineering, as well as for President Wolf Yeigh. Directly AIS 
has worked together with President Yeigh and his faculty on 
joint proposals for educational programs and research 
laboratories that serve to simultaneously educate the SUNY IT 
students on emerging technology problems of national 
importance, as well as infuse our government-funding research 
programs with well-prepared faculty and graduates with 
practical experience.
    We have different but similarly motivated collaborative 
arrangements with Clarkson University, Binghamton University, 
Utica College, Syracuse University and Hamilton College, and we 
are now negotiating more such agreements with Cornell 
University and more distant institutions such as the University 
of Maryland and Penn State University. At some of these 
institutions, our staff members serve as adjunct faculty or 
formal advisors; at others, the collaboration is less 
structured. In this manner, we seek to ensure that our new 
graduates meet our workforce requirements by working with the 
universities to ensure that they do not leave school to enter 
the workforce, but rather that they continue their education as 
part of a broader research environment in the community. It is 
our goal and strategy to guarantee that the college graduates 
we hire meet our needs by being part of that education. With 
institutions with which we maintain this bilateral 
relationship, our success and satisfaction rate is higher than 
with institutions from which we simply just harvest the 
graduates. It is a formula that succeeds for us and one that we 
would recommend to others.
    I appreciate the opportunity to address the committee and 
welcome your questions.
    [The statement of Mr. Bay follows:]

Prepared Statement of John S. Bay, Vice President and Chief Scientist, 
                   Assured Information Security, Inc.

    Good morning Chairman Kline and Mr. Hanna.
    I am pleased to have this opportunity to address the role of 
institutions of higher education in fostering job creation and growth. 
I am currently the Vice President and Chief Scientist of Assured 
Information Security, Inc., or AIS, in Rome, New York. I have been in 
this position since December of 2009. Prior to joining AIS, I served 
for eight years as a senior executive with the Department of Defense, 
first with the Defense Advanced Research Projects Agency (DARPA), and 
more recently, as Chief Scientist of the Air Force Research Laboratory 
Information Directorate. Prior to government service, I was a Professor 
of Electrical and Computer Engineering at Virginia Tech, and an 
Engineering Fellow at the Raytheon Company. It is with these multiple 
perspectives that I offer my observations on the relationships between 
private employers, higher education, and job growth.
    AIS, Inc. is a small business founded in 2001 to conduct research 
and development on computer network security issues and methods, 
national infrastructure protection, law enforcement technology support, 
and related areas of research. Over the past ten years, AIS, Inc. has 
expanded the scope of its R&D portfolio and has repeatedly demonstrated 
success in the development of unique cyber capabilities, as well as the 
associated infrastructure that enables effective and controlled use of 
cyber capabilities to achieve national objectives.
    AIS, Inc. is currently headquartered at 245 Hill Road in the 
Griffiss Business and Technology Park (GBTP), and has operating 
locations in Chantilly, VA., Fairborn, OH, and Portland, OR. We have 
110 employees, and are proud to have sustained annual growth rates of 
over 25% in each of the past two years. This year, we are in the 
process of filling 28 new positions for scientists and engineers in the 
Rome location alone, and we project similar growth in coming years, 
allowing us to grow into a new facility at Griffiss in November of this 
year.
    Our primary customers are the science and technology acquisition 
offices of the Department of Defense, the intelligence community, and 
both local and national law enforcement agencies. This government-
focused high technology business requires that our staff be highly 
educated and cleared. Over 50% of our staff hold or are pursuing 
Masters or Doctorate degrees in computer science, engineering, 
mathematics, or related fields, and 85% hold Top Secret security 
clearances.
    To maintain our growth, AIS, Inc. aggressively recruits new 
graduates at the bachelors, masters and PhD level with high academic 
grades, an inquisitive nature, and a predisposition to action. We first 
screen candidates for the necessary academic and professional 
credentials, then focus on finding within that group those individuals 
who exhibit a passion for the technology and a drive to make a 
difference. We work on cutting edge problems that may have no solution; 
we seek employees that can solve a problem that has never been solved 
before.
    We recruit all over the Northeast and Mid-Atlantic regions, but 
find that our highest success rate is with institutions in New York 
State. Our founder and President, Charles Green, is a graduate of SUNY-
IT, the institution hosting this field hearing today. Joining SUNY-IT 
among our most fertile recruiting grounds are Clarkson University and 
Binghamton University.
    To a great extent, the education of our employees is only beginning 
when they join the company. AIS, Inc. strongly encourages continuing 
graduate education, and pays 100% of the costs of our employees earning 
graduate degrees. We maximize the value of this policy by forming 
enduring partnerships with the institutions from whom we recruit. With 
SUNY-IT, for example, three of the senior management of AIS Inc., 
including myself and Charles Green, serve on advisory boards for 
academic programs in cyber technology, computer science, and electrical 
and computer engineering, as well as for President Wolf Yeigh directly. 
AIS Inc. has worked together with President Yeigh and his faculty on 
joint proposals for educational programs and research laboratories that 
serve to simultaneously educate the SUNY-IT students on emerging 
technology problems of national importance, as well as infuse our 
government-funded research programs with well-prepared faculty and 
graduates with practical experience.
    We have different but similarly-motivated collaborative 
arrangements with Clarkson University, Binghamton University, Utica 
College, Syracuse University, and Hamilton College, and we are 
negotiating more such agreements with Cornell University and more 
distant institutions such as the University of Maryland and Penn State 
University. At some of these institutions, our staff members serve as 
adjunct faculty or formal advisors; at others the collaboration is less 
structured. In this manner, we seek to ensure that new graduates meet 
our workforce requirements by working with universities to ensure that 
graduates do not ``leave'' school to enter the workforce, but, rather, 
continue their educations as part of a broader research environment. It 
is our goal and strategy to guarantee that the college graduates we 
hire meet our needs by being part of that education. With institutions 
with which we maintain this bi-lateral relationship, our success and 
satisfaction rate is higher than with institutions from which we simply 
``harvest'' graduates. It is a formula that succeeds for us and one 
that we would recommend to others.
    I appreciate the opportunity to address this committee and welcome 
your questions.
                                 ______
                                 
    Chairman Kline. Thank you. Thank you very much. Thank you 
all, witnesses.
    We will take now a few questions and try to get some 
discussion going. I'll ask a couple of questions, and Mr. Hanna 
will ask a couple, and we will try to provide a little bit more 
of what we've heard today.
    It seems that all three of you are talking about improving 
the connection between the institution of higher education and 
the workforce.
    Dr. Bay, this is particularly talking about community 
colleges and people going back and getting perhaps retrained in 
some cases. And, Dr. Bay, you talked about the relationship 
that you have established with some adjunct faculty and you 
being a member of the advisory board. We have heard testimony 
like this before, as recently as yesterday when we were in 
Pennsylvania.
    I guess my question is how is this working; or more 
importantly, is there anything in the way of that process of 
connecting either the community or the employer with the 
colleges? That's open to any of you.
    Mr. Bay. If I might.
    You're correct in that this collaboration is a contact 
sport, but for the most part the relationships are made on an 
individual basis. These are faculty members that have come to 
know the individuals at the university or have met at an 
academic conference or a professional conference or meeting and 
have found some point of common interest that they later 
pursued.
    There are relatively few programs that institutionalize 
that kind of collaboration.
    An anecdote. When I was leaving the teaching profession 
from Virginia Tech, my colleagues, when they found out I was 
going to work in private industry at Raytheon, they said well, 
that's great, maybe you can get us in touch with those guys in 
industry; they never answer the phone, they never participate 
in advanced research technology, maybe you can get them to 
return our messages. When I arrived at Raytheon, my colleagues 
there said you're the old college professor, maybe you can get 
the guys to answer the phone and communicate with us. So it was 
opening the lines of communication. It was in a great way, 
repeating the kinds of experiences that I had had at 
universities.
    Chairman Kline. And so were you able to open those lines of 
communication having crossed from one discipline to the other?
    Mr. Bay. Not entirely successfully, no.
    Chairman Kline. I didn't mean to put you on the spot, but 
it does seem to me to be sort of obvious, that you need that 
connection, and it also seems obvious to me that we have not 
had that connection for some time. We have turned our graduates 
that didn't have a fit in the workplace, in some cases didn't 
know what to expect, found out their degree may not be entirely 
applicable.
    I remember when I graduated many, many, many, many years 
ago, I had a degree in biology, with all apologies to those of 
you that have studied biology, I found it not to be very useful 
in the workforce, except I went in the Marine Corps for a 
three-year stint, and stayed there for 25 years, so it became a 
moot point.
    But I do see that we're increasingly--back to you, Mr. 
Picente, Mr. Mathis, people that have gone into the workplace, 
found out that didn't match very well, perhaps they have been 
laid off. I think, Mr. Mathis, you reported that 10 percent of 
the workforce has come through the One-Stop system, it means 
they're looking for something else.
    And so when they go, presumably to community college, again 
the question is beyond just the services the One-Stop provides, 
how are they being connected to potential employers in the 
area?
    Mr. Mathis. I think through the One-Stop system we serve 
the employers and we serve those that are looking for 
employment. I think one of the biggest problems we encounter is 
that employers need trained workers pretty much immediately, 
and through our system we're part of the--Mohawk Valley 
Community College is part of the State University of New York. 
And in some cases, by the time we get programs approved, it can 
take months if not years, employers cannot wait that long. We 
have people who are ready to go to work. We have employers who 
want to hire. We need to have the abilities to create training 
programs and certificate programs and degree programs for 
hiring immediately.
    And part of what happens so often is that employers will 
look elsewhere for workers if they can't find them here. So we 
need to have ways to turn around our system and get them 
training and to employers fairly quickly.
    On my side of the fence in terms of dealing with workforce, 
we can tie up so often in the process, we spend so much time 
reporting and trying to monitor what we're doing as opposed to 
going out and doing it.
    When people come into our One-Stop Centers they want to be 
served, then they want to get training, they want to get a job. 
And what we need to do is cut down some of the barriers that 
keep this from happening.
    Chairman Kline. Excuse me for interrupting.
    That's my question, because you and Mr. Picente, both have 
talked about that. I think your quote was, Mr. Picente, your 
quote was neither easy nor quick. And you asked that somehow 
they need to ease the regulatory burdens. And I'm not sure if 
it's the regulatory burdens in the process of developing 
programs in school or the regulatory burdens in the workplace 
or both. And so I'm trying to see, frankly, if there is 
something that we need to be doing in developing the Workforce 
Investment Act in cleaning that mess up. And it's a mess, it's 
47 programs and nine agencies. It ought to be a lot simpler.
    Is there something specific that you can address that's 
sort of getting in the way of this regulatory program?
    Mr. Picente. I think David hit on it in terms of the 
ultimate measuring tool that takes place in terms of where you 
have an employer that needs people to work, that you're not 
bogged down with all of the red tape and various requirements 
that lead in terms of those dislocated workers to get them into 
a particular program. It takes lots of time. And I think in 
restructuring and reorganizing the Workforce Investment Act, we 
look at ways in which the system can respond quicker, in terms 
of those areas of the workforce that needs to be done in terms 
of training.
    Mr. Hanna. Mr. Bay, do you believe that there is a lack of 
institutional collaboration? And it seems as though there is 
long times between what Dave describes as people coming in and 
looking for work in the lab, because those people who may 
have--the work is either nonexistent or there is so much 
friction and so much bureaucracy that they can't match the two 
in the time period that saves the worker.
    Do you believe that there is enough going on in this 
community? I can tell you I've been traveling to the 24th 
District now for quite a while, and I can tell you that you are 
a unique company in terms of what you produce, but that there 
are dozens of companies in this district that have needs for 
new workers, and observing there are people educating those 
workers, and it seems from where I sit that there is something 
missing, that this is the collaboration between the educator 
and those people who are hiring, that's kind of my general 
assumption.
    Do you agree with that? Do you see ways that we can improve 
it? What would you envision as a way to start a path towards 
better collaboration and our capacity to match people to jobs?
    Mr. Bay. Along those lines, one thing I might do is respond 
to a comment that Mr. Mathis made, and that's what we need from 
the workforce perspective is not so much workers who are 
trained as much as they are educated. I think there are 
opportunities being realized for guiding and counseling under 
prepared members of the potential workforce for high technology 
careers, but that there is a mismatch. There is an attempt to 
train them for specific roles, when what we really need are--is 
more of a focus on higher education, because our problems are 
open-ended. We hire graduates who are solving problems that 
have never been solved before, and it's very difficult to 
target that skill in a training program versus an education 
program.
    So it may be that degrees should not be prescribed. I'm not 
an advocate of identifying areas where, say, there is a 
shortage of civil engineers, for example, but rather advocate 
expiration of students in their deed program to pursue higher 
degrees in area of interest to them. And I believe they will 
make their own opportunity and the workforce will make--local 
industry will make opportunities for them as well.
    Mr. Hanna. So would you suggest that the main premise I'm 
laying out, is there is a disconnect in education and what you 
want to provide for a job? What you're suggesting to me is that 
a higher focus on what is commonly called scientific non-
engineering and math (sic), that you would produce more 
generally in those subject matters and kind of turn them loose.
    Mr. Bay. We would much prefer to hire graduates who have 
brought interest and capabilities in science and technology 
than to hire somebody who was lab trained in a particular sub-
area, yes.
    Mr. Hanna. So do you think that we're making a mistake? Is 
that fair to paraphrase what you're saying, we're making a 
mistake by pushing people in and offering courses that are so, 
perhaps narrow and focused, if I could perhaps paraphrase what 
you're saying, and generally missing the target of keeping 
those people here and putting them to work for you?
    Mr. Bay. Programs vary in the degree to which they focus 
candidates on specific job skills, but those that do target a 
specific position, for example, do run the risk of missing that 
target when a position changes. If the needs of local industry 
are dynamic, then we require flexibility and broader education 
rather than very natural technical workforce education.
    Mr. Mathis. One of the programs we run in Oneida County 
College boards, it's been around for 12 years and it's funded 
by--County Core, and it serves college juniors and seniors in 
college internships, that program has been quite successful 
over the years, because what we have done, what the county has 
done, is to cut out all potential barriers.
    What we do is look for employers who are willing to pick up 
50 percent of the $9 an hour wage, and after that the county 
does all the work, the employer interviews, they hire, they put 
youth into internships, like the one we're talking about, this 
employer here or others. But it cuts out the red tape, and it 
lets you actually work in the field. That's so important, 
because so much of what I've seen, both on the workforce side 
and on the education side, is that there are just too many 
barriers to stop us from doing that.
    And when the county created the College Core, they took out 
a lot of those barriers. That's why the program has been so 
successful, but it puts the connection between the employer and 
the college students. And for those needs that go back to what 
I talked about in my testimony about the program that we did in 
the Airframe maintenance, it was connecting the employer to 
look at the skills required. Before that, curriculum was just 
developed on the basis of this is how we develop curriculum, 
you go into all of these different scenarios in terms of what's 
required under fixing an airplane. But it's more than that, 
it's about processing, it's about thinking, it's about working 
with the employer, what directly they're looking for when that 
student steps out of school. And those connections are 
priceless.
    Mr. Hanna. We have Chairman Kline. We talked about 
bureaucracy and unfunded mandates ad nauseam. This is an 
opportunity to explain about something specific if you would 
like. You hear about it generally every day. Do you have 
something that's a particular pet peeve that might originate in 
this committee that we can talk about?
    Mr. Mathis. All I can say, is we are constantly being 
monitored by the New York State Department of Labor. It seems 
like everybody seeks to review one program versus another, and 
in many ways it just gets in our way. And I think hopefully 
with the reauthorization of the Workforce Investment Act it's a 
lot easier if you consolidate to have one review, but when 
you're constantly being reviewed for one program versus the 
other, sometimes it just gets to be overwhelming.
    So I'm definitely one that gets a little tired of always 
sitting, listening to somebody coming in reviewing a program 
after all these years, and in many cases coming up with 
contradictory recommendations from different areas.
    Mr. Picente. Just my personal opinion. Part of it is to 
stop reauthorizing the employer and have an investment in 
education and then move it towards that focus, and, you know, 
the focus of putting people to work rather than keeping them 
out.
    Mr. Hanna. Thank you, Dr. Picente. You have a relationship 
with Clarkson that apparently works well for you.
    Mr. Picente. Yes.
    Mr. Hanna. Dr. Bay, can you give us a brief overview of 
what that looks like and how we might use it in other places?
    Mr. Bay. A specific example, I met a couple of professors, 
one in mathematics and one electrical engineering at Clarkson 
at--in fact, it was a meeting of high technology companies 
along the I90 corridor, and that meeting was held in Rochester 
about a year ago.
    And casually we struck up conversation in the technology 
areas of common interest and we found that my company had hired 
graduates of Clarkson and, in fact, former graduate students of 
both of those faculty members. And so we set up a series of 
bilateral meetings in Potsdam, and at our company and we 
decided to pursue research grants with the National Science 
Foundation and some of the defense research organizations, as 
well as with the small business in the Oneida Research Program, 
the Office of the Secretary of Defense, and with those joint 
efforts, we were able to identify and monitor both upcoming 
undergraduate students and graduate students from Clarkson who 
have interests and abilities in areas that we think we could 
use in the future.
    And so we were able to conduct the joint research effort 
within part government funding and faculty where they train and 
educate the students that we are interested in working with in 
the future. And when the time comes that they're ready to 
graduate, they're certainly first in line, and we feel that we 
know them well enough, that they're a very low risk potential 
hire for us.
    And this goes in cycles. Each year we have these meetings, 
identify projects, similar interests and students that can help 
us, and we track them during their education.
    Chairman Kline. Thank you. I'm going to pick this up in 
just a minute. We want to move to the next panel fairly soon.
    A couple of points that I've been listening to. One is, Dr. 
Bay, your company is very, very technical. Clearly, you're 
looking for highly educated--you're talking about people with 
bachelor's degrees and master's degrees and doctorates and 
continuing education and working for a higher degree.
    And you need problem solving skills, you're moving into an 
area where people don't necessarily know the answers and so 
you're looking for a little bit broader problem solving, I 
gather from your testimony. But some cases, some of the 
examples that Mr. Picente talked about and Mr. Mathis, were 
looking for much more specific skills. You're looking at 
airplanes, preparing airplanes, airplane manufacturing parts, 
and something like that, employers sometimes want somebody that 
comes in the door that has a particular skill set and they 
don't have to spend time doing on-the-job training.
    So I think the demands of the workplace can vary pretty 
dramatically, depending upon the kind of work that we're 
talking about. And the thing about this hearing and the work 
that this committee is--we're interested in all of this. And so 
we look at legislation and ways we might address some of these 
problems. We have to remind folks that there are many, many 
different requirements in the workplace and we need the 
abilities for education to meet those needs. And there are 
obviously different ways of getting about that.
    Again, we've talked about the regulations that get in the 
way, and that's clearly something that we need to address. The 
Workforce Investment Act has been--I've been listening to 
governors now for some time, and there is nobody that tells me 
that this is a well-organized, well-run efficient program, not 
one person. It just turns out that getting to it, even in 
Congress, is a little bit problematic because when you have 47 
programs and nine agencies you've got about nine committees in 
Congress that have jurisdiction so to speak, so we have a 
little work to do on our own part to try to sort that out so we 
can make it manageable for ourselves before we can make it 
manageable for you.
    I want you to know that we're thinking about it, we're 
working on it, we'll be engaging in a bipartisan discussion as 
we try to figure out how to crack that problem.
    So I want to thank you all very much for your testimony, 
for engaging in the conversation for the graduate work that 
you're doing out there trying to solve these problems.
    And Congress congratulates you, Dr. Bay. Any company that's 
growing at that rate is an example of what it's about. So 
congratulations to you all.
    And with that, we will thank you and we will move to the 
next panel.
    It is my pleasure now to introduce our second distinguished 
panel.
    Dr. Wolf Yeigh is the current president of the State 
University of New York, Institute of Technology. Thank you very 
much for hosting. This is a position Dr. Yeigh has held since 
2008.
    Prior to becoming president, Dr. Yeigh served as the Vice 
President for Academic Affairs and Dean of the Faculty of 
Norwich University in Northfield, Vermont and as Dean of St. 
Louis University's Park College of Engineering, Aviation and 
Technology. During his impressive career, Dr. Yeigh was 
responsible for launching a number of new majors and 
establishing international cooperation programs in several 
institutions around the world.
    Dr. Ann Marie Murray is the third president of Herkimer 
County Community College, a position she has held since 2008 
and has currently.
    Prior to joining HCCC, she served as Vice President for 
Academic Affairs and was responsible for the oversight of all 
academic programs and academic functions of Broome Community 
College.
    Dr. Murray also held the positions of Dean of Business and 
Engineering and Industrial Technologies, Associate Dean of 
Academic Services, and Department Chair for Mathematics and 
Science and Engineering Science at Hudson Valley Community 
College.
    Dr. Judith Kirkpatrick was appointed Vice President for 
Academic Affairs and Dean of the Faculty at Utica College in 
August of 2004, and was named Provost in August 2009.
    Dr. Kirkpatrick came to Utica College from Texas Wesleyan 
University, where she served as Dean of the School of Arts and 
Sciences. She also served as Dean of the School of Science and 
Humanities at Texas Wesleyan, Associate Dean for the Humanities 
and Fine and Performing Arts, College of Arts and Sciences, at 
the University of Alabama, tenured faculty member in the 
Department of Romance Languages and Classics at the University 
of Alabama, and Assistant director of the Center for 
International Studies in Madrid, Spain.
    Dr. Phil Williams was supposed to be with us, he is unable 
to join us today, and without objection his testimony will 
appear in the record.
    [The statement of Mr. Williams follows:]

    Prepared Statement of Phil Williams, President, Utica School of 
                                Commerce

    Chairman Kline and Congressman Hanna, thank you for allowing me 
this opportunity to speak with you concerning the Utica School of 
Commerce and the innovative education we are offering students to meet 
this ever-changing workforce.
    My name is Phil Williams, President of the Utica School of 
Commerce, a two-year proprietary college, founded by my great-
grandfather nearly 115 years ago.
    We, at USC, are proud of our history and the accomplishments that 
we have made, but are equally proud to be a part of today's workforce 
education, and are geared up for the future. USC is a member of the New 
York Association of Proprietary Colleges (``APC''), which represents 27 
degree-granting institutions on 41 campuses throughout New York State. 
The APC member colleges currently enroll more than 50,000 students in 
more than 350 educational programs leading to associate, bachelors, 
masters and doctoral degrees in traditional and emerging fields.
    APC represents one of the four sectors of higher education in New 
York; SUNY, CUNY, the independent colleges, and us. We, in New York, 
are fortunate to have a higher education system that is highly 
regulated by the Board of Regents through the New York State Education 
Department.
    Our programs at USC are designed to be practical in nature 
appealing to the career-orientated student. Not only do we have 
associate degree programs which can be completed in as few as eighteen 
months, but we have credit-bearing certificate programs, for quick 
retraining which can be completed in as few as seven months. We stress 
individualized attention with an average class size of ten students, 
and we serve Congressman Hanna's district with campuses not only in 
Utica, but with branches in Canastota and Oneonta. Students may take 
classes during the day, the evening, or online. However, at USC, no 
program can be completed with more than 50% of classes online, because 
we believe this blend promotes the greatest likelihood of success for 
students at the associates degree level or below.
    We are small with fewer than 500 students at our three campuses. We 
work with our students to ensure their success with the ultimate goal 
of placement or promotion. Our current placement rate, as measured from 
respondents, is 92% for the class of 2010. Quite good, considering the 
economy. Factoring in non respondents, our placement rate is 78%. 
Again, quite good when compared to other sectors. Actual statistics are 
attached with this testimony.
    USC has always been a leader in the workforce development area. 
Today we are a part of a consortium of colleges providing cybersecurity 
training to residents of Oneida, Herkimer, Madison, Chenango, and 
Otsego counties through a federal grant administered by the local 
Workforce Investment Board. We changed our Medical Office Assistant 
certificate program to specifically meet the requests of our local WIB, 
and are a part of a five-college consortium providing a variety of 
health care training programs to 2,500 individuals through 2012.
    Working with local insurance companies and agencies in the area, we 
have developed an approved Insurance Associate Certificate program, as 
well as a degree option under the Business Administration program * * * 
Risk Management and Claim Services. Both of these programs resulted 
from discussions with the insurance industry on how to improve the 
quality of the local workforce.
    In response to the needs of local insurance agencies, our Division 
of Corporate and Workforce Development has created and received 
approval for 24 continuing education courses in Property and Casualty 
Insurance, as well as the Life Insurance markets.
    Likewise, through flexible scheduling, we have provided insurance 
licensing training programs to a number of companies in central New 
York, including MetLife, Utica National Insurance Group and New York 
Central Mutual Insurance Company.
    In order to meet a strong local, state and national need for 
licensed Public Adjusters, USC, working in conjunction with several 
Public Adjuster firms, developed a 40 hour, non-credit, NYS Insurance 
Department approved, pre-licensing training program.
    Working with a major manufacturer of fiber optic supplies, 
materials and equipment, USC staff developed an ``employee directed'' 
evaluation system. This is now being used by over 200 employees each 
year.
    In cooperation with the Cooperstown Chamber of Commerce, USC has 
developed a five part, leadership and management training program, 
offered bi-monthly in Cooperstown.
    Yes, USC is an active an vibrant part of the workforce community, 
providing excellent coursework in a variety of venues.
    As an employer, although we do not like our employees to leave, we 
are proud to be a fine training ground for successful advancement. Our 
current Executive Vice President of Academic Affairs took, what I call 
an eight year leave of absence, to become Vice President of Academic 
Affairs at North Country Community College. The current Vice President 
of Academics at Schenectady Community College came from USC, as does 
HCCC's Chief Fiscal Officer. MVCC and HCCC have also benefited from 
USC. Likewise, we have many employees from other colleges.
    Again, thank you for holding this hearing and I look forward to 
answering any questions you may have.
                                 ______
                                 
    Chairman Kline. A reminder to the new panel. We have a 
little box there that has lights, green, yellow, and red, 
Daniela will control it from here. When it gets to red, please 
look to try to wrap up your testimony. Your entire testimony 
will be entered into the record.
    Dr. Yeigh.

 STATEMENT OF BJONG WOLF YEIGH, PRESIDENT, STATE UNIVERSITY OF 
               NEW YORK, INSTITUTE OF TECHNOLOGY

    Mr. Yeigh. Thank you, Chairman Kline, Representative Hanna, 
and distinguished guests. Welcome to SUNY IT.
    Representative Hanna, thank you for bringing the Chairman 
and this hearing to the Mohawk Valley, to our campus. And thank 
you for this opportunity to share with you thoughts on higher 
education's role in job growth and economic development.
    Like the nation, our region is at a crossroads. More so 
than many other parts of the county, this part of New York 
State is in transition, as our rich history gives way to a 
bright future. New York's economic stature has been an example 
for the nation and the world, but it is increasingly clear that 
we must maintain a shared commitment to ensure that this 
generation, and future generations of New Yorkers, continue to 
build success.
    Education is key, from the K through 12 foundation laid 
down by our school districts to higher education and beyond. 
Our community college partners, and SUNY IT, as a unique 
representative of the State University system, have and will 
continue to give students the preparation they need to launch 
successful 21st century careers. In a global economy, 
opportunities for success are abundant, and those who pursue 
life-long education and training will thrive.
    Our role as a regional workforce development engine holds 
great promise, especially in light of our nanotechnology 
partnership with U. Albany's College of Nano-scale Science 
Engineering, and the continuing development of the Marcy Nano-
Center at SUNY IT. Thanks to the support of our elected 
officials, SUNY IT is making significant investments in 
infrastructure and expanding its economic offerings, with new 
programs in engineering, computer security, biology, and human 
services, as we look to meet the needs of current and future 
students.
    With both broad preparation in the liberal arts and 
specific technical competencies, our students are well-prepared 
to succeed in an increasing array of careers.
    At SUNY IT, we're committed to providing affordable, 
quality, undergraduate and graduate education, and because of 
our unique history, we have always stressed the importance of 
applied learning and its connection to students' careers 
success. Last week, we brought together dozens of potential 
employers with students preparing to graduate, our career 
services office and many of our faculty maintain connections 
with business and industry that help our graduates find jobs 
and launch successful careers.
    To ensure that we--that what our students learn is relevant 
to workforce and industry needs, many of our academic programs 
regularly seek professional expertise through advisory boards 
to keep their curriculum relevant.
    Throughout our history, many of our graduates have found 
employment and professional advancement in our region. But in 
other cases, graduates in certain programs moved elsewhere, and 
students who came to us from outside the Mohawk Valley also 
left the area after graduating. Through our nanotechnology 
partnership, SUNY IT will be a catalyst, contributing to a more 
robust regional economy with greater opportunities for all. 
This model has worked in Albany, and we know it will be 
successful here as well.
    Affordable access to higher education is essential to 
workforce development, and ultimately to America's 
international competitive advantage. And maintaining 
affordability is critical to our students. More than 80 percent 
of SUNY IT students depend on some form of financial aid, and 
the federal role in keeping a college education affordable 
cannot be overstated. We're seeing more and more students with 
significant financial need. Since the economic downturn, our 
financial aid counselors encounter students from families in 
which a parent has lost a job, sometimes both parents have been 
laid off. Two years ago more than one third of our 
undergraduate students received Pell Grants, last year that 
figure increased to almost 40 percent.
    Clearly, our students' need for Pell and other forms of 
financial aid is increasing. Any reduction in Pell Grant awards 
would be a blow to lower- and middle-income families, and would 
certainly keep some from beginning or continuing their college 
education at SUNY IT and at our higher education institutions.
    Thanks to the generosity of our alumni, we continue to 
build our endowment so that we can offer additional support to 
those students who need it, but because we are a relatively 
young institution, founded in 1966, we are, in fact, a public 
college of modest means. So our students have and continue to 
rely heavily on federal and state aid.
    We are proud to be this region's public college, and public 
higher education is a critical component of workforce 
preparation, but colleges cannot do workforce development if 
people cannot afford to go to college. I ask that you and your 
colleagues in Washington continue to support a federal role in 
support for higher education.
    Thank you.
    [The statement of Mr. Yeigh follows:]

   Prepared Statement of Bjong Wolf Yeigh, Ph.D., F. ASME, President,
  State University of New York, Institute of Technology at Utica/Rome

    Chairman Kline, Congressman Hanna and other members of the 
committee, and distinguished guests: Welcome to SUNYIT. Congressman 
Hanna, thank you for bringing the Chairman and this hearing to the 
Mohawk Valley and to our campus. And thank you for this opportunity to 
share with you some thoughts on higher education's role in job growth 
and economic development.
    Like the nation, our region is at a crossroads. More so than many 
other parts of the country, this part of New York State is in 
transition, as our rich history gives way to a bright future. New 
York's economic stature has been an example for the nation and the 
world, but it is increasingly clear that we must maintain a shared 
commitment to ensure that this generation, and future generations of 
New Yorkers, continues to build success.
    Education is key, from the K-12 foundation laid down by our school 
districts to higher education and beyond. Our community college 
partners, and SUNYIT, as a unique representative of the State 
University System, have and will continue to give students the 
preparation they need to launch successful 21st century careers. In a 
global economy, opportunities for success are abundant--and those who 
pursue life-long education and training will thrive.
    Our role as a regional workforce development engine holds great 
promise, especially in light of our nanotechnology partnership with 
UAlbany's College of Nanoscale Science and Engineering, and the 
continuing development of the Marcy NanoCenter at SUNYIT. Thanks to the 
support of our elected officials, SUNYIT is making significant 
investments in infrastructure and expanding its academic offerings--
with new programs in engineering, computer security, biology, and human 
services--as we look to meet the needs of current and future students. 
With both broad preparation in the liberal arts and specific technical 
competencies, our students are well-prepared to succeed in an 
increasing array of careers.
    At SUNYIT, we are committed to providing affordable, quality 
undergraduate and graduate education, and because of our unique 
history, we have always stressed the importance of applied learning and 
its connection to students' career success. Last week, we brought 
together dozens of potential employers with students preparing to 
graduate--our career services office and many of our faculty maintain 
connections with business and industry that help our graduates find 
jobs and launch successful careers. To ensure that what our students 
learn is relevant to workforce and industry needs, many of our academic 
programs regularly seek professional expertise through advisory boards 
to keep their curriculum relevant.
    Throughout our history, many of our graduates have found employment 
and professional advancement in our region. But in other cases, 
graduates in certain programs moved elsewhere--and students who came to 
us from outside the Mohawk Valley also left the area after graduating. 
Through our nanotechnology partnership, SUNYIT will be a catalyst--
contributing to a more robust regional economy with greater 
opportunities for all. This model has worked in Albany--and we know it 
will be successful here as well.
    Affordable access to higher education is essential to workforce 
development and, ultimately, to America's international competitive 
advantage. And maintaining affordability is critical to our students. 
More than 80 percent of SUNYIT students depend on some form of 
financial aid, and the Federal role in keeping a college education 
affordable cannot be overstated.
    We are seeing more and more students with significant financial 
need. Since the economic downturn, our financial aid counselors 
encounter students from families in which a parent has lost a job--
sometimes both parents have been laid off. Two years ago, more than 
one-third of our undergraduate students received Pell Grants. Last 
year, that figure increased to almost 40 percent.
    Clearly, our students' need for Pell and other forms of financial 
aid is increasing. Any reduction in Pell Grant awards would be a blow 
to lower and middle income families, and would certainly keep some from 
beginning or continuing their college education at SUNYIT. Thanks to 
the generosity of our alumni, we continue to build our endowment so 
that we can offer additional support to those students who need it--but 
because we are a relatively young institution, founded in 1966, we are 
in fact a public college of modest means. So our students have and will 
continue to rely heavily on Federal and state aid.
    We are proud to be this region's public college--and public higher 
education is a critical component of workforce preparation, but 
colleges cannot do workforce development if people can't afford to go 
to college. I ask that you and your colleagues in Washington continue 
to support a strong Federal role in support for higher education. Thank 
you.
                                 ______
                                 
    Chairman Kline. Thank you, Dr. Yeigh.
    Dr. Murray.

           STATEMENT OF ANN MARIE MURRAY, PRESIDENT,
               HERKIMER COUNTY COMMUNITY COLLEGE

    Ms. Murray. Thank you for having me here. It's truly an 
honor for me and our college to participate in this hearing.
    To do so I want to talk to you a little bit about our 
college. Tell you how we keep our graduates here in the area. 
What partnerships we have made with local businesses and our 
other institutions of higher learning. Tell you a little bit 
about future programs and how we connect to the community.
    Herkimer County Community College is a unit of the State 
University of New York system. We are accredited by the Middle 
States Commission of Higher Education. Our goal is to transform 
lives. Our institutional learning includes skills for our 
students as excellent communication, critical thinking, and an 
appreciation for the arts.
    We have a unique community college in that only 30 percent 
of our students come from Herkimer County, 70 percent of our 
students come from not only outside the county but outside the 
United States, 3 percent of our students come from over 26 
different countries.
    We offer more than 40 certificate and degree programs but 
we have a very strong on-line program, and over 100 of our 
courses and 19 of our degrees and four of our certificate 
degree programs are available totally on-line.
    We do excel in athletics, we are very proud of that. But 
more importantly we have 28 national academic team of the year 
awards, which means that our opportunities are not only good in 
the fields but they're good in the classroom.
    A recent economic impact study said that our college 
contributes $74.9 million each year to the economy of Herkimer 
County or roughly about 6.3 percent of the county economy.
    Our job is to keep our graduates in this area. We do this 
by providing local business internship experiences for our 
vocational majors. We also have part-time job fairs and career 
fairs that provide opportunities for the businesses to come in 
and meet directly with our students.
    Our students are trained in presentations and workforce on 
how to apply for jobs and interview skills. We work 
collaboratively with the local colleges to allow employers to 
recruit students so that we can improve success for all of the 
campuses in our region.
    Our emphasis is partners in businesses. We do this by 
maintaining those productive partnerships. These partnerships 
are critical parts of that activity in that they connect to our 
academic programming by advisory coucils. Our business partners 
work with us to make sure that our economic programs maintain 
our current and industry standards. We know that connecting 
with partners involves person-to-person contact and we have an 
employer relations specialist on our staff who determines what 
skill sets are needed for our applicants.
    Additionally, we have a part-time program at the Regional 
Working Solutions Office who assists area job seekers 
interested in improving their professional qualifications or 
learning new careers.
    We work with our regional partners in funding support for 
regional training needs through grants. Right now we are 
involved in grants that involve cybersecurity, green 
technology, alternative energy, heath care, and manufacturing.
    Our current programs help meets the needs of our clients. 
We are looking at future programs that will include agra-
business, alternative energies, quality assurance for 
manufacturing in the health field, and health information 
technology.
    We provide a full range of non-credit professional 
development training for our workers in collaboration with 
BOCES as we move to meet the needs of community members.
    We provide a variety of businesses and non-profit 
organizations, trainings, meetings, workshops, press 
conferences, and special events through the use of our 
facilities. Our facilities are also available for community 
forums such as our recent agricultural summit and an upcoming 
forum on the regional site for development of a nanotechnology 
center.
    We host an executive breakfast which involves business 
leaders and key speakers. In May we're featuring SUNY 
Chancellor Dr. Nancy Zimpher.
    Our college is positioned to enter the next five years with 
its strategic plan mapping our future.
    If you need to learn more about this, our website is open 
and we welcome you to visit it to learn more about our 
strategic plan. Thank you.
    [The statement of Ms. Murray follows:]

           Prepared Statement of Ann Marie Murray, President,
                   Herkimer County Community College

    Background on Herkimer County Community College: Founded in 1966, 
Herkimer County Community College (HCCC) is a unit of the State 
University of New York system. The College is accredited by the Middle 
States Commission on Higher Education, which recently reaffirmed the 
College's accreditation for an additional 10 year period. We are a 
residential campus with housing for up to 629 students. According to 
the Integrated Post-Secondary Educational Data System (IPEDS), 
enrollment at HCCC in the fall 2010 semester was 3,774 students. 
Students come to us from throughout New York State and the rest of the 
nation, as well as from 29 other countries around the world.
    HCCC offers more than 40 degree and certificate programs, including 
a strong online offering of over 100 courses, 19 degree and four 
certificate programs. Key programs at HCCC include: Criminal Justice, 
Radio/Television Broadcasting and Physical Therapy Assistant. Newer 
programs include Music Industry, Digital Filmmaking and Gender Studies.
    HCCC excels in athletics and has earned its reputation as the 
``home of the champions,'' as is reflected by our 32 national 
championships, 83 regional championships, and 119 conference 
championships. With 28 national academic team of the year awards, we 
are also extremely proud of the success of our student athletes in the 
classroom. Our athletic department also has an outstanding record of 
community service projects, including the highly successful ``Adopt a 
School Program.''
    HCCC maintains vital partnerships with businesses and organizations 
in the community in order to fulfill its mission of ``providing high 
quality, accessible educational opportunities and services in response 
to the needs of the local and regional communities.'' Collaborative 
initiatives include joint grant proposals for providing needed 
programming in the community and cooperative program implementation 
through shared resources.
    A recent economic impact study completed by Economic Modeling 
Specialists, Inc. (EMSI) of Moscow, Idaho demonstrated that ``the total 
economic impact attributable to Herkimer County Community College 
amounts to $74.9 million each year or roughly 6.3% of the entire county 
economy.''
    Initiatives to help current students and graduates find employment 
in the local area:
    HCCC Career Services helps prepare students to enter the workforce 
in a variety of ways including:
    <bullet> paid internship experiences on campus for vocational 
majors that allow them to obtain practical experience in their fields;
    <bullet> no-charge access to Optimal Resume, an on-line resume 
builder, and to the College Central Network, an on-line resource that 
allows students to research employment and internship opportunities 
locally and nationally;
    <bullet> an annual Part-Time Job Fair and a Career Fair that 
provide opportunities for regional businesses to meet directly with 
students to discuss employment opportunities;
    <bullet> individual sessions with the Career Counselor or Employer 
Relations Specialist to obtain guidance with job searches; and
    <bullet> presentations and workshops to help students gain strength 
in such professional areas as cover letter and resume development, 
networking and interview skills, as well as in soft skill sets such as 
conflict resolution and business etiquette.
    HCCC Career Services is also a founding member of the Central New 
York Recruiting Consortium, which was formed by local colleges (HCCC, 
MVCC, SUNY IT and Utica College) to allow employers to recruit students 
with improved access to all four campuses.
    These initiatives are capped by a Graduate Follow-up Study to track 
our graduates' progress after they complete their studies at HCCC and 
to obtain data that will inform how we develop our programs and 
services in the future.
    Partnerships with local businesses, workforce development offices, 
and/or other institutions of higher education:
    HCCC maintains productive partnerships with regional businesses. We 
maintain active advisory committees for connecting academic programming 
to the business community, and our grant-funded Employer Relations 
Specialist meets with regional businesses regularly to determine 
staffing needs and skills sets they are looking for in applicants. 
Additionally, a part-time Program Specialist at the regional Working 
Solutions office assists area job seekers interested in improving their 
professional qualifications or learning new careers.
    The College partners with regional organizations by maintaining 
seats on boards including: Mohawk Valley EDGE, United Way of the Valley 
and Greater Utica Area and the Genesis Group. The College also 
maintains membership in the County Chamber of Commerce and has a seat 
on the board.
    HCCC works with regional partners in higher education to bring in 
grant funding in support of regional training needs. Examples include 
such fields as cybersecurity, green technology and alternative energy, 
healthcare and manufacturing.
    Current or future programs that the institution has developed to 
address the needs of the local community:
    HCCC provides a comprehensive offering of credit-bearing degree and 
certificate programs that prepare students for careers in regional 
industries and helps fill the workforce needs of area employers. 
Examples of such programs not mentioned previously include a broad 
range of business programs, Computer Network Technician and Support 
Specialist programs, Travel and Tourism, Human Services, Emergency 
Medical Technician--Paramedic, Medical Coding/Transcriptionist and 
Teaching Assistant certificates.
    HCCC's Community Education Office provides a full range of non-
credit professional development training opportunities and collaborates 
with Herkimer BOCES on delivery of programming to best meet the needs 
of community members.
    The College provides a variety of venues for local businesses and 
non-profit organizations for trainings, meetings, workshops, press 
conferences, and special events. The Hummel Corporate Education and 
Training Center features meeting/conference rooms with internet access 
and full AV capabilities, as well as a 150-seat amphitheater and a 
computer lab. The Robert McLaughlin College Center provides ample lobby 
space for job fairs and other events, as well as a 350-seat theater. 
These facilities are also available for community forums, such as a 
recent agricultural summit organized by several county legislators or 
an upcoming forum on a regional site for development of a Nanotech 
Center.
    The College hosts a series of ``Executive Breakfast'' presentations 
featuring speakers on topics of importance to the local and regional 
business community. The series provides opportunities for regional 
business, government, non-profit and educational leaders to come 
together to explore current issues. In May, HCCC will host an Executive 
Breakfast featuring SUNY Chancellor Dr. Nancy Zimpher as guest speaker. 
Dr. Zimpher will speak on economic development in New York State and 
the role of SUNY in that process.
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Dr. Kirkpatrick.

           STATEMENT OF JUDITH KIRKPATRICK, PROVOST,
                         UTICA COLLEGE

    Ms. Kirkpatrick. Chairman Kline and Representative Hanna, 
it's my great honor to testify on behalf of the trustees, 
faculty, administration, staff, and students at Utica College.
    Utica College was founded by Syracuse University in 1946 to 
help meet the needs of returning veterans. From its humble 
beginnings in makeshift buildings on Oneida Square, Utica 
College has grown to be a substantial, independent educational 
institution with a mission that focuses on career preparation. 
Our commitment to combining liberal and professional studies 
ensures that students have the knowledge and skills they will 
need to succeed in a rapidly changing work environment.
    One of the most important ways that we do this is to 
require internships and other field experiences in most of our 
professional majors, including education, physical therapy, 
criminal justice, nursing, occupational therapy, journalism, 
public relations and construction management. These 
opportunities are developed through faculty or career center 
relationships with appropriate sites.
    In addition to hosting a career fair for all students, our 
career center actively works with local companies and 
organizations to help them create an internship program if they 
do not yet have one and has developed a unique extended job 
shadow program for our students to introduce them to all 
aspects of a particular profession. Hands on experience has 
benefited students in a number of ways; on-the-job training, a 
chance to provide theories learned in the classroom to the 
actual situation, opportunities to be mentored by experienced 
professionals, and perhaps most importantly, the chance to 
network with prospective employers. Hundreds of U.C. graduates 
started with their current employers through internships, co-
ops, practica, and other applied course work.
    The college also benefits from industry-supported advisory 
groups that ensure that our signature programs remain not only 
relevant, but also innovative and forward looking.
    Advisory group members keep faculty up to date on industry 
trends and help them develop a curriculum that better prepares 
students for the profession. Members often collaborate directly 
or indirectly with faculty and research. Students benefit from 
the relationship with our advisory boards through mentoring and 
networking opportunities, as well as internships, and, at 
times, scholarship support.
    It's difficult to capture in five minutes all that Utica 
College offers in job creation and economic growth, but I would 
be remiss if I did not highlight U.C.'s fastest growing 
signature program, cybersecurity.
    Concerns about the security of computer networks are 
escalating in both the public and private sectors. Our nation's 
critical infrastructures, including financial, oil and gas, 
water treatment, nuclear reactors, and air traffic control, are 
at risk and need to be secured. Each of these systems is run by 
computers and software in complex networks that need to be both 
reliable and secure. A successful attack on any of these 
systems by an adversary could have devastating effects on the 
U.S., its economy and way of life.
    The U.S. Government has appointed a White House 
cybersecurity coordinator specifically to address issues of 
electronic terrorism and espionage. Corporations and other 
private sector agencies and organizations are adding 
departments and employees to help anticipate and fight 
cybercrime, which can cost them millions of dollars per day.
    The field has seen a heightened demand for information 
technology specialists and computer and information research 
scientists, who can create methods of monitoring networks and 
devices, as well as to integrate those applications into older 
systems.
    Each time we hear about breaches in national defense, 
municipal infrastructures, or financial systems, it becomes 
clearer how critical it is to provide training in detecting and 
preventing cybercrime. Our programs in cybersecurity and 
information assurance and cybersecurity, intelligence and 
forensics, economic crime management, fraud management, and the 
certificate in financial crimes investigations provide 
undergraduates, graduates, and in-the-field professionals with 
a unique and state-of-the-art education in one of our nation's 
most rapidly growing and critical technologies.
    Utica College graduates are in high demand in law 
enforcement, government agencies, banking, finance, and 
homeland security. Local companies that have hired U.C. 
graduates or interns include ITT, AIS, NYSTEC, KPMG, Northrup 
Grumman, Bank of New York, Rollins, Inc., Booz Allen, and The 
Air Force Research Lab.
    Our commitment to cybersecurity serves to underscore Utica 
College's ongoing relationship with the entire business 
community. We work closely with leaders in health care, 
education, law enforcement, government, journalism, public 
relations, not-for-profits, and other sectors that employ 
thousands of Utica College alumni. Our conversations focus on 
ensuring that U.C.'s academic programs address worker shortages 
and anticipate emerging employment trends. Our common goal is 
to educate well-prepared individuals who can compete and 
contribute anywhere in the world, but especially those that 
will want to remain in the Mohawk Valley when they graduate. 
Thank you.
    [The statement of Ms. Kirkpatrick follows:]

    Prepared Statement of Judith Kirkpatrick, Provost, Utica College

    Chairman Kline and Congressman Hanna, it is my great honor to 
provide testimony on behalf of the trustees, faculty, administration, 
staff, and students of Utica College.
    Utica College was founded by Syracuse University in 1946 to help 
meet the needs of returning veterans. From its humble beginnings in 
makeshift buildings on Oneida Square, Utica College has grown to be a 
robust, independent educational institution with a mission that focuses 
on career preparation. Our commitment to combining liberal and 
professional studies ensures that students have the knowledge and 
skills they will need to succeed in a rapidly changing work 
environment.
    One way we accomplish this is by requiring internships and other 
field experiences in most of our professional majors, including 
education, physical therapy, criminal justice, nursing, occupational 
therapy, journalism, public relations, and construction management. 
These opportunities are developed through faculty or Career Center 
relationships with appropriate sites. In addition to hosting a Career 
Fair for all students, our Career Center actively works with local 
companies and organizations to help them create an internship program 
if they do not yet have one and has developed a unique extended job 
shadow program for our students to introduce them to all aspects of a 
particular profession. Hands-on experience benefits students in a 
number of ways: on-the-job training; a chance to apply theories learned 
in the classroom to the real world; opportunities to be mentored by 
experienced professionals; and, perhaps most importantly, the chance to 
network with prospective employers. Hundreds of UC graduates started 
with their current employers through internships, co-ops, practica, and 
other applied coursework.
    The College also benefits from industry-supported advisory groups 
that ensure that our signature programs remain not only relevant, but 
also innovative and forward-looking. Advisory group members keep 
faculty up to date on industry trends and help them develop a 
curriculum that better prepares students for the profession. Members 
often collaborate directly or indirectly with faculty in research. 
Students benefit from the relationship with our Advisory Boards through 
mentoring and networking opportunities, as well as internships and, at 
times, scholarship support.
    It is difficult to capture in five minutes all that Utica College 
offers in job creation and economic growth, but I would be remiss if I 
did not highlight one of UC's fastest-growing signature programs, 
cybersecurity.
    Concerns about the security of computer networks are escalating in 
both the public and private sectors. Our nation's critical 
infrastructures (including financial, oil and gas, water treatment, 
nuclear reactors, and air traffic control) are at risk and need to be 
secured. Each of these systems is run by computers and software in 
complex networks that need to be both reliable and secure. A successful 
attack on any of these systems by an adversary could have devastating 
effects on the U.S., its economy, and way of life.
    The U.S. Government has appointed a White House Cybersecurity 
Coordinator specifically to address issues of electronic terrorism and 
espionage. Corporations and other private sector agencies and 
organizations are adding departments and employees to help anticipate 
and fight cyber crime, which can cost them millions of dollars per day.
    The field is seeing heightened demand for information technology 
specialists and computer and information research scientists who can 
create methods of monitoring and defending networks and devices and 
integrate those applications into older systems.
    Each time we hear about breaches in national defense, municipal 
infrastructures, or financial systems, it becomes clearer how critical 
it is to provide training in detecting and preventing cybercrime. Our 
programs in Cybersecurity and Information Assurance, Cybersecurity-
Intelligence and Forensics, Economic Crime Management, Fraud 
Management, and the certificate in Financial Crimes Investigations 
provide undergraduates, graduates, and in-the-field professionals with 
a unique and state-of-the-art education in one of our nation's most 
rapidly growing and critical technologies.
    Utica College graduates are in high demand in law enforcement, 
government agencies, banking, finance, and homeland security. Local 
companies that have hired UC graduates or interns include:

                  ITT
                  AIS
                  NYSTEC
                  KPMG
                  Northrop Grumman
                  Bank of New York Mellon
                  Rollins, Inc.
                  Booz Allen; and
                  The Air Force Research Lab

    Our commitment to Cybersecurity serves to underscore Utica 
College's ongoing relationship with the entire business community. We 
work closely with leaders in health care, education, law enforcement, 
government, journalism, public relations, not-for-profits, and other 
sectors that employ thousands of Utica College alumni. Our 
conversations focus on ensuring that UC's academic programs address 
worker shortages and anticipate emerging employment trends. Our common 
goal is to educate well-prepared individuals who can compete and 
contribute anywhere in the world, but especially those who will want to 
remain in the Mohawk Valley when they graduate.
    Thank you.
                                 ______
                                 
    Chairman Kline. Thank you very much, Dr. Kirkpatrick, and 
all the panelists.
    A couple points. We will move into a discussion now, as you 
saw from the previous panel, I've got a couple questions, and 
I'll try to limit my speechmaking and have more questions, and 
Mr. Hanna will have some questions.
    I wanted to start with Dr. Yeigh, because I think you said 
that we need to keep college affordable and you were asking for 
some federal help, and the overhead plea from colleges and 
universities is that we need to fund Pell Grants.
    Pell Grants have had pretty strong bipartisan support for 
years and years. You probably know by now that we have 
increased Pell grant expenses over threefold in just of the 
last four or five years, and we are, frankly, on an 
unsustainable path right now, where we're borrowing 42 cents on 
every dollar that we spend.
    So unfortunately, the federal government, like the 
government of New York and like your own university, we're 
going to be in a position of making tradeoffs and we would like 
to keep the Pell program sustainable for the future. I'm afraid 
that the course it's on right now is a little bit overpromised. 
I think you can have some confidence that the Pell program will 
be there, not so much confidence that it's going to keep going 
like it has been going.
    And I would hope that SUNY IT, and the other colleges and 
universities around the country, are looking to ways to lower 
the costs of fees and tuition. And I know you've probably read 
it, that the cost of college tuition and fees is growing 
considerably faster than the cost of living across it is 
country, and we can't continue to chase that every increasing 
tuition and fees cost with more and more federal dollars that 
we don't have.
    So I know that leadership like this, you're looking at this 
and probably doing something like freezing salaries and 
reducing the size of the staff and looking for ways to cut your 
own costs so that we can see colleges and universities lowering 
the cost of tuition and fees, which would, indeed, help make it 
more affordable.
    Dr. Kirkpatrick, I am so glad that you are in the 
cybersecurity business.
    Ms. Kirkpatrick. So are we.
    Chairman Kline. The others are thinking here now that--and 
also at some point everybody else is thinking that they ought 
to be in there, and this becoming a terrifying prospect.
    I was in Estonia a couple years ago, and you know and the 
focus here is that that they suffered a cyber attack. And the 
entire country is entirely dependent upon, to broadly put it, 
the internet. Nobody in the entire country writes a check, that 
doesn't exist. There is no paper. And so such an attack was 
pretty devastating.
    And when you think about how vulnerable we are as a nation, 
we have stood up in a cyber command (sic) in the Department of 
Defense too--so we are glad that you're turning out the 
students with the education and skills to address that need.
    In general, this will be a question for all of you. Dr. 
Kirkpatrick, you spent some time talking about ways that you 
help students get employment when they graduate, you have--I 
think you have internships and co-ops and so forth. By the way, 
I mean, two-thirds of your students don't come from the county, 
pretty amazing, plus international students and you have on-
line education.
    What about that, if I could ask both of you, in either 
order, sort of what you're doing in your college or university 
to help plug those graduates into employment, if you keep in 
mind the conversation we had with the previous panel.
    Ms. Kirkpatrick. We have a program, and as Dr. Bay of the 
previous panel mentioned, having those interns, and the 
linkages between the employer or the company and the academic 
institution is critical. As Dr. Bay mentioned, the company that 
he's with, Assured Information Security, has hired alum back in 
2001, and since then, when it was a two person organization to 
now 100-and-some-odd and still growing at a rate of 25-some-odd 
percent, we have placed our graduates into that organization as 
interns and then they, in turn, become employees after their 
security clearance goes through well, and currently we are 
building research based program between AIS and SUNY IT.
    Chairman Kline. Can I interrupt for a minute? Those interns 
would be typically a senior moving towards graduation.
    Mr. Yeigh. Or graduate students. We currently have 
undergraduate and graduate information security/information 
assurance program here at SUNY IT, which is founded on really 
if you want to call it hard sciences of computer science. So 
rather than looking at the macro factors, we're really going 
down to nuts and bolts or bits and bytes in a cyber world.
    So working with these companies and also there are 
companies that we're working closely with in the Syracuse area, 
our attitude has been rather than just creating a career fair 
where you make the matchmaking done no those settings but 
rather have their graduate or undergraduate education 
experience be directly tied to what they're studying. I agree, 
barring some of the conversation that Dr. Bay started in the 
last panel, training versus education. I think that education 
where we educate our students to be critical thinkers, problem-
solvers, really have those skill sets and the toolbox necessary 
to make them successful. I think that's how we are going to go 
about connecting industry and actually bringing that relevance 
of the field, and the field is always going to change and will 
continue to evolve or revolutionize, innovate, all those right 
words, but we want to bring that relevance into the classroom, 
and that's how we're going about making those linkages, through 
internships and practical experience into the classroom.
    Chairman Kline. Continuing?
    Mr. Yeigh. Yes. We have spoken to some of our tri-partners 
and they talk about these entry-level positions, but the skills 
they talk about are life skills, get to work, get along, come 
back the next day. That doesn't--that requires living skills 
that we really work on with our students. And the majority of 
these jobs are held by students who some don't even have a two-
year degree, and we know that the greatest growth is going to 
be in needing students with two-year degrees, so we bring them 
in and we teach them those skills; we teach them how to value 
showing up, we teach them how to learn critical thinking, how 
to compare things, how to write, how to communicate.
    Those basic human skills are critically important for this 
nation. And I would say that numbers that are in that area, 
that need that kind of training are great.
    One of our greatest successes is that we take them from 
coming in at that level and bring them to a level where we are 
one of the largest transfers to SUNY IT. Our cybersecurity 
program began five years ago with a collaboration between Utica 
College, it has now grown fivefold, and we are looking to 
serving that industry.
    So we take them for where they don't think they can go to 
where they can go so that they can transfer to these 
institutions.
    Chairman Kline. Thank you very much. I'll pick this up 
again in a minute.
    Mr. Hanna.
    Mr. Hanna. I'm serious, how do you feel about K through 12, 
especially with what you just said to us.
    Mr. Yeigh. We do a great amount of developmental work, 
reading, writing, and arithmetic, and that is work that should 
be completed before they begin college, and yet over 60 percent 
of our students are involved in a developmental course.
    I have concerns at many levels. From an educational level, 
I feel that we really need to work with the curriculum so that 
it's seamless and so that our K through 12 partners, we develop 
programs that allow students to move through the curriculum 
from an educational standpoint.
    As a taxpayer, I worry about duplication, you know, we are 
funded by the state, we are also funded by our local community 
as our K through 12 partners so we want to really maximize the 
use of that funding.
    The plan K through 12. I think we are--If you look at our 
competitors in Asia, in Europe, our standards have fallen, and 
that's a great concern. We are trying to catch up at the higher 
education level, but often times that is way too late.
    We don't make science and technology as fun as say M.T.V. 
videos or other popular culture or other things that the 
students are interested in, but I think there is some grass 
roots efforts that's taking place throughout the United States. 
If you haven't seen First Label League or Best Robotics 
competition, in fact, SUNY IT is home to the--this region's 
First Label League, and we will be sending our winner to the 
national--international First Label League, F.L.L., 
championship in St. Louis, Missouri next month. But those are 
the type of things that we need to continue to embrace, and 
will really make math, science, and engineering.Maybe we might 
need a space race or our generation space race, maybe that's 
what it's going to take. But, as a techie, as a resident geek 
of this campus, science and engineering, it's fun, they're fun, 
they're fun stuff.
    And I think the--at the federal level continue to support 
those initiatives through the National Science Foundation, 
through Department of Education and all the other agencies they 
really need it if we're going to maintain our--where we have 
fallen a little bit to regain the edge that we've always had.
    Mr. Hanna. How much remedial work in terms of K through 12, 
because people arrive on your campus and my assumption is 
they're not as well prepared as you would like them to be. Go 
ahead.
    Ms. Kirkpatrick. I think I can speak for all of us, we are 
doing increasingly more remedial work and trying to work with 
the hard--we have a large education department and we are 
trying to work very hard with the local schools.
    I'll be perfectly honest, in my position right now we are 
struggling with how do we--how do we transition students into 
college; do we give them the remedial work, do we ask that they 
go to the community colleges. It's a struggle for all of us.
    I wanted to go back, if I could, to your original question, 
and illustrate with something.
    I know we're stuck between how we prove accountability at 
all levels in our educational system. I'm terribly worried 
personally, and as an educator, seeing the issues with the 
teaching for the test all the way through K through 12. And 
just a quick story to illustrate that. We host at Utica College 
the regional science fair for middle school and high school 
every year, as a matter of fact it just happens to be this 
Saturday.
    About three or four years ago I was there and there were 
very few students compared to what we had had--we used to have 
a 100-plus students, there were probably about 25, 30 students 
maybe in the entire science fair. And I, observing, said, what 
did we do wrong, are we not in touch, were we not working with 
the local school system? And I was told that, no, from a lot of 
the educators, from a number of the science educators locally, 
they felt that because what they were being judged on whether 
there students could pass those exams, they didn't feel that 
they needed to have science fairs anymore, they didn't feel 
that their time was being rewarded for working with students in 
science fairs. I'm not a scientist, but I can't imagine our 
students--I can't imagine not learning how to ask a question, 
how to form a hypothesis, how to experiment, and how to analyze 
your results; and I think this speaks to what was said earlier 
about not making science fun.
    How can we have scientists if we're not creating that joy, 
that excitement in the early years. So that is one of my 
concerns.
    And teaching to the exam is not teaching to think 
creatively, to think critically, to analyze, it's teaching them 
how to pass a test. And we're seeing that more and more in our 
students coming into Utica College and of their schools across 
the country.
    Mr. Hanna. I'm going to assume for the moment that your 
cybersecurity, you have about 100 percent placement; is that 
correct?
    Ms. Kirkpatrick. I would say we're probably--Yes.
    Mr. Hanna. Okay. Tit for tat.
    Chairman Kline. Thank you, Mr. Hanna. I'm not sure which 
direction to go here.
    You brought up a couple of interesting points and, as you 
know, this committee is looking at reauthorizing the Elementary 
and Secondary Education Act, No Child Left Behind. And so I 
appreciate how you're going to address the accountability 
issues, so we appreciate your comments.
    I want to go back to where we were a few minutes ago, and 
that is this connecting--I'm not trying to turn all colleges 
and universities into trade schools, let me be clear about 
that, but I do think that we're missing the connection in many 
cases between students graduating and what we need in the 
workplace.
    And we saw that theme in the previous panel. We were 
addressing this down in Pennsylvania yesterday, and it does 
seem to me that there are several approaches out there, 
internships you all mentioned, hard to imagine that all the 
students are able to get those internships, but I want to go 
back to what you talked about, Dr. Kirkpatrick. You said that 
you were using advisory groups, and that's a fairly common 
practice, particularly, I think from the career colleges and in 
community colleges, but in others, as well.
    Who makes up the advisory group and how are they chosen?
    Ms. Kirkpatrick. Our economic crime institute is probably 
our largest advisory group, it's been in existence for about 20 
years, and it's a combination of people that--people that the 
institution knows in the industry but often it's networking 
once you have a core group of people, it's their networking 
that brings other people. And we try--or example, in the 
economic crime institute, we try to have a good balance with 
people working in government agencies with private sector 
banking. And as I said before, it's networking, people who know 
other people who want to maintain a balance in all of those 
areas.
    Chairman Kline. So these advisory groups, and you have more 
than one for more than one discipline, is this a formal group; 
Are they named or appointed by name or assigned by name and 
they know they're on this advisory group for some specific 
term?
    Ms. Kirkpatrick. Yes, we have committees and we have to ask 
people to serve on these and have formal committee meetings, 
but that doesn't mean that we don't have individual 
relationships with businesses in the community; but a 
particular advisory board is set up.
    Chairman Kline. And who does the advisory group advise?
    Ms. Kirkpatrick. They work particularly with the faculty in 
those areas. As I said, they help develop curriculum.
    Chairman Kline. Sitting down with faculty.
    Ms. Kirkpatrick. Yes.
    Chairman Kline. And you're nodding, Dr. Murray, but the 
recorder can't see the nods. But I see that you're concurring.
    Ms. Murray. Yes, we have formal meetings several times a 
year with a set agenda. And often some work groups such as, as 
I said we often will have a curriculum group, we will have 
internship work groups, and a curriculum work group, and it's a 
formal committee. People are named, they serve certain terms 
they may roll off the committee very much like a board.
    Chairman Kline. Dr. Murray, so we can get it on the record.
    Ms. Murray. In exactly the same way, our advisory boards 
are assigned for each of our programs, and many of the members 
are actually alumni of those programs who are successful in the 
field, and so we have businesses, people who run businesses.
    For example, in New York City in the fashion industry, to 
advise our fashion merchandising program. And our radio and 
television broadcasting programming has advisors from the 
Syracuse area and the Capital District in communications, so we 
look to our alumni. If so, a combination of not just business 
partners but also educational partners because so many of our 
programs transfer and they meet regularly at least twice a 
year, they're formal meetings, and our faculty are present 
because we really are looking for what is the standard, what is 
the industry standard at this time.
    Chairman Kline. And are there portions of your program that 
are not current?
    Ms. Murray. Our travel and tourism program moved into a 
travel tourism and has management at the behest of our advisory 
committee.
    Chairman Kline. So you are making adjustments to the 
programs themselves, perhaps adding to the program?
    Ms. Kirkpatrick. Again, the intent of the advisory board, 
advisory group is to make that connection with the employers. 
And as you say, you have educators as well, but to keep it 
relevant and make sure that you are turning out graduates that 
have the opportunity to find a place in the workplace so that 
their training and education is relevant, I think that is 
fairly common, I've just never quite understood how formal it 
is.
    Chairman Kline. And do you or some individuals with the 
college or university, do you have the power to appoint and 
remove these people or is there some, dare I say, bureaucratic 
process that is involved in that?
    And, Dr. Yeigh, you're certainly included in this 
conversation if you also utilize such advisory groups and 
boards.
    Mr. Yeigh. We do. In some parts of our engineering 
programs, for example. For example, there are necessary 
ingredients, part of the assessment process for accreditation. 
So a path for engineering technology, usually they look at the 
industry board for guidance on the curriculum development and 
the relevancy to which the academics are offered, and that's 
sort of the industry that we provide our students, too.
    And so--And also our advisory boards, in addition to 
industry input, we also have input from students from Mohawk 
Valley Community College because we receive our students from 
those institution, so it's really a formal and informal network 
of practitioners, and the academics in specific the fields they 
provide not only in the curriculum, but knock on my door for 
additional resources for which a program might need, and so 
their role is advising the academic programs faculty and the 
department, as well as the institution and how they--we all 
come to believe in supporting the academic enterprise that we 
have created here.
    Chairman Kline. Thank you. I'm going to pick this up in a 
minute, but Mr. Hanna is patiently waiting to ask some 
questions.
    Mr. Hanna. Unfortunately, I'm interested in your 
prospective on for-private institutions, whatever that means to 
you, because certainly they're growing and mixed opinions, some 
mixed reviews perhaps.
    Mr. Yeigh. So I'm going to be--I'll voice my personal 
opinion about the for-private institutions. When you're private 
or public institution for education, although not explicitly 
stated, we exist for public good.
    And, to me, when the goal of making private standards is in 
the way of public good, often that, to me, is a conflict of 
interest. So that is my personal position on for-profit 
institutions. And that doesn't mean that we're the--the not-
for-profit isn't a business, we are a business. We're in the 
business of educating our students. We're in the business of 
creating the well-educated workforce for the future. But when 
the intent is to make profit, I think that gets in the way of 
our core and what we have to do for public good.
    Ms. Kirkpatrick. My concern is for the opportunities, 
because it's the financial aid and to keep our tuition down, 
but it's students coming from a for-profit institution with a 
tremendous amount of debt and really no real credential to 
speak for.
    So I think that the students could be better served in a 
public institution.
    Mr. Yeigh. I'm going to echo the concerns of my colleagues 
here; however, I'm going to perhaps add a slightly different 
dimension. I do agree that we need to guarantee that the 
students who graduate from these programs have received the 
education that they need. We're looking more and more at the 
usual forms of funding, as you said we need to keep the costs 
down. And yesterday schools such as Utica College and SUNY IT, 
who are fairly new institutions, do not have large endowments, 
federal funding is drying up given the economic times, fund 
raising is difficult, and I think unfortunately or--
unfortunately I think we're going to see more and more for-
profit organizations because the not-for-profits are 
struggling, given this environment. So I'm thinking maybe I 
have been watching the new legislation with a great deal of 
interest, and I think it's going to be a matter of 
accountability, but I don't think the for-profits are going to 
go away.
    Mr. Hanna. But to quickly paraphrase and jump in, you think 
there is a fundamental conflict of interest between the for-
profit and not-for-profit schools, the students and their 
ability to access resources to get themselves through school 
and the outcome.
    Mr. Yeigh. I would say yes. And if you read the--there was 
a recent article in the Chronicle about education, like 
yesterday, concerning some for-profits using the loopholes in 
international student recruitment to gain tuition revenue 
when--and, in fact, in the State of--in the States of 
California and Virginia, those were the two states where there 
were more of those schools, maybe accountability through 
legislation might be a move to hold those institutions--you 
know, maybe under better control.
    But, again, that problem didn't exist because we didn't 
have rules. The problem exists, at least in my mind, that if 
the intent and the objectives of for-profits were put higher 
education as to the public good it certainly would be a start.
    Chairman Kline. Thank you. Thank you, Mr. Hanna.
    I did find it interesting that because it's a public good 
there shouldn't be profit involved, and it makes me wonder 
about farmers providing food which is a public good and maybe 
there shouldn't be for-profit grocery stores for providing food 
and maybe a not-for-profit in medical doctors, for doctors who 
are providing health. That's an ideological discussion here.
    I want to go back to how students are made ready to step 
into the workforce. I know this sounds like we're beating it 
pretty heavy, but we're trying to understand to see if the 
federal government is in the way perhaps, or if there is 
something they need to do, and one of things we talked about 
with those advisory groups or advisory boards that work with 
the college or university and the faculty to make sure the that 
coursework is relevant to the needs of the workplace, but if 
the faculty is prepared and the coursework is relevant but the 
students aren't involved in this, they're still not ready to do 
it either. By that I mean they may have come to the college or 
university and they're studying--I'll just pick on political 
science because of the relevance to us, and there is not a big 
demand for that in the workplace, then perhaps we're not 
meeting the needs of the workplace.
    So I think what I'm talking about is genuinely referred to 
as student counseling, and it's certainly in the high school 
arena. Students are counseled about what jobs are available, 
what colleges are available.
    How do you address that question of keeping the students 
aware of what the opportunities are, or is that not part of 
your role? And I just put that out.
    Ms. Murray. It is very much part of our role because one of 
the main things that we have left to do is make sure the 
students are matched in the program of interest that is offered 
at our school and that that program will get them to where they 
want to go and that is to employment.
    We have advisors, we have faculty who work with students as 
academic advisors, we have actual career advisement center.
    Chairman Kline. Excuse me for interrupting.
    But when is the student introduced to such an advisor or 
career center; when they walk in the door, senior year?
    Ms. Murray. Applications ask what is your area of interest, 
and we start that discussion with them immediately before 
they're even admitted into the institution because we would not 
want a student that was interested in something that we could 
not offer them so we make sure that their interests--trying to 
keep it as broad as possible because we know they're young, but 
at least they will be able to obtain an education in the field 
that is connected to that interest.
    So immediately before they get here, and then as soon as 
they're admitted, they're assigned an economic advisor. There 
is a transfer counselor, a career counselor that work with the 
students as well.
    Chairman Kline. Dr. Kirkpatrick?
    Ms. Kirkpatrick. It's very similar. We start with the 
students. They have an economic advisor assigned to them as 
soon as they're admitted, basically. We do a number of--There 
are a number of activities. We have a freshman seminar program, 
as I imagine most of the institutions do. And part of that--the 
very first semester, part of that is working with career 
services, taking courage to take exams if they're unsure about 
what they want to do, for their skills and their aptitudes. 
Career fairs, we actually have an economic fair--in the fall we 
have an economic fair where they can go talk to different 
people about different majors and where those majors may lead, 
some of them may be involved with people from the community 
very early on. We have a program for pre-professionals where in 
their freshman year on they're allowed to shadow people in the 
community. So a variety of ways.
    When student services reaches out, we have a number of 
advisors on campus, what we call academic coaching experts, who 
work with particularly the freshman in all aspects, whether 
it's the life skills that they're lacking, why can't you get up 
and make that 8:30 class, what do you really want to do with 
your life.
    So a small private college, such as Utica College, really 
tries to be hands-on, it doesn't try, we succeed at being 
hands-on with all our students, that's why they're there.
    Mr. Yeigh. I am advising we do mentoring. I wish we would 
do more of that, and I wish there was more going on across our 
programs. There--the faculty members help students with their 
program development, and we try to network our students to 
relevant industry contacts wherever necessary. There are 
student life skills and sometimes behavioral support that we 
provide our students.
    Personally, I became an engineer because of one faculty 
member who influenced me, and that kind of personal connection, 
there isn't clearly a really a regular method, you're either 
going to click with that person or you're not. And I wish there 
were more of that.
    But, again, in a climate of starving resources, there are--
we do more of having to just support our students so that they 
get from Point A to Point B. There really isn't a luxury of 
really giving that sort of mentoring on a regular basis, other 
than when you have that connection with that specific faculty 
member, because of either personal interest or professional 
interest that just clicked, but it's a good thing to do.
    Chairman Kline. I was thinking, Dr. Yeigh, that I did not 
become an engineer probably because of differential equations 
but that's entirely a different thing.
    I want to thank the witnesses very much for your testimony, 
for your discussion, for answering the questions and for 
engaging. It's been very, very helpful.
    On behalf of Mr. Hanna and me, I thank you and all in the 
room. And there will be no further business. This hearing is 
adjourned.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]


                         REVIVING OUR ECONOMY:
                    THE ROLE OF HIGHER EDUCATION IN



                       JOB GROWTH AND DEVELOPMENT

                              ----------                              


                        Thursday, April 21, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in the 
Waymon L. Hickman Building, Columbia State Community College, 
Columbia, Tennessee, Hon. John Kline [chairman of the 
committee] presiding.
    Present: Representatives Kline and DesJarlais.
    Staff Present: Daniela Gracia, Professional Staff Member; 
Jimmy Hopper, Legislative Assistant; and Alex Sollberger, 
Communications Director.
    Chairman Kline. A quorum being present, the Committee will 
come to order.
    Administrative announcement--pursuant to Committee Rule 
7(c), all Committee members will be permitted to submit written 
statements to be included in the permanent hearing record.
    Without objection, the hearing record will remain open for 
14 days to allow statements, questions for the record and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Well, good morning. Welcome to our third field hearing of 
the 112th Congress. It is good to be here in Columbia, 
Tennessee with Scott DesJarlais. Thank you all for coming. A 
special thanks to our witnesses, we will have two panels today. 
We appreciate all of you taking the time to be here. It is just 
wonderful to be here in Tennessee. Vicky and I, my wife and I, 
are here, we came down from Minnesota. It finally stopped 
snowing yesterday, so we are very, very happy to be here in 
Tennessee where you actually have leaves on trees.
    Well, these are tough times, and despite recent 
improvements in the national unemployment rate, our economic 
recovery remains uncertain. Roughly 13 million workers remain 
jobless, including more than 32,000 in Tennessee's Fourth 
District. A range of unpopular Washington initiatives enacted 
during the last Congress contributed to an atmosphere for 
business owners, causing many to shrink their workforce or curb 
plans for expansion. As a result, it has become even more 
important to ensure young adults have the tools necessary to 
stand out in this competitive job market.
    As members of the House Committee on Education and the 
Workforce, we are keenly aware of how closely related education 
is to the strength of the workforce. A student's success in the 
classroom will help determine his or her success in the 
workplace. The evidence overwhelmingly suggests that 
individuals who fail to advance in their education are more 
likely to be unemployed and earn lower wages. In fact, today, 
workers with a high school diploma have a nearly one in ten 
chance of being unemployed, while college students have only a 
4.4 percent chance of being unemployed.
    As we work to foster our growing economy, hearing directly 
from folks who see challenges and opportunities in our schools 
and workplaces will help us make sure Washington does not block 
the road to growth and prosperity. That is why we are here 
today. We want to learn about the policies that may be standing 
in the way of job creation right here in Columbia. We want to 
hear your thoughts on encouraging academic success in our 
classrooms and get your ideas on how we can work together on 
the local, state and federal levels to reinvigorate the 
American spirit of innovation and prepare the students of today 
to succeed in tomorrow's workforce.
    Again, we appreciate our panelists' participation in 
today's hearing and I am looking forward to getting this 
discussion underway.
    Let me thank my Committee colleague and friend, Scott 
DesJarlais, for his gracious invitation to hold a field hearing 
here in his district. And without objection, I now yield to him 
for his opening remarks and the introduction of our first panel 
of witnesses.
    [The statement of Mr. Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    A quorum being present, the committee will come to order.
    Good morning, and welcome to our third field hearing of the 112th 
Congress. It is good to be here in Columbia, Tennessee with 
Representative DesJarlais. Thank you all for coming, and special thanks 
to our witnesses. We appreciate you taking the time to join us today, 
and we look forward to your testimony.
    These are tough times, and despite recent improvements in the 
national unemployment rate, our economic recovery remains uncertain. 
Roughly 13 million workers remain jobless--including more than 32,000 
in Tennessee's 4th District. A range of unpopular Washington 
initiatives enacted during the last Congress contributed to an 
atmosphere of uncertainty for business owners, causing many to shrink 
their workforce or curb plans for expansion. As a result, it has become 
even more important to ensure young adults have the tools necessary to 
stand out in this competitive job market.
    As members of the House Committee on Education and the Workforce, 
we are keenly aware of how closely related education is to the strength 
of the workforce. A student's success in the classroom will help 
determine his or her success in the workplace. The evidence 
overwhelmingly suggests that individuals who fail to advance in their 
education are more likely to be unemployed and earn lower wages. In 
fact, today, workers with a high school diploma have a nearly 1 in 10 
chance of being unemployed while college graduates have only a 4.4 
percent chance of being unemployed.
    As we work to foster a growing economy, hearing directly from folks 
who see challenges and opportunities in our schools and workplaces will 
help us make sure Washington does not block the road to growth and 
prosperity. That's why we're here today.
    We want to learn about the policies that may be standing in the way 
of job creation, right here in Columbia. We want to hear your thoughts 
on encouraging academic success in our classrooms, and get your ideas 
on how we can work together--on the local, state, and federal levels--
to reinvigorate the American spirit of innovation and prepare the 
students of today to succeed in tomorrow's workforce.
    Again, we appreciate our panelists' participation in today's 
hearing, and I'm looking forward to getting this discussion underway. 
Let me also thank my committee colleague Scott DesJarlais for his 
gracious invitation to hold a field hearing here in his district, and 
without objection, I now yield to him for his opening remarks.
                                 ______
                                 
    Mr. DesJarlais. Thank you, Chairman Kline. It certainly is 
an honor and a privilege to have you and the Ed and Workforce 
team here. I think I speak on behalf of Columbia State, 
Columbia and District 4 when I say we are very honored and 
privileged to have you here and it is exciting for us to have 
this opportunity.
    So good morning, and thank you to Columbia State College 
for hosting us today. Thanks also to our distinguished panel of 
witnesses and the audience for their interest in getting 
Tennessee back to work.
    America is facing historically tough economic challenges 
and the Fourth District has been hit especially hard. In the 
face of these challenges, we need to rethink how we educate our 
workforce, especially regarding the role the federal government 
should play.
    Through this hearing, we hope to learn about the economic 
needs of our business community. Employers need a workforce 
that is flexible, responsive and highly skilled. To this end, 
colleges and universities need the freedom to adapt to the 
ever-changing needs of local businesses.
    We all know that central Tennessee has experienced the 
closure of many coal mines and the loss of factory jobs. And of 
course, like the rest of the country, we are still recovering 
from the recession. Unemployment in the Fourth District remains 
well above the national average. Here in Maury County, 
unemployment sits at 14.2 percent. We can and we must change 
this. The district is blessed with many colleges and 
universities that are partnering with local businesses in an 
effort to produce workers that meet the needs of the private 
sector. We must continue to encourage these sorts of 
partnerships. In fact, right here at Columbia State Community 
College, partnerships exist between the school and the private 
industries, including the film and medical industries. Also, 
Columbia State's Center for Economic and Workforce Development 
works with the local community and businesses to provide 
Tennessee workers with the type of technical skills and job 
training they need to excel in the 21st century economy.
    One of my top priorities in Congress is to ensure that our 
young people and non-traditional students have access to an 
affordable and internationally competitive education.
    I look forward to hearing from our distinguished panel of 
witnesses as they give their perspectives on education and 
workforce issues. So let us get the hearing underway.
    We have two distinguished panels of witnesses today and I 
would like to begin by introducing the first panel.
    Dr. Janet Smith was named President of Columbia State 
Community College in November 2007. Dr. Smith has previously 
served as President of Rich Mountain Community College; Dean of 
Academic Affairs at Hopkinsville Community College; Director of 
Extension Services at Dyersburg State Community College; and 
Instructor, Department Chair and Division Chair at Isothermal 
Community College. Dr. Smith is also Vice President of the 
Tennessee College Association and a member of the National 
Advisory Board for the Higher Education Research and 
Development Institute.
    Dr. Ted Brown has served as President of Martin Methodist 
College since 1998. His arrival at Martin followed 13 years as 
the Vice President for College Advancement at Presbyterian 
College in Clinton, South Carolina. During his career, Dr. 
Brown has served as a Research Assistant at the United 
Methodist Board of Higher Education and Ministry, as Assistant 
Dean and Director of Development at Vanderbilt Divinity School 
and the Director of Development at Center College.
    Mr. Jim Coakley serves as President of Nashville Auto-
Diesel College. Prior to his current position, he recently 
served as Campus Director of ITT Technical Institute in 
Nashville, Tennessee where he earned District Director of the 
Year numerous times. Mr. Coakley's background includes more 
than 24 years in the education industry. Mr. Coakley also 
serves on the Board of Directors for the Tennessee Association 
of Independent Colleges and Schools.
    I would now like to turn the mic back over to Chairman 
Kline for rules of the hearing.
    [The statement of Mr. DesJarlais follows:]

   Prepared Statement of Hon. Scott DesJarlais, a Representative in 
                  Congress From the State of Tennessee

    Thank you, Mr. Kline.
    Good morning and thank you to Columbia State Community College for 
having us today. Thanks also to our distinguished panels of witnesses 
and the audience for their interest in getting Tennesseans back to 
work.
    America is facing historically tough economic challenges, and the 
4th district has been hit especially hard. In the face of these 
challenges, we need to rethink how we educate our workforce, especially 
regarding the role the federal government should play.
    Through this hearing, we hope to learn about the economic needs of 
our business community. Employers need a workforce that is flexible, 
responsive and highly skilled. To this end, colleges and universities 
need the freedom to adapt to the ever changing needs of local 
businesses.
    We all know that central Tennessee has experienced the closure of 
many coal mines and the loss of factory jobs. And of course, like the 
rest of the country, we are still recovering from the recession. 
Unemployment in the 4th district remains well above the national 
average. Here in Maury County, unemployment sits at 14.2 percent.
    We can and we must change this. The district is blessed with many 
colleges and universities that are partnering with local businesses in 
an effort to produce workers that meet the needs of the private 
sector--we must continue to encourage these sorts of partnerships. In 
fact, right here at Columbia State Community College, partnerships 
exist between the school and private industries including in the film 
and medical industries. Also, Columbia State's Center for Economic and 
Workforce Development works with the local community and businesses 
provide Tennessee workers with the types of technical skills and job 
training they need to excel in the 21st century economy.
    One of my top priorities in congress is to ensure that our young 
people and non-traditional students have access to an affordable and 
internationally competitive education. I look forward to hearing from 
our distinguished panels of witnesses as they give their local 
perspective on education and workforce issues.
    So let's get the hearing under way.
                                 ______
                                 
    Chairman Kline. Thank you, Dr. DesJarlais.
    We have already had a discussion with the witnesses, but 
for everybody's information, we conduct these hearings under 
what we optimistically call the five-minute rule. There is a 
light that is here in front of the witnesses. We are asking 
each of the witnesses to try to limit their testimony to five 
minutes, so they have got a little device in front of them that 
will show a green light, a yellow light and a red light. I do 
not pay a lot of attention to that, but it is a kind of useful 
guide and then we will go into questions and try to limit our 
questions somewhat as well.
    So I think we are ready to go and Dr. Smith, you are 
recognized.

            STATEMENT OF DR. JANET SMITH, PRESIDENT,
                COLUMBIA STATE COMMUNITY COLLEGE

    Ms. Smith. Thank you, Chairman Kline and Congressman 
DesJarlais. We welcome you to Columbia State. We are pleased 
that you selected our campus to hold this hearing. We are 
pleased that you are at a community college, because we think 
community colleges are the leader in terms of workforce 
development throughout our nation and that has been part of our 
role and will continue to be part of our role. So thank you for 
allowing us to talk about what we do and share with you what is 
going on in south-central Tennessee as it relates to education 
and workforce development.
    As you may know, Columbia State is the first community 
college in the state of Tennessee. It has a very strong 
heritage and it was established out of the Higher Education 
Authorization Act of 1963. So we have a tie back to the federal 
government--overall community colleges in general do--in that 
you gave us our start. And that start was out to service the 
people of the nation and to provide educational opportunities 
where there was not access, and now there is access.
    Columbia State has four extended campuses. One in Clifton, 
one in Lewisburg, Lawrenceburg and one in Williamson, as well 
as the campus here in Columbia. We provide credit and non-
credit. Credit being transfer programs and credit being 
associate of applied science that allows students to begin 
their career opportunities immediately after completing their 
associate. The associate of arts and associate of science 
degree transfer to our universities and we have wonderful 
transfer agreements that allow that to occur.
    We have 5600 enrollment. Our full time is around 2600, part 
time around 3000. The average age is 24.8. Now our average age 
is a little bit younger than some other community colleges 
throughout the nation. We have seen the average age begin to 
drop throughout the years, but we pull a lot of students that 
are first generation college students and our communities are 
very rural, so we are entering a lot of students straight out 
of high school as well as those who are coming back through our 
workforce initiatives. Degree-seeking first generation students 
is at 2308, so that gives you an example of the income level 
and the abilities of our students when they enter.
    We service nine counties, we service Wayne, Perry, Lewis, 
Marshall, Giles, Hickman, Lawrence, Williamson, and Maury. And 
all of those counties except Williamson are in Labor Market 10. 
Labor Market 10 has a 14.2 percent average unemployment, and 
that is a very difficult thing for our communities as well as 
for our students. With that type of unemployment, it becomes 
more important that we have our outreach centers so that our 
students have the ability to attend class.
    We link to the workforce in several ways. We have 
representation on various committees throughout the service 
area, various chambers and local government. We work very 
directly with our local workforce boards, both here and in 
Williamson, and communicate with them constantly. Some of the 
ways that we are out and about is through periodic meetings 
with clients, clients in our service area, such as Biomimetics 
in Franklin. We have had several meetings there looking at 
biotech programs, clinical lab programs. We are also working 
with the various health agencies throughout our communities in 
terms of what their needs are with health information 
technology and then with new programs that are dealing again 
with the clinical labs and so forth.
    We have worked with industries such as GM and others in 
providing specific courses for their employees as well as those 
of family members.
    We participate in monthly breakfast brainstorming sessions 
that are held by our local workforce board and these are held 
in different locations throughout the service area and it is a 
time where the community leaders come together along with 
providers and talk about what the needs are and what the 
education and training programs are.
    We also have focus groups that we pull together. One such 
focus group was working with an industry that needed 
programmable logic controllers. So we pulled several industries 
together to see what the need was, how much training they 
needed and how best to go about providing that training. And in 
doing that, then we also worked back again with our local 
workforce board to see if there is any way that they can assist 
the industry if it falls within one of their programs at that 
time.
    As I mentioned earlier, we participate in community 
organizations. We are members of the chamber of commerce, we 
are members of the industrial development boards, we are on 
various organizations throughout all of our service area. And 
then we come together to work in different scenarios. And one 
such scenario that is coming up is we have business leaders who 
also are very involved in our workforce area. And we have a 
meeting next week in Dr. Brown's campus where there is a 
regional group of individuals throughout south-central 
Tennessee coming together on how do we develop a regional 
initiative for workforce development. So we are very excited 
about that opportunity coming.
    Collaboration, as I mentioned, with the workforce is also 
at their career center. Their career center provides 
opportunities for some of our students who cannot begin 
classes, to go there to brush up on skills as well as there is 
a good working relationship in what students are defining as 
their skill needs, their programmatic or career needs, and then 
referral back to the college.
    Community scanning. We think scanning is very important. 
Everyone on this campus that is working with Columbia State is 
looking at what the needs are in our community, they are 
listening in different groups that they are in and they are 
providing those needs--bringing those needs back to the campus 
and sharing those needs with different offices, and then we 
begin to develop programs based upon what we find out.
    Advisory committees. All of our career credit programs have 
an advisory committee as well as some of the non-credit, but it 
is primarily with the career credit. And that is professionals 
in the field such as our veterinarian, our nursing or whatever. 
We have professionals who come in, they look at our curriculum, 
they talk about our graduates and they advise us on changes 
that we need, changes that are occurring in the workforce, to 
keep our curriculum current.
    The type of classes that we have had in the non-credit, to 
give you more examples, we have what we call open enrollment 
on-ground programs, and that is where we lay a course out and 
anyone can come and take that course that needs it. Many of 
those are through online training as well as some that are 
specifically here at the campus. EMT refresher is one of those 
and police in service, hospice. Then our onlines carry 
paralegal, pharmacy tech and education and many others. But we 
try to broaden what we can provide for our students, both 
through the online and in the open enrollment, based upon the 
needs that we ascertain from our various group meetings.
    We do contract training if a business or industry has 
anything that they need in terms of contract training. We sit 
down with them, we talk about what it is that they need, we put 
together the course. Sometimes, they may use a course that we 
have that we need to refine and so forth.
    And in terms of overall, I think finally I would like to 
say Columbia State, when it was founded, Lady Bird Johnson was 
here to do the dedication. And Lady Bird, in her statement, 
said, ``There is a new beat and rhythm on our land. When a 
community college rises from a once-empty field, the country 
expands not outward but upward, forever to the service of the 
people and the progress of the nation.''
    Chairman Kline, Congressman DesJarlais, our community 
colleges were born out of service to provide opportunities and 
education for our citizens. And that is our mission, that is 
what we are here to do and we thank you for allowing us the 
opportunity to share with you.
    Chairman Kline. Thank you, Dr. Smith.
    Dr. Brown, you are recognized.
    [The statement of Dr. Smith follows:]

            Prepared Statement of Janet F. Smith, President,
                    Columbia State Community College

    Chairman Kline and Congressman DesJarlais, thank you for this 
opportunity to speak to the Role of Higher Education in Job Growth and 
Development, particularly as it relates to the mission, programs, 
activities, and services of Columbia State Community College. We at 
Columbia State are honored that you have selected our college as the 
location for this hearing. We believe that community colleges are 
central to providing the diverse educational opportunities needed to 
meet the growing and ever changing job demands and needs. Please accept 
our appreciation for your recognition of the need for continued and 
advanced training and education of our citizens, and your selection of 
a community college, our College, to solicit information for evaluation 
of the role of higher education in reviving our economy.
Columbia State Community College Profile
    As Tennessee's first community college, Columbia State builds on 
its heritage of excellence thorough innovation in education and 
services to foster success and bring distinction and recognition for 
the quality and effectiveness of the College. The mission of Columbia 
State is to enhance the lives of citizens and the communities of 
southern Middle Tennessee through teaching, learning and student 
success. That mission and vision are the guiding principles of our 
strategic planning process, outcomes, and community outreach.
    Columbia State services nine counties (Wayne, Perry, Lewis, 
Marshall, Giles, Hickman, Lawrence, Williamson, and Maury) in south 
central Tennessee. The service area includes one of the poorest to one 
of the wealthiest counties in the state. All of our counties except 
Williamson are in Local Workforce Investment Area (LWIA) 10. The 
January 2011 preliminary Labor Force Estimates for Unemployment was at 
14.2%, an increase of 1.2% over December 2010. We have the unfortunate 
distinction of having the highest unemployment rate in the State (the 
next closest is 12.2%). Education and training are a must for the 
growth and development of our service counties and citizens.
    Students are provided educational opportunities through the 
Columbia campus and four extended campuses (Clifton, Lewisburg, 
Lawrenceburg, and Williamson). Classes are offered via classroom, 
hybrid (classroom/on-line blend) and on-line (web based). In addition, 
Columbia State students may receive a degree through the College's 
participation in the Regents On-line Degree Program.
    Fall 2010 College statistics include:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Partnerships with Workforce Agencies, Business, Organizations * * * for 
        Workforce Development
    Columbia State is linked to the workforce needs of its service area 
through representation on various workforce boards, chambers of 
commerce, local government and civic organizations which inform college 
representatives of area education and training needs. These linkages 
foster communication and information necessary for community and 
workforce development throughout the region. A partnership for 
developing grants and sharing resources is another outgrowth of these 
linkages. The college periodically conducts town hall meetings in the 
counties where it has campus sites to solicit the needs, views, and 
desires of these community leaders relative to the types of education, 
training, and services that they would like to receive from their 
college. These meeting results are incorporated into the College's 
strategic plan so that new initiatives reflect the expressed needs of 
the communities served by the College.
    The President of Columbia State serves as a Board member on the 
Local Workforce Investment Board. The Director of Economic Development 
is a participant at all meetings. Another important organization is the 
area P-16 Council which consists of secondary, post-secondary, 
government, workforce officials, and business leaders meeting to 
discuss needs, changes, and actions. Also, it is the role of all 
College employees to identify needs and forward the information 
obtained to the appropriate office(s) for review and follow-up. This 
expanded ``ear to the pulse of the community,'' so to speak, cannot be 
understated.
    Workforce programs are offered through both credit and non-credit 
programs and classes. The decision for credit or non-credit is 
determined by the demand and education-training needs identified. The 
following is an overview of each.
Partnering and Listening as Methods to Identify, Develop, and Monitor 
        Workforce Relevant Programs
    The College has a multi-level training needs assessment process for 
identifying and developing programs and training sessions for our 
businesses, industries, and citizens. The process includes:
            Periodic meetings with key clients to determine training 
                    needs
    Through leads or direct interaction with an industry leader, 
College representatives establish meetings with existing employers to 
develop specialized courses or to introduce the employer to on-going 
courses and service packages that could benefit their employees and 
their business.
            Participation in ``monthly breakfast brainstorm'' sessions
    The local South Central TN Workforce Alliance is integral to 
determining workforce and training needs. They sponsor a monthly 
breakfast brainstorm session that meets in a different county each 
month for identification of new/existing training programs, and 
training needs. Participation in these sessions has resulted in a 
number of customized training events to help our local employers/
workforce.
            Focus groups
    The College employs the use of focus groups to gather information 
on training needs. Such an approach was recently used to measure the 
level of need for ``Programmable Logic Controller'' training for 
manufacturers in our service area.
            Participation in community organizations
    College administration and workforce leadership participate in area 
Chambers, industry and business group meetings, professional 
associations, and other community organizations for obtaining 
information on workforce and education needs, as well as to be active 
in community leadership. (Primary participants are the President 
[Chamber Board Member of Two area Chambers], Dean of Extended Campuses, 
Director of Economic Development, Extended Campus Directors, Executive 
for Advancement, and Provost) Our recent training courses in Basic and 
Intermediate Social Media classes were a direct outcome of this 
outreach process and a Strategic Planning class is under development.
            Collaborations with career centers
    Identification of training needs and offering of courses to meet 
those needs and demands is accomplished through access to DOL 
statistics and partnering with our local Career Centers. An example of 
an outcome of this process was the offering of Medical Coding and 
Advanced Medical Coding classes that lead to certifications. Other 
medical/healthcare courses are in the process of being arranged now and 
will be offered during our summer and fall terms. All of these courses 
have a certification exam as well, providing students an opportunity to 
prove they have the required knowledge. Another example was an 
identified need for Leadership classes. In response to that need, the 
College began offering a series of 29 Leadership classes which have 
been well received. We also assist employers with applying for 
Incumbent Worker funds and encourage them to use those funds when 
available to pay for the training we provide.
            Community scanning
    As noted in the above profile, Columbia State has four extended 
campuses with Directors and a Dean that are actively involved in their 
communities. That involvement includes activity with community leaders 
and businesses for the identification of workforce training and 
education needs. Through that identification, courses, programs, and or 
curriculum enhancements (credit and non-credit) are identified and 
offered.
            Advisory committees
    Professionals throughout our communities volunteer their time to 
serve on advisory committees for meshing curriculum with workforce and 
professional needs. These committees are appointed for the development 
of both credit and non-credit programs and for the on-going assessment 
of credit programs. Standing advisory committees exist for Nursing, 
EMT, Film Crew Technology, Respiratory Technology, Veterinary 
Technology, Agriculture, Radiologic Technology, Office Systems 
Administration, Business Administration, and Commercial Entertainment 
programs.
    Columbia State offers a wide range of classes to employers, many in 
a live lecture format, and others online. In the non-credit 
professional development area, we provide customized program services.
    They are:
    <bullet> Design non-credit classes to meet the needs of employers
    <bullet> Reevaluate existing non-credit training classes and 
customize the content to specific challenges identified by employers. 
Part of that customization is to develop quizzes/tests to measure 
learning.
    <bullet> Deliver training at one of our five campuses or at an 
employer's offices, depending on their preference.
Partnerships with the Local Labor Market Workforce Investment Board
    Our partnership with the South Central TN Workforce Alliance has 
resulted in positive worker education and training programs for 
workforce growth and development. A prime example is the offering of 
Entrepreneurship training within our service area. Over 200 people have 
taken advantage of this training, resulting in businesses being 
started. In other cases, existing business owners have taken the 
training, and jobs have been added as a result. This training effort 
has also been made even more effective due to a spinoff USDA for 
funding of an Entrepreneurship Coaching position to help prospective/
existing business owners write an effective business plan. In fact, 
this grant has also allowed us to offer more Entrepreneurship training 
in rural counties for 40 individuals. Columbia State is in concert with 
the area Technology Centers, and is the lead institution for education 
and training programs at the Northfield Center under the current 
direction of the local Area Workforce Board.
    A service we provide to non-credit continuing education students is 
to help identify potential employers. An example of this is a SHOWCASE 
event we sponsor along with the South Central TN Workforce Alliance. We 
invite a number of Middle Tennessee doctor's offices and hospitals to 
send representatives to this event where they can meet trainees who 
have recently attained their Certified Professional Coder credential. 
The WIA office also has grant funding to provide pay to completers for 
the purpose of attending an internship with these employers. This 
contains several benefits in that it pays the completers, gives them a 
chance to demonstrate their skills to the employer, and gives employers 
an opportunity to see the recent completers in action on the job. We 
are very excited about this and the potential it represents.
    Recently, through the WIA partnership, we began offering special 
non-credit classes at their request for displaced workers for re-enter 
into the workforce.
    In regards to credit programs, the partnership between the College 
and the Workforce Board has resulted in student tuition assistance for 
Associate Degree and Certificates in Computer Science Technology, 
Health Information Technology, Radiologic Technology, Registered 
Nursing, Criminal Justice, Business Management, and Office Systems 
Technology. More than 55 students have been serviced during this 
academic year.
    Many of the non-credit programs the College is introducing have a 
certification/testing connected with them. An example is the computer 
software training we are doing for an employer in our service area. We 
are conducting 10 classes for them, each of which contains a quiz at 
the end to measure knowledge. Another example is in the area of 
Geographic Information Systems. This class is being developed into a 
non-credit certificate program. That is, there are four courses in the 
series, and a student must take at least three and pass the exams to 
get the certificate. Here again, this allows trainees to prove they 
have the requisite knowledge in the topic, and, this program can be 
moved to a credit certificate if interest and need continues strong.
Programs at Columbia State that Prepare Students for the Workforce
    A listing of non-credit programs by primary delivery completed 
between July 2010 and this writing are outlined below:

                      NON-CREDIT WORKFORCE TRAINING
                           [July 2010 to date]
------------------------------------------------------------------------
                  Type/examples                   # Programs  Enrollment
------------------------------------------------------------------------
Open Enrollment--On--Ground (classroom).........          41         589
Police In-Service, Hospice Training, EMT
 Refresher, Leadership, Social Media, Computer,
 Software, Coding * * *.........................
Open Enrollment--On Line Individualized Contract         112         128
 Courses........................................
Medical Coding, Medical Transcription,
 Paralegal, Pharmacy Tech, Six Sigma, Creating
 an Inclusive Classroom, Get Assertive, Office
 Software* * *..................................
Contract Training--WIA/IWT......................          17         244
Basic Computer, Entrepreneurship, Medical
 Coding, Customer Service, AutoCAD * * *........
Spanish Training Grant--Federal Pass Through--            17         311
 Government Highway Safety Grant for Tennessee..
GM Contract for Specialized Classes.............          33         254
Industry Contracts..............................           4          28
Partnership Training Courses with Area                    23         343
 Organizations and Businesses ACLS, Pediatric
 Advanced Life Support, PALS * * *..............
                                                 -----------------------
      Total.....................................         247        1897
------------------------------------------------------------------------

    Credit programs offered by Columbia State that are career or 
workforce entry after completion include five credit-bearing 
certificate programs and eight associate in applied science degree 
programs. They are:


------------------------------------------------------------------------
                                         Associate in Applied Science
            Certificates                           Degrees
------------------------------------------------------------------------
Business Management Certificate      Business Information Technology
Commercial Entertainment               Option: Computer Systems
  Option: Songwriting                  Options: Office Systems
  Option: Performance                Business Management Technology
Early Childhood Certificate          Criminal Justice Technology
EMT/Paramedic                          General Technology
Film Crew Technology                 Nursing (R.N.)
                                     Radiologic Technology
                                     Respiratory Care Technology
                                     Veterinary Technology
------------------------------------------------------------------------

    All of these credit programs have advisory committees comprised of 
professionals in the field who offer guidance to assure that the 
content is relevant so that graduates will complete with the skills and 
knowledge necessary for the current job needs. Many programs require 
clinical or observation experiences in the field and area employers are 
cooperative in allowing students to gain these experiences. Many 
programs have accredited status within their profession which also 
requires industry professionals to serve in an advisory capacity to 
assure industry standards are met as part of maintaining program 
accreditation.
Radiology Technology
    The radiography program utilizes 10 clinical affiliates, including 
rural hospitals, regional medical centers, free standing imaging 
centers and orthopedic clinics. Students rotate through sites from 
Franklin to Dickson to Waynesboro to Shelbyville.
    Program faculty periodically provides educational programs for area 
professionals (access to mandatory continuing education credits). 
Brenda Coleman, Program Director, currently serves on the Board of 
United Way of Maury County.
    Kae Fleming, faculty/Dean, serves as a Site Visitor Chairman for 
the national programmatic accrediting agency, Joint Review Committee on 
Education in Radiologic Technology (JRCERT). Ms. Fleming also serves on 
the Williamson County Schools Career & Technical Education Health 
Sciences Advisory Committee and the BioMedical Advisory Committee for 
BioTN.
Veterinary Technology
    The Vet Tech program has continuously served the veterinary medical 
community since initially earning accreditation in 1979 and is one of 
only two programs sponsored by TBR/THEC institutions in Tennessee. The 
program currently has affiliation agreements with 39 clinical sites. 
Students benefit from rotations in specialty practices including two 
Equine hospitals (Thompson's Station & Nolensville), two UT Dairy 
Educational Research Centers (Spring Hill & Lewisburg), two specialty 
referral practices (which include emergency facilities), an Animal 
Emergency clinic (Columbia), the Vanderbilt University Division of 
Animal Care, a Veterinary Ophthalmology practice (Nashville) and at 
least one mixed animal practice (Columbia). The yearlong clinical 
component of the educational program rotates students from Lawrenceburg 
to Nashville and occasionally Livingston, TN. All students are members 
of Columbia State's student chapter of the National Association of 
Veterinary Technicians in America.
Nursing
    The Nursing program has established clinical relationships with 
more than 15 institutions ranging from small, rural hospitals to 
metropolitan research institutions to long term care and mental health 
facilities. Student learning experiences also occur in area health 
departments and community school systems. Students volunteer for 
service learning opportunities by assisting area agencies with wellness 
clinics and health screenings. Clinical partnerships occur across the 
Middle Tennessee area.
    Faculty interact with the workforce through volunteer speaking, 
involvement with HOSA groups (including contest judges), as well as 
hosting both high school and LPN students on campus.
    Columbia State partnered with National Healthcare (NHC) and Maury 
Regional Medical Center (MRMC) to deliver a contract night/weekend LPN 
to RN bridge program (2005/2006). In response to continued pressure for 
working LPNs to pursue becoming an RN--the college is exploring 
establishing a cohort pathway LPNs could use to complete Nursing's 
general education requirements. If interest is sufficient, the College 
will request approval from the State Board of Nursing and the 
accrediting agency (NLNAC) and attempt to recruit qualified faculty to 
design an LPN-RN Bridge cohort.
    Area healthcare facilities are invited to utilize equipment on 
campus, particularly high fidelity human simulators used by hospitals 
to train staff (ACLS & acute care). Other applications include flu 
clinics with Williamson Medical Center, MRMC Hospitals, and serving on 
leadership of TN Clinical Placement System.
    Utilizing physical resources at the Wayne County Technology Center, 
Columbia State will offer non-credit Certified Nurse Assistant (CNA) 
training in Waynesboro (Summer 2011).
EMS Education
    EMS Education has clinical affiliations with approximately 20 
hospitals, fire halls, and ambulance services. Students experience 
emergency medicine in rural settings and major research institutions 
(Vanderbilt University Medical Center). Clinical partnerships occur 
across the Middle Tennessee area. EMS lends itself to delivery of 
courses to meet the specific needs of a community--examples include 
courses we did to train displaced workers in Perry County in 2008 and 
2009.
    Columbia State is a regional site for ``EMS Night Out''--a bi-
monthly educational program for EMS professionals.
Respiratory Care
    The Respiratory Care program clinical affiliations with nine 
institutions ranging from small, rural hospitals to metropolitan 
research institutions: Vanderbilt University Medical Center, St. 
Thomas, Baptist Hospital, Crockett Hospital, Maury Regional, Middle TN 
Medical Center, Williamson Medical Center and Monroe Carell Children's 
(VUMC). Students also benefit from clinical experiences via Respiratory 
Care at Home in Nashville. Clinical partnerships occur across the 
Middle Tennessee area. An active advisory committee includes 
representation by each clinical site in addition to shared medical 
directorship from Maury Regional Medical Center: Jon Freels, MD, Thomas 
Quinn, MD, Maura Lipp, MD, and Minerva Covarubius, MD.
    The program is classified as an ``Advanced Practice'' (Registry) 
program and provides the professional community with graduates eligible 
for all three national credentialing examinations to become registered 
respiratory therapists, RRT.
    Program faculty members are active leaders in their profession. 
Roger Major, Clinical Coordinator, represents the profession on the TN 
Board of Respiratory Care, and is a member of the Education Committee 
for the TN Society. R. David Johnson, Program Director, serves as Chair 
of both the Education & Government Affairs Committees for the Tennessee 
professional society and is a member of the Health Sciences Advisory 
Council for Summertown High School. Both faculty members are 
credentialed instructors for ACLS, PALS, and/or BLS, providing 
certification opportunities for students, faculty/staff, and the 
community.
Business Administration and Information Systems Technology
    Professionals in the field review curriculum and often seek 
students for placement. The faculty follows the placement of graduates 
to assure their effectiveness in meeting employer requirements. Through 
a partnership with Trevecca Nazarene University, an Accelerated 
Business Administration program is offered. Through this program, a 
student can obtain their Associate of Science degree and follow with 
their Bachelor's degree in three years. A fourth year is available for 
obtaining the Master's degree.
    The Information Systems Technology students are given the tools to 
enter many computer fields. Many are provided opportunities for 
internships, special volunteer assignments, or coops where they obtain 
career experience or understandings. Through our information systems 
office, students, faculty and staff provide technology support for the 
Nashville Film Festival, which is held in April of each year.
Commercial Entertainment
    Commercial Entertainment is a one year program that provides 
students with skills and knowledge for entry into the recording 
industry and entertainment field. Graduates from this program are 
working in Nashville, New York, for various cruise lines, and in plenty 
of other entertainment/music-focused careers. Students and faculty work 
with entertainers in the area to keep the curriculum up to date.
Film Crew Technology
    Film Crew is one of our newer programs and involves students with 
hands on experience from the first class to the last. The program 
provides them the skills to be below-the-line gaffers, grips, camera 
operators, sound persons and/or other technicians. Film professionals 
from the Nashville area and some from Los Angeles have provided 
instructional support and helped mesh our curriculum with latest 
techniques to allow outside evaluation of student skills. One goal of 
the program is to reinforce the state's crew base with a steady stream 
of trained professional technicians. This program boasts a 100% 
placement rate. Graduates have worked on every major production in the 
State of Tennessee since 2009, and several in Georgia.
    The Film Crew students and faculty are involved in the Community. 
Each year they complete one or two community projects. Their most 
recent project was one for The Shalom Foundation. Two students and the 
instructor accompanied a group from the Shalom Foundation to Guatemala 
to film the experience and produce a video that provides an overview of 
the medical program and its importance.
    The Program Director actively develops working relationships 
between professional production companies and the Film Crew Program. 
Those relationships have resulted in the placement of graduates and 
students on the following:

          Four music videos
          Four feature films
          Six short films
          24 commercials
          Three EPK's (electronic press kits)
          Two PSA's (public service announcements)
          16 industrial projects
          Two international shoots

    The more this program works with outside production groups and 
entities, the more placements and new production work gets generated. 
But this may be scaled back somewhat in the future because the cost of 
this ongoing promotion and networking may not be able to be sustained 
with current program personnel (one faculty member who is director and 
instructor).
Criminal Justice Technology
    In the offering and development of this program there is continuous 
interaction with our law enforcement agencies for course and curriculum 
relevancy. It also serves as a training program for existing law 
enforcement personnel who have not obtained a degree.
    Of special note is the collaboration with the University of Tulsa 
for a Cyber Security NSF/ATE grant. Through the implementation of this 
grant the College is developing a Cyber Security specialty for 
offering. Dr. Robert Grubbs, Program Director, is actively involved 
with local law enforcement agencies for maintaining a current 
curriculum as well as involvement of law enforcement professionals in 
instruction.
Other Initiatives
    Columbia State is collaborating with the Saint Thomas Heart Chest 
Pain Network and the Saint Thomas Stroke Network on a three year, 
$600,000 Health Resources and Services Administration (HRSA) grant from 
the United States Department of Health and Human Services. This is a 
workforce development grant designed to increase the number of 
healthcare workers in rural Tennessee. Kae Fleming, Dean of Health 
Sciences, serves on the Advisory Board and Bob Trybalski, Instructional 
Technology Specialist, provides support for use of ITV resources to 
reach rural areas.
    Two Technology Centers are located within Columbia State's service 
area. The College collaborates with the Centers to provide support for 
their program and articulation of their certificate and diploma 
programs. An example is a process that was established that allows a 
Practical Nursing student a path of entry into our registered nurse 
program and diploma students to continue their studies at Columbia 
State to obtain an Associate of Applied Science in General Technology.
    The College collaborates with the Local Area Workforce Board to 
provide leadership for collaboration with state community colleges in 
the offering of programs of need that Columbia State is not currently 
approved to offer. This collaboration is good for the student and 
positively embraced by state and national organizations and leaders, 
but traditional evaluation of institutional success and recent 
movements towards evaluation and funding based on graduates does not 
necessarily promote this type of collaboration.
Associate of Arts and Associate of Science Degrees
    The Associate of Arts and Associate of Science Degrees are 
sometimes not considered as part of workforce development. At Columbia 
State, we view students with majors that lead to one of these degrees 
as preparing for a career (workforce), which requires a baccalaureate 
for entry. As such we articulate curriculum with professionals in 
curriculum areas such as accounting, engineering, business, education 
(teaching), etc. The College, through the guidance of the University 
Center Office, maintains articulations agreements with four-year 
colleges and universities as well as transfer assistance. Universities 
partner with Columbia State to offer the baccalaureate requirements for 
Elementary Education, Business Administration, and Human Resources 
Management on our campuses. In addition there are Master's degree 
programs as well as individual courses required for a baccalaureate 
offered. We have many students who complete their Associates and the 
Bachelor's degree on a Columbia campus.

      PROGRAMS IDENTIFIED/REQUESTED BY ORGANIZATIONS/BUSINESSES FOR
                 EXPLORATION/OFFERING BY COLUMBIA STATE
------------------------------------------------------------------------
              Program                         Certificate/degree
------------------------------------------------------------------------
Electroneurodiagnostic (END)         Certificate--AAS in Partnership
                                      with Vanderbilt
Polysomnography (Sleep Disorders)    Certificate ``add on'' credential
                                      for Respiratory Therapists or
                                      standalone AAS
MRI, Computed Tomography (CT), and/  Certificate, ``add on'' credentials
 or Mammography                       for registered Radiologic
                                      Technologists
Equine Dentistry                     Certificate, ``add on'' for
                                      Veterinary Technicians
Health Information Technology/       Certificate and/or Degree track
 Health Informatics Technician
Acute Care Paramedic                 Certificate
Biomedical Instrumentation           AAS Degree
 Technician
Clinical Research Associate (CRA)    AAS Degree
Physical Therapy Assistant (PT-A)    AAS Degree
Logistics                            AAS Degree
Green Technology                     Certificates--AAS Degree
Industrial Process Control           Certificate
Advanced Manufacturing               Certificate
------------------------------------------------------------------------

Student Support for Student Success
    Providing educational opportunities alone is not an assurance of 
success. Research, and what we as educators have known, shows that 
student engagement in and out of the classroom is required for student 
retention and success. Services such as guidance, advisement, tutoring, 
computer access, and financial aid exist at Columbia State as with 
other colleges. However to engage students, enhanced services are 
needed. The following programs have been added to boost our connection 
students:
Retention Advisors
    Reorganization was recently completed to transition from an 
advising center to retention advisors. A retention advisor will be 
located in each instructional area to identify students who are at risk 
and to work with faculty in identifying and assisting those students. 
This model was drafted by Columbia State and as per the information we 
have obtained does not exist in this form at other colleges.
Student Activities
    Clubs, Student Government Association, athletics, and academic 
societies have existed at Columbia State since its inception. In our 
strategic plan for the next five years, the expectation of increasing 
student activities and student participation in such was set as a goal. 
Through this engagement we envision increased learning and student 
retention.
President's Leadership Society
    This retention and student development project is open to all 
degree seeking students. The purpose is to engage the student, increase 
learning through life and workforce relevant workshops, to increase 
their awareness of art, civic, and community responsibilities, and 
their understanding of cultural differences. One criterion for being a 
member of the Society is to graduate. This program is not only one that 
engages and develops the student, but it is one that also provides them 
with skills and abilities that are important to success in their chosen 
career.
Student Ambassador Program
    An Ambassador program exists for students to apply and participate 
in. The program provides students with the opportunity of working with 
various offices across campus and with students for showcasing the 
college, giving student tours, or representing the College at community 
events or activities.
Campus Learning Spaces
    Research states that student retention and engagement are enhanced 
through a campus that is attractive and has spaces across it that are 
inviting. These spaces, including the hanging of art, are occurring 
across campus to promote student gatherings for discussion and a 
connection to the college.
Think Graduation
    Think Graduation is a national movement that is championed by 
faculty and staff in a daylong event where they work and present to 
students the value of graduating. They seek to have students sign a 
graduation contract.
TRIO
    The Columbia State Community College TRIO program was established 
to assist 140 first generation low-income students, or students with a 
disability, with support for college success and graduation. Student 
services provided include tutoring, academic and career counseling, 
transfer assistance, cultural enhancement, and study skills workshops 
(examples--Time Management, Financial Management, Health Care, College 
Study Skills, etc.). Also, Summer Bridge, a three-day intensive 
orientation designed to enhance the success of 40 first time Columbia 
State students will begin this summer.
Lyceum Events
    Musical performances, cultural events, plays, films, lectures, 
discussions and more are held almost weekly to enhance student learning 
and engagement. These events are organized and run by faculty and 
staff.
Career Advising
    A career advising center exists but personnel for manning the 
center has not been adequate. Through reorganization the College is 
moving to provide greater services. The curriculum program coordinators 
and faculty provide career advisement as related to the field of the 
faculty and sometimes staff member. Career advising is important to the 
student's success and workforce development.
Cultural and Diversity Activities
    Through our Diversity Office, advising is provided students. A 
generational mentoring program composed of mentors throughout the 
region and designed to guide students towards successful college 
completion is active. Other projects include a scholarship and guidance 
program for adults returning to complete a degree that had previously 
stopped or dropped out.
Partnership Initiatives for Student Success
    Many activities for student success and in support of workforce 
development are completed through faculty and staff working in concert 
with one another. These programs increase the competence of secondary 
and post-secondary students in understanding professions and career 
requirements. These activities include:
Student Leadership Conference
    County high and unit school students participate in a conference 
held on the Columbia campus for increased understandings of workforce 
skills and leadership requirements. Local business owners, CFO's, 
attorneys, doctors are the speakers.
Summer Math Academy
    Local business owners, bankers and contractors give time to fifth, 
sixth, and seventh graders attending a Summer Math Academy designed to 
improve the basic math skills of students for everyday living. The 
Academies are held at five different locations in our service counties.
Mule Town Family Network (system of care for youth and families with 
        Serious Emotional Disorders)
    Students and staff work cooperatively to volunteer time that 
provides career development with organizations such as Centerstone, TN 
Voices, Department of Human Services, Juvenile Justice, City of 
Columbia Police, Sheriff's Department, and Family Center.
ITV and Dual Enrollment Grant
    The College received a grant to implement an ITV system in rural 
high schools to provide opportunities for dual enrollment and industry 
training.
Facilities Use
    College facilities are made available for businesses, 
organizations, and industries for use in training, annual meetings, or 
other activities that supports their business.
COOP Program
    Campus staff works with different businesses /organizations, 
including the City of Columbia and local businesses, to place students 
in COOP experiences.
Mass Communications Conference
    Approximately 200 secondary and post-secondary students participate 
in a Mass Communication Conference on the Columbia Campus each fall. 
The highlight of the conference is a panel of media and marketing 
professionals who gives an overview of their field and then takes 
questions from the audience for an open discussion speakers--The panel 
usually features TV/Radio hosts, newspaper writers, computer web 
developers and even music industry marketing professionals.
Statement of Concern and Consideration
    We are all concerned for the renewal and growth of our state and 
country's economy. We understand that education, partnerships, and 
development are central to that renewal and growth. Columbia State, as 
with other colleges across the nation, has experienced great reductions 
in funding, reductions that have not been recouped through the 
increases in tuition. We are concerned with tuition increases and how 
such increases tend to close the college door. Yet to continue at 
similar levels of access, service, and programs, the tuition increases 
are required in our new economic arena.
    To maintain its effectiveness, Columbia state completed an in depth 
analysis of functions as compared to mission and eliminated functions 
that were not evaluated as essential to mission fulfillment. This 
process allowed for budget-mission alignment. Yet we are in a dilemma 
as to how to respond to the many requests that we have for existing and 
emerging programs.
    The College is hindered from response due to budgetary resources 
for program development personnel, equipment, instructional resources, 
and in some instances, facilities. While we seek grants, they are 
difficult to obtain due to competition or grant requirements that are 
not fully consistent with the needs of our area. Our Colleges are now 
very lean and filled with people working at maximum capacity, yet we 
are to increase access and graduation numbers.
    Most DOL grants are linked to existing labor market needs; 
resources are needed to provide for emerging fields such as green 
technology, Biotechnology, or state recruiting plans for industries 
that will create a labor demand that does not currently exist in the 
area. A possible alternative to the current grant allocation process 
during these difficult economic times is to provide block grant funds 
to community colleges for program development that requires positive 
student success results over a four year period or refund of the funds 
received.
    Another possible area for consideration, that would prove 
beneficial, is to provide for a program development specialist at each 
community college. Current personnel declines and increased personnel 
loads create lag in desired response to the identified need. This 
specialist would be the leader responsible for development of and 
integrating industry and curriculum requirements for training, 
certificate, or degree programs implementation.
    As you are so well aware, we have all been proud to acknowledge 
education as the great equalizer of the peoples of our great Nation. 
Yet, this fall I see the door beginning to close. There is now, in 
Tennessee, an ACT standard for entry into remedial and developmental 
programs--in applying this new standard to Fall 2010, we anticipate 
that 100 students who were admitted last fall would not have been, if 
our new standard were in effect. I do not argue with the standard 
especially as we move towards being primarily responsible for student 
success, but I am greatly concerned that the opportunity to attempt a 
post-secondary education may be determined by many intervening 
variables that occurred during a student's youth. I am also concerned 
that the door is closing for some as tuition increases, yet to maintain 
the programs and services in our economic times the tuition is needed. 
I believe that education is the great equalizer and that I am a 
product: I desire that opportunity for all.
                                 ______
                                 

             STATEMENT OF DR. TED BROWN, PRESIDENT,
                    MARTIN METHODIST COLLEGE

    Mr. Brown. Mr. Chairman, thank you for the opportunity to 
speak on behalf of a topic that is important to all of us, but 
especially my institution, Martin Methodist College. I 
certainly want to say a word of thanks to our Congressman for 
the role that he played in my invitation to be here.
    Many assume that our public colleges and universities are 
the most supportive of workforce initiatives because they are 
intrinsically closer to state government and the structures 
that support workforce development. But I want to make the 
assertion this morning that our private or independent 
institutions, especially those like my institution, that are 
enrollment driven, are at least as supportive of workforce 
development, because we are closer to the market. We have to 
be. Our livelihood depends on us being attentive to the market. 
Of course, I do not want to suggest that this is some kind of 
competition because it is very clear that the more we cooperate 
and collaborate together, the stronger our employment situation 
in the United States and in our region will be.
    Martin Methodist College has always been important to our 
local and regional economy. We are among the largest employers 
in Giles County, our economic impact is approaching $60 million 
per year on the local area. But more important, we attempt to 
serve the needs of local industry in terms of the education of 
prospective employees, but also in the continuing education of 
current employees. Many of our degree programs--I think 
specifically of our management information sciences, 
accounting, criminal justice and our new baccalaureate nursing 
program--were developed largely out of continuing conversation 
with local industry and organizations. We were among the first 
baccalaureate institutions in the state to develop an evening 
college program for working adults. Again, largely in response 
to the needs of local industry and business.
    I want to focus in on a fairly specific issue that is of 
special importance to us right now because our county is very 
intentionally shifting away from the old model of economic 
development, hunting down large manufacturing organizations, to 
a new model that is focused on planning and growing small 
businesses, economic gardening, if you will. You hear a lot of 
talk about small business being the backbone of our economy. In 
Giles County, 48 percent of our businesses are one-person 
operations. Across the state of Tennessee, 34 percent are one-
person operations. And if you go to those that are under 10 
employees, 92 percent of our businesses in Giles County fit 
that bill. Across the state of Tennessee, 84 percent are 
smaller than 10-person operations. So you hear a lot of talk 
about small business being the backbone of the economy, but 
honestly, I see very little public support for movement in that 
direction.
    The case in point that I want to raise is the Giles County 
Small Business Development Center. We began conversations at 
least four years ago, perhaps longer--the college, the Economic 
Development Commission in our county, the Chamber of Commerce 
and Pulaski Electric Service--about a center that could help 
establish and grow small businesses. We sought support for the 
concept through every state and federal resource we could 
identify, and in the end we came up bone dry.
    Last year, almost out of desperation, I decided that Martin 
Methodist College was just going to move ahead with this 
process, and established the Giles County Small Business 
Development Center. We funded it internally. The program is now 
in place, we have a well-qualified director who was jointly 
appointed to a marketing position on our faculty and to the 
position of director of the Giles County Small Business 
Development Center. He has offices on campus and in our Chamber 
of Commerce building down on the Pulaski Square.
    One of the critical elements at our college is that we 
bring to the table every year a significant number of students, 
I would say dozens, who have very imaginative small business 
ideas along with a wealth of energy to drive small business 
creation and success. And our campus is not different from most 
colleges and universities in that respect. What we are missing 
is the linkage between students and local resources that enable 
and encourage small business development. Our Giles County 
Small Business Development Center provides precisely that 
linkage, along with a host of resources for those in the 
community who want to establish and grow small businesses.
    While the Giles County Small Business Development Center is 
a fledgling operation that is drastically underfunded--it 
continues to be funded almost entirely by Martin Methodist 
College--we have proven that this kind of public-private 
partnership can work and has the potential to be an economic 
engine for our small community. I am convinced that we have 
also proven that state and federal workforce resources continue 
to be focused on the old manufacturing model and do not take 
seriously the importance of establishing and growing small 
businesses, especially in our rural and small communities and 
counties.
    Now I am not here to beg for resources for the Giles County 
Small Business Development Center, but I am pleading for those 
who have control of workforce development resources to take 
seriously what all the statistics very clearly prove, and that 
is that small businesses are the key to economic recovery and 
to our nation's future financial strength.
    Thank you.
    Chairman Kline. Thank you, Dr. Brown.
    Mr. Coakley, you are recognized.
    [The statement of Dr. Brown follows:]

   Prepared Statement of Dr. Ted Brown, President, Martin Methodist 
                                College

    Mr. Chairman: Thank you for this opportunity to speak on behalf of 
a topic that is important to all of us, but especially to my 
institution, Martin Methodist College. And I want to say a word of 
thanks to Congressman DesJarlais for his role in this invitation as 
well.
    Many assume that our public colleges and universities are the 
central educational resource for workforce initiatives because they are 
intrinsically closer to state government and the structures that 
support workforce development. But I want to make the assertion that 
our private or independent institutions--especially those like my 
institution that are enrollment driven--are at least as important to 
workforce development because we are closer to the market. We have to 
be--our livelihood depends upon. Of course, I am not suggesting that 
this is some sort of competition because the truth is the more we 
cooperate together the stronger our employment situation in the United 
States and in our region will be.
    Martin Methodist College has always been important to our local and 
regional economy. We are among the largest employers in Giles County, 
generating more than $60 million in economic impact each year. At the 
same time, we serve the needs of local industry in terms of the 
education of prospective employees, as well as the continuing education 
of current employees. Many of our degree programs, such as Management 
Information Sciences, Accounting and our new baccalaureate Nursing 
program were developed largely out of on-going conversation with local 
industries and organizations about their needs. We were among the first 
institutions in the state to develop an evening college degree program 
for working adults, again largely in response to the needs of local 
industries and businesses.
    I want to focus on one specific issue that is of special importance 
to us right now because our county is very intentionally shifting away 
from the old model of economic development--hunting down large 
manufacturing operations--and moving to a new model that is focused on 
planting and growing small businesses. You hear a lot of talk about 
small businesses being the backbone of our economy, but I frankly see 
very little public support for that notion. The case in point is the 
Giles County Small Business Development Center (GCSBDC). We began 
conversations more than four years ago--the College, the Economic 
Development Commission, the Chamber of Commerce and Pulaski Electric 
Service--about a center that could help establish and grow small 
businesses. We sought support for the concept through every state and 
federal resource we could identify and in the end we came up bone dry.
    Last year, almost out of desperation, I decided that Martin 
Methodist College would move ahead with establishing the Giles County 
Small Business Development Center and fund it internally. The program 
is now in place, with a well-qualified director who is jointly 
appointed to a small business position on the faculty of our business 
school and to the position of Director of the GCSBDC, with offices both 
on campus and in the Chamber of Commerce building on the Pulaski 
Square. One of the critical elements that our college brings to this 
table every year is a significant number of students who have very 
imaginative small business ideas along with a wealth of energy to drive 
business creation and success. And our campus is not different from 
most colleges and universities in that respect. What we are missing is 
the linkage between students and local resources that enable and 
encourage small business development. Our GCSBDC provides precisely 
that linkage, along with a host of resources for those in the community 
who want to establish and grow small businesses.
    While the GCSBDC is a fledging operation that is drastically 
underfunded (it continues to be funded almost entirely by Martin 
Methodist College), we have proven that this kind of public-private 
partnership can work and has the potential to be an economic engine for 
a small community and region. I am convinced that we have also proven 
that state and federal workforce resources continue to be focused on 
the old manufacturing model and do not take seriously the importance of 
establishing and growing small businesses, especially in our rural and 
small communities and counties.
    I am not here to beg for resources for the GCSBDC, but I am 
pleading for those who have control of workforce development resources 
to take seriously what all the statistics clearly prove--that small 
businesses are the key to economic recovery and to our nation's future 
financial strength.
                                 ______
                                 

              STATEMENT OF JIM COAKLEY, PRESIDENT,
                 NASHVILLE AUTO-DIESEL COLLEGE

    Mr. Coakley. Mr. Chairman, my name is Jim Coakley and I am 
the President of Nashville Auto-Diesel College located in 
Nashville, Tennessee. I would like to thank you and Congressman 
DesJarlais for allowing me to testify on behalf of the 
students, faculty and staff of Nashville Auto-Diesel College on 
the role of higher education in job growth and development. I 
believe NADC, as well as other private career colleges in 
Tennessee and throughout the United States, play a vital role 
in today's economy, and I will provide you with information on 
the strengths of our college that help produce well-trained 
graduates that are prepared to enter the workforce and provide 
an immediate impact on the businesses and communities where 
they are employed.
    NADC has trained and educated technicians to repair 
multiple types of motor vehicles used in the transportation 
industry since 1919. The school was founded by H.L. Balls and 
owned by the same family until 2003, when it was purchased by 
Lincoln Educational Services Corporation. Lincoln also has a 
long, storied history in training automotive technicians as it 
opened its first campus in 1946 in Newark, New Jersey.
    NADC has trained over 53,000 technicians in every segment 
of the transportation repair industry. Students who enrolled at 
NADC during its infancy literally had to be taught how to drive 
a car on our property before they were able to train on how to 
repair said automobile. Now, almost 100 years later, our campus 
spans almost 300,000 square feet in 21 buildings spread over 19 
acres to support our 1500 students and 269 staff and faculty, 
where short-term NAFEF-certified programs are offered in 
automotive and diesel technology and collision repair and 
refinishing. Upon completion of this basic training, students 
also have the option to continue in specialties such as high 
performance, heavy equipment maintenance, and undercar 
specialty or work toward an associate degree through our online 
learning delivery system.
    Our mission has essentially remained consistent: offer the 
best educational training programs to enable graduates to take 
the highest level of job knowledge and skills to the 
marketplace. This mission is met by a dedicated group of 
faculty and staff that has enabled NADC to become a leader in 
the automotive field, not only in Tennessee, but nationwide, 
with students coming from over 30 different states to the 
Nashville area to learn this important trade.
    Our college relies on some basic guiding principles that 
assist us in meeting our published mission. First, our faculty 
and training facilities remain at the core of our educational 
process. For example, NADC only hires instructors with 
workforce experience and a passion for education, in order to 
bring the theory to life in a laboratory environment. 
Furthermore, all of our instructors are ASE-certified and I am 
proud to tell you that over 69 percent have worked at NADC for 
more than five years.
    Our students really demand a tremendous amount of hands-on 
learning and are often at their best when allowed to physically 
work on an automobile component or system. In order to meet 
their demands, NADC invests a tremendous amount in acquiring 
and maintaining our inventory of vehicles and components. These 
training aids, valued at over $5 million, include over 40 late-
model automobiles, 25 Class 8 trucks, 60 live car engines, 60 
live truck engines, and over 150 training aids for component 
systems.
    One of our key strengths is our close working relationships 
with industry. At NADC, we have two separate advisory 
committees with over 45 industry representatives from a diverse 
set of employers, not only from Tennessee, but from states such 
as California, North Carolina and Pennsylvania. These advisory 
boards meet at least twice per year to discuss our curriculum, 
facilities, equipment and outcomes. By instituting a process by 
which the advisory board reviews this type of information and 
data and actually meets at our campus, the college has the best 
possible perspective, knowing that we are providing college 
students with current and relevant instruction in automotive, 
truck and collision repair fields.
    The process by which we hire faculty, develop curriculum 
and expose our students to the highest quality learning aids 
all ties to our ultimate goal of assisting our graduates in 
finding employment. This placement process begins in the first 
days of orientation with the college when we bring our Career 
Services Department staff to discuss employment opportunities 
and expectations from employers. From there, Career Services 
provides assistance with resume writing, interviewing 
techniques, part time employment assistance during their 
enrollment.
    NADC hosts two large career days annually where dozens of 
employers attend such as U.S. Caterpillar dealers, Covington 
Detroit Diesel, Conway Trucking, ABRA Auto Body and Glass and 
Travel Centers of America. This dedication by our Career 
Services Department has produced excellent results in getting 
our students into the workforce, whether it is in Tennessee or 
elsewhere in the United States. As a result of their 
commitment, over 75 percent of our 2010 graduates have already 
initiated their careers in the diesel, automotive or collision 
repair industries. Further, 71 of the students who graduated in 
2010, and originally came from out of state, ultimately stayed 
right here in Tennessee.
    Finally, Mr. Chairman, as you know, our sector of higher 
education has a tremendous amount of regulatory oversight, 
which provides a student with the confidence that our college 
provides a quality education. Currently, our college is not 
only regulated by the Tennessee Higher Education Commission, 
but also a national accreditor, the Accrediting Commission of 
Career Colleges and Schools and the United States Department of 
Education, as our college is able to participate in the federal 
government's student aid programs.
    While we are proud of NADC's academic, employment and 
fiscal outcomes, including the fact that NADC has consistently 
published cohort default rates below 10 percent for the last 10 
years, I would be remiss by not letting this Committee know 
that some program integrity issues finalized in the regulatory 
language by the U.S. Department of Education will have a 
negative impact on our college and thus, indirectly, on the 
economy of the Nashville metropolitan region at a time when our 
nation's automotive industry seems to be regaining its footing.
    In conclusion, Mr. Chairman and Congressman DesJarlais, I 
hope this written testimony provides you with a perspective as 
to the role that NADC plays in job growth and filling a niche 
for those students who want to learn a skilled trade from one 
of the oldest and most distinguished colleges in this field.
    I appreciate the opportunity to testify today, and I look 
forward to providing any answers to your questions, not only 
today, but any time in the future. Thank you.
    [The statement of Mr. Coakley follows:]

            Prepared Statement of James Coakley, President,
                     Nashville Auto-Diesel College

    Mr. Chairman, my name is Jim Coakley and I am president of 
Nashville-Auto Diesel College located in Nashville, TN. I would like to 
thank you and Congressman DesJarlais for allowing me to testify on 
behalf of the students, faculty and staff of Nashville Auto-Diesel 
College on the role of higher education in job growth and development. 
I believe NADC, as well as other private career colleges in Tennessee 
and throughout the United States, play a vital role in today's economy 
and I will provide you with information on the strengths of our college 
that help produce well-trained graduates that are prepared to enter the 
workforce and provide an immediate impact on the businesses and 
communities where they are employed.
    Nashville Auto-Diesel College has trained and educated technicians 
to repair multiple types of motor vehicles used in the transportation 
industry since 1919. The school was founded by H.O. Balls in 1919 and 
owned by the same family until 2003 when it was purchased by Lincoln 
Educational Services Corporation. Lincoln also has a long, storied 
history in training automotive technicians as it opened its first 
campus in 1946 in Newark, New Jersey, and has grown to 45 campuses in 
17 states educating approximately 30,000 students as of December 31, 
2010, in multiple disciplines and employing over 4,000 staff and 
faculty members.
    Since opening in 1919, NADC has trained over 53,000 technicians 
that have worked in, or are currently employed, in every segment of the 
transportation repair industry. Students who enrolled in NADC during 
its infancy literally had to be taught how to drive an automobile on 
our property before they were able to train on how to repair the 
automobile. Now, almost 100 years later, our campus spans almost 
300,000 square feet in 21 buildings spread over 19 acres to support our 
1,500 students and 269 staff and faculty where short-term, NATEF-
certified programs are offered in automotive and diesel technology and 
collision repair and refinishing. Upon completion of this basic 
training, students also have the option to continue in specialties such 
as high performance, heavy equipment maintenance, and undercar 
specialty or work towards an associate's degree through our online 
learning delivery system.
    While technology in the automotive field has changed significantly 
over the past century, our mission has essentially remained consistent: 
offer the best educational training programs to enable graduates to 
take the highest level of job knowledge and skills to the marketplace. 
This mission is met by a dedicated group of faculty and staff that has 
enabled NADC to become a leader in the automotive field not only in 
Tennessee, but nationwide, with students coming from over 30 different 
states to the Nashville area to learn this important trade.
    In order to continue being a leader in the automotive training 
field, our college relies on some basic guiding principles that assist 
us in meeting our published mission. First, our faculty and training 
facilities remain at the core of our educational process. For example, 
in order to be hired as an instructor, one must have workforce 
experience prior to even being considered for faculty appointment. 
Students coming to NADC want hands-on training during their enrollment 
and thus our faculty need to be able to lead those students in a 
laboratory learning environment. Without having years of experience in 
the field, there would be no way for our students to gain the knowledge 
needed to transition into the workforce. It should also be noted these 
77 ASE-certified faculty show their commitment through their 
certifications and longevity at the college. That being said, I am 
proud to tell you that over 69 percent of these instructors have worked 
at NADC for more than 5 years.
    Our educational facilities are also a source of pride at our 
college and help with preparing our students for an immediate impact 
upon hiring. As mentioned earlier, our students really demand a 
tremendous amount of hands on learning and often are at their best when 
allowed to physically work on an automobile, component or system. In 
order to meet their demands, NADC invests a tremendous amount on 
acquiring and maintaining our inventory of vehicles and components. 
These training aids that we have valued at over $5 million include over 
40 late-model automobiles, 25 Class 8 trucks, 60 live car engines, 60 
live truck engines, and over 150 training aids for component systems.
    Many of the reasons why we have such wonderful training aids comes 
from the knowledge brought to us not only by the faculty, but also by 
our current advisory board members. At NADC, we have two separate 
advisory committees with over 45 persons from a diverse set of 
employers not only from Tennessee, but from states such as California, 
North Carolina, and Pennsylvania. These advisory boards meet at least 
twice per year to discuss our curriculum, facilities, equipment and 
outcomes of the program. By instituting a process by which the advisory 
board reviews this type of information and data, and actually meets at 
our campus, the college has the best possible perspective knowing that 
we are providing students with current and relevant instruction in the 
automotive, truck and collision repair fields.
    The process by which we hire, develop curriculum and expose our 
students to the highest quality learning aids all ties into our 
ultimate goal of assisting our graduates in finding employment. The 
placement process, however, does not start at graduation for our 
students, but rather from their first days of orientation with the 
college where we bring in our career services department staff to 
discuss employment opportunities and the expectation of employers. From 
there the career services department provides assistance with resume 
writing, interviewing techniques, part-time employment assistance 
during their enrollment, hosting two large ``Career Days'' where dozens 
of employers attend, and then ultimately establishing job opportunities 
by scheduling interviews with employers that NADC has long-standing 
relationships, such as U.S. Caterpillar Dealers, from our 90 years in 
existence.
    The dedication by our career services department has produced 
excellent results in getting our students into the workforce no matter 
whether it is in Tennessee or elsewhere in the United States. As a 
result of their commitment, over 75% of our 2010 graduates have already 
initiated their careers in the diesel, automotive or collision repair 
industries. Further, 71 of the students who graduated in 2010 and 
originally came from out-of-state ultimately stayed right here in 
Tennessee when our college found them employment in their field.
    In addition to providing quality training to students that attend 
our college, I would also like to point out that NADC plays a role in 
the transportation sector. Currently, NADC is a national training 
center for the National Alternative Fuel Training Consortium based at 
the University of West Virginia in Morgantown, WV. Curriculum developed 
by the Consortium is used in a train-the-trainer fashion to prepare 
instructors to train students and the local community on clean fuels. 
Further, on October 15, 2010, NADC hosted Odyssey 2010, a celebration 
of clean fuel and energy independence. This successful event included 
speeches on the impact that technology vehicles and clean fuels will 
have on transportation in the United States by local and state 
officials as well as business leaders from the major automotive 
companies.
    Finally, Mr. Chairman, as you know, our sector of higher education 
has a tremendous amount of regulatory oversight of which provides a 
student with the sense that our college meets a certain threshold for 
quality. Currently, our college is not only regulated by the Tennessee 
Higher Education Commission, but also our national accreditor, the 
Accrediting Commission of Career Colleges and Schools, and the U.S. 
Department of Education as our college is able to participate in the 
federal government's student aid programs. While we are proud of the 
college's academic, employment, and fiscal outcomes, including the fact 
NADC has consistently published a cohort default rate below 10% for the 
last 10 years, I would be remiss by not letting this Committee know 
that some of the program integrity issues finalized in regulatory 
language by the U.S. Department of Education will have a negative 
impact on our college and thus indirectly on the economy of the 
Nashville metropolitan region at a time when our nation's automotive 
industry seems to be regaining its footing.
    In conclusion, Mr. Chairman and Congressman DesJarlais, I hope this 
written testimony provides you with a perspective as to the role NADC 
plays in job growth and filling a niche for those students who want to 
learn a skilled trade from one of the oldest and most distinguished 
colleges in this field. I appreciate the opportunity to testify today 
and I look forward to providing any answers to your questions not only 
today, but any time in the future.
                                 ______
                                 
    Chairman Kline. Thank you very much, Mr. Coakley and to all 
of our witnesses.
    We are going to trade back and forth up here for a little 
while in initiating this discussion.
    It seems to me that all of you touched on this at one point 
or another, and some of you in great length, but there are sort 
of two issues here I want to get at. One is what you are doing 
to make sure that your curriculum is relevant to the needs of 
the workplace--and you all touched on that--and the other is 
what steps you may be taking to help your graduates actually 
get a job, be placed. And as I say, you have touched on it, but 
could we just sort of go through that briefly, what you are 
thinking of in your institution about what you are doing to 
make sure it is relevant--advisory boards and so forth--and 
then what you are doing to help them get a job.
    Dr. Smith, we will start with you.
    Ms. Smith. I touched on the advisory boards, and we also 
have partnerships for all of our programs with different 
agencies, such as nursing with the hospitals and health 
agencies. Through those opportunities, our students are able to 
learn about what is going on in their field, as well as our 
faculty then can review what the hospital is employing at that 
time, what new technologies they have, and how that comes back 
into our curriculum.
    In terms of career placement, we have a career center and 
we are in the process of upgrading that career center, it is 
not at the strength that we feel like it needs to be. But the 
faculty within the programs--and since these students stick 
with the programs for a number of years, the faculty work with 
the students in allowing them to know what job opportunities 
are out there, and assisting with placement. We do employ a 
follow-up as well as student follow-up, graduate follow-up, to 
see how many of our students are placed, and we are required to 
submit that as part of our performance funding measures. So we 
take that very seriously in that those career students do 
obtain a job and that we are following up to see where they are 
at. And as I said, we embrace the career center and are working 
to improve that center as it exists currently.
    Chairman Kline. And that career center would then be 
specifically working with individual students, near graduates, 
and with employment opportunities, to connect the two.
    Ms. Smith. Yes, and it also will work with students on the 
front end too, as they are trying to determine what type of 
career that they want or if they are in a pre-program for an 
associate of science, how to prep for those particular classes 
as well.
    Chairman Kline. Okay, thank you.
    Dr. Brown.
    Mr. Brown. We also employ advisory committees in relation 
to our academic programs and I would point to professional 
development requirements on the part of the college related to 
faculty as an important way of connecting with basically the 
market in general. But we do require each of our faculty 
members each year to engage in professional development that 
hopefully will not only further their scholarly interest and 
development but also gives them the opportunity to connect with 
how their program operates in the marketplace. And I think that 
is also an important point, in addition to the advisory 
committees that we utilize.
    We do as well have a career center on the campus. One new 
feature we added this past year in relation to our first year 
initiative with students is that all freshmen have to have 
basically a counseling session in the career center their first 
year, so that they are on the proper path in terms of their 
course development related to their chosen career. And 
hopefully that is something that continues, it is not just 
something that you use the last 40 days that you are on the 
campus trying to get a job, but instead it is a continuing 
conversation with our career development professionals.
    Chairman Kline. Thank you.
    Mr. Coakley, could you touch on that again? I know you 
covered it in your testimony, but specifically what steps are 
you taking to make sure that your students are learning the 
right automotive techniques--I guess not a lot of work on Model 
T's right now--but I am really interested in what the steps are 
that you are taking, I think you said you have about a 75 
percent placement rate. What are you doing to help those 
students connect with the job?
    Mr. Coakley. Our training is set up so that our students 
are--I will use the term conditioned from the beginning of 
training with regard to wearing a uniform that would be 
commensurate with what they would do out in the field once they 
are employed. Attendance is a very strong focus with our 
program. We take attendance daily, we watch that our students 
do not go over--our 13-month program only allows a student to 
have a total of six excused absences with a program that runs 
five days a week for 13 months. So that is a relatively stiff 
measure in terms of what we are looking for. But again, we are 
trying to mimic what an employer would look for.
    Our students typically work in two to six-member teams as 
they are working on their laboratory settings. Just yesterday, 
I toured the Caterpillar facility down here in Smyrna and a 
gentleman that I encountered--I was toured, first of all, by a 
graduate from 1968, who is in charge of the service program 
down there, Mr. Philip Welch. And as we walked around, we 
engaged with a gentleman who had just come out of a meeting, 
one of the vice presidents, and he introduced himself to us and 
said that he had just come out of a high level meeting where he 
was strained to find technicians. He said, ``I cannot believe 
in this day and age with 10 percent unemployment, that I am 
having trouble finding skilled technicians.'' And when he was 
introduced to us, he said, ``I really want your folks to 
understand that it is important that they can communicate well, 
that they are able to work in teams, and that they have the 
ability to grow as they get in the position.'' So we take that 
kind of information, which we garner on a regular basis, and 
bring that back to Career Services, bring that back through 
presentations in the classroom with our instructors. And truly 
it is one day at a time in educating and modeling what it is we 
expect from our students.
    Chairman Kline. Okay, thank you. One more question before I 
yield to Dr. DesJarlais.
    Dr. Smith, you specifically mentioned that you have credit 
and non-credit programs. And presumably, the non-credit 
programs are designed for a specific skill. Is that based on 
your work with some particular business or with the workforce 
board? Or how does that come about?
    Ms. Smith. An example is entrepreneurship training. There 
was a need identified for entrepreneurship training and we 
worked with the local workforce board to provide that 
particular training in one of our outreach counties. So we 
provide the non-credit based upon what an industry may come in, 
such as the programmable logic controllers, that was industry-
initiated. So we work with them to identify what to offer and 
then we work with workforce board in terms of what they see the 
needs are from the data that they have within our service area, 
and how to provide those.
    And then others, such as this broad array of online 
classes, we know that there are special needs out there or an 
individual may be interested in going into a very specific 
field and we cannot offer an on-ground program, but we do it 
online so that over a period of time, they can get that 
training for that. So it is a combination.
    Chairman Kline. Okay, thank you.
    Dr. DesJarlais.
    Mr. DesJarlais. Thank you, Chairman Kline.
    I think I will start with kind of a general question for 
the panel as well and maybe let you all respond. In Washington, 
we spend an awful lot of time looking at how the federal 
government is in the way or is impeding the progress of the 
advancement of our colleges and universities. And I guess I 
would like to see what thoughts you may have on where the 
federal government is in the way, what is taking the most of 
your time in terms of burdensome regulations and how much time 
are you actually spending on that?
    So I guess we will just start left to right, Dr. Smith, if 
you have any comments.
    Ms. Smith. In terms of impeding, I do not see that there is 
a lot, from our perspective. Now we are concerned that if we go 
to national standards, that that could really come to a lot of 
reporting and things of that nature. We are run through our 
regional accrediting body and our regional accrediting body 
then works with CHEA and federal regulations that are there. So 
most of ours comes through a regional perspective. So we do not 
feel like we have anything right now that is impeding us from 
moving forward.
    Our biggest thing is having funds to take and initiate new 
programs. As I mentioned in my written testimony, I would love 
to see some avenue where some of the grant funds, instead of 
them just being everything competitive, that there is some 
funds that come into community colleges to be able to develop 
programs to meet the needs that are out there.
    An issue I think I do see is all of our grants, federal 
grants that come in, are more in terms of what is the need 
today as opposed to what is the need tomorrow and what is 
emerging. We can train a workforce for what is here today, but 
we have a very difficult time of applying for grant funds or 
receiving them that are looking at what is going to happen 
tomorrow.
    Mr. DesJarlais. Dr. Brown, are there any particular federal 
regulations that you find are in the way?
    Mr. Brown. I would not say anything that is a huge problem 
for us. I would say in the area of financial aid reporting that 
there is a great deal more reporting that is required now than 
there was when I started in my position 14 years ago. And we 
have actually added three financial aid professionals, I would 
have to say probably one and a half of those positions is 
dedicated purely to reporting and that has greatly increased 
over the last three, four, five years. And so that is a little 
ominous if we have to keep adding professionals who are not 
really providing services to students, but are simply 
reporting.
    And I would certainly echo what my colleague has said and 
that is that we are concerned about funding and Pell Grant in 
particular for us. We are a campus of 55 percent Pell-enabled 
students. And the cut that has been talked about, $845 cut to 
Pell, would be nearly a million dollars in our $15 million a 
year budget, so we are talking about a very significant impact 
on our institution.
    Mr. DesJarlais. Mr. Coakley, any comments on that topic?
    Mr. Coakley. With regard to gainful employment, I certainly 
understand that there are unintended consequences with any kind 
of change. I would submit that our sector of higher education 
is probably the most highly regulated. I think today--well, I 
know what occurs today--if a school's outcomes are not 
appropriate, the accrediting body requires us to stop teaching 
that program. I believe today that students have access to 
information in order for them to make an intelligent decision 
on where it is they want to go in terms of what it is they are 
seeking. Some of the proposed changes with regard to gainful 
employment specifically are, first of all, somewhat gray. And 
secondarily, I think personally that I am going to have to move 
away from some of the very individuals I am trying to help to 
maybe a wealthier level of clientele, just by virtue of the 
changes that are being imposed. So I am concerned about being 
able to continue to serve the students that I serve today as we 
move forward with any kind of changes beyond July 1.
    Mr. DesJarlais. I think what I am hearing from both Dr. 
Brown and yourself is that--or maybe I am hearing this, let me 
ask specifically--are you seeing a change in the demographics 
of the students that are applying now versus a few years ago 
with the tough economic times we are facing? And I guess we 
will just run down the line on that as well.
    Ms. Smith. Yes, we are seeing a change. And we are also 
seeing a change because we are seeing standards increase. To 
me, the community college door is closing a little bit. 
Beginning this fall, we go into a new remedial and 
developmental standard. If we applied that standard to last 
fall's enrollment, there will be 100 students that would not 
have been able to attend. So both with standards and then as 
well as access from funding perspectives, both tuition cost and 
in transportation. Since we are a commuter college and with the 
gasoline increases and so forth, that is creating quite a 
hardship in our students. And so having the funds to go to 
college and the funds to live on as they go is an issue for 
many of our students.
    Mr. Brown. We have seen a pretty significant rise in first 
generation students. We have gone from about 45 percent first 
generation to almost 70 percent on our campus, as we have 
grown. And those students need special attention in a lot of 
different areas; but certainly from a financial perspective, 
Pell grant and federal resources are very important to their 
attendance at college.
    I guess that's the primary concern.
    Mr. Coakley. As we talk to families that are considering 
our type of training, we encounter more situations where either 
one or both parents are laid off. They may very well possess 
strong credit to qualify for the loan programs that are out 
there, but just by virtue of the fact that they have good 
credit, they are guarded about taking on more than they think 
they might be able to repay down the road. So I do have 
scenarios where even if the funding is there, the parents are 
either unable to come out of pocket for any gap in funding 
tuition or just guarded about the idea of taking that loan 
product on. So the conundrum precipitates, I guess it just 
continues along.
    Mr. Brown. I would add also, if I might, that we are seeing 
more second career and third career people on campus as well. 
That is not a role that we have played as much in the past, and 
they are mainly place-bound students, who perhaps were out of a 
job or who decided this is a good opportunity for them to 
retool, go in a different direction. And that has required us 
to come up with some new skills in terms of counseling students 
like that.
    Mr. DesJarlais. Mr. Chairman, if I could have time for one 
more?
    Chairman Kline. Certainly.
    Mr. DesJarlais. Okay. Dr. Brown, you had mentioned that, 
not necessarily out of frustration, but just lack of support on 
a federal level, you moved forward with the Giles County Small 
Business Development Center, something that you kind of 
initiated and created. We had a hearing in I guess the past two 
or three weeks, where we had four witnesses, one from Oklahoma 
and Texas I believe. And it seemed that each of them had done 
something similar. They got tired I guess of waiting for 
federal intervention and moved forward with great ideas. I 
think that kind of sets the stage for a great question. Do you 
really feel that you want more federal involvement or less in 
moving forward? [Laughter.]
    Mr. Brown. To be honest, we are perfectly happy with the 
way things stand now. I do not know how long Martin Methodist 
College will be able to--you know, it just so happens things 
are going very well on our campus and we are able to step up on 
this special initiative. You know, if we have a major 
adjustment to make related to Pell, then we may have to back 
off of that program and the local area will have to step up. 
But I think what you are saying is--and I do not disagree--that 
this is the way it ought to work. We ought to have local 
entities, private entities, stepping up to do these things when 
they have a good idea. And we should not expect that there is 
federal and state support. But I would have to say that we 
would have been in this business three or four years earlier if 
we had just had a very small--ten, fifteen thousand dollar--
seed grant to help us get started with some of the basics.
    But like I say, I am not begging for that program, but I am 
suggesting that there is a role that both state and federal 
government can play in moving good ideas forward more quickly.
    Mr. DesJarlais. I am not used to having this much time, I 
would have been gaveled a long time ago, so I will not get 
greedy and I will turn it back over to Chairman Kline. 
[Laughter.]
    Chairman Kline. I thank the gentleman.
    You know, in Washington, because there are many more 
members, we try to limit these questions to five minutes and it 
moves you pretty rapidly. And that is again one of the reasons 
why this is very helpful to us, because we really have a chance 
to have a conversation here. So I appreciate your indulgence 
and forbearance here.
    We have got kind of a representation of the diversity in 
higher education sitting right at this table. And I am 
interested in what sort of thought you have put into why is it 
that students have chosen your college, your university, your 
type of school. What are you hearing from the people who are 
coming in, why they are coming to Columbia, why they are coming 
to Martin Methodist or whatever. Dr. Smith.
    Ms. Smith. It is a variety of reasons. Some come because we 
are close, it is access, it is about where they can come and 
get their education. Others come because we are comfortable, it 
is a comfortable place to start. They feel that it is not 
threatening to them as say a university would or some other 
location. Some come because they want professional programs, 
they want the nursing, they want the respiratory care, the vet 
tech. So this is a place where they can come and obtain that. 
Some are here because they just want some courses to upgrade 
what their current occupation is. So they are coming in, taking 
a few courses and then they are going out, they are meeting 
their need. And some of here because they really do not know 
what else to do. This is where they come and they are trying to 
figure out what the next job is, where they are going. So it is 
an array.
    Chairman Kline. Dr. Brown.
    Mr. Brown. I would echo those comments as well. We try to 
differentiate our offerings in the marketplace pretty carefully 
and as a residential institution, you know, we are trying to 
sell sort of the intensiveness of living on campus and having a 
full time experience on a college campus. Obviously that 
differentiates us from Columbia State and other institutions. 
But no question that a pretty significant percentage of our 
students would come out of convenience, we are close to them, 
or they like the program that we have for preparing them for 
their career. And so they come to us for that reason.
    Chairman Kline. Mr. Coakley.
    Mr. Coakley. I would say that my students attend our 
program--of course, the heritage has already been mentioned a 
number of times, but short-term focus, the idea that we truly 
work with them on a more one-on-one basis in terms of support. 
When they miss a class, we are literally looking for them. I 
too have dormitories, I have 700 students on ground, so I can 
literally knock on doors for some of those folks, to see where 
they are. I do not have a truancy officer per se, but we can 
run them down. [Laughter.]
    But I do have a combination of commuters that go along with 
that and I have a number of folks that have retooled as well 
and are looking for--you know, a person that gets caught with a 
hiccup in their career, they need to retool quickly and get 
back out there and 13 months fits the bill oftentimes.
    Chairman Kline. Well, thank you very much.
    Dr. Brown, I feel compelled to address Pell grants for just 
a minute, you brought it up a couple of times and I understand 
there is a fair amount of interest in this subject out there.
    There is no question that as we are looking at ways to 
control federal spending, that we are looking at Pell grants. 
The program has had pretty strong bipartisan support and 
continue to have that, but it has been our observation that 
Pell grant money has more than tripled here in just a couple of 
years, from $12 billion to over $40 billion. And it is simply 
unsustainable at that rate.
    So what you would expect coming forward are proposals, 
mostly from my side of aisle, I admit, that will put this on a 
stream that we think is sustainable so that everybody can count 
on it. What we have now is a spike that frankly was, in my 
judgment, horribly over-promised and so I know it is causing 
consternation. I do not have any magic wands here either, but 
that is how we are looking at this, at making the program 
sustainable for the long-term, and I am afraid right now the 
way it is, it probably is not.
    Most of you have addressed the fact that you have people 
who are looking for career changes, I think all of you have 
mentioned that. And we are seeing that, of course, all over, 
because the workplace is changing. You all have some non-
traditional students, probably Dr. Smith and Mr. Coakley even 
more than you, Dr. Brown, but I appreciate the work that you 
are doing, I want to thank you again for your time here today 
and for sharing your thoughts with us and wish you great 
success in your institutions and for your graduates as they 
step out there.
    So thank you very much and we will move to the next panel.
    [Pause.]
    Chairman Kline. Well, it looks like we are ready for the 
second panel. I want to welcome the panel. I am going to yield 
in just a moment to Dr. DesJarlais to introduce the panel 
members.
    You may have noticed that there is a little bit of a 
feedback issue with the microphones and so you may find 
yourself needing to adjust the range, and that seems to work. 
If it is starting to feed back, if you will just back up from 
it, it seems to be working pretty well.
    So everybody is situated, I will yield now to Dr. 
DesJarlais to introduce our witnesses.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    It is now my pleasure to introduce our second distinguished 
panel of witnesses.
    First, the Honorable Dean Dickey. He serves as Mayor of the 
City of Columbia. Prior to being elected Mayor, Mr. Dickey was 
a member of the City Council. He spent 48 years in the retail 
food industry including 27 years as owner and operator of seven 
supermarkets in the middle Tennessee area. He held management 
positions for the Tennessee Department of Labor for five years 
and he has served as a business service manager at the Maury 
County Career Center. And I would like to thank Mr. Dickey, who 
also served in the U.S. Army during the Korean Conflict.
    Our next witness is Ms. Susan Marlow, she is the founder 
and CEO of Smart Data Strategies. She is known and respected as 
a pioneer in land records management. Smart Data Strategies has 
used an innovative approach to the development of procedures 
and processes to ensure client satisfaction and has gained 
considerable experience by successfully completing mapping 
programs. Ms. Marlow also serves as Chairman of the Management 
Association for Private Photogrammetric Surveyors, Federal 
Cadastral Task Force and the Chairman of the Institute for GIS 
Studies.
    Ms. Jan McKeel is the Executive Director of the South 
Central Tennessee Workforce Alliance, a non-profit that works 
to develop the workforce through efforts in economic 
development, education and employment. The company was most 
recently recognized as one of 24 best-of-the-best non-profits 
in middle Tennessee by the Nashville Business Journal. She 
previously worked in the soft drink industry before returning 
to the college classroom as a faculty member at colleges in 
Illinois and Kentucky.
    Ms. Margaret Prater is the Executive Director of Workforce 
Development for Dyersburg State Community College. She has 
worked with employment and training programs for the past 27 
years and is currently administering the Workforce Investment 
Act funds under the guidance of the Northwest Tennessee 
Workforce Board. She supervises career center operations for a 
seven county rural area providing education, employment and 
training for youth and dislocated workers.
    Chairman Kline. Thank you, Dr. DesJarlais.
    Just a reminder to the witnesses, there is a little light 
box there. Mayor Dickey, you will find that it is hard for you 
to see. I have not used the gavel yet today and do not expect 
to. A reminder that all of your testimony will be included in 
the record.
    And so, Mayor Dickey, you are recognized.

             STATEMENT OF HON. DEAN DICKEY, MAYOR,
                        CITY OF COLUMBIA

    Mayor Dickey. Good morning, Chairman Kline and 
Representative DesJarlais and other in attendance today. My 
name is Dean Dickey, and I have the honor to serve the people 
of the City of Columbia as their mayor. I wish to welcome you 
today and thank you for hearing our testimony and allowing us 
in the City of Columbia and Maury County to be heard. As the 
Mayor since 2010, City Council member for two years prior, and 
former Business Service Manager at the Tennessee Career Center, 
I have a strong background in helping people find employment 
and realizing the effects that the economy plays.
    As a business owner who served on the workforce board in 
the 1990s, I have worked with the Tennessee Department of 
Labor/Workforce and was involved with consolidation and 
relocation for the Workforce Investment Act. I have worked with 
employers and local elected officials across the state to 
understand their needs and what it takes to hire a skilled 
workforce. I also have been involved in developing financial 
incentives to help them succeed through job creation.
    For eight years, I served as Employer Service Manager for 
the Workforce Alliance in the Workforce Area 10. The Workforce 
Alliance serves eight counties, and our office was involved in 
many projects resulting in several thousand dollars of state 
and federal assistance. These projects led to the creation of 
new jobs and retention of existing jobs.
    In order for the economic development of our city and 
county to succeed, the workforce agencies and colleges in our 
area are key components in developing a workforce for our 
future. College students need to be aware of the expectations 
of the working environment as well as an obligation to meet 
high standards through their learning process. Columbia State 
Community College, as well as other colleges and universities 
that are attended outside of our immediate area, urges 
graduates to use the information provided through job placement 
services such as job search, job fairs, resume writing, 
interviewing opportunities and provide resources to help assist 
these students in order for them to be successful in moving 
into their career fields. Mentoring is also available to 
students who request it. However, it is the student's 
obligation to seek career opportunities, and as leader of the 
City of Columbia, I want to be instrumental in helping to meet 
the needs of our employers and employees. It is my desire for 
employees to have the needed training in order to carry out 
their tasks and perform well in their duties, but in order to 
do that, I further expect our colleges and training facilities 
to meet the current expectations of the students and the 
employers.
    Several partnerships have been developed within our local 
business community. One partnership that comes to mind was a 
new company that located in our area several years ago. Those 
of us on the local level looked at the economic potential when 
this company located in our area. We realized that we needed to 
develop partnerships in our area that could reach the full 
potential for growth, whether we had one or twenty employees in 
our area. The partnership developed through that process 
included the Workforce Investment Board, the TVA, State 
Department of Labor, Department of Economic Development, 
Columbia State, the Technology Centers and the Career Center. 
Columbia State Community College looked at this as an 
opportunity to increase our region's training capacity. The 
entire partnership was committed to developing the workforce in 
our area and we were successful because every organization 
spent the time and put forth the effort needed for the process.
    Another important partnership that exists is our Maury 
Alliance, our economic development organization. In the past 
year, we have restructured the organization to be better 
equipped to attract new jobs in our area. We have just 
completed a partnership with the business community which 
included a fundraising campaign. And we received pledges of 
$2.5 million that will be used for new recruiting 
opportunities, to update websites and other marketing 
opportunities specific to our area.
    We have developed partnerships into positive working 
relationships with the business sector of the City of Columbia, 
City of Mount Pleasant, City of Spring Hill, Maury County 
government as well as the business community. The City of 
Columbia has a tax incentive plan that is part of the Maury 
County Industrial Development Board. This incentive plan was 
put into place to attract prospects that are interested in 
locating in our area and allow us to be more competitive.
    At the last report from the Tennessee Department of Labor, 
the unemployment rate for the City of Columbia was 16 percent. 
That is the highest rate for cities in the state of Tennessee. 
The unemployment rate for Maury County, at the last report, was 
14.2. These are not positive numbers and are indicative of our 
struggling economy. There is not an abundance of quality jobs 
in our local area for job seekers. Those searching for 
employment oftentimes end up taking a lesser paying job and 
therefore becoming under-employed. Others drive miles to find 
quality employment and even worse, leave our community 
permanently for employment.
    We are living in revolutionary times where we know the 
importance of education and maximizing the skills of our 
workers. The Workforce Area 10 economy must adapt to global 
economic change and demographic shifts creating urgent needs to 
upgrade workforce preparation for all segments of our 
population. We are no longer able to be content with the skill 
sets of our parents and grandparents. We no longer have the 
luxury of training for a career with the expectations that the 
training will serve us a lifetime and provide adequately for 
our future. We no longer can remain comfortable in the belief 
that current businesses and industries in our area will remain 
viable in the future. Our future depends on our ability to 
renew ourselves and retrain ourselves. Our future depends on 
not only retaining a current population of skilled workers, but 
also providing a business climate and community environment 
that is attractive to business and industries that may not even 
exist today.
    I appreciate all the efforts of this Committee and 
understand it is not an easy task to designate funds to improve 
job opportunities. I also realize that the government cannot 
create jobs, only the private sector can accomplish this.
    Thank you for allowing me to be here today.
    Chairman Kline. Thank you, Mr. Mayor.
    Ms. Marlow, you are recognized.
    [The statement of Mayor Dickey follows:]

    Prepared Statement of Hon. Dean Dickey, Mayor, City of Columbia

    Good morning, Chairman Kline, Representative DesJarlais, and all 
others in attendance today. My name is Dean Dickey, and I have the 
honor to serve the people of the City of Columbia as their Mayor. I 
wish to welcome you today and thank you for hearing our testimony and 
allowing us in the City of Columbia and Maury County to be heard. As 
the Mayor, since 2010, City Council Member for two years prior, and 
former Business Service Manager at the Tennessee Career Center, I have 
a strong background in helping people find employment and realizing the 
effects our economy plays in that role.
    As a business owner who served on the workforce board in the late 
'90's, I have worked with the Tennessee Department of Labor/Workforce 
and was involved with consolidation and relocation for the Workforce 
Investment Act (WIA). I have worked with employers and local elected 
officials across the state to understand their needs and what it takes 
to hire skilled workforce. I have also been involved in developing 
financial incentives to help them succeed through this job creation.
    For eight years, I served as Employer Services Manager for the 
Workforce Alliance in the Workforce Area 10. The Workforce Alliance 
serves eight counties, and our office was involved in many projects 
resulting in several thousand dollars of state and federal assistance. 
These projects led to the creation of new jobs and the retention of 
existing jobs.
    In order for the economic development of our city and county to 
succeed, the workforce agencies and colleges in our area are key 
components in developing the workforce of our future. College students 
need to be aware of the expectations of the working environment as well 
as their obligation to meet high standards through their learning 
process. Columbia State Community College as well as other colleges/
universities that are attended outside of our immediate area urges 
graduates to use the information provided through job placement 
services such as job search and job fairs. Students are also briefed on 
interviewing opportunities and provided resources to help assist these 
students in order for them to successfully move into their career 
fields. Mentoring is also available to students who request it; 
however, it is the students' obligation to seek career opportunities. 
As a leader of the City of Columbia, I want to be instrumental in 
helping to meet the needs of our employers and employees. It is my 
desire for employees to have the needed training in order to carry out 
their tasks and perform well in their duties, but in order to do that, 
I further expect our colleges and training facilities to meet the 
current expectations of the students and employers.
    Several partnerships have developed within our local business 
community. One partnership that comes to mind is when Johnson's 
Controls located to our area several years ago. Those of us on the 
local level looked at the economic potential when this company located 
to our area. We realized that we needed to develop a partnership so 
that our area could reach its full potential for growth, whether we had 
one or twenty employers in our area. The partnership developed through 
that process included the Workforce Alliance, Workforce Investment 
Board, Tennessee Valley Authority, Tennessee State Department of Labor, 
Tennessee Department of Economic Development Council, Columbia State 
Community College, the Tennessee Technology Centers, and the Tennessee 
Career Center. Columbia State Community College looked at this as an 
opportunity to increase our region's training capacity. The entire 
partnership was committed to developing the workforce for our area, and 
we were successful, because every organization spent the time and put 
forth the effort needed on the process.
    Another important partnership that exists is with Maury Alliance, 
our local economic development organization. In the past year, we have 
restructured the organization to be better equipped to attract new jobs 
into our area. We have also just completed a partnership with the 
business community which included a fundraising campaign. We received 
pledges of $2.5 million that will be used for new recruiting 
opportunities and to update the website information with other 
marketing opportunities specific to our area.
    We have developed partnerships into positive working relationships 
with the business sector of the City of Columbia, City of Mt. Pleasant, 
City of Spring Hill, and Maury County governments as well. Our local 
governments are unified in our efforts to create new job opportunities 
for our citizens. The City of Columbia has a tax incentive plan that is 
part of the Maury County Industrial Development Board. The incentive 
plan was put into place to attract prospects that are interested in 
locating to our area and allow us to be more competitive.
    At the last report from the Tennessee Department of Labor, the 
unemployment rate for the City of Columbia was 16%. This is the highest 
rate for cities in the state of Tennessee. The unemployment rate for 
Maury County, at the last report, was 14.2%. These are not positive 
numbers and are indicative of our struggling economy. There is not an 
abundance of quality jobs in our local area for the job seekers. Those 
searching for employment often times end up taking a lesser paying job 
and thereby becoming underemployed. Others drive many miles to find 
quality employment and even worst, still leave the area permanently for 
employment.
    We are living in revolutionary times where we know the importance 
of education and maximizing the skills of the workers we have. The 
Workforce Area 10 economy must also adapt to global economic changes 
and a demographic shift creating urgent needs to upgrade workforce 
preparation for all segments of our population. We are no longer able 
to be content with the skill sets of our parents and grandparents. We 
no longer have the luxury of training for a career with the 
expectations that the training will serve us a lifetime and provide 
adequately for our future. We no longer can remain comfortable in the 
belief that current businesses and industries in our area will remain 
viable into the future. Our future depends upon our ability to renew 
ourselves and retrain ourselves. Our future depends upon not only 
retaining a current population of skilled workers but also providing a 
business climate and community environment that is attractive to 
business and industries that may not now exist.
    I appreciate all the efforts of this committee and understand it is 
not an easy task to designate federal funds to improve our job 
opportunities. I also realize that the government cannot create jobs--
only the private sector can accomplish this. Thank you again for 
allowing us to be heard today, and I will be glad to answer any 
questions you might have.
                                 ______
                                 

   STATEMENT OF SUSAN MARLOW, PRESIDENT AND CEO, SMART DATA 
                           STRATEGIES

    Ms. Marlow. Thank you, Mr. Chairman, Dr. DesJarlais. My 
name is Susan Marlow and I am the CEO and owner of Smart Data 
Strategies, a small business in Franklin, Tennessee. And I am 
also Chairman of the Board of the Institute for GIS Studies, a 
501(c)(3).
    Smart Data Strategies provides a variety of geospatial 
software and services for state and local government, federal 
agencies and private sector clients. It is an honor to be here 
today to discuss the critical need for a coordinated strategic 
approach to workforce development in the geospatial procession.
    The term ``geospatial'' refers to location-based 
technology, commonly referred to as mapping. This technology 
has experienced a rapid adoption rate, partly due to the 
introduction of Google Earth and Microsoft Bing Maps as well as 
the disasters of 9/11 and hurricane Katrina.
    Today, geospatial technology provides decision-makers more 
complete information and a visual perspective that helps them 
make critical decisions. From the family planning the route to 
its summer vacation, to McDonald's determining the best sites 
for its next restaurants, to local government needing to know 
who owns what land and who is paying taxes and who is not, 
geospatial information is an exploding field. As a result of 
this growing demand, the geospatial community has been 
identified by the U.S. Department of Labor as one of the high 
growth workforces in the United States.
    The State of Tennessee recognized the importance of 
geospatial data when they invested $28 million in a base 
mapping program, which included statewide aerial imagery and 
standardized property information. Our firm performed all of 
the property mapping for this program. This means that 
geospatial data is available to every county, city and state 
agency throughout Tennessee. While the state has invested 
heavily in this data creation, we have not seen this level of 
investment in geospatial technology education.
    There is a critical need for a strategic and inter-sector 
partnership approach to meeting the demand for a trained, 
qualified and productive workforce in this expanding field. I 
would like to address these challenges and offer some 
solutions.
    First of all, I would like to point out the need for 
geography education at the K through 12 level. If we were able 
to create a totally successful inter-sector partnership at the 
university and college level, it will not matter unless we have 
a pool of students interested in this profession. In March of 
2010, Tennessee was one of two states awarded Race to the Top 
grant money during the first phase of the competition. This 
announcement set the stage for Tennessee to be a national 
leader in raising the bar for education in the United States. 
Research has shown that the use of geospatial technologies in 
curriculum can be one of those creative new ways to connect the 
classroom to the real world and get students excited about 
learning. It allows students to see how what they are learning 
today is relevant to the world around them and their future 
within it. Most importantly, it helps get young people excited 
and inquisitive about geography, thus stimulating their 
interest in this field as a career.
    Many public schools do not even teach geography, and if 
they do, many make it a small part of a history or social 
studies class. According to a 2006 National Geographic Society 
survey of Americans aged 18 to 24, less than four in ten can 
identify Iraq on a map of the Middle East; one-third of young 
Americans cannot calculate time zone differences. Even after 
hurricane Katrina, two-thirds could not find Louisiana on a 
U.S. map and two in ten amazingly cannot point to the Pacific 
Ocean on a world map. We need to have a much stronger link to 
education, workforce development and the private sector job 
market.
    As Chairman of the Board for IGIS, I was heavily involved 
in a program that promoted geospatial education and workforce 
development. We were awarded a $2 million grant that was 
successful in creating geospatial curriculum for Roane State 
Community College and Central Piedmont Community College in 
North Carolina. In addition, we created technology to manage a 
remote workforce called a Virtual Business Hub. The curriculum 
and the virtual business hub were both delivered to the 
Department of Labor as part of our grant, yet to my knowledge, 
the virtual business hub technology is sitting on a shelf in 
Washington and the universities are no longer teaching the 
classes.
    We spend a lot of our tax dollars on research, workforce 
development and education, but I question how much value we get 
for the money we spend. When we were working on the Department 
of Labor grant, I saw a lot of disconnect with the colleges, 
workforce development boards and the private sector. In 
addition, I see multiple federal and state geospatial education 
programs created that duplicate and overlap one another. For 
the sake of time, I will not address all of these, but they are 
included in my written testimony.
    I urge the Committee to take a comprehensive look at 
geospatial workforce development. This growing and critically 
important profession can contribute immensely to the quality of 
life and economic wellbeing of the nation for decades to come. 
As we transition to a knowledge-based economy, geospatial data 
will become the underpinning for billions of dollars in 
commerce as well as efficiency in the delivery of government 
programs.
    Lastly, I would also request that you review the section of 
my written testimony that deals with unfair competition from 
universities. We are seeing universities and community colleges 
entering into the private sector mapping and remote sensing by 
selling services in the commercial marketplace. This is unfair 
competition to private companies and it needs to be stopped.
    I thank you very much for your time and attention.
    Chairman Kline. I thank you, Ms. Marlow.
    Ms. McKeel, you are recognized.
    [The statement of Ms. Marlow follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                


          STATEMENT OF JAN McKEEL, EXECUTIVE DIRECTOR,
           SOUTH CENTRAL TENNESSEE WORKFORCE ALLIANCE

    Ms. McKeel. Thank you, good morning, Chairman Kline, 
Representative DesJarlais and all in attendance today. Thank 
you on behalf of the South Central Tennessee Workforce 
Alliance, our corporate board of directors and Workforce Board 
for the honor of presenting our efforts to build a world class 
workforce in the middle Tennessee region.
    The counties in our local workforce investment area--Maury, 
Giles, Lawrence, Lewis, Hickman, Marshall, Perry, and Wayne--
have experienced tremendous job loss. With the highest 
unemployment rate in Tennessee for 36 of the past 38 months, 
our unemployment stands at 14.2 percent, more than 47 percent 
above the state rate of 9.6 percent, and almost two-thirds 
higher than the U.S. rate of 8.9 percent. This represents over 
14,000 people in our region alone--mothers, fathers, 
grandparents, sons and daughters--who want to work and provide 
the best for their families. Through our Tennessee career 
centers, funded primarily through Workforce Investment Act 
formula funds, we partner with key organizations to leverage 
our funding to provide advice, guidance and resources to job 
seekers, whether in an effort to locate a better paying job or 
to simply find a job when the crisis of job loss hits close to 
home.
    In January of 2010, when our economic crisis resulted in 17 
percent unemployment regionally, our foot traffic averaged 1120 
people daily in our eight counties, an increase of almost 300 
percent over the previous year alone. Gratefully, we have well 
established career centers with talented professional staffs 
that serve the 700-plus that continue to visit each day, to tap 
the tools we and our partners offer to assist job seekers in 
their quest to end their personal crisis of unemployment.
    Our region has excelled in manufacturing, the sector 
amongst the hardest hit in the economic downturn. Over two-
thirds of our manufacturing jobs have been lost in the past 
decade. Although beginning to rebound, we are not likely to 
ever reach the manufacturing employment levels once 
experienced. In addition, the manufacturing jobs that are 
returning look vastly different than those of the past. 
Assembly type jobs have been replaced by more skilled 
positions, for example, robotics and electrical technicians. 
However, we also expect significant job growth to come from 
occupations outside of manufacturing, as we witness a shift to 
other sectors, including healthcare, information technology and 
business management and supervision.
    Our workforce board is charged with providing oversight to 
the investment of local Workforce Investment Act funding. To 
make the best Workforce Investment decisions, a study was 
conducted in partnership with the Nashville Chamber of Commerce 
and our workforce board colleagues--the Nashville Career 
Advancement Center and Workforce Essentials. The study looked 
at jobs, the projected growth or decline in the labor market 
for the ten-county region surrounding Nashville. Most training 
programs in which we invest are taught by Columbia State 
Community College or the Tennessee Technology Centers and 
include programs such as nursing, information technology, green 
jobs and solar photovoltaic technology. Since July of 2010, we 
have provided scholarship and/or support to over 470 
individuals, most being dislocated workers from closed 
manufacturing companies, providing them the skills needed to 
transition into new careers. And I might add that I am happy to 
say that all three institutions that were represented in the 
previous panel have had students that we have helped support.
    Lives are changed when adults, regardless of their age or 
years in the workforce, gain additional education and skills. 
An idea to increase workforce and economic development 
opportunities in the region has been discussed by local 
business, community and education leaders for many years. A 
framework, driven by employers, would allow technical training 
and workforce development activities to be expanded. Adults 
could focus on technical training without traveling almost an 
hour, providing a more realistic opportunity to work and train 
part time. Incumbent worker training would become increasingly 
available to employers and internships for those in training 
would add experiential opportunities complementing classroom 
training.
    Now, through a $5 million state-funded grant, the Workforce 
Development and Conference Center at Northfield has been 
established in the former Saturn corporate and training 
headquarters. Ten public and private partners are already 
participating with projects including additional training 
programs, business incubation, entrepreneurship training, 
incumbent worker training and paid internships. Dual enrollment 
for high school students and business mentorship programs are 
also planned. And now the recent award of $8.3 million in U.S. 
DOL National Emergency Grant funding will support these efforts 
for our many dislocated workers.
    In closing, I appreciate the tremendous work this Committee 
is charged with performing and understand the difficulty in 
prioritizing where federal funds are spent. However, training 
and education, workforce success and personal income are 
positively correlated. Economic landscapes will periodically 
change and the strength of individual sectors will come and go. 
Yet the strengths of our communities will remain correlated to 
our ability to attract, retain and grow jobs.
    Please continue to recognize the importance of the public-
private partnerships fostered by our workforce investment 
boards. We recognize our responsibility to convene business and 
industry, education, community-based organization and public 
sector agencies as our primary duty. This infrastructure 
designed in the Workforce Investment Act provides support, 
guidance, and resources to so many, both job seekers and 
employers and promotes the regionalism and leveraging of funds 
required to grow our workforce skills.
    My sincerest thanks, and I will be happy to address any 
questions you might have.
    Chairman Kline. Thank you, Ms. McKeel.
    Ms. Prater, you are recognized.
    [The statement of Ms. McKeel follows:]

         Prepared Statement of Jan McKeel, Executive Director,
               South Central Tennessee Workforce Alliance

    Good morning, Chairman Kline, Representative DesJarlais, and all in 
attendance today. On behalf of the South Central Tennessee Workforce 
Alliance, our Corporate Board of Directors, and Workforce Board, I 
thank you for the honor of presenting our efforts to build a world 
class workforce in the Middle Tennessee region through private and 
public partnerships. My focus today will be on our partnerships with 
those in higher education that provide the training and education 
needed by our workforce to succeed in obtaining jobs, maintaining jobs, 
and growing their careers.
    As Executive Director of the South Central Tennessee Workforce 
Alliance since its incorporation 8 years ago as a 501c3, and for an 
additional 6 years prior when we were a division of Columbia State 
Community College, I have been privileged to witness firsthand the 
incredible results when adults, regardless of their age or years in the 
workforce, gain additional education and skills. Unfortunately, the 
eight counties in our Local Workforce Investment Area--Maury, Giles, 
Lawrence, Lewis, Hickman, Marshall, Perry, and Wayne--have experienced 
tremendous job loss, particularly in the last 3 years. In fact, our 
region has led the state with the highest regional unemployment rate 
for 36 of the past 38 months. According to the most recent unemployment 
analysis, our area unemployment stands at over 14.2%, more than 47% 
above the Tennessee rate of 9.6%, and almost two thirds higher than the 
United State rate of 8.9%. We must always remember that this rate is 
actually made up of over 14,000 people in our region alone--mothers, 
fathers, grandparents, sons, and daughters--who want to work and 
provide the best for their families. And, this unemployment rate does 
not represent the thousands of individuals who are underemployed--
either because they are working in jobs below their skill level, or 
because they are not working as many hours as they would like. Through 
our Tennessee Career Center system, with 9 located in our region and 
funded primarily through Workforce Investment Act formula funds, we 
partner with key organizations and agencies in each community to bring 
together the resources and personnel to provide advice, guidance and 
resources to those looking for new jobs, whether in an effort to locate 
a better paying job, or to simply find a job when the crisis of a 
layoff or closure hits close to home.
    In early 2009, our daily foot traffic averaged just over 400 job 
seekers daily. In January 2010, at the height of our unemployment 
crisis with a rate of 17% unemployment, our foot traffic averaged 1,120 
people daily--an increase of almost 300%! Gratefully we are established 
in each of our counties with Career Centers and talented professional 
staffs that serve the 700+ that continue to visit each day to tap the 
resources we and our partners offer to assist jobseekers in their quest 
to end their personal crisis of unemployment by finding jobs that 
maximize their skills and pay good wages.
    For decades we have exceled in manufacturing, providing families an 
excellent source of income and ability to provide for their families. 
Yet, manufacturing has been amongst the hardest hit industries during 
the economic crisis our nation has experienced. We have lost over 
14,000 jobs in manufacturing alone, and although this industry is 
beginning to rebound, a full economic recovery may take until 2014, and 
it is not likely we will ever reach the manufacturing employment levels 
of the 1990's. In addition, the manufacturing jobs that are returning 
look vastly different than those of the past. Assembly type jobs have 
been replaced by more skilled positions--for example robotics 
technicians, machinists, and electrical technicians. However, we also 
expect significant job growth to come from occupations outside of 
manufacturing. As in most areas of the United States, we are witnessing 
a shift from the manufacturing sector to other sectors including 
healthcare, information technology, and business management and 
supervision. The South Central Tennessee Workforce Alliance through our 
Workforce Board is charged with providing oversight to the investment 
of Workforce Investment Act dollars for this region.
    To make the best decisions, we have participated in two labor 
market studies in the past 5 years. Most recently, in partnership with 
the Nashville Chamber of Commerce, and our workforce board colleagues--
the Nashville Career Advancement Center and Workforce Essentials--a 
study, ``Leveraging the Labor Force for Economic Growth'', was 
conducted in 2010. This study looks at jobs, the projected growth or 
decline and the labor market for the 10 county area surrounding 
Nashville, which is the economic engine of our region. This study, 
along with labor market information provided by the Tennessee 
Department of Labor & Workforce Development, is the foundation for our 
training investment decisions. The majority of programs in which we 
invest are programs taught by Columbia State Community College or the 
Tennessee Technology Centers, and include programs in Nursing, Health 
Information Technology, Computer Information Systems, Residential 
Wiring & Plumbing, Automotive Technology, Green Jobs Technology and 
Solar Photovoltaic Technology. Since July 2010, we have provided 
scholarship and/or support to over 470 individuals in need of skills 
upgrades. The majority of these individuals are dislocated workers from 
closed manufacturing companies, and the additional education and 
training will provide the skills needed to move into new careers.
    For the past 7 years, an idea to bring additional training 
opportunities to the area has been discussed by business, community, 
and education leaders. The dream was to provide a framework, driven by 
employers, where educational providers could come and provide the 
desired credentialed training and skills. Area high school students 
would have the opportunity to dual enroll in programs and earn credit 
toward a post-secondary degree. Adults could focus on technical 
training without traveling almost an hour, providing a more realistic 
opportunity to work and train part time. Business and industry could 
assist in planning desired training for their workforce, and provide 
opportunities for internships for those in training to add experiential 
opportunities. These ideas and plans are now coming to fruition through 
a partnership between the Tennessee Department of Economic and 
Community Development, the Tennessee Department of Labor & Workforce 
Development, the United States Department of Labor, local city and 
county governments, Columbia State Community College and sister 
institutions, the Tennessee Technology Centers, University of Tennessee 
Industrial Services, Spring Hill GM Manufacturing, and the South 
Central Tennessee Workforce Alliance. Through a $5 million state funded 
grant through TDECD, the Workforce Development and Conference Center at 
Northfield has been established in the former Saturn corporate & 
training headquarters--a 320,000 square foot building built as a 
corporate office and training center.
    Training provider partners at Northfield are providing training and 
economic development opportunities for the region. Approximately one-
third of the building will be devoted to training, with fixed costs 
covered by the rent generated from the two-thirds of the building 
available for lease. The building is being marketed as a potential site 
for a call center or corporate support back offices, and can support 
approximately 700 workers. Based on our knowledge of the labor market, 
we are making progress in the establishment of training in at least 5 
areas: 1) Healthcare; 2) Public Safety; 3) Advanced Manufacturing and 
Sustainable Technologies; 4) Hospitality and Culinary Arts; and 5) 
Information Technology. The recent award of $8.3 million in National 
Emergency Grant funding through the USDOL will allow training efforts 
to be supported at this facility, and will provide for 1,500 
individuals laid off from General Motors and its suppliers, along with 
others affected by these layoffs in the region.
    A business incubator will allow new and start-up businesses who 
meet acceptance criteria to be established and nurtured with access to 
resources and expertise needed to strengthen and grow into larger, 
profitable companies who will choose to stay in our community. We are 
working to finalize the first company accepted into our incubator--a 
green technology start-up which, with a mix of funding including a 
grant from the Tennessee Solar Institute, will begin later this summer 
with an initial workforce of 10 employees, several trained through 
classes already completed in green technologies at Northfield. The plan 
is to host several more start-ups on this unique training and work 
campus.
    In closing, I appreciate the tremendous work this Committee is 
charged with performing, and understand the difficulty in prioritizing 
where federal funds are spent. I can, however, sincerely share with you 
that training and education, workforce success, and personal income are 
positively correlated. Economic landscapes will periodically change, 
and the strength of individual sectors will come and go. Yet the 
strength of our communities, especially in more rural settings, will 
remain correlated to our ability to attract, retain, and grow jobs. 
Please continue to recognize the importance of the public private 
partnerships fostered by our Workforce Investment Boards, and that we 
take this responsibility to convene business and industry, education, 
community based organizations, and public sector agencies as our main 
duty. This infrastructure designed in the Workforce Investment Act 
provides support, guidance, and resources to so many, both jobseekers 
and employers, and promotes the regionalism and leveraging of funds 
required to grow our workforce skills, both immediate and in the 
future. My sincerest thanks, and I will be happy to address any 
questions you may have.
                                 ______
                                 

  STATEMENT OF MARGARET PRATER, EXECUTIVE DIRECTOR, NORTHWEST 
                   TENNESSEE WORKFORCE BOARD

    Ms. Prater. Thank you. Good morning.
    On behalf of Dyersburg State Community College and the 
Northwest Tennessee Workforce Board, I appreciate the 
opportunity to speak to the role of higher education in job 
growth and development. My perspective is from a dual role 
since Dyersburg State serves as both administrative entity and 
a training provider for the Workforce Investment Act programs.
    My primary responsibility is to convene leaders of business 
and industry, education, organized labor, economic development, 
community organizations, labor and workforce development and 
human services that form the Northwest Tennessee Workforce 
Board. Our guiding principles include being private sector 
driven, responsible and competitive and customer-focused 
through use of our Tennessee One-Stop Career Centers.
    The One-Stop Career Centers in our area have seen services 
increase by 67 percent since 2008. More and more job seekers 
are attending workshops, earning skill credentials such as the 
National Career Readiness Certificate and making informed 
career choices. But many need more than job search assistance.
    Although we are a one-stop center, we are not a one-size-
fits-all. Over 24 percent of adults age 25 and over in our 
region have less than a high school diploma. We work with our 
adult education partner to promote GED attainment, but have 
taken further steps to stop the flow of dropouts, including 
coordinating a very successful peer tutoring program in local 
high schools. Only 16 percent of individuals age 25 and over 
have an associate's degree or higher, as compared to almost 35 
percent in the United States. These low education levels leave 
many of our job seekers without the necessary skills employers 
require. Fortunately, our community colleges have the expertise 
in providing training for high tech, high demand occupations. 
This will be vital as our economy begins to recover and 
employers look to hire skilled workers.
    We recently received the devastating news that Goodyear 
Tire & Rubber--the largest manufacturer in northwest 
Tennessee--will be closing. In my written testimony, I ask you 
to imagine that on February 10 at 7:36 a.m., you received a 
text message stating ``Goodyear is closing by year end.'' I 
take you through various individuals who may have received that 
text, including a Goodyear worker, his wife, a supplier, a 
retail employee, two professionals, the mayor, the community 
college president, and finally myself, the actual recipient of 
the text message. I realize this may be an unorthodox way to 
approach this testimony; however, in order for you to 
understand how important your role is in this process, I need 
you to put yourself in their shoes. I need you to feel what 
those people felt on that February morning. I need you to have 
the passion that I and so many other workforce development 
professionals have.
    Please understand that nearly 2,000 Goodyear workers and 
1,400 more employees of local suppliers and retailers will lose 
their jobs. They do not have jobs to go to. How do I know this? 
It is pretty simple math. Our average unemployment rate is 12.9 
percent. When multiplied by the labor force, that is 13,150 
individuals who are unemployed in our area. This does not 
include the under-employed or the discouraged workers and does 
not include these Goodyear workers. In order for these workers 
to become gainfully employed, we must attract new business and 
industry to our area. In order to do that, we must have a world 
class labor force.
    The National Association of State Workforce Board Chairs 
published a paper entitled ``The Competitive Challenge: 
Building a World Class Workforce,'' and stated, ``For the 
United States to remain competitive in a knowledge-based global 
economy, it is critical that we create and maintain a world 
class education system that prepares our workforce with world 
class skills.''
    Over the past few years, our board has commissioned a 
workforce study, a healthcare sector analysis, and an advanced 
manufacturing sector analysis to identify critical skill 
shortages. The studies concluded that there would be jobs in 
healthcare and manufacturing. However, they will require higher 
skill levels. Unfortunately, Goodyear did not practice advanced 
manufacturing; therefore, these workers will require retraining 
to fill skill gaps.
    Again, community colleges have the expertise to provide the 
training, but due to other dislocations, classes are at 
capacity and funding is not available to expand offerings.
    Over 1,800 surveys were completed by Goodyear workers and 
family members indicating their occupational needs. These were 
combined with skill shortage data to determine the need for 37 
classes in high skilled demand occupations such as nursing and 
advanced manufacturing. Due to the prolonged recession and the 
nearly 1,500 job seekers in training this year, WIA budgets are 
already strained as we prepare for the recent cuts. Without 
approval of the national emergency grant, Goodyear workers 
cannot receive the education and training needed to re-enter 
the workforce.
    In closing, I would like to ask that you also consider my 
written testimony regarding the following:
    With regard to Pell grants, coordination can be flawed. WIA 
pays unmet need after Pell. If Pell is reduced, WIA costs 
increase, although our WIA budgets are also being reduced.
    Timing is everything. A 10 percent budget cut over 12 
months is manageable. The same 10 percent budget cut over three 
months is effectively a 40 percent cut and extremely 
challenging.
    And third, the GAO report recognized that the current 
workforce system has merit. States like Tennessee could serve 
as a role model for the many recommendations.
    I appreciate the hard choices that you have and will make 
to secure our future. And thank you for the opportunity to 
share my thoughts.
    [The statement of Ms. Prater follows:]

Prepared Statement of Margaret W. Prater, Executive Director, Dyersburg 
      State Community College--Northwest Tennessee Workforce Board

    It is an honor and privilege for me to represent the American 
Association of Community Colleges, Dyersburg State Community College, 
and the Northwest Tennessee Workforce Board at this hearing on 
``Reviving our Economy: The Role of Higher Education and Job Growth and 
Development.'' As the Executive Director of the Northwest Tennessee 
Workforce Board, I have a rather unique perspective on this topic, 
since I am also an employee of Dyersburg State Community College, the 
administrative entity for the Workforce Investment Act programs. For 
the past 27 years, Dyersburg State has served as administrative entity 
for federal workforce programs, including the Job Training Partnership 
Act (JTPA) and Workforce Investment Act (WIA). This public/private 
partnership has proven to be beneficial to both entities, but mostly to 
the unemployed adults, dislocated workers, and disadvantaged youth of 
northwest Tennessee. I consider it a privilege to have witnessed the 
way thousands of people have changed their lives through education and 
training over the years of my service. At the retirement of my 
predecessor last July, I presented him with a plaque stating that under 
his leadership we had provided education and training to over 66,000 
individuals, a number large enough to fill the Titans football stadium 
in Nashville.
    Since 2008, due to the recession, our focus has been on the 
dislocated worker. The seven (7) counties in Local Workforce Investment 
Area (LWIA) 12--Crockett, Dyer, Gibson, Lake, Lauderdale, Obion and 
Tipton--have lost over 3,500 ``reported'' jobs, mostly in 
manufacturing. The term ``reported'', means those employers who are 
required to report layoffs in excess of 50 individuals. This does not 
include the countless number of employees who are laid off from ``mom 
and pop shops'', small businesses that make up a significant part of 
the workforce. The Tennessee Department of Labor provides our LWIA with 
a weekly list of new claimants for unemployment insurance. Since early 
2008, we have mailed 9,726 letters to new claimants advising these 
unemployed workers of the services available to them in the Tennessee 
One-Stop Career Centers and through WIA. In late 2009, one of our 
counties, Lauderdale, hovered at nearly 20% unemployment for months. In 
fact, due to this county's statistics, a news crew from 60 Minutes 
spent three (3) days investigating what was referred to as the 
``99ers'', those who had exhausted regular unemployment benefits and 
the multiple extensions equating to ninety-nine (99) weeks. Lauderdale 
County unemployment is now down to 15.9%, lowering our overall area 
unemployment rate to 12.9% which is definitely an improvement; however, 
this still equates to 13,150 individuals looking for work. Some of 
these live in Lake County, which has the 12th highest poverty rate in 
the nation.
    My primary responsibility as Executive Director is to convene 
business and industry leaders, representatives of education, economic 
development professionals, community organization advocates, organized 
labor representatives and state departments of Labor and Workforce 
Development and Human Services to form the Northwest Tennessee 
Workforce Board (NTWB).
    Our mission is to create a workforce system that fully utilizes the 
experience and innovative resources of the public sector in an 
efficient, responsible, integrated system that provides services to the 
citizens and employers of northwest Tennessee, which fosters a 
competitive economic environment and a high quality of life. Our 
guiding principles include being private sector driven, responsible and 
competitive, and customer focused through the use of our Tennessee One-
stop Career Centers.
    LWIA 12 has a Tennessee One-stop Career Center located in each of 
our seven (7) rural counties, where we partner with vital agencies and 
organizations to provide the personnel and resources needed to help job 
seekers find gainful employment. Since the recession began in 2008, our 
services have increased tremendously. In March 2008, the One-Stop 
Career Centers provided 52,104 in various services such as unemployment 
insurance, WIA, and Veteran Services. By March 2009, that number had 
increased by 38% to 72,003. The number of services continued to rise in 
March 2010, up another 21% to 82,790. As of last month, March 2011, 
services reached an all time high of 86,920, making a total increase 
since 2008 of 67%. Continuing this level of service becomes 
increasingly difficult from a manpower and budgetary standpoint. The 
prolonged recession has taken a toll on the One-stop Career Center 
Staff. In addition to the massive increase in the numbers of services 
requested daily, they deal with the hopelessness, depression and 
anxiety of more and more customers every day and face the reality their 
job performance depends on these customers getting a job in a depressed 
economy. One-stop Career Center staff work extra hours without extra 
pay, and have not had a salary increase in nearly five (5) years. They 
are aware of the national budget issues, and as they see what their 
customers are going through, they know they too may be laid off, adding 
to the rolls of dislocated workers.
    It is important to recognize education and training services will 
vary by state, local area, one-stop center and even by individual. It 
is not ``one-size fits all'' system. Sometimes a customer simply needs 
help constructing a resume' or to register to take the National Career 
Readiness Certificate (ACTs WorkKeys portable skills credential that 
many employers require) or be referred to a job interview. Others need 
more intensive services. Staff conduct various assessments to determine 
skill levels and assist the job seeker with using labor market 
information to make informed decisions on a career choice. More often 
than not, we find the unemployed adults and recently dislocated workers 
lack the job skills employers require, so training is required. Once a 
plan is developed, staff arrange for payment of fees, books and 
supportive services, such as transportation. But their job is not over. 
They follow the progress of the customer, developing a rapport lasting 
in some cases for years to come. It is not unusual for staff to meet a 
customer at the grocery store or a restaurant and receive an update on 
how their individual experience through the One-stop Career Center and 
WIA has changed their life. We have countless success stories.
    Our area will show a particularly high incidence of skills training 
compared to others in the State and probably the Nation due to the lack 
of technical skills. Demographics for persons 25 or over in the area 
show that 24.4% of adults in the region have less than a high school 
diploma compared to 15.4% in the U.S. Only 16.2% have an Associate 
Degree or higher compared to 34.9% in the U.S. With employers requiring 
higher skills to compete in a global economy, a large percentage of the 
workforce is unprepared to meet their needs. Since July 1, 2010, we 
have funded training and/or support services so participants can attend 
training for 1,488 adults, dislocated workers, and youth to equip them 
with the skills needed to help their perspective employer better 
compete in a local and global economy. It is important to note that WIA 
funds are what we refer to as ``last dollar scholarships'', only 
providing funding after coordination with state and federal financial 
aid, such as Pell Grants. We were pleased to hear that federal Pell 
Grants were retained at the current level, rather than being cut as 
originally recommended. This would have been what we refer to as a 
``double whammy'' for workforce development since WIA only funds the 
customer's unmet need after Pell Grant payments are calculated. It 
would be unfortunate to take a cut in WIA funding, then also have an 
increase customer need due to our partners budget being cut as well. As 
a Board, we embraced the paper published by the National Association of 
State Workforce Board Chairs a few years ago entitled The Competitive 
Challenge: Building a World-Class Workforce. Excerpts from the 
Executive Summary are included below:
    For the United States to remain competitive in the knowledge-based 
global economy, it is critical that we create and maintain a world-
class education system that prepares our workforce with world-class 
skills. The workforce development system of the 21st century must be 
innovative, business-driven, customer-oriented, and performance-based. 
Ultimately, it must add value and increase the productivity of our 
nation's economy. To become a world-class system, it must be agile 
enough to adapt to rapid changes in the economy and be responsive to 
its customers.
    The personal prosperity of our citizens and the economic security 
of our nation will require uniting our education, economic development, 
and workforce development strategies in a common effort to equip our 
citizens with higher skills and supply our businesses with qualified 
workers.
    The community college, and other institutions of higher education, 
can provide the expertise needed to train a world-class workforce. As 
an employee of Dyersburg State Community College (DSCC), I am certainly 
an advocate for the education and training we provide the citizens of 
our region. But, I can also attest to this as an end-user, in more than 
one way. I am a product of the community college system. After 
graduating high school, I had no intention of attending college. Five 
years later, I found myself desiring to improve my skills to advance in 
the world of finance. By this time I was married and working full-time, 
so I attended at night. By the time I graduated nine (9) years later, I 
had two children, and actually worked for the college. My experience 
does not stop there. Both my daughters attended DSCC. They started 
their college careers while still in high school, earning enough 
credits to be classified as sophomores in college when they graduated 
from high school. One became a teacher and one a nurse. My 
grandchildren now attend ``College for Kids'' as I have started early 
on to impress upon them the need for life-long learning. I have also 
seen firsthand the innovation and adaptability that DSCC has as a 
training provider for WIA. One such program is a fast-track LPN to RN 
program that was funded to meet the demand for Registered Nurses at 
local hospitals. As the Administrative Entity for WIA, DSCC has 
provided ample financial and personnel systems, professional 
development for staff and an established partnership with business and 
industry.
    LWIA 12 has been a leader in identifying strategies for long-term 
growth. In 2004, the Board and partners, a local chamber of commerce, 
and industrial association, commissioned a study of the local 
workforce. Findings concluded that the ``study area is largely 
unprepared for future growth due to the lack of a well-educated and 
trained workforce'' and ``only about 13% of jobs in short supply are 
available to workers with less than a high school diploma''. Finding 
six of the ten fastest growing occupations would be in the Healthcare 
Industry; LWIA 12 conducted a Healthcare Sector Analysis. The analysis 
included building a career pathway model presented by healthcare 
professionals to students in middle and high school. This year, LWIA 12 
along with 17 public and private partners commissioned a nineteen (19) 
county regional Advanced Manufacturing Sector Analysis. It identified 
companies, job titles, wage information, job openings, projected 
growth, and sectors including green jobs. A career pathway model is 
also available to give jobseekers insight into the knowledge, skills, 
and training required to have a career in Advanced Manufacturing. This 
work of the Board reinforces the premise that workforce development 
systems be locally controlled. It is vital for local areas to have the 
ability to adapt to economic needs and prepare to meet those needs 
based on local trends.
    It is easy to see the Board and its partners subscribe to the 
``power of e-3'' theory--the linkage of education, employment and 
economic development. This is a key component for communities 
developing strategies to help workers from a plant closure or mass 
layoff.
    Consider for a moment you received the following text message at 
7:36 a.m. on February 10, 2011:
    ``Goodyear is closing by year end.''
    This may seem like an unusual way to present a testimony, but I 
would like for you to take a moment to think about how you would feel 
having received this message. First, consider you are one of the 1,983 
employees who work at Goodyear Tire and Rubber Company. You are likely 
a 44-year old, white male and a tire builder. You have been with the 
company for over twelve (12) years, but worked in a similar job for 
eleven (11) years before finally getting a job at the largest and best 
paying manufacturing company in northwest Tennessee. You are a member 
of the United Steel Workers of America. Your hourly rate of pay is $24, 
although you only have a GED. You work first shift, six (6) days a 
week, so you make $65,000 annually, without working extra overtime. You 
have a mortgage on your home, and a truck and two car payments. You 
have a wife and two children, one just started college. You are 
considered to be rich in the eyes of your neighbors who only have an 
average household income of $46,338.
    Now consider that you are the wife of a Goodyear employee. You have 
not had to work in years, but you decided to get a part-time job for 
``fun'' money. If your husband finds a job it will likely pay about 
$12-13 per hour, roughly half of what he makes now. You will need to 
work full-time to make up the difference; however, you have no real 
skills only completing a few college courses before you married and 
dropped out. At best you will find a minimum wage job which will not be 
enough to make up the difference. Will you lose your house and 
vehicles? Will you have to rely on government assistance? What about 
health insurance? How will you pay college tuition for your child? How 
will you hold your family together?
    Maybe the text went to the owner of the local trucking company 
whose sole contract is with Goodyear to move product to storage. Can 
you get out of your building lease? Can you sell the trucks in this 
economy? Will you have to claim bankruptcy? What do you tell the twelve 
(12) employees who will lose their jobs? What do you tell your wife and 
kids?
    Or maybe you are a teenager, working as a cashier at the 
convenience store across the road from Goodyear. You work part-time and 
go to school. You have heard the rumors before. Everyone said if 
Goodyear ever closed, this store was history. Where will you get 
another job? How are you going to pay for school expenses?
    Consider you are a school teacher or a nurse, working in two of the 
highest demand occupations in northwest Tennessee. You feel sorry for 
the people losing their job. In fact you know several. Wait, you 
remember some saying they would have to move away if Goodyear ever 
closed. If families start moving away that would mean less children in 
school, less people coming to the hospital. Could this affect your job?
    Now consider you are the mayor or the industrial board chairman and 
you received this text. Everyone will blame you. Could you have done 
something to keep Goodyear here? How are you going to recruit a company 
to hire these 2,000 people? What did the study you commissioned a 
couple of years ago say about the impact of Goodyear in the region? Was 
it another 1,400 indirect jobs in addition to the direct jobs? Was it 
almost $5 million in tax revenues that will be lost?
    Imagine you are the local community college president. You know 
that a high number of adults in the area do not have a high school 
diploma and the percentage that have an Associate Degree or higher is 
less than half of the percent nationwide. With employers requiring 
higher skill sets to compete in a global economy, a large percentage of 
the workforce is unprepared to meet their needs. But, your college has 
grown by over 1,000 students in the last two years and your funding has 
remained flat for the last decade. Your only recourse has been to 
increase fees, but students are being hit from all sides with higher 
book costs, higher gas prices to get to school and now there is talk 
about reducing the Pell grant amount that helps low income students 
afford college. Your college works very hard to increase outside funds 
for scholarships, but the recession has affected fundraising as well. 
How are you going to handle the additional students when you are 
already near capacity? What about high demand training programs the 
college does not offer? Where will you get the start-up funds?
    Finally, consider you are the Executive Director of the Workforce 
Board. You are the person responsible for bringing together partners in 
employment and training programs to assist dislocated workers, 
unemployed adults, and disadvantaged youth in the seven (7) county 
rural area that is home to Goodyear. Your primary focus, since the 
recession began in 2008, has been dislocated workers since unemployment 
rates have been as high as 20% for one county and currently averages 
13% for all counties. This is already a total of 13,150 people without 
the additional 3,400 direct and indirect Goodyear affected employees. 
Your local One-stop Centers are offering more services than ever, up 
67% since 2008. Your staff works extra hours to meet the demand without 
extra pay and without a raise in nearly 5 years. They see countless 
people everyday who are hopeless and depressed because they cannot find 
a job. They offer encouragement and career guidance, knowing all along 
that their own job may be in jeopardy due to national budget issues. 
You will have to pull some of these overworked staff from other 
counties to meet with Goodyear employees, but what can you tell them? 
You have one of the smallest annual allocations in the State and funds 
are already obligated to other dislocated workers. With the recent 800 
employees laid off from World Color and the other employees affected by 
closure/mass layoff in your area totaling over 3,500 since 2008, the 
State has already provided extra funds to help. You can apply for a 
National Emergency Grant, but you have heard that these may be 
eliminated in the budget battle. What will you do?
    Although any of these individuals could have received this text and 
did receive a similar message by some means of communication, it was I 
who received this particular message from my union representative on 
the Workforce Board. The statistics in the examples are taken from 
1,806 Needs Surveys of Goodyear employees and family members, and local 
demographic information.
    In order to understand how important your role is in this process, 
I need you to put yourself in their shoes, I need you to feel what 
these people felt, I need you to have the passion that I and so many 
others in workforce development have. Please understand nearly 2,000 
Goodyear workers and potentially 1,400 more with local suppliers and 
retailers will lose their jobs and do not have jobs to go to. The 
average unemployment rate for our seven (7) county rural area is 12.9%, 
with 13,150 individuals looking for work. There is no way current 
employers can accommodate this number of workers, plus those affected 
by Goodyear. We must attract new business and industry to the area. In 
order to do this, we must have a world class labor force.
    With the help of many partners, we put together a National 
Emergency Grant application to provide employment and training services 
to Goodyear workers and their families from twenty-two (22) counties in 
Tennessee and Kentucky. The first step to retraining Goodyear employees 
was to conduct a Needs Survey. LWIA 12 staff worked around-the-clock 
shifts in the plant, distributing and collecting surveys and meeting 
with workers to answer their questions and hear their concerns.
    Over 1,800 surveys were collected and analyzed, providing a clear 
picture of the Goodyear situation. Only two percent (2%) of employees 
indicated they did not plan to return to the workforce.
    Over sixty-seven percent (67%) of employees indicated a need for 
job search assistance. Almost fifty-six percent (56%) indicated a need 
for personal assistance, such as educational financial aid. When asked 
``Do you believe additional training/education would help you become 
more employable?'' 97.5% answered ``yes'', with over 60% indicating 
they would participate in either vocational training or academic 
training at a college. To handle the masses of employees affected by 
the Goodyear closing, we have secured a building rent-free to provide 
career and training services locally.
    A crucial aspect of the survey was to match local demand 
occupations with customer interest. A major obstacle in meeting the 
long-term training needs for business expansion and high-growth 
occupational employment is lack of capacity within the training and 
education system and lack of funding to implement new programs. Thirty-
seven (37) classes were identified that are either currently not 
offered or are already at capacity, prohibiting enrollment of Goodyear 
workers. Unfortunately, we have expended all FY 2009 and FY 2010 funds, 
with very little FY11 funds remaining unobligated. These classes cannot 
be offered to the Goodyear workers without approval of the National 
Emergency Grant application.
    As the details of the FY 11 funding agreement, HR 1473, to keep the 
government running for the rest of the fiscal year were released I was 
particularly interested in the effect on WIA budgets. I viewed the 
final agreement of a $307 million cut to WIA formula programs as 
relatively good news when compared to the House passed FY 11 CR bill, 
HR 1, which proposed the elimination of all WIA formula funding and 
included cuts to job training programs totaling $3.6 billion.
    The Northwest Tennessee Workforce Board has historically been a 
leader in Tennessee for tracking expenditures and obligations using our 
electronic State system. Because of this, we have been proactive in 
making adjustments before we have budget issues. We have also been able 
to secure additional funds from the State to serve additional 
customers.
    Each year, it is particularly challenging to balance expenditures 
during the first quarter of the program year--July through September. 
Local areas receive approximately 22% of annual allocations the first 
quarter. Of course, 25% of annual operations, such as salaries, 
benefits, rent, etc. must be paid from this amount. The challenge comes 
with paying direct participant costs for education and training. For a 
participant attending a technology center, we must pay \1/3\ of their 
annual cost due to a trimester schedule. For a participant attending a 
community college or university, we must pay \1/2\ of their annual cost 
due to a semester schedule. For participants attending short-term 
private training, we generally pay 100%. All of this must come from 22% 
of annual allocation. The logical solution would be to carryover funds 
to meet these additional needs. This is what we try to do, but it 
becomes complicated. Although we have two years to spend our 
allocation, we must spend 70% by first year ending June 30, only 
leaving 30% to carryover. In order to spend the 70%, you must have a 
significant number of individuals in training, who may also require 
funds during that first quarter.
    It is our understanding this July will have additional challenges 
as the cuts to WIA formula funds will be taken out of this same period 
(July--September) versus being applied to the entire year allocation. 
Based on our current expenditure levels as of March 31 and the 
projected cuts, we will be required to make additional cuts in our 
program to continue to serve our customers. This will include laying 
off several staff members at a time when we need everyone possible to 
meet the needs of customers and contributing to the abundance of 
dislocated workers currently looking for work.
    I understand the budget situation for our nation is at a crisis 
level and I greatly appreciate Congress and the Administration for 
reinforcing the local workforce system as the primary delivery 
mechanism for workforce funding. Your job is not an easy one. I also 
understand that you must evaluate programs such as WIA, not from just 
what advocates say, but also from third party concerns.
    I want to offer the following comments on the U.S. Government 
Accountability Office (GAO) report Opportunities to Reduce Potential 
Duplication in Government Programs, Save Tax Dollars, and Enhance 
Revenue:
    First, let me say that I was pleased to see that WIA is obviously 
not the ``smoking gun'' when it comes to wasteful programs! In fact, in 
the first sentence, GAO states ``Federally funded employment and 
training programs play an important role in helping job seekers obtain 
employment.'' It goes on to talk about how some programs overlap with 
at least one other program in that they provide one similar service to 
a similar population. It states, ``Even when programs overlap, they may 
have meaningful differences in their eligibility criteria or 
objectives, or they may provide similar types of services in different 
ways.'' From my many years in the employment and training business, I 
can tell you this is true ``one size does not fit all''.
    One of the main focuses of the GAO report seems to be co-locating 
services. This was a surprise to me. I know Tennessee is a leader in 
the nation in workforce development for performance, expenditure of 
funds, etc. But I assumed everyone co-located workforce services since 
Tennessee and our local area has been doing this even before the 
Workforce Investment Act (WIA), under the Job Training Partnership Act 
(JTPA). In five (5) of our seven (7) counties, WIA is co-located in the 
Employment Services offices. Just as the report mentions, the only 
reason TANF is not also co-located is due to limited office space. In 
our other 2 counties, there are no Employment Services offices, so WIA 
facilitates this service via technology and the TANF employment and 
training service is co-located with us.
    Another statement in the report which really rang true for us was, 
``Agency officials acknowledged that greater efficiencies could be 
achieved in delivering services through these programs, but said 
factors such as the number of clients that any One-stop Center can 
serve and One-stop Centers' proximity to clients, particularly in rural 
areas, could warrant having multiple entities provide the same 
services.'' Depending on budget cuts, I may be required to close our 
offices in our two smallest counties, Lake and Crockett. I would hope 
to ``borrow'' space from another agency to place a part-time staff 
person a couple of days a week, but we would not have the computer labs 
and technology to provide on-site services and facilitate the 
Employment Service role. I do not know where our TANF partner would go. 
This would be like taking two steps backwards. If budgets are cut so 
much that we cannot employ part-time staff, this means unemployed 
adults and dislocated workers would be forced to drive 25-30 miles for 
services. I know in some areas in Tennessee, the commute would be even 
greater.
    The final statement I found interesting in the GAO report about 
Employment and Training programs was the last sentence under Actions 
Needed and Potential Financial or Other Benefits that states 
``Depending on the reduction in administrative costs associated with 
co-location and consolidation, these funds could be used to train 
potentially hundreds or thousands of additional individuals.'' As 
previously noted, since 2008, our area has experienced reported 
dislocations of over 3,500 employees, and with Goodyear Tire and Rubber 
closing this will add another 2,000 direct and 1,400 indirect layoffs. 
Costs savings from co-location and consolidation could be used to 
provide employment and training services to this growing number.
    In closing, I hope someday employers will be able to hire all the 
qualified workers they need; every individual who wants to work will 
have a job; and our tax dollars will not be needed to subsidize the 
effort. Unfortunately, today is not that day.
                                 ______
                                 
    Chairman Kline. Thank you very much. Thanks to all the 
witnesses.
    As we did with the previous panel, Dr. DesJarlais and I 
will sort of take turns here and ask some questions.
    Ms. Prater, I think all of us--certainly most of us--have 
seen the same sort of impact that you are talking about. In my 
district, Lockheed-Eagan is shutting down and going away, so we 
have almost 2000 employees there. When Northwest Airlines 
merged with Delta, that means the headquarters operation went 
away. So we are seeing that repeated many, many places. The 
workplace is changing. And that is part of what is behind our 
whole effort here in these hearings, is to get a first-hand 
report on what is happening in the workplace locally, and from 
our perspective as the Education and Workforce Committee, to 
see how those two pieces are coming together--education and 
needs of the workforce. Hence your presence here today. And 
thank you very much for being here.
    Mayor Dickey, you said that--I am sorry, wrong page of 
notes here--that these institutions must meet the expectations 
of students and the employers--institutions being the community 
colleges and so forth. Without picking on anyone particularly, 
do you feel that that is happening?
    Mayor Dickey. No, we do not see that. We have a lot of 
programs in place but somehow our educated job seekers do not 
realize the potential of that. Example, roughly 25 percent of 
our high school students drop out, so we have to deal with that 
situation. And whether it is GED or whatever it is, it is a 
serious problem. In the state of Tennessee, only 29 percent of 
the students graduate from high school.
    So with that said, we need to prepare earlier, whether 
students want to be involved in the academic challenges that 
are ahead or the vocational opportunities that they might 
prefer themselves. When you go further with the education, you 
know, 50 percent of the students roughly that go to college, 
drop out the first semester, and in Maury County's situation, 
we have 17 percent of our students who have college four-year 
degrees.
    So to me, we have talked about education, we have talked 
about training programs and all these things, but it seems like 
our efforts are stagnant and we are getting the same results 
over and over.
    Chairman Kline. Thank you. Boy, the high school dropout 
rate even nationwide is pretty staggering. It almost seems to 
us, and probably everybody in this room, that everybody knows 
that if you do not graduate from high school, you are starting 
way, way behind. And probably everybody in this room 
understands that if you do not have an associate's degree or 
some specialized training or a college degree that you are 
going to suffer. Yet, we still have these high dropout rates. 
Kind of another part of our job on this committee is we are 
looking at the Elementary and Secondary Education Act and what 
might be done there, but it is always a little bit distressing 
to me.
    It is clear that here, perhaps maybe even more than other 
places, the workplace is changing as you are losing 
manufacturing jobs and moving to other areas. And Ms. Marlow, 
you have found such an area.
    I found it interesting, Ms. Prater, that you pointed out 
that the community colleges are full. We did not develop that 
notion with the other panel. Is this principally--I am back to 
you right now--is this principally, the maximum capacity 
issue--do you think this is mostly people looking for specific 
changes in careers, or is this a normal compilation of high 
school graduates just wanting to go to college, or is it driven 
by the need for a new sort of career change?
    Ms. Prater. I think it is primarily the dislocations that 
we have had and the high unemployment, that people recognize 
that there are not jobs there and so they have to prepare 
themselves for where the jobs are. I know that this year, 
Dyersburg State is graduating almost twice as many as last 
year. We are a very small college, but 400 students are 
graduating. I know we increased by over 1,000 students in like 
a two-year period. But I do believe that it has to do with the 
whole economic situation and I think we will--as jobs come 
back, I think we will see people leave, probably before they 
get their degree--part of the dropout that Mr. Dickey was 
referring to, of where they do not finish college. I think once 
they feel that they have enough skills and they can get back 
into the workforce, we will see that happening as well.
    Chairman Kline. Thank you. Let me ask one more question 
before I yield to Dr. DesJarlais.
    I was struck, Ms. McKeel, you talked about providing 
scholarships. What is the source of that money?
    Ms. McKeel. They are actual individual training accounts, 
ITAs through the Workforce Investment Act. In our area, folks 
did not seem to know what an ITA was, so we decided to rename 
that, it meant a lot more. And the other piece of that is that 
an ITA almost had the attitude that ``I am entitled to that'' 
where a scholarship is earned. And we very much require our 
scholarships to be earned. So we just sort of changed our 
terminology on that.
    Chairman Kline. That makes it a lot easier now, I 
understand what you are talking about.
    Ms. Prater. And we use the term, it is ITA.
    Chairman Kline. Good choice.
    Dr. Desjarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Mayor Dickey, I think I will start with you. I know the 
challenges you face here in the city, we have talked about 
these and certainly you have your work cut out for you, as do 
we all.
    What workforce initiatives is the city office working on 
now?
    Mayor Dickey. We have partnered with the Workforce Alliance 
on the programs that might be available such as the youth 
program. Last year, I think we employed some 16 workers from 
that program. And also job training dollars that are available 
for certain positions, police and fire, those kinds of things.
    Mr. DesJarlais. Do you have any tax incentive plans to 
attract new businesses?
    Mayor Dickey. We do. We have just put this in place, we 
have not used it as of this date, but it is there for the 
future, to make us more competitive in recruiting new jobs.
    Mr. DesJarlais. Ms. McKeel, do you feel that individuals 
looking for employment are accessing the programs at the local 
institutions for training?
    Ms. McKeel. Yes, and I think one of the things especially, 
I know it has certainly affected us at the career center level 
and I am sure at the community college level and other 
institutions as well is that for a long time we felt like maybe 
we were a best-kept secret. And one of the things that the 
recession did, as I mentioned in my numbers, that just foot 
traffic alone had increased 300 percent over the last year. We 
are not a secret any more and the resources that we offer to 
folks are available. And included in those resources is 
information on the different training institutions. So again, 
we are in a bit of a crisis situation or have been over the 
last 18 months to two years and if you want to look for 
positive things that come from that, is that folks understand 
the resources and know where to go.
    Mr. DesJarlais. Do you have any suggestions--you mentioned 
some--for how businesses and institutions of higher education 
can work a little better together?
    Ms. McKeel. My favorite tool, and I was actually hoping you 
might ask that question, but my favorite tool is paid 
internships and that partnership. The sooner we can get 
individuals into a workplace--classroom is great, but the more 
you can get them into the workplace, that makes it relevant. I 
mean internships are great, paid or unpaid, but paid even takes 
it up a step.
    Mr. DesJarlais. And I will direct this to you, but Mayor 
Dickey first, what areas are you expecting to see job growth or 
job creation in the next year or two in the area?
    Mayor Dickey. Well, Congressman, of course, we know we are 
in a changing work environment. Manufacturing is vanishing, but 
yet our community is equipped for manufacturing jobs. So we 
have to try to recruit, for a quick fix, manufacturing jobs. 
And then somehow, we have to see the big picture and get into 
solar, green jobs, somewhere down the road there.
    Mr. DesJarlais. Ms. McKeel, do you have anything to add?
    Ms. McKeel. In fact, I was trying to jot it down so I did 
not leave anything out here on it.
    There is basically--and I go back to the report that we 
coordinated on with Nashville Chamber and our Workforce 
Investment partners, and it looked at the 10-county area, but 
that is the economic engine for our entire middle Tennessee 
region. And then we looked at adapting a little more 
specifically to our southern counties, but there are basically 
five sectors that we are looking at growth in, they are very 
broad, as they should be--advanced manufacturing and green 
technologies, healthcare, public safety, hospitality and 
culinary arts, as well as information technology, which the IT 
piece crosses into every one of those categories. So those are 
the basic five that we are currently looking at, but then of 
course you get into logistics and distribution that fits into 
the manufacturing, so there are many sub-sectors of that as 
well.
    Mr. DesJarlais. Thank you.
    Ms. Marlow, in your testimony, I was fascinated by the 
growth in your industry. What do you expect will be the 
employment demand moving forward?
    Ms. Marlow. There is a very high demand. While it seems to 
be a very niche market, it is a very high demand. If you think 
about location-based technology, it is expected to grow and 
create billions of dollars in revenue and if you look at the 
numbers, even from the Department of Labor, they expect that it 
is going to grow just immensely. And if you think about even 
the whole Google--every database that has an address has the 
ability to be visually seen on a map. So if you think about 
just enabling any kind of database to have an address, 
location-based technology, the growth potential is enormous.
    Mr. DesJarlais. Are you or others in your industry working 
closely with the educational system to make sure that they are 
developing programs to help fulfill the needs of your industry?
    Ms. Marlow. We have but again, I would like to stress that 
K through 12 geography and the use of geospatial technology in 
those classrooms. Because many students--I mean some of the 
reasons that some of these classes are not being taught is 
because there is not a demand at the student level. So they are 
not aware of the profession. So I would again point to that K 
through 12 education as really important.
    Mr. DesJarlais. I hate to use time to tell stories, but 
when you were talking about the lack of education in basic 
geography, I could not help but think of a story--and my wife 
Amy will probably remember this. We were talking to a 
substitute teacher, and I have actually talked to several 
younger people too, and I thought that I heard them mention the 
island of Alaska. [Laughter.]
    And I had to stop and think a little bit, and I actually 
asked this substitute teacher to show me Alaska on a map and 
she could not because all the maps in the classroom showed the 
United States with Hawaii and Alaska next to it out in the 
ocean. And when I told her where it actually was, she said 
well, that makes a lot more sense because I did not understand 
why one was so warm and the other was so cold, if they were so 
close to each other. [Laughter.]
    You might just test that. But it was a shock to me 
because--I will not say who it is in case they listen to this. 
But I would concur that we need to do better, based on that one 
story alone.
    Ms. Marlow. There you go.
    Mr. DesJarlais. I will turn it back to the Chairman.
    Chairman Kline. You mean it is not an island? [Laughter.]
    Ms. Marlow, I have sympathy certainly. It is always 
appalling to me when people cannot find things on a map. 
Probably going to be resistant to the federal government 
getting into the curriculum business. By law right now, the 
federal government is prohibited from doing that and it is 
probably a pretty good law, but since I am in your district, 
Scott, I will nevertheless fearlessly step out and encourage 
the people in Tennessee to put a little geography in the 
curriculum.
    I think, Ms. Marlow, you are sort of the exact example that 
we are looking at here where we have got very, very high 
unemployment nationwide, and extremely high here. We have heard 
some very high percentages--12, 14, 16 percent unemployment--
and you have a manufacturing base that is diminished, to say 
the least. And you have got a relatively new field and it is 
sort of a high tech field and it is a new opportunity. You talk 
about billions of dollars of opportunity. And absent the 
stirring interest in K-12, what are you doing, how are you 
trying to interact with the colleges that were already here 
before, with the workforce boards, to try to get people who are 
qualified to come work for you?
    Ms. Marlow. Well, actually that is the reason I founded the 
Institute for GIS studies, was really to try to make the 
connection. We have a lot of these jobs that are being sent to 
India, China, because they have focused on the information 
technology and have focused on those fields. So the way that we 
connect is through the chamber and things like that, as well 
as--I mean I am here today to connect, you know, just to try to 
reach out and say, look, this is something that is growing and 
we have data here in Tennessee, that is the thing. Even if you 
had somebody who had a great interest in it, you have to have 
data to actually interact and to make it work. So the State of 
Tennessee has made a huge investment so every county and every 
city has geospatial data available.
    I just believe that that is a great field and I would like 
to raise the level of interest in it.
    Chairman Kline. I think you are doing that.
    We talked about various mechanisms of connecting colleges 
and the workplace and the future workforce, and there are 
advisory boards, for example. I think all three of the 
institutions of higher education talked about advisory boards. 
Do you or others in your industry participate in any of those 
boards?
    Ms. Marlow. We do. Most of what I have been doing, quite 
frankly, has been at a national level just because a lot of my 
work is done outside of the state of Tennessee, meaning we work 
for a lot of other governments that are not, you know, in 
Tennessee. So a lot of my work has been done at the national 
level. But a lot of the people in our industry are very active 
in many different boards and advisory boards and things like 
that.
    Chairman Kline. Do you have interns?
    Ms. Marlow. Actually, I have two openings this summer for 
interns. [Laughter.]
    So I thought I would mention that.
    Chairman Kline. We are trying to perform a service here.
    Ms. Marlow. Make the truth in action.
    Chairman Kline. Ms. McKeel and Ms. Prater, you both talked 
about increase in traffic, numbers of people coming, foot 
traffic--a lot of different terms, 700 each day and so forth. 
Are you involved in tracking what happens to those people? I 
mean it is one thing to measure how many people are walking in 
and asking for advice on how to produce a resume, it is another 
to see where they end up in that process. Can both of you, each 
of you, address that?
    Ms. McKeel. I will start. Yes, the answer is yes. The 
metrics, of course, there are certain metrics that we are 
required to follow because of the Workforce Investment Act, but 
we have almost a report card. But the ones that we follow, of 
course, are the ones that receive more intensive services. You 
are right, there are 700 that walk in a day, some of them 
getting very basic information and going on their way. But we 
very much watch very closely for a year after they are finished 
with our services to find out--especially those that go into 
training--did they go to work in the field in which we trained 
them in, what were their wages, and are they staying on the 
job.
    Ms. Prater. Yes, we do the same thing. As she said, with 
those individuals who needadditional, more intensive services, 
we provide scholarships. That is where I think I mentioned we 
have almost 1,500 individuals whoare receiving scholarships or 
support services right now. We have monthly contact with those 
individuals while they are in their classes, while they are in 
their training or we do quite a bit of on-the-job training with 
employers as well. Then, once they exit the program and are 
employed--or if they are not immediately employed, we continue 
to follow up with them for at least a year to make sure--and 
sometimes we will find that they were employed and something 
has happened and they need additional services and we will 
bring them back in and work with them.
    Ms. McKeel. I might add to that, especially in the training 
piece of it, that our workforce board looks at that every 
quarter as part of the reporting, to see if the monies that are 
invested in those training programs are resulting, first of 
all, in work, but specifically in work in that field in which 
they were trained. And decisions are made based on those 
results coming back, whether that should continue to be an 
allowable training field that folks are allowed to invest their 
scholarships in.
    Ms. Prater. And we also provide that information to 
potential students who are planning to go. And we have a report 
card that we let them know how many students went to Dyersburg 
State in business systems technology or nursing and what the 
graduation rate was and what the placement rate in jobs within 
that field were. And we use that to make decisions on funding 
as well.
    Chairman Kline. Great, thank you.
    Dr. Desjarlais.
    Mr. DesJarlais. Nothing further.
    Chairman Kline. Okay. We have filled up pages and pages of 
notes here and many questions.
    Yes, Mayor Dickey, sure.
    Mayor Dickey. Two categories of our workforce are not 
mentioned very often--the under-employed. And to me, you know, 
we get pages of reports, but that group is not included. And I 
think before we come out of this slump that we are in, that is 
going to have to be addressed, because those folks are going to 
have to get back on a level where they are qualified and 
earning a decent wage, rather than a survival wage, is the way 
I put it.
    And then the other group is older folks who have had good 
work history, lost their job through no fault of their own. And 
those folks are not always retrainable. So economic development 
folks and their interest, somehow we have got to recruit to 
have jobs for those folks, because it is a long time from the 
middle 50s to the early 60s before you draw your social 
security.
    Chairman Kline. Dr. DesJarlais, do you have any further 
questions?
    Mr. DesJarlais. I might just augment briefly what Mayor 
Dickey just mentioned. As we move forward, and if anyone has 
been following the budget debates, and I am sure some of you 
have, one of the issues facing us is the aging population, the 
baby boomers entering Medicare at the rate of 10,000 per day 
and I think you bring up a very valid point that we need to 
look at; is that not only people who have lost work later in 
life are going to be facing hardships, but the reality moving 
forward with the population living on average 10 years longer 
than they did just in the 1970s--and that is a good thing--but 
I think that that does point to the fact that we are going to 
be working longer and in many cases beyond the age of 65.
    So I would just expound upon that to say that I think that 
is very insightful and we definitely need to pay close 
attention to that because that is going to be an issue that is 
going to get bigger, not smaller.
    Chairman Kline. Again, I want to thank the panelists. For 
all of you, but particularly the ladies on the end, we will be 
looking at WIA, the Workforce Investment Act. Another thing we 
have got to look at, we are very concerned about the number of 
job training programs, the number of agencies that are 
involved. I am certainly not shocked, you may not be either, 
that the government sometimes does not do things efficiently 
and we really need a lot of work there to clean that up and 
make it do the job that it is supposed to do.
    But thank all of you for the work that you are doing out 
there to help people find jobs, to create jobs. We appreciate 
that and thank you again for your attendance here today.
    There being no further business, the committee stands 
adjourned.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    For most Americans, a college education is the pathway to the 
middle class. In the current economy, this pathway can be uphill. For 
many, it may seem steeper than ever. But smart investments today, both 
nationally and locally, will ensure a strong and growing middle class 
tomorrow.
    In communities like Columbia, just as in other communities across 
Tennessee and across this country, local economies rely on an educated 
and well-trained workforce.
    A recent study warned that demand for workers with college 
educations will outpace supply by 300,000 per year. At this rate, by 
2018, our colleges will have produced 3 million fewer graduates than 
are demanded.
    This cannot continue. In a country as great as ours, there is no 
excuse for anything less than a talented and fully qualified workforce.
    For years, we've heard this key complaint from business leaders: 
they weren't getting enough workers with the skills for their specific 
industries.
    When Democrats took control of the Congress in 2006, we took on 
this challenge by making college more affordable and student loans more 
manageable.
    We started by raising the Pell Grant award to its highest level in 
history. Starting in 2014, the Pell will be indexed to inflation so it 
does not lose value over time.
    We made it easier to pay back college loans with programs like 
public service loan forgiveness. Now, college graduates who become 
teachers, nurses, public defenders or police officers can have their 
loans completely forgiven after 10 years of on-time payments.
    We also made loan payments more affordable. Using the Income Based 
Repayment program, graduates only have to pay up to 15 percent of their 
discretionary income toward their loan payment. New borrowers beginning 
in 2014 will only have to pay10 percent and after 25 years, their 
remaining balance is forgiven.
    And we made unprecedented investments in our community colleges to 
build a 21st century workforce by fueling partnerships between 
community colleges, businesses and training programs.
    We did all of this at no new expense to taxpayers by getting rid of 
wasteful subsidies that went to big banks and using that $60 billion in 
savings to invest in students and pay down the national debt.
    Our economy will be stronger if we are able to prepare more 
Americans, whether younger students or unemployed workers, for the jobs 
of the future.
    In the fall of 2009, 92,226 students were enrolled at Tennessee's 
public community colleges, up from 80,157 in 2008. And more than 50,000 
of these students relied on a Pell Grant scholarship to help them 
afford college.
    These smart and ambitious Tennesseans are on a path forward. They 
know that they will have a more fiscally secure future than those with 
only a high school degree.
    Unfortunately, Republicans in Congress are threatening the 
aspirations of these students by proposing to cut their Pell Grant 
scholarship by $2,500, the lowest level since 1998.
    This is not the time to move backwards if we want to help our 
workers, our students and our country get ahead.
    At a hearing today in Columbia, witnesses will testify about the 
critical role higher education plays to help spur job growth and 
community colleges help accomplish this task.
    Not only are community colleges providing educational 
opportunities, they're also meeting workforce needs by offering a range 
of core and training services from resume counseling to job training 
all afforded through the Workforce Investment Act.
    But Republicans have outlined plans to cut job training programs 
and eliminate many of these services. Their initial proposal for this 
year's funding bill effectively zeroed out these vital workforce 
investment programs. I believe this is irresponsible, short sighted and 
dangerous for American families.
    We have to do everything we can to continue to spur economic growth 
and prepare our workforce for the 21st century. We have the hardest 
working people in the world in this country--let's help them achieve, 
let's help them get on or stay on the pathway to the middle class not 
take away their opportunities for job training and career growth.
    Together, we can rebuild our economy so that it's strong, 
innovative, and once again sets an example for the rest of the world.
                                 ______
                                 
    [Whereupon, at 11:50 a.m., the committee was adjourned.]


                         REVIVING OUR ECONOMY:
                    THE ROLE OF HIGHER EDUCATION IN



                                                                                                                                                                    JOB GROWTH AND DEVELOPMENT

                              ----------                              


                        Tuesday, August 16, 2011

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training,

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 1:04 p.m. at 
Clemson University International Center for Automotive Research 
(CU-ICAR), 5 Research Drive, Greenville, South Carolina, Hon. 
Joe Wilson [member of the subcommittee] presiding.
    Present: Representatives Wilson and Gowdy.
    Staff Present: Jennifer Allen, Press Secretary; Amy Raaf 
Jones, Education Policy Counsel and Senior Advisor; Brian 
Melnyk, Legislative Assistant; Meredith Regine, Minority Labor 
Policy Associate.
    Mr. Wilson. Ladies and gentlemen, a quorum being present, 
the subcommittee will come to order.
    In the tradition of the U.S. House of Representatives, we 
will begin with a prayer.
    Our Father, we thank Thee as educators and legislators for 
the privilege and opportunity to serve the people of South 
Carolina. We ask Thy guidance and direction as we seek to 
promote jobs for our younger citizens.
    We are grateful for predecessors such as Armed Services 
Committee Chairman Floyd Spence who died 10 years ago today, 
setting an example of service above self.
    We ask Your protection of our troops who today make it 
possible for us to assemble and speak freely with the 
inspiration of Marine Major Julian Dusenbury, Princeton Class 
of 1942, who was awarded the Navy Cross for his service at 
Okinawa; and Congressional Medal of Honor recipient, Colonel 
Chuck Murray of Columbia, who will be recognized tomorrow with 
funeral services at the First Presbyterian Church.
    In the name of Jesus, amen.
    Thank you for attending this important hearing on promoting 
the creation of jobs and the role higher education and job 
growth initiatives will play in creating jobs. I appreciate 
your efforts in conducting this hearing, and I am very happy 
that it is being held in our home State of South Carolina in a 
very dynamic part of South Carolina, the upstate.
    I would also like to thank Dr. James Barker, the president 
of the university, for hosting us here at Clemson University's 
International Center for Automotive Research, CU-ICAR. We 
appreciate President Barker and his wife, Marsha.
    I know firsthand of the excellence of the leadership at 
Clemson with President Jim Barker and Board Chairman David 
Wilkins, in that our youngest son, Hunter, received a degree 
here in May at Clemson in industrial engineering and another 
son graduated from Clemson several years ago and is now very 
successful in commercial real estate in Columbia, thanks to his 
Clemson background.
    Spread across 250 acres, the CU-ICAR Center is located in a 
state-of-the-art $45 million facility here in Greenville. It is 
a research-oriented campus that combines the best of the public 
and private sectors. It provides an opportunity for today's 
innovators to develop tools for the automotive needs of 
tomorrow. It has fast become a hub for the nation's automotive 
industry, as it is a main area to design, test, and manufacture 
vehicles available to the industry. It is very appropriate for 
it to be located in this community because Greenville County 
has one of the largest concentrations of over 10,000 engineers, 
more per capita than many communities in the world, and is now 
known as one of the main engineering hubs of the Southeast.
    Anchored by the Carroll Campbell Graduate Engineering 
Center, CU-ICAR offers both a master's and Ph.D. program in 
automotive engineering. In addition, the Research Center is co-
anchored by the BMW Information Technology Research Center and 
the Timkens Research Center. These partnerships with local 
companies provide a great sense of cross-industry 
collaboration. Furthermore, companies such as Michelin sponsor 
many events at the Center that promote innovation in the 
automotive industry.
    I am very happy to see that both BMW and Michelin are 
involved with Clemson at the CU-ICAR Center. Both companies 
were brought to the State by previous Governors of South 
Carolina. The late Governor Karl Campbell was instrumental in 
recruiting BMW to the upcountry with the late Roger Milliken. 
Since opening its first manufacturing facility in Greer, South 
Carolina, BMW has shipped over 1 million cars made in the 
Palmetto State to the rest of the world.
    Thousands of jobs were created by BMW and its suppliers 
across South Carolina, building world-class vehicles, including 
all X5, X6, Z3, and Z4 models in the world, with the new 
addition of X3. This year, the plant will produce more than 
260,000 vehicles for over 130 markets around the world. Sales 
of the vehicles produced at the plant have met with continued 
high demand. In October, the plant will begin operating on a 6-
day production schedule to meet this global demand. This will 
also create new jobs for production associates.
    In addition, Governor Campbell's predecessor, Dr. Jim 
Edwards, played a vital role in recruiting the Michelin Tire 
Corporation, North American headquarters and manufacturing 
facilities, to South Carolina. Since 1979, Michelin has 
invested well over $1 billion in its multiple South Carolina 
plants. Recently, Michelin announced it would be expanding 
operations with an additional $200 million commitment for the 
plant in Lexington that will add 270 jobs. With the North 
American headquarters in Greenville, there are now seven 
manufacturing plants across South Carolina.
    As you can see, CU-ICAR has become a premier site of our 
nation's automotive expertise. It provides students with the 
challenging environment that incorporates cutting-edge 
technology and fosters a sense of innovation and collaboration.
    I look forward to hearing what you all have to say and how 
we can move forward to focus on creating a climate that 
promotes innovation and job growth.
    I now recognize Mr. Gowdy for any opening remarks he may 
wish to make.
    [The statement of Mr. Wilson follows:]

  Prepared Statement of Hon. Joe Wilson, a Representative in Congress 
                    From the State of South Carolina

    A quorum being present, the subcommittee will come to order.
    Thank you all for attending this important hearing on reviving our 
economy and the role higher education and job growth initiatives will 
play in doing so. I appreciate your efforts in conducting this hearing 
and am very happy it is being held in my home state of South Carolina. 
I would also like to thank Dr. James Barker, President of Clemson 
University, for hosting us here at Clemson University's International 
Center for Automotive Research (CU-ICAR).
    Spread across 250 acres, the CU-ICAR center is located in a state 
of the art $45 million facility here in Greenville. It is a research 
oriented campus that combines the best of the public and private 
sectors. It provides an opportunity for today's innovators to develop 
tools for the automotive needs of tomorrow. It has fast become a hub 
for the nation's automotive industry as it is a main area to design, 
test, and manufacture vehicles available to the industry.
    Anchored by the Carroll Campbell Graduate Engineering Center, CU-
ICAR offers both a masters and Ph. D program in Automotive Engineering. 
In addition, the research center is co-anchored by the BMW information 
technology research center and the Timkens research center. These 
partnerships with local companies provides a great sense of cross 
industry collaboration. Furthermore, companies such as Michelin sponsor 
many events at the center that promote innovation in the automotive 
industry.
    I am very happy to see both BMW and Michelin involved with Clemson 
at the CU-ICAR center. Both companies were brought to the state by 
previous governors of South Carolina. Governor Carroll Campbell was 
instrumental in recruiting BMW to the upstate. Since opening its first 
U.S. manufacturing facility in Greer, South Carolina, BMW has shipped 
over one million cars made in the Palmetto state to the rest of the 
world. Thousands of jobs were created by BMW and its suppliers across 
South Carolina by building world class vehicles including all X3, X5, 
Z3, and Z4 models in the world.
    In addition, Governor Campbell's predecessor, Dr. Jim Edwards 
played a vital role in recruiting the Michelin Tire Corporation, North 
American headquarters and manufacturing facilities to South Carolina. 
Since 1979, Michelin has invested over $1 billion in its two South 
Carolina plants. Recently, Michelin announced it will be expanding 
operations with an additional $200 million commitment for a plan in 
Lexington that will add 270 new jobs. With the North American 
headquarters in Greenville, there are now seven manufacturing plants 
across the state.
    As you can see, CU-ICAR has become a premiere site of our nation's 
automotive expertise. Its proximity to industry leading companies 
provides students with a challenging environment that incorporates 
cutting edge technology and fosters a sense of innovation and 
collaboration.
    I look forward to hearing what you all have to say on how we can 
move forward to focus on creating a climate that promotes innovation 
and job growth. I now recognize Mr. Gowdy for any opening remarks he 
wishes to make.
                                 ______
                                 
    Mr. Gowdy. I thank my distinguished colleague.
    I personally want to thank Representative Dr. Virginia Foxx 
for her willingness to hold this higher education subcommittee 
field hearing in the Fourth Congressional District of South 
Carolina. I also want to thank Congressman Wilson. And I know 
you join me in thanking all of the members of the South 
Carolina delegation for helping us highlight the wonderful 
assets and attributes of this State.
    I also want to thank Clemson University's ICAR for hosting 
us today. It has been a remarkable day so far, and I feel like 
we are just getting started. ICAR is a splendid model of how 
partnerships between institutions of higher education and the 
communities they serve can spark measurable job growth and 
economic development. ICAR has generated nearly $250 million in 
new investments, with another $500 million currently in 
development, and has announced the creation of more than 2,300 
new high-wage jobs. And in an economy that is starving for 
jobs, that is laudable and commendable.
    Finally, thank you to our distinguished panel of witnesses. 
I have only been there 7 months, but I can tell you, in my 7 
months, each you individually would make a phenomenal panel. 
The fact that we have the four of you in this eclectic, 
wonderful amalgamation of talent and insight is really, truly a 
credit to the upstate of South Carolina. So I thank this panel 
of witnesses and the next, as well.
    The Fourth District has seen a distinctive shift in the 
economic drivers in our area. We now boast one of the largest 
concentrations of high-skilled manufacturing in the country, 
with almost 20 percent of the employees in the district working 
in the manufacturing industry and more than 140 auto-related 
companies calling this area home.
    Milliken, a specialty chemical and fabrics company 
headquartered in Spartanburg, holds over 2,200 patents and is 
also the home to the largest textile research center in the 
world. This region is also home to other phenomenal industries 
such as BMW, GE, Michelin, and Lockheed Martin, just to name a 
few.
    As employers' needs have changed, so have the offerings of 
the institutions of higher learning in our district. Employers 
are working with our area technical schools to engage in 
curriculum planning and matriculation, employers like Jason 
Premo, co-owner of ADEX Machining.
    I recently visited ADEX, a company which produces parts for 
the aerospace, defense, and energy power generation industries. 
Jason told me how he utilized South Carolina's apprenticeship 
system and worked with Greenville Tech's established machine 
tool technology program to cultivate workers with the high-
level skills necessary to operate ADEX's precision machining. 
Because of their effective use of resources, ADEX was chosen to 
participate in Boeing's competitive mentor-protege program, a 
partnership that will potentially allow ADEX to serve as a 
certified supplier to Boeing.
    It is this sort of leveraging that has enabled the 
upstate's economy to respond to changing economic demands and 
become a hub of domestic and international business development 
and technological innovation.
    The many technical schools, colleges, and universities in 
the Fourth District serve a myriad of interests, but their 
reach extends beyond just high school graduates. Spartanburg 
Community College just received a large grant from the Timken 
Foundation, allowing them to purchase robotic toolkits, a pilot 
program in which engineers and college faculty will introduce 
elementary and middle school in Cherokee County, which is part 
of Congressman Mick Mulvaney's district, to robotics.
    USC Union offers a concurrent degree program for students 
from Union County High School and other area high schools to 
enroll for college credit beginning in their junior year. 
Through their program, students can graduate from high school 
with 24 hours of college credit. In a State with a 59 percent 
high school graduation rate, it is essential to engage students 
early and educate them on the opportunities available after 
high school careers.
    By increasing the number of students seeking higher 
education, we can begin the process of decreasing our 
unacceptable, nearly 10 percent unemployment rate in this 
State. We are here today to examine the successful 
relationships between higher education and business and 
industry partners that have fueled job creation, with the hope 
of furthering these efforts and expanding their influence.
    And I would be remiss if I did not mention the political 
and local leaders from the upstate whose foresight and courage, 
Representative Wilson, some of which precedes by a lot our 
service--most of it does. In fact, their foresight and courage 
allows us to tell the story of success today.
    One of those leaders is with us today, Mayor Knox White. 
And I think he would be the first to tell you that we are a 
team, and we have partnered to showcase the attributes of this 
wonderful region. And Congressman Wilson called the names of 
others, and the afternoon is not long enough for me to name 
them all. But this is an incredible, phenomenal place that we 
call home.
    And, Mayor White, thank you for your leadership of note, 
and I know that you would be the first to share that with 
others who have partnered with you.
    The Fourth Congressional District has a depth and breadth 
of resources to not only be a statewide or regional leader but 
a national leader in economic development and job growth, and I 
hope to work with each of our witnesses today to make sure that 
comes true.
    Thank you, Mr. Wilson.
    [The statement of Mr. Gowdy follows:]

  Prepared Statement of Hon. Trey Gowdy, a Representative in Congress 
                    From the State of South Carolina

    First I want to thank the Committee for holding this Higher 
Education and Workforce Training Subcommittee field hearing in the 4th 
District of South Carolina.
    Thank you also to Clemson University's I-CAR for hosting us today. 
I-CAR is a solid model of how partnerships between institutions of 
higher education and the community they serve can spark tremendous job 
growth and economic development. I-CAR has generated nearly $250 
million in new investments, with another $500 million currently in 
development, and has announced the creation of more than 2,300 new high 
wage jobs.
    And finally, thank you to our distinguished panel of witnesses. I 
look forward to hearing your insights.
    The Fourth District has seen a distinctive shift in the economic 
drivers at play in our area--now boasting one of the largest 
concentrations of high-skilled manufacturing in the country, with 
almost 20% of employees in the District working in the manufacturing 
industry and more than 140 auto-related companies calling our area 
home. Milliken, a specialty chemical and fabrics company located in 
Spartanburg, holds over 2200 patents and is also the home to the 
largest textile research center in the world. The region is also one of 
the top five metros in the world for engineering talent per capita. The 
location of industry leaders in the Upstate such as BMW, GE, Michelin 
and Lockheed Martin presents wonderful employment opportunities to 
workers in our District--but with those opportunities also come 
requirements of targeted training and high-level experience.
    As employers' needs have changed, so have the offerings of the 
institutions of higher learning in our district. Employers are working 
with our area technical schools to engage in curriculum planning and 
matriculation--employers like Jason Premo, co-owner of ADEX Machining. 
I recently visited ADEX, a company that produces parts for the 
aerospace, defense and energy-power generation industries. Jason told 
me how he utilized South Carolina's apprenticeship system and worked 
with Greenville Tech's established machine tool technology program to 
cultivate workers with the high-level skills necessary to operate 
ADEX's precision machining. Because of their effective use of 
resources, ADEX was chosen to participate in Boeing's competitive 
mentor-protege program, a partnership that will potentially allow ADEX 
to serve as a certified supplier to Boeing.
    It is this sort of leveraging that has enabled the Upstate's 
economy to respond to changing economic demands and become a hub of 
domestic and international business development and technological 
innovation.
    The many technical schools, colleges and universities in the 4th 
District serve a myriad of interest. But their reach extends beyond 
just high school graduates. Spartanburg Community College just received 
a large grant from the TIMKEN Foundation allowing them to purchase 
robotic tool kits and pilot a program in which engineers and college 
faculty will introduce elementary and middle school students in 
Cherokee County, part of Congressman Mick Mulvaney's district, to 
robotics.
    USC Union offers a concurrent degree program for students from 
Union County High School and other area high schools to enroll for 
college credit, beginning in their junior year. Through their program, 
students can graduate from high school with 24 hours of college credit. 
In a state with a 59% high school graduation rate, it is essential to 
engage students early and educate them on the opportunities available 
after their high school careers. By increasing the number of students 
seeking higher education, we can begin the process of decreasing our 
unacceptable 10% unemployment rate.
    We are here today to examine the successful relationships between 
higher ed and business and industry partners that have fueled job 
creation, with the hope of furthering these efforts and expanding their 
influence. The 4th Congressional District has the depth and breadth of 
resources to be not only a statewide or regional leader, but a national 
leader in economic development and job growth, and I hope to work with 
each of our witnesses today in this endeavor.
                                 ______
                                 
    Mr. Wilson. Thank you very much, Congressman Gowdy.
    Pursuant to Committee Rule 7(c), all subcommittee members 
are permitted to submit written statements to be included in 
the permanent hearing record. And, without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted to the 
official hearing record.
    [The information follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good morning everyone. First, allow me to take a moment to thank 
our witnesses for being with us today. We recognize you all have busy 
schedules, and we appreciate the opportunity to hear your thoughts and 
learn from your experiences on the very important topic of higher 
education and job growth. Second, I would like to thank Clemson 
University and the people of Greenville, South Carolina for their 
hospitality and for hosting the first field hearing of the Subcommittee 
on Higher Education and Workforce Training.
    We are here this morning to examine the mutually beneficial 
relationship between higher education, businesses and local 
communities. During tough economic times, it is especially important 
that businesses and institutions of higher education work together to 
educate interested students for the jobs needed in the local economy.
    One of my favorite points to make in meetings with institutions is 
that all education is career education. I do not know very many 
individuals who are attending college and paying tuition simply to 
contemplate their navels. The goal of almost every student I've ever 
met is to find a job--and they believe their chances of one day landing 
that job are improved by earning a college degree.
    Today we're examining a unique program that matches Clemson 
University with the needs of area businesses. The International Center 
for Automotive Research Campus illustrates how educators can create 
job-creating synergy with programs where students pursue a degree that 
that is tailor made to pair highly skilled graduates with the local 
businesses' need for a skilled workforce. This partnership benefits 
students, businesses and the city of Greenville.
    As a former community college president and university 
administrator, I understand how important it is to forge partnerships 
between businesses, local communities and institutions of higher 
education. When I was at the community college, I worked with business 
and community leaders to collaborate on how we could meet area needs. 
These collaborative relationships ensure that local businesses have the 
skilled workforce they need while also providing opportunities for 
students to further their education.
    Because I believe that local communities, institutions of higher 
education and businesses should be able to work together in the most 
beneficial way possible for all parties involved, my subcommittee 
remains focused on examining the federal footprint in higher education. 
The taxpayers of this country spend a lot of money on higher education 
at the federal level and the taxpayers expect and deserve 
accountability. We also want to ensure that the long arm of federal 
regulations do not hinder innovative local solutions.
    It is my pleasure to be with you all today and I look forward to 
hearing the testimony of our distinguished witnesses. I now recognize 
Mr. Gowdy for any opening remarks he wishes to make.
                                 ______
                                 
    Mr. Wilson. I also would like to introduce Ms. Amy Jones. 
Amy is the education policy counsel and senior advisor of the 
Committee on Education and the Workforce, and I am very 
grateful that she is going to be joining us here at the table.
    And I know I want to join with Congressman Gowdy; we are 
very sorry that our chairwoman, Virginia Foxx, is not here. 
She, herself, has been a community college president in 
Grandfather Mountain, North Carolina. She is a dynamic lady, 
and I know that she was looking forward to being here with us. 
And I just know we will get her back here sometime because of 
her fondness, particularly for Congressman Gowdy at this time--
who is so beloved in Washington.
    At this time, I would like to yield to Representative Gowdy 
for the remainder of the hearing.
    Representative Gowdy, if you could now take it from here 
and introduce our first panel of witnesses.
    Mr. Gowdy [presiding]. It will be my pleasure, 
Representative Wilson. First, I will introduce them from my 
left to right, your right to left.
    The Honorable Knox White has served as mayor of Greenville 
since December 1995. During his time serving Greenville, Mayor 
White has emphasized neighborhood revitalization, economic 
development, and many transformational projects downtown. Mayor 
White is a native of Greenville, graduated from Wake Forest 
University and University of South Carolina School of Law. He 
is a partner in the law firm of Hainesville, Sinker and Boyd, 
and is married with two children.
    Mr. Werner Eikenbusch is section manager for associate 
development and training at BMW Manufacturing Corporation. He 
joined BMW Manufacturing in 1998 and has held various 
management positions with BMW Manufacturing, in their human 
resources department. Before joining BMW, Mr. Eikenbusch worked 
as a human resources manager for BMW North America. Mr. 
Eikenbusch holds a master's degree in engineering management 
from New Jersey Institute of Technology.
    Ms. Laura Harmon serves as project director for Greenville 
Works, a partnership of 12 education workforce development and 
economic development organizations focused on implementing 
long-term economic and workforce development strategies based 
on industry input. Ms. Harmon has over 13 years' experience in 
the public and private sectors and has held leadership 
positions in workforce development, career development, fund 
development, and human resources. She is also a member of the 
Greenville Society for Human Resource Management and serves on 
their strategic planning committee and workforce readiness 
panel.
    Ms. Brenda Thames joined the Greenville Hospital System in 
2007 as the vice president of academic development. Dr. Thames 
is responsible for providing academic strategic direction and 
leadership for initiatives designed to advance patient care 
through education and research. She also works with local 
colleges and universities to develop collaborative 
relationships that are focused on health care. Prior to joining 
Greenville Hospital System, Dr. Thames served as associate dean 
for research and graduate studies at the College of Health, 
Education, and Human Development at Clemson University.
    Having just read your CVs, you do not need me to tell you 
what the green, yellow, and red lights mean. I will say this 
more for the benefit of Congressman Wilson and myself. Green 
means go. Yellow means speed up and get through the 
intersection as quickly as you can. No, I think yellow means 
you have about a minute left. And red just means, if you are on 
the final thought--but as I told you upstairs, you all are here 
as a courtesy to us, and we are here to listen to you. So if 
you need a little bit of extra time, I am sure that Congressman 
Wilson will gladly grant you that.
    With that, Mayor White, we will ask you to start with your 
opening 5 minutes, and we will move down the dais.

              STATEMENT OF HON. KNOX WHITE, MAYOR,
                       CITY OF GREENVILLE

    Mr. White. Okay. Thank you, Congressman Gowdy. Thank you 
for your opening comments, and Chairman Wilson, welcome back to 
Greenville and to this amazing place, CU-ICAR.
    On behalf of the city of Greenville, welcome to Clemson 
University's International Center for Automative Research, also 
known as noted as CU-ICAR. We greatly appreciate your choice in 
Greenville for this hearing.
    Greenville is widely known as a community that builds 
partnerships, and we take partnerships very seriously. CU-ICAR 
is a remarkable example of what those partnerships can create. 
It all begins with a good partner. In this case, the city of 
Greenville had the best partner in the world in Clemson 
University and the visionary leadership of Dr. Jim Barker.
    Thirty years ago, Greenville was a much different place. In 
a region historically and chiefly known for textiles, the 
Greenville-area leaders looked to a future and made a very 
intentional decision to pursue a more diversified economy. And 
they did this at a time when they didn't have to do it, but 
they began to actively recruit other kinds of industries to 
this area, including giants like General Electric, Michelin, 
and then, a decade later, BMW. And with those kinds of 
diversified businesses, the whole world changed for this 
upstate of South Carolina.
    In this decade, another layer was added to this commitment 
of economic diversification in which there was a greater 
recognition for the enhanced role that higher education could 
play in building a local economy. This was when Clemson 
University, in seeking to commercialize on important research 
being done there, began exploring the development of a wind 
tunnel with the help of a private partner.
    Clemson officials approached BMW to see if they would be 
interested in purchasing time on a wind tunnel, but BMW said 
that function was already being handled in Germany. However, 
BMW was interested in helping build a local knowledge-based 
workforce that could help support its global operations while 
also supporting the rapidly growing automotive cluster in this 
area. They needed a level of engineering talent that was not 
currently being offered by any program in the United States.
    Subsequently, Clemson embarked on a quest to build a new 
master's and Ph.D. program that would be part of a unique 
concept of a research campus built around a particular niche in 
the marketplace, one dedicated to transportation and mobility 
technology. BMW and others also funded endowed professorships 
for this new program, showing their full commitment to it.
    What began less than 10 years ago as an initial idea of a 
wind tunnel on 250 wooded acres along the interstate has grown 
into an international campus that is driven by innovation and 
collaboration. We sit on the campus today that in such a short 
time period has already generated more than $250 million in 
investment. This includes $12 million provided by the city of 
Greenville, in cooperation with the South Carolina Department 
of Transportation, to construct roads and first-class 
infrastructure necessary to serve this campus. Here, more than 
100 graduate students from around the world learn about 
automotive technology and how to implement tomorrow's ideas 
today. The school leads the Nation in the systems engineering 
approach to vehicle engineering.
    CU-ICAR is founded on the idea that successful economic 
development and world-class academics can be enhanced by 
building relationships. Those relationships can be seen on this 
campus with the BMW Information Technology Research Center and 
the Koyo Bearings USA, JTEK Group research, and many others.
    The campus is also home to the new Center for Emerging 
Technologies and Mobility in Clean Energy, or CET, the newest 
addition here, by the way. The CET is a 60,000-square-foot 
office and lab facility built in partnership with Clemson's 
Foundation and the Economic Development Administration of the 
U.S. Department of Commerce. Opening this fall, the facility is 
almost 100 percent pre-leased and includes the new world 
headquarters for Sage Automotive Interiors, along with more 
than a dozen other companies developing the latest technology 
and software.
    Off campus--because there is more to ICAR than what you are 
seeing here--off campus, there are many more partnerships in 
the works. These include Proterra, a leading innovator of zero-
emission buses. Proterra is building their own EcoRide BE-35, 
they call it, a line of next-generation buses, with FastFill 
charging stations that enable 100 percent recharge in less than 
10 minutes with a 30-mile range.
    When Proterra was investigating relocation opportunities 
for this cutting-edge technology, CU-ICAR was what made the 
difference in choosing South Carolina for its relocation. The 
CU-ICAR folks said basically, ``What do you need? Let us build 
a program around your needs to help you accelerate your 
technology,'' instead of simply saying, ``This is what we do.'' 
In the future, Proterra has plans for developing its 
manufacturing facility on the CU campus and employing more than 
1,000 people.
    There are other programs as well. Also based on this campus 
are other exciting initiatives such as Deep Project Orange, 
from the ICAR campus, which allows students to learn about the 
wants and needs of the future customer and translate this into 
engineering solution and product. Working with specialists from 
various industry partners, students learn firsthand what it 
takes to deliver a mobility product to market. In so many 
words, they make a car and other cutting-edge technologies.
    Without talent, technology, investment, and infrastructure, 
we as a community cannot succeed. Clemson University, along 
with the private sector, has proven that collaboration between 
universities and the private sector in today's economy can 
drive innovation, push young minds to look at problems 
differently, and can create new jobs to innovation in our 
communities.
    Thank you.
    [The statement of Mr. White follows:]

    Prepared Statement of Hon. Knox White, Mayor, City of Greenville

    Good afternoon, and welcome to Chairwoman Foxx from our neighboring 
state of North Carolina, and to Congressmen Gowdy and Wilson, both 
hailing from South Carolina. On behalf of the City of Greenville, 
welcome to Clemson University's International Center for Automotive 
Research, also known as CU-ICAR. We greatly appreciate your choice of 
Greenville for this hearing.
    Greenville is known as a community that builds partnerships. CU-
ICAR is a remarkable example of what those partnerships can create.
    Thirty years ago, Greenville was a much different place. In a 
region historically and chiefly known for agriculture and textiles, 
Greenville area leaders looked to the future and made an intentional 
decision to pursue a more diversified economy, actively recruiting 
industry giants like GE, Michelin, and then, a decade later, BMW.
    And in this decade, another layer was added to this commitment of 
economic diversification, in which there was a greater recognition for 
the enhanced role that higher education could play in building a local 
economy. This was when Clemson University, in seeking to commercialize 
on important research being conducted there, began exploring the 
development of a wind tunnel with the help of a private partner.
    Clemson officials approached BMW to see if it would be interested 
in purchasing time in that wind tunnel, but BMW said that was a 
function already handled in Germany. However, BMW was interested in 
helping build a local, knowledge-based workforce that could help 
support its global operations while also supporting the rapidly growing 
automotive cluster. They needed a level of engineering talent that was 
not currently being offered by any program in the United States. 
Subsequently, Clemson embarked on a quest to build a new Masters and 
PHD degree program that would be part of a unique concept of a research 
campus built a around a particular nice in the marketplace--one 
dedicated to transportation and mobility technology. BMW and others 
also funded endowed professorships in the new program.
    What began less than 10 years ago as an initial idea for a wind 
tunnel on 250 wooded acres has grown into an international campus that 
is driven by innovation and collaboration. We sit on a campus today 
that has generated more than $250 million in investment. This includes 
$12 million provided by the City, in cooperation with the South 
Carolina Department of Transportation, to construct the roads and 
infrastructure necessary to serve this campus. Here, more than 100 
graduate students from around the world, learn about automotive 
technology and how to implement tomorrow's ideas today. The school 
leads the nation in their systems engineering approach to vehicle 
engineering.
    CU-ICAR was founded on the idea that successful economic 
development and world-class academics can be enhanced by building 
relationships. Those relationships can be seen on the campus with the 
BMW Information Technology Research Center and the Koyo Bearings USA, 
JTEK Group research and development facility. The Campus is also home 
to the new Center for Emerging Technologies in Mobility and Clean 
Energy, or CET. The CET is a 60,000-square-foot office and lab 
facility, built in partnership with Clemson's Foundation and the 
Economic Development Administration of the US Department of Commerce. 
Opening this Fall, the facility is almost 100 percent pre-leased and 
includes the new world headquarters for Sage Automotive Interiors, 
along with more than a dozen companies developing the latest 
technologies and software.
    Off campus, there are many more partnerships. These include 
Proterra, a leading innovator of zero-emission, commercial vehicle 
solutions. Proterra is building the EcoRide BE-35, a line of next-
generation buses with FastFill charging stations that enable 100% 
recharge in less than 10 minutes with a 30-mile range. When Proterra 
was investigating relocation opportunities, CU-ICAR was what made the 
difference in its choosing South Carolina for its relocation. CU-ICAR 
said, ``What do you need? Let us build a program around your needs to 
help you accelerate your technology,'' rather than ``Here is what we 
can do.'' In the future, Proterra has plans on developing its 
manufacturing facility on the CU-ICAR Campus, employing more than 1,000 
people.
    Also based out of this Campus are several other exciting programs 
and projects. Deep Project Orange allows students to learn about the 
wants and needs of their future customer and translate this into an 
engineering solution and product. Working with specialists from various 
industry partners, students learn first-hand what it takes to delivery 
a mobility product to market.
    Another exciting project for Greenville that ties in with the 
City's initiatives on the Greening of Greenville is Project Green, a 
joint economic development initiative between CU-ICAR and the SC 
Technology and Aviation Center for creating unique testing and R&D 
capabilities for public and private in sustainable mobility and 
connected transportation systems.
    Without talent, technology, investment and infrastructure, we as a 
community cannot succeed. Clemson University, along with the private 
sector, has proven that collaboration between universities and the 
private sector can drive innovation, push young minds to look at 
problems differently, and can create new jobs and innovation.
                                 ______
                                 
    Mr. Gowdy. Thank you, Mr. Mayor.
    Mr. Wilson. Mr. Eikenbusch?

  STATEMENT OF WERNER EIKENBUSCH, SECTION MANAGER, ASSOCIATE 
        DEVELOPMENT AND TRAINING, BMW MANUFACTURING CO.

    Mr. Eikenbusch. Thank you, Chairman Wilson, Congressman 
Gowdy. Good afternoon. I am pleased to be speaking with you 
today about BMW's workforce recruitment and higher education 
partnerships.
    Workforce development was one of the primary factors in 
BMW's decision where to locate its first plant outside of 
Germany. A strong technical infrastructure, as well as a 
skilled manufacturing workforce, was essential to BMW's 1992 
announcement that guaranteed originally 2,000 jobs. The upstate 
of South Carolina offered a workforce that had deep roots in 
manufacturing. While they had never built automobiles, the 
existing technical college system ensured that the right 
training could be arranged and deployed.
    Now, here we are almost 2 decades and nearly 2 million 
vehicles later, with a workforce of more than 7,000 people and 
statewide education partnerships that have consistently 
delivered sustainable solutions. We are guaranteeing that BMW 
in South Carolina is well-prepared for the future.
    All along the way, our partnerships with 2-year technical 
and 4-year engineering colleges and universities have been 
outstanding. In the early days, BMW was a new organization that 
still relied heavily on Germany for support. The plant 
partnered with local technical colleges for support of 
recruitment and onboarding training. At that time, the central 
process of recruiting and training production associates on 
automobile manufacturing fundamentals was our main priority.
    While the basic need remains, we have proven ourselves as a 
major contributor to the worldwide BMW Group production 
network. We have evolved into an economic force for the 
automotive industry in the Southeast and find ourselves with a 
great opportunity to develop unique programs that integrate the 
academic world with workplace functions.
    Currently, we are involved with several recruiting 
partnerships that deliver 2-year, 4-year, and graduate school 
employment candidates. To start with, we recently announced a 
brand-new partnership with Spartanburg Community College, 
Greenville Technical College, and Tri-County Technical College. 
We call it the BMW Scholars Program. For students enrolled in 
various 2-year career paths related to manufacturing 
technology, it offers the workplace benefits of a traditional 
apprentice program that you would find in Germany with the 
additional advantage of tuition and book assistance. We believe 
this great example of collaboration between the educational and 
manufacturing sector can lead to employment and far better 
outcomes and opportunities for our next generation.
    Similarly, we have used collaboration models to partner 
with UTI, Universal Technical Institute, and AMTEC, Automotive 
Manufacturing Technical Education Collaborative. The beauty of 
these partnerships is that they enable us to extract the 
modules of their programs that most benefit our recruitment 
requirements. We leverage UTI for our BMW service technician 
program to develop the highest-quality service technicians to 
support our BMW centers or dealerships in North America. And we 
leverage AMTEC services as they deliver flexible options for 
additional training to support advancement of our maintenance 
workforce.
    To summarize, programs like Scholars, UTI, and AMTEC are 
vital to our goal of supplementing education theory with real-
world workplace application.
    Of course, our most public partnership was announced in 
2004 when BMW pledged $10 million to provide endowment for 
professors at this facility, CU-ICAR. This program, a 
partnership with the State of South Carolina and Clemson 
University, celebrated their first automotive engineering 
graduates in 2009. Today, this is an active partnership with 
three main objectives: one, continued postgraduate curriculum 
development; two, collaboration and research projects; and 
three, recruitment of graduates.
    Students from across the U.S. and from abroad are now 
enrolled in Clemson's graduate engineering program. BMW has 
hired several of their graduates, and many of them place within 
our supplier network. Success for these kinds of programs 
requires that higher education institutions across the nation 
continue to receive the proper investment to enable vital 
research. Ensuring flexibility and curriculum development to 
effectively respond to the needs of the employers is equally as 
important.
    Other successful programs include our Engineering and 
Operations Management Development Program. This program was 
formulated in conjunction with several 4-year universities to 
develop a pipeline to recruit the best and brightest 
engineering and business graduates from around the nation. The 
goal is to establish a pool of broadly skilled specialists 
beyond their specific field of study. To support the 
professional recruitment, we make domestic and international 
intern and co-op positions available to highly skilled students 
who have demonstrated an interest in international careers in 
automotive manufacturing.
    Several significant opportunities exist for these programs. 
One, we need for our national public school system to support 
manufacturing as a viable career option beginning at the high 
school level and earlier. And, two, we must begin to invest in 
aspects of education that foster an international mindset in 
terms of culture and secondary language develop. Many qualified 
students find their way into our organization; however, it 
takes another 2 to 3 years to teach them another language and 
culture--in our case, German. Our objective is to build a 
channel to find engineering and management prospects with these 
qualifications within the existing marketplace of graduates.
    BMW's plant here in South Carolina can look back on 20 
years of experience in developing diverse solutions around 
sustainable recruitment and training partnerships. Other 
programs mentioned today are critically needed to ensure we 
guarantee a skilled automotive engineering manufacturing 
workforce now and for the future.
    What we should all focus on is the importance of 
collaboration between academia and industry to guarantee that 
the course of study in terms of mindset, knowledge, and skills 
meets industry needs and is effectively transferred to the 
workplace. As our plant in South Carolina becomes an even 
greater contributor, these requirements become even more 
necessary to maintain a sustainable organization.
    Thank you for taking the time to explore such an important 
topic for our State, our nation, and for our industry.
    [The statement of Mr. Eikenbusch follows:]

           Prepared Statement of Werner Eikenbusch, Manager,
                Associate Development and Training, BMW

    Ladies and Gentlemen of the Congressional Delegation, Good 
Afternoon.
    I have been working with BMW for 23 years, 13 of which have been 
dedicated to HR matters at our South Carolina Plant.
    I am pleased to be speaking with you today about BMW's workforce 
recruitment and higher education partnerships. Workforce development 
was one of the primary factors in BMW's decision where to locate its 
first plant outside of Germany. A strong, technical college 
infrastructure, as well as a skilled manufacturing workforce was 
essential to BMW's 1992 announcement that guaranteed 2,000 jobs.
    The upstate of South Carolina offered a workforce that had deep 
roots in manufacturing. While they had never built automobiles, the 
existing technical college system ensured that the right training could 
be arranged and deployed.
    Now, here we are, almost 2 decades and nearly 2 million vehicles 
later. With a workforce of more than 7,000 people and state-wide 
education partnerships that have consistently delivered sustainable 
solutions, we are guaranteeing that BMW in South Carolina is well-
prepared for the future.
    All along the way, our partnerships with 2-year technical and 4-
year engineering colleges and universities have been outstanding.
    In the early days, BMW Manufacturing was a new organization that 
still relied heavily on Germany for support. The plant partnered with 
local, technical colleges for support of recruitment and onboarding 
training. At that time, the central process of recruiting and training 
production associates on automobile manufacturing fundamentals was our 
main priority. While that basic need remains, we have proven ourselves 
as a major contributor to the world-wide BMW Group production network. 
We have evolved into an economic force for the automotive industry in 
the Southeast and find ourselves with a great opportunity to develop 
unique programs that integrate the academic world with workplace 
functions.
    Currently, we are involved with several recruiting partnerships 
that deliver 2-year, 4-year and graduate school employment candidates. 
To start with, we recently announced a brand new partnership with 
Spartanburg Community College, Greenville Technical College and Tri-
County Technical College. We call it the BMW Scholars program. For 
students enrolled in various 2 year career paths related to 
manufacturing technology, it offers the workplace benefits of a 
traditional apprentice program that you would find in Germany with the 
additional advantage of tuition and book assistance. We believe this is 
a great example of how collaboration between the educational and 
manufacturing sector can lead to employment and far better outcomes and 
opportunities for our next generation.
    Similarly, we have used collaboration models to partner with UTI, 
Universal Technical Institute, and AMTEC, Automotive Manufacturing 
Technical Education Collaborative. The real beauty of these 
partnerships is that they enable us to extract the modules of their 
programs that most benefit our recruitment requirements. We leverage 
UTI for our BMW Service Technician Program to develop the highest-
quality service technicians to support our BMW Centers or Dealerships 
in North America. We leverage AMTEC's services as they deliver flexible 
options for additional training to support advancement of our 
maintenance workforce. To summarize, programs like Scholars, UTI and 
AMTEC are vital to our goal of supplementing education theory with 
real-world workplace application.
    Of course, our most public partnership was announced in 2004, when 
BMW pledged 10 million dollars to provide endowments for professors at 
this facility (Clemson University's International Center for Automotive 
Research (CU-ICAR). This program, a partnership with the state of South 
Carolina and Clemson University, celebrated their first automotive 
engineering graduates in 2009. Today, this is an active partnership 
with three main objectives: continued post-graduate curriculum 
development, collaboration on research projects, and recruitment of 
graduates. Students from across the U.S. and from abroad are now 
enrolled in Clemson's graduate engineering program. BMW has hired 
several of their graduates and many have been placed within our 
supplier network. Success for these kinds of programs requires that 
higher education institutions across the nation continue to receive the 
proper investment to enable viable research. Ensuring flexibility in 
curriculum development to effectively respond to the needs of the 
employers is equally as important.
    Other successful programs include our Engineering and Operations 
Management Development Program. This program was formulated in 
conjunction with several 4-year universities to develop a pipeline to 
recruit the best and brightest engineering and business graduates from 
around the nation. The goal is to establish a pool of broadly skilled 
specialists beyond their specific field of study. To support the 
professional recruitment, we make domestic and International Intern and 
Co-op positions available to highly-skilled students who have 
demonstrated an interest in international careers in automotive 
manufacturing. Several significant opportunities exist for these 
programs: 1) we need for our national, public school system to support 
manufacturing as a viable career option beginning at the high-school 
level and earlier, and 2) we must begin to invest in aspects of 
education that foster an International mindset in terms of culture and 
secondary language development. Many qualified students find their way 
into our organization; however it takes another 2-3 years to teach them 
another language (in our case: German). Our objective is to build a 
channel to find engineering and management prospects with these 
qualifications within the existing marketplace of graduates.
    BMW's plant here in South Carolina can look back on twenty years of 
experience in developing diverse solutions around sustainable 
recruitment and training partnerships. All the programs mentioned today 
are critically needed to ensure we guarantee a skilled, automotive 
engineering and manufacturing workforce now and for the future. What we 
should all focus on is the importance of collaboration between academia 
and industry to guarantee that the course of study--in terms of 
mindset, knowledge and skills--meets industry needs and is effectively 
transferred to the workplace. As our plant in South Carolina becomes an 
even greater contributor to the global automotive manufacturing 
industry, these requirements become even more necessary to maintain a 
sustainable organization.
    Thank you for taking the time to explore such an important topic 
for our state, our nation and for our industry.
                                 ______
                                 
    Mr. Gowdy. Thank you, Mr. Eikenbusch.
    Ms. Harmon?

 STATEMENT OF LAURA HARMON, PROJECT DIRECTOR, GREENVILLE WORKS

    Ms. Harmon. Chairman Wilson, Congressman Gowdy, and 
distinguished members of the House Subcommittee on Higher 
Education and Workforce Training, thank you for inviting me to 
testify on behalf of Greenville Works, whose 12 members and 
many more partners provide a wide range of services to the 
business community and to Greenville County's workforce.
    I want to share with you a few points we have learned 
through our collective experience on the ground in economic 
development, workforce development, and education.
    Any economic development or workforce development effort 
that creates jobs and gets people back to work must start with 
a solid relationship with business. You have to understand the 
employer's perspective, what is important to them. You have to 
learn the nature of their jobs, their future outlook, and the 
workers' skill sets that they need to be productive. And you 
have to know what is important to them so that you can fully 
and effectively leverage the community's services. We can't 
afford to waste time and money on efforts that we hope will get 
people working.
    Greenville Works operates a Business Retention and 
Expansion Program that calls on business in several industries, 
including manufacturing and headquarter operations. By going to 
them, Greenville Works learns through relationship-building 
about employers' issues and the local economic landscape. Then 
we coordinate our collective response through our 12 economic 
development, workforce development, and education members and 
our many other partners.
    We are able to respond quickly and with quality services 
that help business and the local economy, as well as workers. 
In fact, most of the businesses that we talk to cite workforce 
issues as the major concern. Worker skills have not kept pace 
with the needs of industries critical to our region, like the 
increasingly technical transportation and manufacturing sector.
    Now, there are several effective ways that Greenville Works 
has responded. Greenville Works organized industry cluster 
meetings between companies in similar industries. Last year, 
the aviation and aerospace industry cluster secured a cross-
company incumbent worker training grant in blueprint reading. 
The resulting increase in worker skills contributed to job 
retention and to productivity.
    Greenville Works also launched an initiative to lessen the 
skills gap by supporting worker attainment of the WorkKeys-
based Career Readiness Certificate. Coupled by increased 
employer recognition of that certificate, we are now up to 80 
upstate employers that officially recognize that certificate. 
As a result, over 20 organizations are now coordinating to 
assist students and job seekers in earning the WorkKeys 
certificate. The certificate is the first step in the National 
Association of Manufacturers' national skills standards system, 
which feeds in to some of the other programs that these 
educational groups are supporting.
    Greenville Works operates several working groups that turn 
the Business Retention and Expansion Program feedback into real 
action. Since February, 17 organizations have worked together 
to produce a workforce readiness competency guide. The guide, 
which is going to be used by case managers and job coaches, 
clearly outlines the competencies that job seekers need to be 
ready for work.
    Through the efforts of Greenville Works and the United Way 
of Greenville County, our area was just selected for a 
competitive National Fund for Workforce Solutions grant. We 
assembled a group of public and private organizations that 
contribute to a manufacturing skills program for unemployed and 
underemployed adults. We assembled an industry cluster of 
employers who define the curriculum, which, again, aligns with 
the National Association of Manufacturers' skilled 
certification system. With the support of job coaches, students 
will complete this training and progress to on-the-job 
training, additional education, apprenticeships, and/or 
straight to employment.
    A flexible public and private funding structure allows us 
to provide the comprehensive, holistic approach to training 
that results in successful employment, retention, advancement, 
and productivity gains.
    Now, though we have accomplished a lot in the last 4 years, 
we continually face challenges. Insufficient funding is a 
continuous threat to the Business Retention and Expansion 
Program operation and the systems change efforts that emerge as 
a result.
    The second issue involves political boundaries. While our 
work is focused in Greenville County, industry operates across 
county lines. We need to be able to work across county lines to 
provide consistent, quality services.
    The third issue is the reduction in funding for training, 
such as the elimination of the Incumbent Worker Training Grant 
and de-funding of the State WorkKeys-based Career Readiness 
Certificate.
    Workforce issues are extremely complex. Improving workforce 
systems involves significant changes in the behavior of 
students, job seekers, workers, industry, government, 
nonprofits, and many, many others. It involves changes in 
policy. It involves relationship-building and extensive 
collaboration. These challenges are not quick fixes that can be 
addressed with a few 2-year grants. These challenges require 
sustained levels of committed funding, effort, and leadership 
in order to realize long-term results.
    In order to make meaningful workforce gains, we recommend 
supporting business calling programs. Any program or initiative 
that seeks to impact job creation, job retention or education, 
and training for jobs must include a good business calling 
program. We recommend support for sector-based regional 
industry partnership, career pathway development, and entry-
level skills programming that has local industry support. We 
recommend funding innovative strategies that can be replicated 
and expanded and that involve flexible funding and partnerships 
across organizations. We recommend support for backbone 
organizations like Greenville Works that facilitate sensible 
solutions tailored to the regional economy.
    On behalf of the Greenville Works Board, I sincerely 
appreciate the opportunity to speak with you today about our 
work in supporting local business and the workforce.
    [The statement of Ms. Harmon follows:]

 Prepared Statement of Laura Harmon, Project Director, Greenville Works

    My name is Laura Harmon, and I serve as the Project Director for 
Greenville Works in Greenville, South Carolina. Before I get started, I 
would like to thank Representatives Virginia Foxx and Trey Gowdy for 
allowing me to testify on behalf of Greenville Works before the 
Subcommittee on Higher Education and Workforce Training field hearing. 
I was asked by the Subcommittee to speak about the innovative and 
strategic work that we have initiated to address important workforce-
related issues. I am pleased to do so. This work is led by twelve 
Greenville Works member organizations, which include the major economic 
development, workforce development, and educational institutions in our 
area. Through its partners, Greenville Works provides a wide range of 
services to the business community and to Greenville County's 
workforce. As a partnership, Greenville Works provides overall 
strategic direction for long term integration of workforce development 
and economic growth activities. It also involves the input of nearly 
twenty other organizations that have a hand in assisting youth and 
adults with employment. It involves the support of funders who seek to 
provide workforce opportunity and strengthen workforce quality through 
their investments. And, most critically, it involves the ongoing 
feedback of almost 300 businesses that employ citizens in jobs 
throughout Greenville County.
    In addition to speaking about the accomplishments of Greenville 
Works and its many partners, I will also touch on the strategies that 
fuel our accomplishments, the challenges that we face, and the actions 
we recommend to support and expand this work.
Accomplishments
    BREP. Greenville Works established and operates a county-wide 
Business Retention and Expansion Program (BREP) to establish 
communication with existing businesses, learn about their challenges 
and plans, and respond efficiently to their needs with coordinated 
services. Through the BREP program, Greenville Works' staff calls on 
the largest employers in the county down to small businesses with 
particular attention to the manufacturing, logistics, headquarters and 
administrative operations, health care, and customer service 
industries. Since these visits began in 2007, we have heard from 
businesses concerning supply chain issues, infrastructure issues, and 
public policy issues. But the overwhelming set of issues concerning 
Greenville businesses are workforce related issues. In fact, 67% of the 
businesses visited by Greenville Works named workforce concerns more 
than any other issue by a wide margin.
    The dialogue we have directly with local businesses, in an ongoing 
fashion, is fundamental to a quick and appropriate response by 
Greenville Works and its partners. It allows for a better understanding 
of the real issues at hand. Though labor market data is important to 
understanding the overall economic landscape, direct contact and 
relationship building on a local or regional basis is a requisite to 
any effective workforce response. For example, if we were to rely on 
labor market data alone, we would believe that licensed practical 
nurses, or LPNs, are a growing field and that we should expand training 
opportunities for LPNs to meet the projected demand. Yet, through the 
BREP program, we found that health care organizations in our 
geographical area use a combination of medical assistants and 
registered nurses, or RNs, rather than LPNs. We might also believe 
that, according to labor market data, employment in manufacturing is 
rapidly declining. For our area of Upstate South Carolina, this is 
clearly not the case. Manufacturers are doing things differently than 
many had before the recession. For example: 1) They are relying more 
heavily on temporary and contingent staffing; 2) They have higher skill 
requirements and demand for technical skills; and 3) They require 
flexible workers who can handle multiple responsibilities and solve 
problems ``on the floor.'' We know this from one-on-one conversations 
with local employers.
    So what do we do with this knowledge? We share it with our members 
and partners. We review BREP findings during monthly Greenville Works 
board meetings and during regularly scheduled meetings with job 
developers and educators working on the front lines. We share it to 
avoid duplicate visits that confuse employers and waste time. We share 
it to gain a common understanding of our economic landscape. And we 
share it to coordinate and improve the quality of our collective 
response. My point is that there is no substitute for direct, regular 
communication with the business community. Any program or initiative 
that seeks to impact job creation, job retention, or education and 
training for jobs, must include an effective business calling program 
from the onset.
    Industry Clusters. One of the points Greenville Works learned 
through the BREP was that businesses are sometimes isolated from each 
other, with limited communication between businesses in the same 
industry sector. This can impede their ability, particularly in the 
smaller organizations, to secure business related incentives, establish 
local supply chain relationships, or share best practices. So, 
Greenville Works organized industry cluster meetings to help facilitate 
cross-communication between businesses. Last year, the Aviation and 
Aerospace Industry Cluster came together to secure an incumbent worker 
training grant provided through Workforce Investment Act (WIA) funds to 
train workers from several businesses in blue print reading. The Life 
Sciences Industry Cluster did the same and provided a shared 
supervisory training program. The resulting increase in workers skills 
contributed to job retention and productivity. This type of training 
incentive and shared strategy can even result in the addition of new 
jobs. This year, the Chemicals Industry Cluster identified a shared 
need for Chemical Operator Training. Though South Carolina eliminated 
the incumbent worker training program due to WIA funding reductions, we 
hope to find an alternate solution so that this training need can be 
realized.
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bccf4e9f0d0fee2e8db">[email&#160;protected]</a> based Career Readiness Certificate. I mentioned earlier 
that manufacturing businesses now require more skills than in the past. 
This holds true for many industries. Yet, we know from our state's high 
unemployment rate, our relatively low educational attainment levels, 
and the local BREP employer feedback that worker skills have not kept 
pace. Greenville Works launched an initiative to lessen this skills gap 
by supporting student and adult attainment of the WorkKeys(r)-based 
Career Readiness Certificate, coupled by increased recognition of the 
Certificate by employers. This Certificate program, which is the first 
step in the National Association of Manufacturer (NAM) Skills 
Certification System, assesses work-based skill levels in applied 
mathematics, reading for information, and locating information (such as 
interpreting graphs and tables). Not only does this Certificate give 
employers in any industry a verified, unbiased assessment of workers' 
skills in applied math, reading and graphs, it gives the students and 
adults who earn it a means to prove their work related skills to 
employers. Through this initiative, Greenville Works educates job 
seekers and incumbent workers on the importance of advanced preparation 
before taking the assessment so that they may achieve high scores. Now, 
in addition to free self-directed online study software provided 
through the State, assessment takers in Greenville County can prepare 
by enrolling in free or extremely low cost classes tailored to their 
needs. This effort to encourage existing and future workers to prepare 
for and take the WorkKeys-based Career Readiness Certificate involves 
more than twenty public, non-profit, community-based, and faith-based 
organizations, all of the high school career centers and three high 
schools, the Greenville Society for Human Resource Management, and 80 
Upstate area employers who have each agreed to recognize, request, or 
require the Certificate within their hiring process. The buy-in and 
participation of employers cannot be underestimated, because the real 
motivator that results in job seekers preparing for and taking the 
WorkKeys assessment is not Greenville Works' message that it is a smart 
thing to do. It is the employers who ask, ``Have you earned your 
WorkKeys Certificate?'' In fact, many companies such as Michelin, N.A. 
require the Certificate as part of hiring for certain positions. 
Because of employers' use, backed by the education, workforce, and 
economic development communities' support at the state and local level, 
we have seen a 30% annual increase in the number of Greenville County 
job seekers, students, and incumbent workers earning the Certificate. 
We anticipate an even higher percentage increase going forward due as 
prominent organizations like the United Way of Greenville County, 
Greenville Technical College, and Greenville County Schools expand 
their support for WorkKeys, and as state legislators consider measures 
to link the Certificate to secondary education.
    Working Groups. Working groups allow Greenville Works the means to 
turn the BREP findings into action. The Employer Incentive Working 
Group produced and maintains a comprehensive guide of 29 workforce-
related incentives provided by 17 different public and non-profit 
organizations. This past February, another set of 17 organizations 
collaborated in a working group to produce the soon-to-be-released 
Workforce Readiness Competency Guide. This guide outlines the many 
competencies that job seekers should develop in order to be ready for 
work. The guide will help front line staff of helping organizations 
tailor their assistance to the individual needs of their job seeking 
clients. The Greenville Society for Human Resource Management, through 
their Workforce Readiness Council, will evaluate the Guide to ensure it 
accurately reflects local business needs. In the words spoken just last 
Thursday by Quiwanna James, one of SHARE LADDER employment program's 
most dedicated and effective case managers, ``In my ten years of 
working with clients, I have never seen anything like [the Guide]. This 
will help me do my job better, [which is] to help people get back to 
work and be successful.''
    National Fund for Workforce Solutions: Advanced Manufacturing 
Workforce Partnership. The combined efforts of Greenville Works and the 
United Way of Greenville County over the last 4 years resulted in the 
competitive selection of our area for a National Fund for Workforce 
Solutions (NFWS) grant through the Social Innovation Fund. The NFWS 
supports innovative work in 31 communities throughout the country, with 
ours being the only site in South or North Carolina. Greenville Works 
assembled a funder collaborative of public and private organizations 
(including the Greenville County Workforce Investment Board) that 
pooled and aligned money to fund a bridge training program. The program 
teaches the foundational skills necessary to work and advance in the 
manufacturing industry. The program is provided at no cost to low and 
moderate income job seekers who are selected for the training. To 
ensure alignment with industry needs, Greenville Works assembled a 
Transportation Fabrication Industry Cluster comprised of several 
leading manufacturers. Together these employers defined the skills 
necessary to succeed in entry level employment with their companies. 
Their work formed the basis of a new manufacturing training program 
that is tailored to real, local employment. This group of industry 
partners is also comparing notes to identify the career pathways that 
manufacturing job seekers and workers can take to advance in 
manufacturing careers. And they are sharing information about their 
hiring processes. Educators have taken this information and developed 
an accelerated, contextualized job training curriculum that includes 
both technical and soft skills, as well as two certifications that are 
in line with the NAM Skills Certification System. Job coaches are 
preparing to identify, refer, and support unemployed or underemployed 
citizens that, with this training, will meet employer needs and 
expectations. And as the marketing takes place, interested job seekers 
will begin to apply for the training by taking the first step: earning 
the WorkKeys-based Certificate. Those that complete this bridge program 
will progress to on-the-job training, continued education, 
apprenticeships, and/or employment. What makes this project unique is 
the collaboration between public and private organizations to share 
strategic goals, align systems, and provide flexible funding. We have 
found that flexible public funding serves as a catalyst to attract and 
involve private funding. When working with lower income job seekers, 
flexible funding is absolutely necessary to provide the comprehensive, 
holistic training and support that results in high levels of successful 
employment, retention, advancement, and productivity gains.
Challenges
    Though Greenville Works has accomplished a tremendous amount in 
four short years, we continually face a number of challenges. 
Insufficient funding is a continuous threat to the BREP operation and 
the systems change efforts that emerge as a result. We operate with two 
staff members. Funding for one staff member will expire in December. 
Outside of the National Fund for Workforce Solutions project, there is 
no funding to implement initiatives. We must have committed and ongoing 
financial support in order to continue our strategic work with business 
and the workforce. It must be noted that workforce issues are extremely 
complex. Improving workforce systems involves significant changes in 
the behavior of students, job seekers, workers, industry, government, 
non-profits, and many others. It involves changes in policy. It 
involves relationship building and extensive collaboration. These 
challenges are not ``quick fixes'' that can be addressed by a two year 
grant. These challenges require sustained levels of committed funding, 
effort, and leadership in order to realize long-term results.
    The second issue involves political boundaries. While our work is 
focused on Greenville County, industry operates across county lines in 
a regional fashion to meet business needs, including the recruitment 
and training of workers. For example, BMW Manufacturing Co., LLC 
attracts workers from a range of counties within driving distance. We 
hope to expand our collaboration beyond Greenville County so that the 
industry and workforce we serve is not deterred from receiving 
consistent, quality services by county lines.
    The third is the reduction in funding for training programs, 
including training for incumbent workers and training for unemployed 
and underemployed workers. I mentioned earlier the elimination of the 
state's incumbent worker training program. Here is another example: 
beginning September 1st, the South Carolina Department of Employment 
and Workforce will no longer fund the printing and mailing of WorkKeys-
based Career Readiness Certificates. This decision removes an important 
incentive that contributes to the quality of our workforce.
Recommended Action
    Greenville Works recommends the following actions to support 
meaningful improvement in workforce issues:
    1) Find ways to support ``backbone'' organizations, like Greenville 
Works, that leverage the collective impact of many. High performance 
backbone organizations facilitate solutions that make sense for the 
regional economy. They form lasting relationships with public and 
private organizations--a must for effective workforce initiatives. They 
find ways to leverage stakeholders' strengths and hold them 
accountable. They move beyond assumptions and policy constraints to 
accomplish real, meaningful results.
    2) Support sector-based regional industry partnership development, 
career pathway development, and entry-level bridge programs that have 
strong support from local industry. Place workforce readiness and 
industry-recognized credentialing as high priorities when creating or 
refining workforce policy.
    3) Fund the replication and expansion of innovative strategies that 
communities such as those involved with the National Fund for Workforce 
Solutions have developed. These strategies involve dual customers 
(employers and workers), flexible funding, partnerships across 
organizations, and backbone organizations that facilitate the process.
Conclusion
    Despite our challenges and buoyed by our accomplishments, 
Greenville Works remains focused on implementing long-term economic and 
workforce development strategies in Greenville County. On behalf of the 
Greenville Works Board, I sincerely appreciate the opportunity to speak 
with you today about our work to support local business and the local 
workforce.
                                 ______
                                 
    Mr. Gowdy. Thank you, Ms. Harmon.
    Mr. Wilson. Dr. Thames?

    STATEMENT OF BRENDA THAMES, VICE PRESIDENT OF ACADEMIC 
             DEVELOPMENT, GREENVILLE HEALTH SYSTEM

    Ms. Thames. Good afternoon, Chairman Wilson, Congressman 
Gowdy. First, on behalf of the Greenville Hospital System 
University Medical Center, I want to thank you for this 
opportunity to testify this afternoon and, first and foremost, 
to exemplify the fact that on behalf of the GHS families, over 
10,000 employees, we have a tremendous relationship with our 
higher education partners. And I want to share a little bit of 
that with you this afternoon.
    Institutions that educate the nation's future health-care 
professionals must work together to devise innovative solutions 
to the myriad of challenges that we face. Education and 
training initiatives that successfully transform health care 
will have to do the following three things: number one, address 
health-care workforce shortages in the clinical and nonclinical 
setting; number two, to train and retool the practicing 
professionals in areas where the need exists; number three, and 
foremost, probably more important, is to educate and train the 
future workforce utilizing innovative models, not relying on 
what has worked in the past.
    The workforce needs facing GHS and other health-care 
systems, we believe, are the following: physicians. There is a 
tremendous physician shortage but also physician extenders. 
These are nurse practitioners or physician assistants 
themselves. But, however, as we work with our educational 
partners, we must realize that often these areas are driven by 
specialty. So, again, paying attention to where in the area of 
health-care education and training needs to be revamped.
    Registered nurses are going to be a tremendous need, 
particularly at the baccalaureate's and master's level. The 
current oversupply of nurses will not last long, as baby-boomer 
nurses retire and the U.S. population continues to age. As 
technology advances, we need highly skilled nurses.
    Strong presence in other clinical areas such as pharmacy, 
the therapies, be it physical therapy, occupational therapy, 
speech therapy, will be a tremendous need. Mental health 
counseling and social work--social problems contribute greatly 
to the health status of our families and communities. Wellness, 
more focus on prevention, especially nutrition, smoker 
cessation, and exercise, all will be critical in training of 
the next generation of health-care professionals.
    Overall, we need to prepare for an aging America. Helping 
individuals to stay independent by getting supportive services 
without necessarily being admitted to a hospital or long-term-
care setting will be absolutely critical.
    The key qualities that graduates need to excel in the local 
workforce, especially in the health field, include both hard 
and soft skills. Those hard skills--students need to come with 
strong STEM education--science, technology, engineering, and 
mathematics--at the undergraduate level. For positions 
requiring graduate education, rigorous clinical training at the 
undergraduate and graduate level, depending on the profession, 
will absolutely be critical as well.
    But while hard skills are critical, soft skills are 
critical in health care as well. And when I say soft skills, I 
mean issues like conflict resolution or conflict management, 
critical thinking, team building, leadership, and 
communication. Our students must be equipped with these skills 
as well.
    The partnerships or the pipeline programs at the Greenville 
Hospital System have developed with local K-12 education and 
with our higher-education partners. To address these workforce 
needs that we see for the future, we feel it absolutely 
critical to engage with our academic partners beginning at K-12 
and continuing throughout higher education.
    GHS's newest pipeline program is what we call the Medical 
Experience, or MedEx, Academy. I mention this to you this 
afternoon because we feel it is critical to create the pipeline 
to meet the diverse needs that we are going to need for our 
workforce going forth in the future.
    We launched MedEx Academy last summer, summer 2010, through 
which GHS collaborates with our academic institutions. And our 
focus here is to provide clinical and nonclinical experiences 
for these students who are interested in a career in health 
care. The pipeline is absolutely critical in health care as a 
component of the expanded University of South Carolina School 
of Medicine Greenville campus.
    There are four points that I would like to make relative to 
the pipeline. Number one, we have through the MedEx Academy 
created a program, working with our K-12 institutions, to 
enhance student career decision-making through real-life 
experiences. It targets high school seniors and college 
undergraduates as well.
    Secondly, we feel it critical as we reach out to our 
colleges and universities to create real pipeline partners--
pipeline partners who are working with us from day one. To give 
an example of some of those institutions, in alphabetical 
order, that we are already working strongly with, they include: 
Anderson University; Claflin University, a historical black 
college and university in the lower part of the State; Clemson 
University is our huge partner in both education and research; 
ECPI College of Technology; Thurman University; Greenville 
Technical College; South Carolina State University, another 
historical black college; and University of South Carolina.
    The pipeline runs broad and deep, so we also have other 
academic partners engaged as well. Students must realize also, 
or recognize, that there are opportunities for them within the 
health-care arena that we, as the GHS family, are looking to 
partner with our academic partners to give them real-life 
experiences.
    And, finally, I will say that one of our major focuses is 
on educating and retaining the talents in the State of South 
Carolina.
    Thank you for your time.
    [The statement of Ms. Thames follows:]

Prepared Statement of Brenda J. Thames, Ed.D., Vice President--Academic 
   Development, Greenville Hospital System, University Medical Center

    Institutions that educate the nation's future healthcare 
professionals must work together to devise innovative solutions to the 
myriad of challenges we face.
    Education and training initiatives that successfully transform 
health care will do the following:
    <bullet> Address healthcare workforce shortages in clinical and 
non-clinical areas.
    <bullet> Train and retool practicing professionals in areas where 
the need exists.
    <bullet> Educate and train the future workforce utilizing 
innovative models.
    The workforce needs facing GHS:
    <bullet> Physician and physician extenders, i.e., physician 
assistants and nurse practitioners. Needs vary by specialty.
    <bullet> Registered nurses, particularly at the baccalaureate and 
masters level. The current oversupply of nurses will not last long as 
baby boomer nurses retire and the U.S. population ages. As technology 
advances, we need highly skilled nurses.
    <bullet> Strong programs in other clinical areas--pharmacy, 
therapies (physical, occupational, speech), mental health counseling 
and social work (social problems contribute greatly to health status), 
wellness (prevention)--especially nutrition, smoking cessation and 
exercise.
    Overall, we need to prepare for an aging America--helping 
individuals stay independent by getting supportive services without 
necessarily being admitted to a hospital or long-term care setting.
    The key qualities that graduates need to excel in the local 
workforce, especially the health field:
    <bullet> ``Hard skills''--strong STEM education (science, 
technology, engineering and mathematics) at the undergraduate level for 
positions requiring graduate education. Rigorous clinical training at 
the undergraduate or graduate level (depending on the profession).
    <bullet> ``Soft skills,'' such as conflict management, critical 
thinking, team building, leadership and communication.
    The partnerships/pipeline programs GHS has developed with local K-
12 and institutions of higher education to address these workforce 
needs:
    <bullet> GHS' newest pipeline program is the Medical Experience 
(MedEx) Academy, which launched summer 2010 and through which GHS 
collaborates with academic institutions to provide clinical and non-
clinical experiences for students interested in careers in health care. 
The pipeline is a critical component of the expanded University of 
South Carolina School of Medicine-Greenville campus.
    <bullet> The program works with K-12 and higher education to 
enhance student career decision-making through ``real life'' 
experiences. It targets high school seniors and college undergraduates.
    <bullet> College-level pipeline partners include but not limited to 
the following: Anderson University, Claflin University, Clemson 
University, ECPI College of Technology, Furman University, Greenville 
Technical College, South Carolina State University and University of 
South Carolina.
    <bullet> The pipeline runs broad and deep; it also includes AHEC 
Minority Council, Boy Scouts of America, GHS Minority Council, 
Greenville County Schools, the Governors School for Science & Math, 
S.C. Alliance of Black School Educators, Upstate AHEC and Upstate 
Coalition.
    <bullet> Student support includes potential scholarships, academic 
development and financial assistance
                                 ______
                                 
    Mr. Gowdy. Thank you, Dr. Thames.
    I will recognize myself now for 5 minutes of questions, and 
then the distinguished gentleman from South Carolina will go 
after me.
    Mr. Mayor, I don't want you to tip your hand too much as I 
ask you this question, but the upstate generally, in Greenville 
specifically, has done a marvelous job of attracting 
international business. What lessons can you share with others 
that you haven't copyrighted or trademarked that other 
communities might be able to steal your ideas? What can you 
share with us as a formula for success, given how successful 
you and this area have been?
    Mr. White. Well, I think it still starts with some 
fundamentals that we all recognize and we all value, and 
certainly you do, and that is, having the reputation and the 
reality of a very pro-business climate in terms of your taxes, 
in terms of your open-door attitude toward business. That is 
still absolutely important. We sometimes take it for granted 
here, but it is very different from other parts of the country.
    More and more beyond that, though, we see that the quality 
of life that we have here, again, some things we often take for 
granted, become very, very important. So it is not just the 
economics and the taxes; it is also the quality of life, to be 
able to move a business here, to move your executive officers 
here. As they come here and look around and they see a 
wonderful downtown that looks like something they would always 
enjoy, a place they would want to live, as they see the wider 
area in proximity to the mountains and the many amenities we 
have in this area.
    So more and more, it is the whole package folks are looking 
for. And I think there is recognition on our part that we are 
in a competitive gain here. We are in competition with the 
entire rest of the country, indeed the world, and understanding 
these attributes we have and acknowledging them, enhancing 
them, building them up is still extremely important.
    We show well. We check off--we help them check these things 
off their list, if you will, and that is why I think, more and 
more, we are seeing folks attracted to the upstate of South 
Carolina.
    Mr. Gowdy. Mr. Eikenbusch, when you or BMW suppliers have 
needs or your needs have changed with respect to what the 
workforce can provide, walk us through how you would approach 
either the technical schools or Clemson or any of the schools 
of higher education and lay out for them that your needs have 
changed and you need a differently educated workforce. How 
would that happen?
    Mr. Eikenbusch. I can give you two examples. The first 
would be CU-ICAR. When we started our partnership, I was 
actually on a committee representing BMW's interests as we were 
talking with Clemson about putting together the curriculum that 
would be taught at CU-ICAR. So there was a lot of input and a 
lot of discussion about the ideas that Clemson had on the one 
hand, the ideas that BMW had on the other hand, to make sure 
that ultimately the program and undergraduates would have the 
skills that would meet our needs.
    Elements of that, for example, was to make sure that 
interpersonal skills training, to what Ms. Thames just said, 
are part of the program because we said, not only do we need an 
engineer that can think technically, we also need an engineer 
that is competent in interpersonal interactions. That committee 
is still very active. We meet almost every other month, and we 
talk about the curriculum but also about research projects and 
recruiting elements.
    The second example that I would give would be on the 
technical college side. I mentioned earlier the addition of the 
BMW Scholars program. This was really something that was pushed 
very hard by both our German colleagues and also our president 
here, realizing that since we didn't have a formal 
apprenticeship system like in Germany, we would need to create 
some system that would ensure a pipeline of talent that would 
meet our needs.
    So we met with the three colleges and really saw open doors 
in really leveraging current curricula that they had but also 
adding a new curriculum that we put together that specifically 
was addressing high-skilled manufacturing skills that we were 
looking for.
    So that would be the process, or the two examples.
    Mr. Gowdy. Thank you.
    Ms. Harmon, in terms of fiscal austerity which we find 
ourselves in, what recommendations would you give to government 
to work smaller or more efficiently in advancing worker 
placement, worker retraining? What can we do, given the 
financial circumstances that we find ourselves in, which are 
pretty bleak, what can we do smarter, better, more efficiently?
    Ms. Harmon. I think there are a couple of things.
    The first is to ensure that any training program that gets 
funded has, at the very lead, at the very front, that 
relationship with business. Don't fund a training program that 
isn't led by business. And that does happen, and it usually 
does not come out with the level of success to meet the 
investment.
    So I would definitely say, you know, that employer 
involvement on the front end, most likely in an industry 
cluster, so that you can leverage the involvement of several 
like employers together, that is a really critical piece. They 
know what they need. They can help us to make sure that the 
curriculum involves all of the pieces that are important to 
them, and then you build your training program back from that. 
And that is going to be a much more--you are going to get a 
much more successful outcome with people getting employed and 
then people staying employed and able to move up, because, you 
know, they get their foot in the door, but they need to be able 
to continue to use those skills and move up.
    So I think the industry piece is really important for any 
training program. And most of the time, workforce training 
programs tend to be led by the worker side: What does this 
person want to do with their career? How can we help them to 
get the education they need? And then, you know, good luck, go 
out there into the world, and get a job. It really needs to go 
the other way around, from where is your business strength and 
then the training follows that.
    The second thing is a regional approach. I know that 
conversation has taken place in South Carolina about how to 
regionalize the investment. That is very important, and it is 
important because business doesn't operate within a certain 
county. And, you know, that is going to make us more effective.
    Mr. Gowdy. Thank you.
    Dr. Thames, I was talking to a physician friend of mine 
this morning. He is a primary care physician. And, in the 
interest of full disclosure, my father is, too. I used to tell 
everyone that I grew up poor, and then they found out my father 
was a doctor and they didn't believe that that was true, but it 
can be true.
    Ms. Thames. It can be.
    Mr. Gowdy. It wasn't in my case, but it can be because they 
are saddled with several hundred thousand dollars' worth of 
debt coming out, and, for whatever reason, our culture pays 
specialists more than they do primary care physicians.
    So, all of that as a lead-in, I believe Greenville Hospital 
System is starting a medical school, partnering with Medical 
University of South Carolina or University of South Carolina. 
Tell us about that and the challenges that you have seen in 
medicine going forward and how you think Greenville Hospital 
System is well-equipped to help us solve some of those 
challenges.
    Ms. Thames. Well, first and foremost, as I mentioned 
before, I think all of us would agree that there is a 
tremendous need for increasing that physician pool, absolutely, 
and definitely in the area of primary care but other areas, as 
well.
    We also recognize that there is a huge debt that comes 
along with that. So we are paying very close attention to that 
and looking at how we can address that as we go forward with 
recruiting students into the medical school. One of the 
challenges that any medical student faces is that debt, and so 
we are constantly looking at how we reduce that.
    The unique partnership between the Greenville Hospital 
System and University of South Carolina for the medical school 
provides us a unique revenue stream, as well. And one of the 
points I want to make about the medical school is that a 
component of that, that we have to realize, is that students 
who come to go into medical school, there is a tremendous 
amount of learning that is beyond what they may learn that you 
may typically think of in the medical school.
    So, not to address the debt per se, Congressman Gowdy, but 
the reality is, how do we pay attention to that and look for 
other sources of funding to offset some of that cost? And 
coupled with that is, how do we ensure those physicians get the 
kind of training so that they can come out and be successful 
and have a revenue that will allow them to repay the debt that 
they have incurred?
    As we go forward with the medical school, we are looking at 
it from a perspective--we are a huge clinical enterprise, and 
so we have a lot of resources already in place. But coupled 
with that, since this is higher education testimony here, we 
are looking at our academic partners, too, as to how we go 
forward with other components of the medical school, be it 
research or emergency medical training that we are working with 
Greenville Technical College on.
    And that doesn't address the debt per se, but what we are 
seeing is that we know that that is an issue; that is going to 
be an issue as we try to attract a diverse physician pool. And 
so we are looking at ways that we can reduce that debt as much 
as we possibly can. But I don't think we can allow that issue 
to totally stop us in our tracks from the real problem, which 
is a shortage of physicians.
    Mr. Gowdy. Thank you, Dr. Thames.
    I would now recognize my distinguished colleague from South 
Carolina, Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Gowdy.
    And, ladies and gentlemen, it is an honor for me to be here 
right on I-85. This is the I-85 corridor. I want everybody in 
the world to know, this is one of the great megalopolises of 
the world, Charlotte to Atlanta. And what extraordinary Members 
of Congress represent here, with Trey Gowdy right in the 
center, and then to the south we have Jeff Duncan; to the 
north, Mick Mulvaney. Both U.S. Senators of South Carolina, 
Lindsay Graham and Jim DeMint, live in this region. The upstate 
of South Carolina is one of the world's leading manufacturing, 
banking, and academic communities. And so the mayor is correct; 
it is quality of life. That is why people live here. It has 
been an extraordinary opportunity for me to return.
    As I am here, I particularly am happy to see the mayor. I 
knew him in high school. I worked with him at that time. And I 
wasn't in high school; he was. And so I am really proud of his 
success, but I can remember his work ethic, his vision. And 
people should really visit downtown Greenville. It is a world-
class city, so changed from what it used to be.
    And so, Mayor, thank you.
    In fact, I would be really interested in knowing what 
resources do you find, as you are recruiting jobs for the 
region, what resources have you found most effective in 
education?
    Mr. White. Well, thank you. I do remember you being much 
older than me, though, back in those days, Congressman.
    I do want to say one thing about ICAR. I want to make the 
panel aware of something. 2009 was a tough year, terrible year 
for all of us. Our Greenville Chamber of Commerce, Upstate 
Alliance, all our economic groups--it was a tough year 
recruiting business in the depths of the recession.
    For Greenville, at least, we have this amazing shining 
light during 2009, which was Clemson ICAR, and we all talked 
about it. We are all very aware of it, that somehow and 
another, in the depths of the worst time, we were still finding 
prospects showing up at our door, we were still working 
projects, new businesses coming to this area, new people coming 
to this area. And overwhelmingly, it emanated from Clemson 
ICAR.
    It allowed us to, in effect, charge through the recession 
in an amazing way. And some truly, truly amazing people and 
amazing businesses, automotive-related for the most part but 
also green technology businesses of all kind, still kept coming 
through in 2009 and 2010. It was a remarkable thing to see. So 
that is why we are such believers in this.
    So this whole connection, to get to your question about 
connecting higher education and what higher education can do 
for business, especially at the time of recession, especially 
when businesses are looking for a way forward, if you will, was 
a remarkable thing to see. And we saw it here playing out again 
and again and again.
    We used to sit around in 2009, 2010, and talk about, if we 
are doing this well in 2009, what is it going to be like when 
this recession is over? And, indeed, 2011, in this sort of in-
between state we are in, has been a remarkable year. We are now 
seeing projects that were kind of stuck in the pipeline or 
slowly moving just popping out left and right, both in terms of 
downtown development projects as well as new businesses.
    But it was our ability to work in partnership with Clemson 
and see this facility get up and going--thank goodness--get up 
and going before the recession that really got us through it 
and just tells us how important this is for the 21st century.
    Mr. Wilson. Thank you very much.
    And, Dr. Thames, I appreciate you pointing out that the 
Greenville Health System employs 10,000 people. I represent the 
midlands and the low country, and the largest employer 
throughout South Carolina is the health-care industry. And it 
is a great opportunity for young people to get jobs.
    What has been your experience here in upstate, upcountry, 
of working with institutions of higher learning to help train 
people to work at Greenville Health System?
    Ms. Thames. We have had a tremendous experience with all of 
our academic partners, some of those that I listed in my 
testimony. So we have had students coming into the system far 
before I joined the Greenville Hospital System, or coming in 
for internship or shadowing or just coming in to see what was 
going on in the OR, different areas in the hospital.
    However, what we are looking to do now is to be more 
strategic about that. So we have worked with Clemson University 
some and Greenville Tech and other academic partners to take a 
look at students interested in a career in health care, but, 
more importantly, to expose those young people to the many 
opportunities--many of us only know--we hear doctors, nurses, 
therapists, a few of the career opportunities, but there are a 
lot of nonclinical areas--I am a good example of that--that 
students don't know about. So we are on a journey to work with 
our academic partners to give young people more exposure, more 
real-life, hands-on experience. So if you think you want to be 
a physical therapist, come into the system and see what the day 
in the life of a physical therapist is really like.
    What we are finding through the MedEx Academy is that some 
students are learning what they don't want to do. They think 
they want to be in health care, so we work with our academic 
partners, even starting, as I mentioned, at K-12. And we are 
deliberately piloting initiatives at MedEx Academy Tier 3 next 
year with Clemson University. We get a volume of students who 
are interested in coming in to shadow or whatever. A lot of 
those students get in by who they know. And so, what we want to 
do is be more strategic about it and give more young people 
that exposure and opportunity.
    And so we are working with our academic partners to say, 
why can't students get academic credit for this? So we are well 
on our way to looking at academic credits that the student 
experiences with us. So Tier 1, which is our K-12, students 
receive a half credit toward their high school graduation. We 
are working with Clemson and Furman to pilot Tiers 2 and 3, and 
we are looking at 4 credit hours.
    So, again, back to the connection of the real world to 
their academic learning, while they are on their academic 
journey, we think we, as a health system, can give them a 
tremendous amount of exposure to not only learn what they want 
to do but what they don't want to do.
    Mr. Wilson. Thank you very much.
    And, Mr. Eikenbusch, I really believe that BMW is a model 
of success of where people who are hardworking in South 
Carolina can be very successful. I was very honored to be 
present with Senator Verne Smith for the groundbreaking of BMW. 
I was with Senator John Russell for the dedication of the 
building. I came back for the unveiling of the first G3 in the 
world. And so I am just in awe of the opportunities you provide 
and the jobs that you provide.
    What has been your experience of working with institutions 
of higher education here in South Carolina? Has that been a 
part of your success?
    Mr. Eikenbusch. Absolutely, yes. And as I mentioned in my 
statements before, really on both levels. I mean, we really 
need the 2-year educational system to work with us, as well as 
the 4-year educational system. So, in both cases, our 
experiences have been very good.
    Examples, as I mentioned, in the original, early days, 
onboarding and training, these were the basics of really 
industrial high-tech manufacturing skills. Right now, on the 2-
year level, it is like BMW Scholars program. These would be 
initiatives where we can leverage the theory that the technical 
colleges provide with hands-on experience that we provide, like 
you mentioned before, as well, Dr. Thames, because it is 
important that you merge the theory with the hands-on 
experience.
    So very good models there, very open-minded college system 
that works with us in response to our needs. And the same as I 
mentioned before on the 4-year level.
    The one thing that I would like to point out that I think 
is very, very important and successful is this whole idea of 
internships and co-op opportunities at the 4-year level. We 
have very good examples here with Clemson, very active, but it 
also goes into North Carolina. I know Dr. Foxx is not here--a 
very good example with NC State.
    We have, at any point, probably 100 to 150 engineering and 
management students at BMW that spend either a summer or a full 
semester and come back on rotations. And it is the same kind of 
idea; they get an opportunity to look at the jobs to see if it 
is a fit for me, and we get an opportunity to see the 
individual and see if it is a fit for us.
    So I am really happy to say that these opportunities are 
really growing. More and more institutions are embracing these 
co-ops and internships. And from an industry perspective, I 
think that is a big opportunity and advantage, both for the 
employers but also for the students.
    Mr. Wilson. Thank you.
    Now, my time is up, but I do want to thank Ms. Harmon. I 
was going to ask you about how organizations can work together, 
but you answered the question before I could ask it.
    I yield back to the current chairman.
    Mr. Gowdy. Chairman Wilson, given the fact that we have 
such an amazing panel and another one coming right behind it, 
would you be amenable to what we call a lightning round up in 
Washington? Would you be willing for me to ask a couple of 
really quick questions.
    Mr. Wilson. I am in Trey Gowdy country. I will do whatever 
Trey says.
    Mr. Gowdy. I just wanted to maybe ask a quick question with 
a quick response, because you and I are not accustomed to 
having panels this distinguished----
    Mr. Wilson. This is amazing.
    Mr. Gowdy [continuing]. When we are not in recess. So with 
Chairman Wilson's permission, let me start with you, Mr. 
Eikenbusch.
    If you were king for a day, and you were charged with 
raising educational achievement and attainment with math and 
science in this country, what would you do?
    Mr. Eikenbusch. Oh, that is a difficult question. I think I 
would demonstrate to the student how what they are learning in 
theory really translates into value added in their life and in 
society. I think that is--I have a 17-year-old daughter who 
often comes to me and says, why I am learning this, and I think 
that is a missing gap. You are learning a lot, but you are 
really not learning how this will benefit you.
    Mr. Gowdy. Well said.
    Mayor White, same question, king for a day, you can do 
three things that will spur this economy with respect to job 
creation. What would you do? And you don't have to get it 
through a fractious Congress; you can just do it yourself.
    Mr. White. Well, I think not necessarily in the area of 
math and science, but just overall I think you are here for a 
reason at Clemson ICAR, and I do think this is an extremely 
helpful model. The economy is changing so quickly. It is all 
about higher-tech, higher-knowledge jobs and such. So I think 
collaborations between education at all levels, including 
higher education, is extremely important.
    I don't see how industry can march to the same tune as it 
has in the past. I think you have got to tie the two together. 
They need the expertise that higher education can bring to 
them, and higher education needs the practical experience that 
these kind of entities offer.
    Mr. Gowdy. Dr. Thames, Congressman Wilson wanted to ask 
this question because it is more relevant to him than it is to 
me, but with an aging population, with baby boomers----
    Mr. Wilson. Wonderful people.
    Mr. Gowdy. Yes, they are wonderful people--what would you 
say--if you were queen for a day, what would you say to the 
institutions of higher learning to help prepare for what is 
going to be a large number of folks hitting that age in the 
not-too-distant future? How would you tell them to change their 
curriculum to help you as a hospital system that I presume--I 
go to hospital systems. Medicare is probably a pretty good 
customer. How would you help them prepare from an educational 
standpoint?
    Ms. Thames. I just echo what the two gentlemen said before. 
I mean, I think that is huge for us, and I think we are well on 
our way in this State of better connecting students to the real 
world. I think that is absolutely critical.
    Relative to the aging population, I think in those areas 
where you are training students to go into health care, there 
is going to be a tremendous need. Sometimes people are not even 
exposed to elderly people, much less going into a career where 
they are going to be working with that population or serving 
that population. So I think, again, better connection to what 
is happening in the real world with the aging population and 
don't think of a 70-year-old as being old because 70-year-olds, 
their bodies and their minds are telling them that they are 
still sharp, they can still run, they can do whatever they want 
to do.
    And so I think educating young people on--when we say the 
aging population, let's know what that really means because I 
have physicians talking all the time about, Congressman Wilson, 
much older than you, but people coming in but really their 
minds are telling them they are still vibrant, they can still 
do these things. So they are wanting that hip replacement or 
they are wanting that care. So, again, I go back to, while 
students are in their academic learning, let's expose them to 
the people that they are possibly going to be serving when they 
get into the real world.
    For us, it is a tremendous cost saving when we can get 
individuals ready to walk into the workplace, ready to hit the 
ground rolling, because so often on-the-job training is 
expensive, and I think that is another real value here what is 
going on in South Carolina about us really connecting to our 
higher education partners.
    Mr. Gowdy. If you run into anyone else who has not met a 
senior citizen or someone they perceive to be old, let 
Congressman Wilson and I know so we can walk them to the United 
States Senate where they will meet lots of them.
    Ms. Harmon, last question--and thank you for your 
indulgence, Mr. Chairman--if you were queen for a day, the 
model right now is to pay unemployment earnings directly to the 
unemployed person. Would you consider a model that paid a BMW 
or a Milliken or a Tietex or a Michelin the money instead of 
the individual, with the understanding they hired the person, 
the money doesn't go to the individual to look for work or stay 
at home; it goes to a company that can either retrain or put 
the person to work? Our model--I think we are to the point in 
our country where we probably need to kind of fundamentally 
look at different models. Is that one you would be willing to 
consider?
    Ms. Harmon. I would like to explore that, but I really 
can't provide a response that says yes or no at this particular 
moment, but I would definitely like to talk about it and find 
out more.
    Correct, the unemployment system has a lot of problems. 
There are people that are incentivized to stay on unemployment 
rather than go to work, but there is a whole--the issue is so 
complex that you really have to examine all of the pieces that 
go into that person's decision to stay on unemployment or not 
to find another, you know--their workforce readiness, the state 
of being workforce ready, is very complex. There are a lot of 
factors that go into it. There are housing issues. There are 
basic academic issues. There are the soft skills. There is 
knowing how to use a computer so that you can actually find a 
job and apply on line, and we have a lot of adults that are not 
work ready in that aspect and in many aspects that involve 
barriers like on having transportation.
    So, yes, I would say let us look at unemployment and find a 
different way to do it that is more efficient, but I can't say 
right now.
    Mr. Gowdy. I caught you cold. Lawyers do that. So forgive 
me and----
    Ms. Harmon. Can I mention one other thing?
    Mr. Gowdy. Sure.
    Ms. Harmon. You had asked about what would I recommend for 
training. We have so many of the solutions already. We have so 
many resources that are already here. It is getting people to 
collaborate effectively to align their services that I think is 
going to be the key, especially in lean times.
    So I think we can do a lot more with the funding that we 
have, but we need to, you know, put it in the right place and 
make sure that folks in the agencies are working together, and 
really, that is what Greenville Works is all about. We are 
trying to bring different types of organizations together and 
have them to align their services so that, you know, we can be 
more effective.
    Mr. Gowdy. Well, on behalf of Congressman Wilson and 
myself, I thank our first panel for sharing your perspective, 
your insights, your wisdom with us. It has been a remarkable 
panel, and we will come thank you personally, and we will take 
a couple-minute recess if that is okay with Chairman Wilson.
    Mr. Wilson. Whatever the current chairman says.
    Mr. Gowdy. And we will prepare for the second panel. So we 
will be temporarily in recess. Thank you.
    [Recess. ]
    Mr. Wilson. Ladies and gentlemen, I would like to call back 
to order the special subcommittee meeting of the Committee on 
Education and the Workforce. We will now begin with the second 
panel.
    Before we begin, I would like to thank the staff people. I 
have already mentioned Amy Jones. She is our attorney and a 
very capable young lady who has been so helpful to the 
committee, and someone Congressman Gowdy and I greatly depend 
upon.
    We are very pleased that Brian Melnyk is here from the 
committee, and also Melinda Walker, who is a House reporter. 
Melinda has just been a really hard worker on behalf of the 
people of our country, and I appreciate that.
    And then I do need to point out, I have a staff person 
here, Melissa Chandler of Greenwood, who is a graduate of 
another upstate college, very famous, Wofford College, and so 
Melissa is the Deputy Chief of Staff of the Second District of 
South Carolina.
    And at this time, I will now defer back to Congressman 
Gowdy.
    Mr. Gowdy. Thank you, Chairman Wilson.
    I want to welcome our second panel. I will be introducing 
you shortly, but it really is a testament to the upstate when 
you can have as a second panel folks of this caliber. I guess 
it is kind of like having Babe Ruth bat third and fourth for 
you. Nobody here is old enough to remember Babe Ruth, are they? 
I guess I should say somebody else, Congressman Wilson.
    I am going to introduce you, and we will do it just like 
last time. You will have 5 minutes to give your opening 
statement, and if it lasts longer than that, that is fine, too. 
The lights mean what they traditionally mean.
    It is my pleasure to introduce Mr. Jim Barker, who was made 
president of Clemson University in 1999. Since his arrival, Mr. 
Barker has been devoted to transforming Clemson into one of the 
nation's finest universities. Enrollment and student 
achievement at Clemson have soared during Mr. Barker's tenure, 
and he continues to focus on improvement for the future. In 
addition to his career at Clemson University, President Barker 
served as chair of the NCAA Division I board of directors and 
chair of the Commission on Colleges and the Southern 
Association of Colleges and Schools. And it is a pleasure to 
have you here. And a point of personal indulgence, President 
Barker, your staff and everyone connected to Clemson has been 
absolutely phenomenal putting this on. So, if you would give 
them a heartfelt thanks on behalf of Congressman Wilson and 
myself.
    Dr. Thomas Moore began serving as chancellor of the 
University of South Carolina Upstate on August 1, 2011. I saw 
you I guess it was Monday. Welcome, again. Delighted to have 
you. Dr. Moore has an extensive background in higher education, 
knowledge of the State, and commitment to excellence as a 
professor and administrator. Prior to being named chancellor, 
Dr. Moore served as vice president for academic affairs and 
dean of faculty at Winthrop University, and on committees of 
the National Collegiate Athletic Association, the Southern 
Association of Colleges and Schools and the Association of 
Graduate Liberal Studies Programs. Welcome, Dr. Moore.
    Dr. Keith Miller became the second president of Greenville 
Technical College in 2008. He brought experienced leadership to 
the position, having spent 12 years as a college president in 
Illinois, first for Spoon River College and later for Black 
Hawk College. In addition, Dr. Miller served as chairman of the 
board for the American Association of Community Colleges in 
2008 and 2009. He currently serves on the board of directors 
for the American Council of Education and is chairman of the 
National Steering Committee for Development of the Voluntary 
Framework for Accountability. You have been a guest of ours in 
Washington, which we very much enjoyed, and Ms. Hogue does a 
phenomenal job for you, as I know you are aware.
    Ms. Amy Hickman was named campus president of ECPI 
University in Greenville, South Carolina, in March 2009. Prior 
to serving as campus president, Ms. Hickman served as campus 
provost and English instructor and an associate dean of arts 
and sciences at ECPI in Greenville. Ms. Hickman also taught and 
served as the department chair for general education at Collins 
College in Tempe, Arizona. Ms. Hickman holds a master's degree 
in creative writing from the University of Florida and a 
bachelor's degree from Goucher College.
    With that, welcome, each of you. We will start with you, 
President Barker. Make your opening statement. We will go from 
my left to right, your right to left. President Barker.

            STATEMENT OF JAMES F. BARKER, PRESIDENT,
                       CLEMSON UNIVERSITY

    Mr. Barker. Good afternoon, Chairman Wilson and Congressman 
Gowdy. We are very much appreciative of the opportunity to 
speak to you regarding the role of higher education in job 
growth and workforce development, and we thank you also on 
behalf of our faculty and staff and students at Clemson 
University.
    This is a timely topic. Today, more than ever, higher 
education needs to work closely with government and private 
industry to ensure that our graduates are well prepared for the 
immediate job market, as well as their future roles as leaders 
in the companies and in our communities. In other words, it 
will be a loss to graduate such well-prepared students if there 
were no positions for them waiting, and it would be an equal 
loss if companies had the positions for our graduates, but the 
graduates weren't prepared to go into those positions. So 
simply stated, we have got to do both, and that is what these 
hearings are about.
    Clemson University was founded in 1899 through a bequest 
from Thomas Green Clemson, who was a Philadelphian, an engineer 
and a diplomat, who married John C. Calhoun's daughter and 
wisely settled in South Carolina for the rest of his life. Mr. 
Clemson believed that the way to rebuild his adopted State's 
war-ravaged economy was through scientific education. So he 
left his home and his fortune to the State in his bequest to 
establish the institution that now bears his name.
    His will eloquently described his twofold purpose: number 
one, to establish what he called a high seminary of learning; 
number two, to develop the material resources of the State. So 
we are responsible for both learning and prosperity in the 
State of South Carolina. So this dual responsibility has been a 
part of our mission directly from our founder from day one. So 
you are looking at CU-ICAR as the direct manifestation of both 
those things from the 19th century to the 21st century.
    So Clemson was specifically established to support economic 
development. Mr. Clemson understood that the surest path to 
prosperity was education. It is appropriate that we are at CU-
ICAR given our mission and our collaboration that has occurred 
among the universities, federal and State and local government, 
as well as the private sector, which has resulted in an 
economic transformation of our State.
    Three critical ingredients in CU-ICAR's success were these: 
number one, a research university that was willing to listen, a 
key factor, and then respond to industry needs; a government 
investment; and a physical campus. Each ingredient was 
essential.
    CU-ICAR evolved from conversations between Clemson and BMW, 
as you heard from BMW, about what the State's automotive 
cluster needed in order to remain competitive. They said they 
needed a new kind of engineer, an engineer that understood how 
to bring together mechanical, electrical, and computer systems 
in our modern automobile today.
    Clemson's faculty listened. They responded and created a 
new curriculum focused on systems integration. Financial 
resources were provided through the State and legislative 
incentives that funded endowed chairs, research infrastructure, 
and innovation campuses. Often these funds required a private-
sector match, which, by the way, we believe is the truest 
measure of accountability. If you can't find the match, then 
you have got no business doing the idea. City and county 
government helped fund infrastructure, as you heard from Mayor 
White, and support services and federal funds were used to help 
build the Center for Emerging Technologies right next door 
through that glass that we are seeing right beside us.
    The third critical ingredient was 250 acres, enough land to 
develop with large companies or small start-ups and landing 
parties alongside the academic programs, and state-of-the-art 
research and testing equipment, all on the campus, deliberately 
designed to foster collaboration. We believe this project is so 
dense because economic development is a contact sport. You have 
got to bump into people to generate the ideas.
    What distinguishes Clemson's automotive engineering program 
is the blend of a rigorous academic program, combined with 
daily interaction with industry leaders and, finally, with a 
structured hands-on learning opportunity which we call Deep 
Orange, which transforms the Campbell Graduate Engineering 
Center into an original automotive equipment manufacturer and 
supplier by building these cars. That is what we learn. 
Students, faculty, and industrial partners actually produce a 
new vehicle prototype each year, which gives students 
experience in vehicle design, development and production, and 
prepares them to be in leadership in the automotive workforce 
in the future.
    CU-ICAR'S results speak for themselves: 19 corporate 
partners, 30 research partners, 500 jobs created, and another 
1,700 announced, $230 million in public and private investment, 
America's first doctoral degree in automotive engineering, and 
100 percent employment rate for its graduates.
    The CU-ICAR model works. It is one that we followed in 
developing two other innovation campuses, which I need to 
mention. First, the Clemson University Restoration Institute in 
North Charleston will soon house a unique wind turbine testing 
facility funded by a $35 million U.S. Department of Energy 
grant and matched by State support and private support, and 
that will make South Carolina the hub of the wind energy 
industry. IMO, a German manufacturer group, they produce wind 
tunnel components and wind turbine components, and they will 
locate in this facility with 190 jobs in Charleston, driven to 
a great extent by Clemson's presence there with this new 
facility. Like CU-ICAR, the campus will focus on industry 
collaboration. Executives from 90 percent of the world's 
turbine manufacturers serve on its advisory board.
    The second campus, the Clemson University Advanced 
Materials Center in Anderson County, boasts one of the world's 
most advanced electron microscope facilities and a cyber 
infrastructure that places Clemson in the top five among all 
U.S. academic institutions in supercomputing. This advanced 
materials campus concentrates on small business that move 
technology innovation into the marketplace, often based on 
licensing of Clemson research and intellectual properties, 
which has generated more than $28 million in revenues and 
created 15 start-up companies in the past decade. An example: 
Tetramer Technologies was founded in 2001 as a faculty start-up 
company and now is a tier one supplier to General Motors.
    Each of these three research campuses is as unique as its 
region and as the economic cluster it serves, but each is 
anchored in academics, because the greatest contribution we 
make to economic development is a well-prepared Clemson 
graduate. That is why the cornerstone of our newest strategic 
plan is student engagement. We want to give every undergraduate 
and graduate student the kind of relevant, hands-on, problem-
solving experience that Deep Orange has created here at CU-
ICAR.
    I have outlined examples of engagement programs in my 
written testimony, and these programs often involve interaction 
with industry and will give Clemson students the tools to 
become leaders, thinkers, and entrepreneurs as well as global 
citizens. In short, we believe that it will be a powerful 21st 
century workforce.
    Let me thank you again for this opportunity on behalf of 
Clemson and thank you for your service to our nation.
    Mr. Gowdy. Thank you, President Barker.
    [The statement of Mr. Barker follows:]

  Prepared Statement of James F. Barker, President, Clemson University

    Good afternoon, Chairwoman Foxx and Members of the Subcommittee. My 
name is Jim Barker, and I am President of Clemson University. We 
appreciate the opportunity to host this subcommittee field hearing at 
our CU-ICAR campus and to testify before the subcommittee today 
regarding the role of higher education in job growth and workforce 
development.
    We believe this is a timely topic given the changing landscape of 
higher education and the economic conditions facing our state and 
nation. Today more than ever, institutions of higher education need to 
work closely with government and private industry to ensure that our 
graduates are well prepared both for the immediate job market and for 
their future roles as leaders of our companies and our communities.
    Clemson University is ready and eager to accept this challenge. In 
fact, it's what we were founded to do.
    For those of you who are not familiar with Clemson, I'm pleased to 
provide some background information.
    Ranked #23 among national public universities, Clemson University 
is a land-grant, science- and engineering-oriented research university 
that maintains a strong commitment to teaching and student success. 
Clemson is a student-centered community characterized by high academic 
standards, a culture of collaboration, school spirit, and a competitive 
drive to excel.
    It has recently been ranked #9 among ``up and coming'' 
universities, and #12 among national universities--public and private--
with a strong commitment to undergraduate teaching, according to US 
News & World Report. Princeton Review rates us #1 in town-gown 
relations and #2 in the category of ``happiest students.''
    Clemson scores well above its peers on the National Survey on 
Student Engagement. More than 92 percent of seniors would choose 
Clemson again if they could start over--compared to a national average 
of 83 percent. Clemson also is the number one choice of Palmetto 
Fellows, the state's top high school graduates, and more than half of 
Clemson's incoming freshmen rank in the top 10 percent of their high 
school class.
    The university was founded in 1889 through a bequest from Thomas 
Green Clemson, a Philadelphia-born, European-educated engineer, 
musician and artist who married John C. Calhoun's daughter, Anna, and 
settled at her family estate in South Carolina. Clemson believed that 
the way to rebuild his adopted state's war-ravaged economy was through 
scientific education, so he left his home and fortune to the state of 
South Carolina to create the institution that bears his name. His last 
will and testament eloquently described a two-fold purpose: To 
establish a ``high seminary of learning'' and to ``develop the material 
resources of the state.''
    Therefore, Clemson was specifically and purposefully established to 
support economic development--initially in agriculture, later adding 
support for manufacturing and now those industries plus a growing 
knowledge-based economic sector. Mr. Clemson understood that the surest 
path to prosperity was education. It remains so today.
    Over the past decade, Clemson has substantially grown its economic 
development capabilities. We have followed the land-grant model of 
going where the industries are rather than expecting them to come to 
us, and we sought out best practices from research parks in neighboring 
states, such as North Carolina's Research Triangle Park, Centennial 
Campus and the Piedmont Triad Research Park in Congresswoman Foxx's 
home district.
    It is appropriate that this hearing is being held at the Clemson 
University International Center for Automotive Research--or CU-ICAR--
given the mission of this campus and the collaboration that has 
occurred among the university, federal, state, and local government in 
partnership with the private companies involved, which has resulted in 
an economic transformation for our state.
    CU-ICAR is a 250-acre automotive and motorsports ``technopolis'' in 
Greenville that has created more than 500 jobs, with another 1,700 
announced. Named the 2009 Emerging Technology Park of the Year by the 
Association of University Research Parks, CU-ICAR represents a new 
model for university research-driven economic development.
    Three critical ingredients in CU-ICAR's success were (1) a research 
university that was willing to listen and respond to industry needs; 
(2) government investment, and (3) a physical campus.
    Each ingredient was essential. Back when this location was an empty 
field, there were conversations between Clemson and BMW about what the 
state's automotive cluster needed in order to remain competitive in the 
21st century. They didn't talk about what kind of research they wanted 
us to do or what kind of test facilities they needed. They talked about 
the kind of engineers they needed to hire--a new kind of engineer who 
understood how all of the various mechanical, electrical and computer 
systems in a modern automobile work together. Clemson faculty responded 
and created an entirely new curriculum focused on systems integration--
and they continue to meet annually with industry advisors to ensure 
that the program remains relevant.
    Critical financial resources were provided through a series of 
state legislative initiatives that funded endowed chairs, research 
infrastructure and innovation centers at the state's three research 
universities. Often, those funds required a private-sector match, which 
provided the ultimate measure of accountability. Our corporate partners 
did not invest in CU-ICAR out of a sense of philanthropy; they invested 
because what we are doing is relevant for their business and their 
future.
    City and county government helped fund infrastructure and support 
services, and federal funds are helping build the 60,000-square-foot 
Center for Emerging Technologies, where dozens of emerging or 
established companies can expand and develop technologies that 
complement research of Clemson faculty and students.
    The 250-acre physical campus gave us the third critical 
ingredient--adequate land to accommodate large companies, small start-
ups and landing parties alongside academic programs and state-of-the-
art research and testing equipment, all on a campus deliberately 
designed to foster formal and informal interaction and collaboration. 
Students and faculty move seamlessly from the classrooms and 
laboratories across the plaza to the assembly-line floor working side-
by-side with BMW engineers at their plant in Greer.
    What truly distinguishes Clemson's automotive engineering program 
is the blend of rigorous academic curriculum, daily interaction with 
industry leaders and a structured, hands-on learning opportunity we 
call Deep Orange.
    Housed just across the plaza at the Carroll A. Campbell Graduate 
Engineering Center, Deep Orange transforms the facility into an 
original automotive equipment manufacturer and supplier. Students, 
faculty and industry partners actually produce a new vehicle prototype 
each year, giving students experience in vehicle design, development 
and production planning from their entry into the program until 
graduation. Through this initiative, the students will understand 
clearly how to innovate and develop automotive projects, which prepares 
them to be the leadership work force of the future.
    CU-ICAR's results speak for themselves: 19 corporate partners, 30 
research partners, 760,000 constructed square feet, $230 million in 
public and private investment, America's first doctoral program in 
automotive engineering (launched in 2006), and a 100 percent employment 
rate for its seven Ph.D. and 25 Master's degree graduates.
    The CU-ICAR model works, and it's one we are continuing to follow 
as we develop innovation campuses focused on restoration, conservation 
and energy in North Charleston, and advanced materials, optoelectronics 
and high-performance computing in Anderson County.
    The Clemson University Restoration Institute, being developed on an 
27-acre tract of land in North Charleston, promises to make South 
Carolina a magnet for the restoration economy. It will soon house a 
major wind-turbine testing facility--funded by a $45 million U.S. 
Department of Energy grant--which could make South Carolina the hub of 
the wind energy industry. Already, IMO Group--a German manufacturer of 
wind-turbine components--announced that it would locate a facility, 
with 190 jobs, in Charleston partly because of Clemson's testing 
capability.
    Like CU-ICAR, the campus will focus on industry collaboration. 
Executives from 90 percent of the world's turbine manufacturers serve 
on technical and industrial advisory boards. They provide input into 
the design of testing facilities and development of educational 
programs, ranging from certifications in wind energy to entirely new 
degree programs in power engineering. These close-hand relationships 
mean the university can deliver a one-of-a-kind advanced testing 
facility tailored to the industry's specific needs.
    The Clemson University Advanced Materials Center boasts state-of-
the-art equipment including one of the nation's most advanced electron 
microscope facilities and a high-performance computing infrastructure 
that places Clemson in the top five among academic institutions for 
supercomputing.
    This campus concentrates on small businesses with an 
entrepreneurial spirit to move technology and innovations into the 
marketplace. Often these are start-up companies spun out from licensing 
of Clemson research and intellectual properties, which has generated 
more than $28 million in revenues and created 15 start-up companies 
over the past decade. In the past five years, the number of technology 
disclosures submitted by Clemson faculty, staff, and students has 
doubled, with a record 124 disclosures this past fiscal year.
    Tetramer Technologies in Pendleton, S.C., for example, was founded 
in 2001 as a faculty start-up company commercializing high value 
optical polymer research activities pursued at Clemson. Today, Tetramer 
is a thriving company with 26 employees that serves as a tier-one 
supplier to General Motors.
    Each of these research campuses is as unique as the regions and 
economic clusters it serves. But each is anchored in academics, because 
the greatest contribution we make to economic development in South 
Carolina is a well-prepared Clemson graduate.
    That's why the cornerstone of our new, 10-year strategic plan--the 
Clemson 2020 Road Map--is a goal of providing all students with 
engagement opportunities, which means structured, hands-on, problem-
solving experiences inside and outside of the classroom. In other 
words, we want to give every undergraduate and graduate student the 
kind of relevant, creative experience that Deep Orange provides here at 
CU-ICAR.
    The best way to illustrate how Clemson approaches student 
engagement is through examples of four innovative programs. Some have 
been around for decades, and some are just getting started. I've 
outline these programs in the written testimony I submitted to the 
Committee.
Creative Inquiry
    A national publication called Creative Inquiry ``a small-group 
learning experience for 14,000 undergraduates.'' A combination of 
engaged learning and undergraduate research unique to Clemson, Creative 
Inquiry pairs small teams with a faculty mentor who guides them in 
exploring their own questions, not the teacher's. Projects typically 
span three to four semesters and are often interdisciplinary. In recent 
years, Creative Inquiry teams have focused on:
    <bullet> designing a tire that allows lunar rovers to efficiently 
travel across the moon's surface,
    <bullet> developing clean water systems for Haiti,
    <bullet> designing buildings to reduce energy consumption,
    <bullet> finding ways to use neural signals to control machines,
    <bullet> developing a campus tour app for the iPhone
    <bullet> and even writing and producing an original play and 
publishing a collection of slave narratives.
Immersion semester
    Developed by faculty in parks, recreation and tourism management, 
the immersion semester enrolls all majors in a common curriculum during 
their sophomore year--and that curriculum rarely include lectures. 
Instead, students work in teams on special projects, take field trips, 
and attend seminars run by leaders in the field who offer first-hand 
insights about what is needed to succeed in the recreation and tourism 
industries.
    One student wrote this on her year-end evaluation: ``When I applied 
for internships (as an events planner), I explained to employers and 
organizations what the Immersion Semester consisted of and how we were 
getting hands-on experience with professionals in our field and 
planning and implementing an actual event. They looked at my degree 
with a whole new level of respect.''
Internal co-ops
    Engineering students have long seen the value of cooperative 
education--a program that puts them at work for a full semester in a 
field related to their academic discipline. The experience is mutually 
beneficial for both the students and the employers.
    We're currently developing a new ``internal co-op'' program in 
which students will help run the university machine. Like external co-
op experiences, the idea is to give students practical, hands-on, 
professional experience--not routine office jobs--that is directly 
related to their academic fields.
    We will have financial management majors working side by side with 
the CFO, graphic communication majors designing university 
publications, and engineering majors working on real capital 
improvement projects.
Residential study centers
    Clemson University is a beautiful campus with many historic 
buildings, located in what is probably the best college town in 
America. However, after four years, architecture students have probably 
soaked up as much as they can from the physical environment, and they 
need to see new perspectives. The Clemson Architecture Center at 
Charleston and residential programs in Genoa, Italy, and Barcelona, 
Spain, put students in a learning environment that is squarely in the 
middle of some of the finest architecture in the world and gives them 
direct access to leading experts in architecture, urban planning and 
historic preservation.
    These kinds of engagement opportunities, often involving direct 
interaction with industry experts, will give Clemson students the tools 
to become leaders, thinkers, entrepreneurs and global citizens--in 
short, to be the kind of workforce needed in the 21st century economy.
    In conclusion, I'd like to once again thank the Committee for this 
opportunity to speak on behalf of Clemson University--and, more 
importantly, I want to thank you for your service to this nation.
                                 ______
                                 
    Mr. Gowdy. Dr. Moore.

 STATEMENT OF THOMAS F. MOORE, CHANCELLOR, UNIVERSITY OF SOUTH 
                        CAROLINA UPSTATE

    Mr. Moore. Thank you, Congressman Gowdy, Chairman Wilson, 
Ms. Jones. It is a pleasure for me to be here and represent an 
institution that I am learning much about at a very rapid pace 
and am very proud to be a part of.
    USC Upstate is the senior campus of the USC University of 
South Carolina system. We are a metropolitan university serving 
the I-85 corridor from Greenville to beyond Spartanburg. We 
have just under 6,000 students in 3 locations, a major 300-acre 
residential campus just north of Spartanburg, the George Dean 
Johnson College of Business and Economics in downtown 
Spartanburg, and we deliver degree-completion programs, open-
vision courses, at the University Center in Greenville.
    Our priorities in the institution are remaining accessible, 
affordable, and accountable for the people of our State and the 
country in delivering high-quality educational programs. We 
work closely with junior colleges, technical colleges, and 
community colleges. We bring in more than 800 transfer 
students, most from those type schools, each year, and we award 
a higher percentage of our studentsr degrees every year than 
any other institution in the State.
    Fifty-one percent of degree completers, associate degree 
completers at Greenville Tech who go on to complete a 
bachelor's degree do so at USC Upstate. We have wonderful 
relationships with them. We have just established over the last 
couple of years a program we call Direct Connect with community 
and technical colleges where we have hard articulation 
agreements, automatic admissions upon completion of an 
associate's degree, and transfer of all of those credits toward 
a degree at USC Upstate. We have that with three institutions 
now, Greenville Tech, Spartanburg Community College, and Tri-
County Technical College. We are working on such agreements 
with additional community and technical colleges across the 
State.
    We have programs toward workforce development across the 
board. We were founded in 1967 to educate nurses in 
Spartanburg, South Carolina. Nursing continues to be a major 
part of what we do. We graduate more bachelor of science in 
nursing student degrees than any other institution in South 
Carolina. For the last 3 years, we have averaged right at 255 
such degree completions, and last year we had 264 bachelor of 
science in nursing degrees awarded. Ninety-five percent of 
those BSN degree completers remain in South Carolina and go to 
work in health care in South Carolina.
    We have strong education programs and teacher preparation 
across the board and a couple of master's degrees in education. 
Our business program, now housed in the George Dean Johnson 
School of Business Administration and Economics in downtown 
Spartanburg, is a major example of the kind of community 
institutional partnerships we are interested in establishing 
and have a record of doing so. This facility, more than $13 
million raised in private money. Not a single dollar of State 
appropriation or bond money went into the construction of this 
building. It puts our college of business administration and 
economics in downtown Spartanburg to build connections with 
students and faculty and area businesses and business leaders, 
to provide speakers for classes and interactions with the 
business community, internship and work opportunities for our 
students. We have segmented space devoted to business 
incubation and development that brings student and faculty 
interest and expertise to the issues of business start-up and 
providing that expertise, continuing education and executive 
education for business people in downtown Spartanburg.
    And this summer we had a very successful cooperative camp 
with BMW for advanced science and math students in Spartanburg 
schools to look at the application of science and math in the 
industrial world, a kind of connection that the former panel 
spoke to across the board, and the importance of engaging 
people and how this applies in the world of work as you study 
it in school and become interested in going to college.
    Another example of this collaboration is our University 
Readiness Center, which is the headquarters for the local 
National Guard unit. We built it on campus. That local Guard 
occupies one-fourth of that structure all the time. Their 
headquarters are there. The other 75 percent of the building 
are classrooms and multifunctional space that the university 
uses during the week. The Guard uses the entire facility two 
weekends a month for their regular scheduled drills. We house--
our soccer stadium is directly behind the University Readiness 
Center, and some of that space is devoted to men's and women's 
dressing and locker rooms and training facilities. It is a 
wonderful collaboration of county, federal, State, and local 
government and an institution combining to create a multiuse 
facility that benefits everybody.
    I have several other things. We have out of private fund-
raising and industrial investment a wonderful robotics 
laboratory. This is used in education and research. We have a 
summer camp for area school students who come in, 40 per year, 
and get hands-on experience in this major robotics facility, 
more than $500,000 worth of equipment that was all either 
donated by area industries, or funds were donated and we 
purchased that equipment.
    We have an engineering technology management degree that is 
in its third or fourth year, very successful; associate's 
degrees in engineering technology, go to work at BMW or 
Michelin or wherever. They are in that job for a while, and 
they need a bachelor's degree in management training to move up 
and advance in that organization, they come to us and in 2 
years complete an engineering technology management degree, and 
they are prepared with that management credential to move up in 
that organization, the kind of career development that we need.
    We have many more programs that produce graduates across 
the board and work in the upstate and contribute to economic 
development.
    Let me close by reemphasizing the metropolitan mission of 
USC Upstate to educate people in our part of the world for 
productive employment and meaningful life, and to enhance the 
quality of life for all citizens of this part of the world. I 
am grateful for this opportunity. Thank you very much.
    Mr. Gowdy. Thank you, Dr. Moore.
    [The statement of Mr. Moore follows:]

        Prepared Statement of Tom Moore, Chancellor, USC Upstate

    USC Upstate is a Metropolitan University serving the Upstate of 
South Carolina. The University currently consists of a main residential 
campus on I-85 just north of Spartanburg, a downtown campus in 
Spartanburg, housing the George Dean Johnson, Jr. College of Business 
and Economics, and a campus operation in Greenville, providing degree 
completion programs, primarily with Greenville Technical College 
transfers and working adults. With enrollment approaching 6000 
students, USC Upstate has been the fastest growing public institution 
in South Carolina for most of the last 10-12 years and has the fourth 
largest enrollment of South Carolina resident students in the State.
    Enrollment consists of 92% in-State residents with 80% coming from 
five surrounding counties. Minorities make up 32% of enrollment and 71 
different countries are represented on the campus. There are 1100 
students in University-owned housing and another 1100 students in 
privatized housing that touches the campus boundary.
    Programmatically, USC Upstate is comprised of the School of 
Education, the Mary Black School of Nursing, The George Dean Johnson, 
Jr. College of Business and Economics, and the College of Arts and 
Sciences. All schools and programs are fully accredited by their 
respective agencies.
    An economic impact study completed in the last year by the 
Metropolitan Studies Institute demonstrates that the total economic 
impact attributable to USC Upstate amounts to $240 million with 850 
employees, including full and part-time employment.
Major Initiatives and Partnerships That Impact Job Growth And 
        Development
    ``The George'' (George Dean Johnson, Jr. College of Business and 
Economics) opened one year ago in the downtown business district. This 
project represents the pinnacle partnership achievement of the 
University's ``metropolitan mission,'' providing a magnificent resource 
for the University's continuing growth and a major investment in the 
economic development future of Spartanburg. Locating the business 
school in the heart of downtown Spartanburg will facilitate internship 
opportunities with downtown businesses, offer easier access to 
community and business leaders willing to share their knowledge and 
experience as guest lecturers, and provide a location for seeding and 
incubating entrepreneurial ideas.
    The three story, 60,000 square foot building is a high-tech, modern 
facility with classrooms, computer labs (including a simulation stock 
trading room), distance education capacity, seminar rooms, and 
conference rooms. ``The George'' is truly a public/private partnership 
involving the University, the State of South Carolina, the City of 
Spartanburg, and the private business community. The City donated land 
for the building, a parking deck, and infrastructure surrounding the 
project. The private sector donated $13 million for building 
construction and the State provided the University with funds to lease 
the building.
    ``The George'' is rapidly becoming a centerpiece for economic 
development, educational opportunities, and outreach in the region. 
Partnership activities and programs include the following:
    <bullet> Spartanburg County Economic Futures Group is the local 
community-wide economic development organization. The by-laws mandate 
that the USC Upstate Chancellor, the President of Spartanburg Community 
College and the Dean of the Johnson College of Business serve as board 
members. We are full partners and it is valued in both directions.
    <bullet> Recently, a memorandum of understanding was executed 
between the Spartanburg Chamber, USC Upstate and Spartanburg Community 
College to collaborate on entrepreneurship. This program is part of a 
local focus on job creation and entrepreneurial success. Johnson 
College will be hosting a forum in the fall to bring the local support 
network together. The network will include mentoring for entrepreneurs 
and collaboration to launch Spartanburg based Venture Capital support.
    <bullet> The George has allocated space where business start-ups 
can work with students as they develop their businesses. Undergraduate 
classes can work on business or marketing plans to help establish the 
business. This fall the first external company will move in. Student 
business support is also offered and the space will be fully utilized 
this fall.
    <bullet> Johnson College hosts the BMW camp for high performing 
students in Math and Applied Sciences within business. This program 
matches emphasis on connections between sciences and careers. By 
jointly teaching these students there is promotion of business careers 
while building their understanding of applied math and science.
    <bullet> Traditional internship programs are enhanced with ``The 
George'' in the central business district. There are numerous 
relationships with companies in the Upstate where students can develop 
an internship. Many turn into full time jobs.
    <bullet> The George Dean Johnson, Jr. College of Business and 
Economics offers Executive Education programs in partnership with 
business and professional constituencies in the upstate metropolitan 
region. The programs are offered at the new business school building in 
downtown Spartanburg, and at the University Center Greenville. Three 
types of programs are offered: certificate programs, custom programs, 
and open enrollment programs.
1. Certificate Programs
    Executive education certificate programs present the option of 
multiple areas of study, covering the topics that are most critical to 
managers. As with all programs at the Johnson College of Business and 
Economics, certificate programs present the chance for professionals to 
build their knowledge and skills in one or more areas of focus in a 
timely and cost-effective manner. For example, our retail management 
certificate program includes four sections of study to enhance 
managerial competence at retail: retail management, retail accounting/
financial analysis, communication theory and practice, and 
communicative Spanish for retail personnel.
2. Custom Programs
    Building upon a long-standing dedication to premium educational 
experiences, core strengths lie in providing timely, innovative, 
partner-driven learning options that are designed with the client in 
mind, and individualized accordingly.
3. Open Enrollment Programs
    There is a broad choice of open enrollment programs, generally 
lasting two days. Past subjects have included ``How to Export from the 
Upstate,'' and an overview of the ``Six Sigma Quality Process.''
``Direct Connect'': Initiatives promoting accessibility, affordability 
        and degree-completion
    In 2009, a Spartanburg Chamber of Commerce committee on college 
attainment established the fact that only 19% of the local population 
over age 25 has a baccalaureate degree or higher. The local population 
falls far below the 24% state average and the 26% national average of 
baccalaureate degree attainment. High performing cities and regions 
have baccalaureate educated populations in the high 30%s up to 50%. For 
our region to compete for jobs and companies we must have an educated 
workforce. In response to this message and because of our mission, this 
University has developed several programs focusing on degree 
completion, accessibility, and affordability of higher education.
    Direct Connect is a degree completion program involving 
articulation agreements with several community colleges in the region. 
Academic personnel have worked together to establish program 
requirements that can be transferred automatically and seamlessly from 
the community college to the University. Signing up for Direct Connect 
insures automatic acceptance at USC Upstate (only one application) when 
the program curriculum is followed at the community college. We 
currently have these agreements with Spartanburg Community College, 
Greenville Technical College and Tri-County Technical College. Several 
more are being developed.
    This program is an aid to affordability of college as the averaged 
four year costs are lower when taking the first two years at the lower 
tuition technical/community colleges. Accessibility is enhanced through 
the USC Upstate campus in Greenville as well as multiple sites at the 
two year colleges and the availability of online classes offered at the 
two-year programs and at USC Upstate.
    Another degree-completion program is called ``Track Two''. This 
program in the new IDS (Interdisciplinary Studies) program is designed 
as an option for students who have accumulated many undergraduate hours 
but have no degree.
Other Partnerships
    Various departments and offices at the University partner with many 
community organizations that impact and are involved with economic 
development/quality of life/workforce development issues. These include 
the following:
    <bullet> City of Spartanburg
    <bullet> City of Greenville
    <bullet> Spartanburg County
    <bullet> Spartanburg Housing Authority
    <bullet> South Carolina National Guard
    <bullet> Chambers of Commerce (Greenville, Spartanburg, Greer)
    <bullet> Upstate Alliance
    <bullet> <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f8ac9d96b8ac909d">[email&#160;protected]</a> Top
    <bullet> Urban League of the Upstate
    <bullet> United Way of the Piedmont
Market Driven Programs in Response to Community Needs
    USC Upstate is obligated by our Metropolitan Mission to collaborate 
with area businesses and industry and respond to their needs. In recent 
years, the University has established numerous degree programs and 
minors/concentrations in this response that provide jobs and economic 
development in the region. Included are:
    <bullet> Robotics: Private industry has donated $500,000 in 
equipment and resources to equip and establish a robotics lab on 
campus. Research efforts have led to 10 peer-reviewed robotics-related 
research articles published in Journals or Conference Proceedings since 
2006. Three courses are taught in the lab: industrial robotics, 
artificial intelligence, and computer vision. A focus area in 
``Automation'' in the Computer Information Systems degree was recently 
developed in partnership with the Business and Engineering Technology 
Management program. The robotics lab is also utilized for several 
community engagement activities. Since 2009, approximately 40 students 
each summer have participated in robotics summer camps where they learn 
how to operate and program the machines in a fun, hands-on environment.
    <bullet> Engineering Technology Management: The Bachelor of Science 
degree in Engineering Technology Management (ETM), accredited by the 
Technology Accreditation Commission (TAC) of ABET, builds on the 
technical foundation of an ABET accredited Engineering Technology 
Associate's Degree, which students can earn from Greenville, 
Spartanburg, Piedmont, York, or other technical colleges. Most ETM 
students are non-traditional students looking to increase opportunities 
by adding a Bachelor's Degree to their Associate's Degree in 
Engineering Technology. Current students and graduates work for local 
companies such as Avery Dennison, Baldor, BMW, CH2MHill, Fitesa 
Fiberweb, Fluor, Hubbell Lighting, KTM Solutions, Michelin, TieTex, and 
USC Upstate.
    <bullet> Child Advocacy Studies: The Psychology Department is the 
home of the Child Advocacy Studies minor. This interdisciplinary minor 
prepares students to work with abused and neglected children. Courses 
in the program focus on child maltreatment, system responses to child 
maltreatment, and intervention strategies. An internship experience in 
an agency dealing with child maltreatment is available in the program. 
The Psychology Department also maintains an active internship program 
where students are placed in different agencies in the community and 
get direct experience with the populations that psychologists serve.
    <bullet> RN to BSN Nursing: The Mary Black School of Nursing is the 
largest deliverer of BSN degrees in South Carolina. Partnering with the 
large hospitals, Mary Black SON offers nursing education to working RNs 
on their days off. This program helps the immediate need for BSN nurses 
in area hospitals.
    <bullet> BS in health sciences: To meet demands of healthcare 
providers and jobs beyond nursing, Mary Black School of Nursing is 
pursuing a health sciences program. This program can prepare many 
students for the workforce who could not all get into the Nursing 
program or want to prepare for other jobs in this region.
    <bullet> MSN with a concentration in Clinical Nurse Leader: Mary 
Black School of Nursing is also pursuing a Master's Degree program. 
Hospitals are very desirous of Master's level nurses and have been very 
helpful in the University being approved for this program. Most 
employed nurses cannot leave employment to go off to get this degree. 
There is a large demand for this offering locally.
    <bullet> Graphic Design: Another market-driven program, it was one 
of the first BA degrees in the State in graphic design. It was designed 
10 years ago to be the upper division for the two year graphic design 
program at Greenville Technical College. This popular program places 
graduates across the Upstate in business and industry. Recent graduates 
were employed at the Palladian Group, Erwin-Penland, Bounce-Greenville 
and Michelin.
    <bullet> Information Management and Systems: The IM&S degree is a 
multi-disciplinary degree comprised of courses in computer programming, 
relational database design and utilization, computer networking, social 
networking, business informatics, business theory, information 
resources management, and communication. Each student completes either 
a minor in another domain or one of four application areas: healthcare, 
business, education, or communication. The IM&S program is available 
through USC Upstate's Greenville campus as well as our Spartanburg 
campus. Students routinely transfer a significant percentage of the 
required 120 hours from other institutions and we have special 
articulation agreements with several community and technical colleges. 
Much of the IM&S is available online. The entire healthcare application 
area can be completed online. The Bachelor of Arts in Information 
Management & Systems/Health Information Management (IMS/HIM) is the 
only degree program of its kind in South Carolina.
    <bullet> Metropolitan Studies Institute: The MSI supports research 
efforts between USC Upstate and the community, enhancing relationships, 
promoting the reciprocal flow of information and ideas, assisting 
community and economic development, and increasing the strategic use of 
the University's scholarship and outreach capabilities.
    <bullet> Teacher-To-Teacher Partnership: A partnership with 
Spartanburg District 6, this internship program recognizes the need to 
retain promising teachers in the profession. Through an extended 
supportive relationship, the partners provide ongoing mentoring in 
early clinical experiences and student teaching which continue through 
the induction contract year.
    <bullet> Evening Program in Early Childhood and Elementary: Our 
early childhood and elementary education program is offered in the 
evenings at UCG (Greenville) in order to accommodate currently employed 
Teacher Assistants in Greenville County Schools. These persons would 
otherwise not be able to attend college as they cannot afford to give 
up employment in order to attend school during the day. Students are 
able to complete their student teacher requirement in the schools where 
they are already employed.
    <bullet> Visual Impairment Program: The School of Education offers 
the only Master of Education in Visual Impairment Program in South 
Carolina. The comprehensive and culturally responsive program of study 
includes a strong emphasis on braille, assistive technology, and 
teaching reading and mathematics skills and concepts to students with 
visual impairment. Throughout the coursework, candidates simultaneously 
participate in a variety of different clinical experiences at schools 
to apply what they are concurrently learning under ``real life'' 
conditions. One of the truly unique aspects of Visual Impairment 
Program is the collaboration with the South Carolina School for the 
Deaf and the Blind (SCSDB) to maximize program effectiveness.
    The School of Education received a grant for $746,956 from the U.S. 
Department of Education to significantly increase the number of highly 
qualified, certified teachers of students with visual impairments in 
South Carolina. We are on target to train an additional 48 teachers by 
the end of the grant. This is especially critical as an estimated 50 
percent of certified teachers of students with visual impairments are 
expected to retire within the next three to five years.
    <bullet> Non-Profit Management: Including churches, there are over 
700 non-profit organizations in Spartanburg County alone. This program 
was initiated (when started it was the first program in South Carolina) 
from a need to enhance an educated workforce for non-profits. The 
curriculum is designed to help students fulfill their requirements for 
national certification (Nonprofit Leadership Alliance--NLA based in 
Kansas City). They are required to have 18 hours of nonprofit courses, 
and 300 hours of internship experience.
                                 ______
                                 
    Mr. Gowdy. Dr. Miller.

             STATEMENT OF KEITH MILLER, PRESIDENT,
                  GREENVILLE TECHNICAL COLLEGE

    Mr. Miller. Chairman Wilson, Congressman Gowdy, thank you 
very much for the opportunity to testify this afternoon.
    Before I get into my formal comments, I want to point out 
that some of what you are going to hear me say you have already 
heard, and I point that out because that shows the level of 
integration you see in this area already, and, of course, we 
are working to deepen that, but it does illustrate the level of 
partnership that is there already. That certainly is positive.
    Greenville Tech is a comprehensive 2-year college. We serve 
about 15,000 students a year in degree and certificate programs 
and another 20,000 students a year in some sort of workforce 
training, continuing education programs. This is across 4 
campuses with 160 programs. The student body has an average age 
of 26, and I point that out because it illustrates who our 
students are, and they are not students right out of high 
school. They are the middle-age adult that maybe has a part-
time job and family responsibilities. They are students that 
sometimes come back to us from the universities to change 
careers, to upgrade a skill. So we do have a mixture of 
students on campus, which provides for a unique experience for 
everyone.
    Greenville and the upstate are fortunate to attract new 
firms and to see existing businesses expand. Greenville 
Technical College has played an important role in this success. 
Our job now is to work with employers to bridge the skills gap 
that exists in manufacturing, health care, IT, and other 
industries. The revival of our economy requires a continued 
partnership of education and employers.
    As an example, projections are that there will be several 
thousand jobs will be available in the advanced manufacturing 
sector just in the upstate of South Carolina in the next 3 to 5 
years. Yet thousands of unemployed people are largely 
unqualified unless they get additional training and education. 
Greenville Tech is a part of a regional approach to address 
this issue by helping form and be an active partner in the 
Advanced Manufacturing Consortium, which is essentially 
colleges and the private sector coming together to address the 
need that is there.
    And you heard an example up here during your first panel 
from your BMW representative when he announced the BMW Scholars 
program. That program takes individuals that probably would not 
be able to afford to quit a job to go back to school full time 
because of family and other responsibilities, but because of 
BMW's stepping up to the plate, they not only provide that 
scholarship while they are getting their education at 
Greenville Tech or Spartanburg Community College or Tri-County 
Tech, but then for I believe it is 20 hours a week, they are 
actually on site getting the hands-on experience while getting 
paid a salary. That program would not work just by Greenville 
Tech being there. It would not work just by BMW being there. 
But it is a perfect example of what we can do together and more 
of what we are working on together.
    To attract the nation's best and brightest to manufacturing 
careers where they will fill the shoes of retiring workers, we 
are also part of the National Association of Manufacturers' 
Dream It and Do It program, essentially to help market and 
promote a manufacturing career to the young individual. You 
know, when we started the conversation with BMW in what has 
resulted in what is the Scholars program, my conversation with 
the president of BMW, he asked me, he said, how can we get more 
people, more young people, interested in the manufacturing 
sector, a career in manufacturing? The Dream It and Do It 
program is one of those programs. It is to enlighten us, you 
might say, about the high-tech environment in manufacturing, 
how it has changed over the years, and the wide range of 
careers that are available, and we are heavily involved in that 
program.
    Greenville Tech is part of an upstate effort, which you 
have heard a little bit about, called the National Fund for 
Workforce Solutions. The purpose of this is to work with 
employers to reduce training and recruitment costs.
    A unique program that the college has to connect the 
individual with education and the workforce is what we call 
Quick Jobs. Quick Jobs is 90 days' worth of training, and it 
can be in manufacturing, it can be in health care. The idea is 
an individual may not be able to quit their job and go back to 
school because they can't afford to do that. So the 90 days' 
worth of training gives them very basic skills, hopefully, to 
get an entry-level job and go back to work and earn a salary, 
and then start working at a certificate and a degree program.
    Some of the tools that are important for us: Workforce 
Investment Act. This act has funded many Quick Jobs programs. 
Unfortunately, that number has decreased by 20 percent due to 
the reduction of funds in that area. As well, the Workforce 
Investment Act has been very supportive of Greenville Works, 
the consortium of economic development entities that you heard 
about earlier. That is certainly important.
    How we make the connection with other parts of education: 
We work with area career centers in the K-12 system, bringing 
in 500 students at least a semester through our dual enrollment 
program.
    And finally, some of the other critical federally funded 
federalprograms that are very important to us: a TRIO program. 
There is a lot of staff and students from TRIO, which is a 
federally supported program that helps provide support for 
students by developing family connections and helping them 
overcome a number of different barriers.
    And the other program that is very important is the Pell 
grant. Approximately 50 percent of our students benefit from 
Pell grants. That is over 7,400 students a year receiving over 
$33 million a year. So think about how many students would not 
receive a higher education if it wasn't for the Pell grant. So 
we commend Congress for coming together with the recent debt 
limit extension legislation of $17 billion over 2 years to 
shore up the finances of the Pell grant, because it does touch 
a lot of lives, and it certainly has a positive impact on this 
economy.
    Thank you.
    Mr. Gowdy. Thank you, Dr. Miller.
    [The statement of Mr. Miller follows:]

           Prepared Statement of Dr. Keith Miller, President,
                      Greenville Technical College

    Education drives economic growth, but not just any education. When 
employers and colleges work together to grow a skilled workforce, the 
individual, the company, and the economy prosper. Greenville and 
Upstate South Carolina are fortunate to attract new firms and to see 
existing businesses expand. Greenville Technical College has played an 
important role in this success. Our job now is to work with employers 
to bridge the skills gaps that exist in manufacturing, healthcare, IT 
and other industries. The revival of our economy requires the continued 
partnership of education and employers.
Making the Jobs Connection
    <bullet> A gap exists between the skills employers need and what 
workers bring to the table. Several thousand jobs will be available in 
the advanced manufacturing sector in Upstate South Carolina in the next 
three to five years, yet thousands of unemployed people are largely 
unqualified unless they get additional training and education.
    <bullet> Greenville Tech is part of a regional approach addressing 
this issue. The Upstate Advanced Manufacturing Consortium will work to 
equip enough people with advanced manufacturing skills to support 
companies that locate and expand in the Upstate.
    <bullet> The list of companies with manufacturing operations in 
this region reads like a who's who of industry, including BMW, 
BorgWarner, Bosch, General Electric, Gestamp, Milliken, Michelin, 
Nestle, and Timken. These companies and other provide a diverse array 
of manufacturing sectors with automotive, wind and gas turbines, tire 
and rubber, aerospace, plastics, metalworking, textiles, advanced 
materials, and consumer products represented.
    <bullet> The transportation sector continues to grow. BMW leads the 
way, now the largest exporter of cars in the United States. BMW 
recently announced the company's new BMW Scholars program, an 
opportunity for Greenville Tech, Spartanburg Community College, and 
Tri-County Tech to help the company grow its workforce.
    <bullet> To attract the nation's best and brightest to 
manufacturing careers where they will fill the shoes of retiring 
workers, Greenville Tech works with the National Association of 
Manufacturers on the Dream It. Do It. effort that invites young people 
to find and follow a passion into a manufacturing career.
    <bullet> Greenville Tech is part of the Upstate effort to create an 
innovative workforce development project, made possible by the National 
Fund for Workforce Solutions. The purpose is to work with employers to 
reduce training and recruitment costs while helping people become 
qualified for higher skilled jobs that earn higher pay.
Helping People Re-enter the Workforce
    <bullet> More than 230 nurses have re-entered the workforce after 
taking time away thanks to an online nurse re-entry option for RNs and 
LPNs. These are people like Diane Stewart, who completed the course in 
November 2010 and was sponsored by WIA through Trident Technical 
College. Stewart reactivated her lapsed nursing license and is now 
employed.
    <bullet> The Quick Jobs with a Future program was developed in 2001 
to give displaced workers and those going through occupational 
transition a way to gain relevant skills and enter the workforce in 90 
days or less. Over the past ten years, Quick Jobs has helped 12,000 
people. The program has been so successful that it went statewide in 
2009 when the State Workforce Investment Board and State Tech partnered 
to use American Recovery and Reinvestment Act (ARRA) funding to support 
Quick Jobs training and get people back to work.
    <bullet> Quick Jobs training has helped to write many success 
stories. For example, the woman who came to Greenville Tech when a 
layoff ended her 23-year career in a low-skilled manufacturing job. 
Sponsored by WIA, she completed the Physician Practice Health 
Information program and now works for a local hospital in medical 
records. Or the man who lost his job at a local plant when a fire 
closed it down. He completed a series of environmental courses, 
freelanced for local environmental consulting firms, and eventually 
became an employer himself, opening a company and hiring several 
people.
WIA Funding Makes a Difference
    <bullet> Since many Quick Jobs programs are skill based but do not 
award college credit, those enrolled can't often qualify for financial 
aid. Workforce Investment Act (WIA) funding was critical in allowing 
students to use Quick Jobs to get back on their feet.
    <bullet> With ARRA money exhausted and WIA funding reduced, we are 
now serving less than 20% of the number of the Quick Jobs clients we 
served with ARRA support.
    <bullet> WIA funded incumbent worker training (IWT) grants have 
provided valuable assistance to companies to keep them and their 
employees viable and to reduce the risk of downsizing. Greenville Tech 
conducted IWT training for the life sciences and advanced manufacturing 
sectors last year. The chemical sector applied this year, but there is 
no funding for IWT at this time.
    <bullet> WIA has also been very supportive of Greenville Works, a 
coalition of local economic development and educational groups. WIA's 
ability to continue to fund this strategic initiative has been 
diminished this year.
Making the Education Connection
    <bullet> Over 500 students each semester from Greenville County 
Schools Career Centers earn dual credits, which count toward high 
school graduation and college, in programs including automotive 
technician, auto body, building construction, culinary arts, aircraft 
maintenance, AutoCAD, and welding.
    <bullet> Our Early College project allows juniors and seniors to 
earn college credit and experience college work, saving them time and 
money.
    <bullet> Greenville Tech works closely with all major four-year 
colleges and universities in the state. We have joint admission 
agreements, bridge programs, articulation agreements and a close 
collaboration with USC Upstate through Upstate Direct Connect.
    <bullet> Greenville Tech is a partner in the University Center of 
Greenville, a consortium of higher education institutions working 
together to bring the people of Greenville greater access to 
educational opportunities.
Pell Grants are Critical
    <bullet> Without Pell grants, the single mother who struggles to 
provide for her family, the first generation college student hoping to 
raise his standard of living, and the unemployed individual who needs 
updated technical skills to qualify for one of today's jobs would not 
have the means to attend Greenville Tech.
    <bullet> Approximately 50% of our students benefit from Pell 
grants. That means 7,412 Pell grant recipients receiving 
$33,457,407.66.
    <bullet> Steep cuts in Pell would leave these students with a much 
heavier dependence on student loans, a large loan debt upon graduation, 
the possibility of greater dependence on Lottery Tuition Assistance 
that might trigger reductions in awards, and ultimately, fewer students 
enrolling, an effect that would impact employers who need a steady 
supply of well-trained workers.
    We commend Congress for putting into the recent debt limit 
extension legislation $17 billion over two years to shore up the 
finances of the Pell Grant program. This action will ensure that all 
eligible students can continue to receive the $5,550 maximum grant. 
This support for Pell was bi-partisan and we urge Congress to continue 
to act to keep this critical program whole.
State Funding Has Declined Dramatically
    <bullet> State funding for our students has decreased dramatically. 
For the 1999-2000 academic year, the state provided Greenville Tech 
with $1,473 per student. By 2010-2011, that amount had been reduced to 
$677.
    <bullet> Tuition and fees make up a greater portion of our 
operating revenue than they once did. In 1990, tuition and fees were 
only 5.8% of the operating revenue, but in 2010, this source of funds 
was 52.7% of the total. When we have to raise tuition and fees to 
continue to meet our goals of providing high quality opportunities for 
learning, we impact the people who can benefit from what we offer.
                                 ______
                                 
    Mr. Gowdy. Ms. Hickman.

          STATEMENT OF AMY HICKMAN, CAMPUS PRESIDENT,
                   ECPI COLLEGE OF TECHNOLOGY

    Ms. Hickman. Chairman Wilson, Representative Gowdy, thank 
you for holding this field hearing.
    America and South Carolina are facing tough economic times. 
We have already alluded to the high unemployment rate in the 
United States, as well as in South Carolina. Creating jobs is 
imperative for the U.S. to maintain its standing in the world.
    The South Carolina upstate, home to ECPI's Greenville 
campus, has a long history of tailoring education to the needs 
of local industry, which we have heard a lot about today. That 
once meant textiles. Now it means high-tech manufacturing and a 
diverse industry driven by population growth.
    ECPI University is a strong part of the community of public 
and private institutions that train the local workforce. 
Accredited by the Southern Association of Colleges and Schools, 
its 13 campuses offer programs focused on skill-based, 
employer-driven education. Our 3 South Carolina campuses, 
Greenville, Columbia, and Charleston, employ 160 South 
Carolinians. In 2010, ECPI generated over $15 million in 
taxable revenue to the State. This is a public-private 
partnership that yields positive results, workforce training, 
and revenue for local government.
    Established in 2000, the Greenville campus has an annual 
enrollment of over 500. We offer a variety of programs from 
diploma to bachelor's degrees in nursing, allied health, 
technology, and business. Our associate's degree can be 
completed in 18 months, a bachelor's degree in 30. Adult 
students know that completing a program that quickly with a 
convenient schedule has value as they can enter the job market 
with new skills faster.
    As the upstate job market has changed, the quality of jobs 
and incomes have risen. For example, Concentrix is able to 
provide high-level technical customer service from a hub in 
Greenville because they can recruit students such as those from 
our network security program. Colleges like ECPI also play an 
important role in retraining workers displaced by the recent 
recession. My written testimony contains examples of our 
graduates' successes, as well as our strong graduation and 
placement rates.
    Our graduates play a vital role in meeting the changing 
health care needs of the region. The Greenville campus has 
doubled our practical nursing program in the last 2 years to 
nearly 100 current students. Many graduates staff the growing 
number of assisted-living facilities in the areas that serve 
our aging population.
    It is not by accident that we provide the skills that 
employers most need. Twice a year employers examine our 
programs to evaluate whether they address the changing trends 
in their industries, and we revise and refocus our curriculum 
based on their recommendations.
    Our attendance at events sponsored by organizations like 
InnoVenture, sometimes on this campus, helps us remain in tune 
with trends and developments in the business community. For 
every program that we launch, we survey employers to determine 
their needs and to seek externship sites, which all of our 
students are required to complete.
    Based on their recommendations, last year we launched 
programs in database programming and health care 
administration. We are now looking to address the needs of an 
increasingly mechanized manufacturing industry and a quickly 
digitizing health care system.
    Employers who relocate to the upstate have said repeatedly 
that a skilled workforce is a key factor in their decision. 
Even so, I have yet to hear from any that they have a surplus 
of highly qualified applicants.
    The vision for Greenville's future will make us a model of 
environmentally sound community planning and technological 
breakthroughs, requiring an increasingly skilled pool of labor. 
To satisfy that need, it is vital that students have a wide 
range of educational choices available, and ECPI offers a 
strong option among those choices.
    Our career services department works directly with 
employers to match graduates to their particular needs, which 
is why companies like Draexlmaier and Windstream return to us 
again and again. Our strong reputation and quality of education 
are equipping graduates with the skills to succeed in the 
workforce and to help companies grow.
    I hope the subcommittee has learned new information from us 
about the vital connection between higher education and filling 
jobs, and I look forward to your questions on how higher 
education plays a critical role in getting America back to 
work.
    Mr. Gowdy. Thank you, Ms. Hickman.
    [The statement of Ms. Hickman follows:]

          Prepared Statement of Amy Hickman, Campus President,
                 ECPI Greenville, South Carolina Campus

    Chairwoman Foxx, Representative Gowdy, and other distinguished 
Subcommittee Members, my name is Amy Hickman and I am the Campus 
Director for ECPI University's Greenville, South Carolina Campus. Thank 
you for holding this field hearing and for the opportunity to share my 
thoughts with you on the topic of ``Reviving our Economy: The Role of 
Higher Education in Job Growth and Development.'' America and South 
Carolina are facing tough economic times. The national unemployment 
level is 9.1 percent and South Carolina's unemployment rate is over 10 
percent. Creating jobs is imperative for the United States to maintain 
its standing in the world. I commend you on holding this hearing and 
exploring the essential role of higher education in a national job 
creation agenda.
    The region we call the South Carolina ``Upstate,'' home to ECPI's 
Greenville campus, has a long history of providing education tailored 
to the needs of local industry. That once meant textiles, now it more 
often means high-tech automotive manufacturing and the diverse 
technology-focused support industries driven by the population growth 
we have been fortunate to see over the last two decades. The Greenville 
area has become a popular relocation destination for retirees, but also 
for working families looking for a strong job market and a relatively 
low cost of living. ECPI University is a strong part of the Upstate 
higher education community of public and private institutions that 
train students who become part of the local workforce. ECPI's 13-campus 
system offers programs that focus on skills-based, employer-driven 
education and includes three South Carolina campuses: Greenville, 
Columbia, and Charleston. Currently, ECPI employs 160 South 
Carolinians, all whom are dedicated to ensuring our students succeed. 
As a tax-paying corporation, ECPI generated over $15 million in taxable 
revenue in 2010 to both the federal government and the State of South 
Carolina. This is a public-private partnership that yields positive 
results: workforce training, jobs filled, employer demands met, and 
revenue for the local government.
    Established in 2000, the Greenville campus has an annual enrollment 
of over 500. Many of these students came to us after having attended 
other colleges but found that they fit at ECPI because of its career-
readiness focus and condensed, flexible programs. We offer a variety of 
programs at our Greenville campus. Our School of Technology offers an 
associate's program in Electronics Engineering Technology and 
bachelor's programs in Network Security, Web Development, and Database 
Programming. We also offer Business Administration programs with a 
unique technology focus. At our School of Health Sciences on campus, we 
offer programs in Medical Assisting, Medical Administration, Practical 
Nursing and Healthcare Administration and we plan to increase the 
programs we offer in the health fields on our campus.
    A real advantage for ECPI students is that our associate's degree 
can be completed in 18 months and a bachelor's degree in 30 months. 
Adult students know that completing a program quickly with a convenient 
schedule has value in their lives as they can get into the job market 
with new skills faster. The typical student at ECPI is ``non-
traditional''--adult, independent, working, and often a parent and/or 
first-generation college student. At ECPI Greenville, we have an 
overall cohort graduation rate of 61%, which is well above the 
graduation rate at other colleges serving a similar student population. 
ECPI's selective admissions process, smaller class sizes, and work-like 
environment allow our students to succeed at high rates. We attribute 
our students' graduation success not only to our academic advising and 
tutoring, but also to our mandatory attendance policy and proactive 
approach to student success, which allows many to excel when they had 
struggled before. ECPI also has successful employment rates: our 2010 
graduates range from over 70% placement to nearly 100% in some 
programs, with an overall average of 80% placement.
    The programs ECPI offers are purposely focused on the technology 
and health care fields where there is consistent and growing demand for 
skilled workers in the Upstate region. As the Upstate job market has 
changed, the quality of jobs and incomes have risen. For example, 
companies like Concentrix provide high-level technical customer 
service. They are able to operate a major hub in Greenville because 
they can recruit students such as those from our Network Security 
Management program. Over the last eight years in Greenville, we have 
graduated 775 students with degrees in computer science, as part of a 
University system that is second in the nation in the number of 
computer science associates degrees awarded last year, according to 
Community College Week. The fact that our students apply the knowledge 
they learn, both in the classroom and on externship, means they enter 
the workforce highly prepared. As an example of that, an Electronics 
Engineering Technology graduate from ECPI recently hired by Kemet, a 
global high-tech company based in Greenville, South Carolina, was told 
by Kemet that they typically keep employees on contract for over a year 
before making a permanent hire. Our graduate, however, spent only two 
months as a contractor before being permanently hired. Her success has 
been truly life-changing: she attended school under the GI bill and 
persisted despite mounting medical bills from a child's sickness and a 
divorce. Her success story demonstrates ECPI's ability to offer 
quality, flexible education that prepares workers and meets employers' 
needs for qualified workers in the region.
    Colleges like ECPI also play an important role in retraining 
workers displaced by the recent recession and in need of career re-
direction and re-training. As an example, one student came to us after 
having been laid off from Timken and believed attending ECPI was his 
best option for obtaining higher education. He is now about to graduate 
with a degree in Electronics Engineering Technology and has been re-
hired by Timken and promoted into their engineering department.
    Our graduates also play a vital role in meeting the changing 
healthcare needs of Greenville's population. One of our graduates 
entered our medical assisting program after having moved from job to 
job for years with little stability. Shortly after graduation, she 
began working in a doctor's office. Once she became certified as an 
RMA, she was hired, like many of our graduates, by the Greenville 
Hospital System and now has a stable career. It is important to note 
that as other schools that are dependent on public funds have limited 
or closed their practical nursing programs, ECPI has doubled our 
nursing program in the last two years to nearly a hundred current 
students. Most often, our graduates staff the increasing number of 
assisted living facilities in the area that will meet the needs of a 
growing population of retirees. With over 23% of our population age 55 
or older, these graduates will be crucial to providing the care needed 
for our aging population, particularly as Greenville continues as a 
popular retirement destination.
    It has not been by accident that we provide the skills our 
employers most need. Twice a year, our employers examine our programs 
to evaluate whether they address the changing trends in their 
industries. We revise and refocus our curriculum based on the 
recommendations of those in the industry for which our students are 
preparing. We look to design programs the Upstate will need as we move 
into a future that requires more technical and health-focused skills 
from its workforce. For example, to meet demand we recently applied for 
and the Southern Association of Colleges and Schools recently approved 
our request to offer a master's degree in computer science, which we 
hope to offer in the near future. Our attendance at events sponsored by 
organizations such as InnoVenture and the Greenville-Spartanburg-
Anderson Technology Council helps us remain in tune with trends and 
developments in the business community. For every program that we 
launch, we survey employers to determine their needs and seek 
externship sites. Employers are eager for our students to serve as 
externs, both as a way to complete projects and as a testing ground for 
future employees. Based on employer recommendations, in the last year 
we have launched new programs in database programming and healthcare 
administration. We are currently planning programs that will address 
the needs of an increasingly mechanized manufacturing industry and a 
quickly digitizing healthcare system. We hear again and again from 
employers who relocate to the Upstate that a skilled workforce is a key 
factor in their decision. Even so, I have yet to hear from any of them 
that they have a surplus of highly qualified applicants. The vision for 
Greenville's future will make us a model of environmentally sound 
community planning and technological breakthroughs, requiring an 
increasingly skilled pool of labor. To satisfy that need, it is vital 
that students have a wide range of educational choices available, and 
ECPI offers a strong alternative choice.
    Finally, our training is not limited to technical skills our 
graduates need for a career field. Our focus on attendance and a 
required professional dress day are an additional important part of how 
we provide students with the soft skills employers increasingly seek. 
Our general education courses focus on communication skills and 
critical thinking, areas employers generally find lacking in many other 
college graduates. No matter the program, our students are well 
prepared for a paperless workplace, having been instructed in a 
virtually paperless classroom. We train students on resume-building and 
interview skills. And we don't stop assessing how well our students are 
prepared when they graduate: when our students are hired, we survey our 
employers for additional feedback as to their performance.
    Our customer service surveys consistently reflect the good job we 
are doing, with 95% of our students indicating they would recommend the 
school to a friend and 21% of enrollments referred to ECPI by students 
and graduates. Historically, our graduates progress quickly in their 
careers and frequently become employers of future graduates. Our career 
services department routinely works directly with employers to match 
our graduates to their particular needs, which is why companies like 
Draexlmaier and Windstream return to us again and again to fill their 
openings in information technology. Even graduates who relocate 
maintain their ties with us and generate referrals, for instance, an 
alumnus working as a systems architect consultant for the FBI who has 
directed recruiters our way. Our strong reputation and quality of 
education are equipping graduates with the skills they need to succeed 
in the workforce at a time when these skills are most needed to help 
companies grow. I hope the Subcommittee has learned new information 
from us about the vital connection between higher education and filling 
jobs. I look forward to your questions on how higher education plays a 
critical role in getting America back to work.
                                 ______
                                 
    Mr. Gowdy. I will recognize myself and then recognize the 
distinguished gentleman from the Midlands, who also is a 
subcommittee chairman on Armed Services and serves in Congress 
with great distinction, and it is a pleasure to serve with.
    President Barker, you indicated in your statement Clemson 
has developed several initiatives with regard to student 
engagement, as I underlined that phraseology a couple of 
different times. Can you elaborate on that and why you think 
that is so important?
    Mr. Barker. Yes. Let me mention two programs and give a 
couple of quick examples. The first would be what we call 
internal co-ops. We want our students to have co-op 
opportunities off campus with BMW and Michelin and GE in the 
typical co-op, but we also believe we have the opportunity to 
create internal co-ops, and our goal is 500 of those co-ops in 
which students not only--we teach architecture, and we also 
build buildings. We teach finance, and we also do finance 
projects to make things happen. Why not bridge the two 
together? Instead of having one thing that is in the classroom 
and one thing that is in the administration, if you would, why 
not bridge them together? So we have created the opportunity 
for that to happen, and our target is 500 engaged students in 
that layer of depth in their education.
    The second is creative inquiry. This is a 3- to 4-semester 
experience when students in groups of about 10 tackle a project 
that the students themselves are particularly interested in. It 
has resulted in some examples that I would illustrate: 
designing a tire that allows lunar rovers to efficiently travel 
across the nation's surface. We did that with Michelin. It gave 
us an opportunity to engage again in that level. Developing a 
clean water system for the country of Haiti. Designing 
buildings to reduce energy consumption. Developing a campus 
tour app for iPhone so you can travel across our campus from an 
app on your iPhone. And writing and producing an original play. 
And publishing a collection of slave narratives as a book 
publication. Gives you an idea of two ways in which we engage 
students outside the traditional learning environment, 
oftentimes engaging with industry and others outside of campus 
that creates a richer environment for students.
    Mr. Gowdy. Thank you, Mr. President.
    Dr. Moore, I noted in your opening statement you used 
``accessible, affordable, accountable.'' You also mentioned 
transfers. Can you tell us a little bit about the demographics 
of your school and how that may or may not impact curriculum, 
and connect it up with higher education, if you can.
    Mr. Moore. As I said, we are educating the population of 
this part of the State of South Carolina, and our demographics 
reflect that almost exactly. We are right at 60 percent 
Caucasian, 26 percent African American, and a mix--the rest of 
the students are a mix of Hispanic and Asian and other 
ethnicities. It makes for a vibrant educational community.
    I am convinced out of some reading--there is a good bit of 
research--that meaningful education experiences demand frequent 
and ongoing encounter with the different. It is when we 
encounter something that is fundamentally different from the 
way we have known things to be or understand things, and that 
ethnic diversity creates a kind of environment where you have 
very different backgrounds, very different perspectives, a rich 
and vital educational environment for this part of the people 
of South Carolina, and that is the world they will be living 
and working in the rest of their lives. So they are 
encountering that where they are, and it really does enrich our 
community and our educational experience.
    Mr. Gowdy. Thank you, Dr. Moore.
    Dr. Miller, you may study Antigone. You may spend some time 
with the musings of the Danish existentialist Soren 
Kierkegaard. That probably is not going to help you get a job 
this day and age; although it is fascinating to read. How do 
you see the balance between that critical thinking that would 
come from reading either/or or Antigone and the practicalities 
of the modern-day workforce?
    Mr. Miller. I will answer that with an example. Fifteen 
years ago, an employer would say to me, I need people trained 
to be able to do something with electronics or somebody trained 
to be able to do something technical, and that was the end of 
it. And today what I hear from employers is, I need somebody 
trained to do this thing that is something with electronics, 
but they need to be able to think for themselves and work as a 
team. And that is a significant difference.
    And so I guess what I am saying is while Greenville Tech 
provides a lot of the occupational training education, what you 
have seen over the years at the 2-year level is we have also 
incorporated the liberal arts education, and that is where even 
a strong partnership between the 2-year colleges and the 
universities is absolutely critical because we can provide a 
lot of that hands-on occupational education, and, of course, 
the universities can take that a step further, but in addition 
the liberal part of that, to provide the critical thinking 
skills and so on.
    So, equally as important, I think the first panel referred 
to it as soft skills. Same thing; be able to think for yourself 
and work as a team is critical.
    Mr. Gowdy. Thank you, Dr. Miller.
    Ms. Hickman, you mentioned surveys that are sent out, I 
imagine, before you make changes in your curriculum. I also 
noted that you receive feedback on a consistent basis from 
employers who hire your graduates. What are you hearing in both 
your surveys and your feedback that others could benefit from?
    Ms. Hickman. Well, probably the most common remark and one 
that we like the best is how many more just like that can you 
send us and----
    Mr. Gowdy. Neither of us hear that very often. Can you say 
that again? Never heard it before.
    Ms. Hickman. They ask us, if you had 10 more just like 
that, we would take every one of them. And, in fact, we have--
of late, some of our employers are not even waiting until our 
students graduate, so that we have students who are hired with 
the understanding that they will, for instance, pass a CCNA 
certification. It does sometimes mean we lose them from our in-
seat classes, and they have to complete their degree on line, 
which they are able to do depending on their work schedule.
    But overwhelmingly the feedback from our employers is 
positive, and I think a lot of that is because we do take great 
care to match the graduate to the position. We don't send out 
blanket groups of resumes every time there is a job opening 
from one of our employers. We look at the skill set of each 
individual student, we look at what that student's ultimate 
career goals are, and we look at the needs of that employer, 
and we really try to send candidates to each employer who are 
going to be a good fit for that particular job.
    Mr. Gowdy. Thank you.
    I will now recognize my distinguished colleague Congressman 
Wilson.
    Mr. Wilson. Thank you, Congressman Gowdy.
    And President Barker, I want to thank you, First Lady 
Marsha Barker for your service. You have helped elevate Clemson 
to be one of the finest universities in the United States.
    I also am grateful for Clemson, one of your graduates, 
Senator Strom Thurmond. I had the privilege of being an intern 
in his office several years ago. My wife Roxanne was an intern. 
Our two oldest sons were interns in his office. And he taught 
us that every person that we represent is important, and I am 
sure that he learned that as being a cadet at Clemson College.
    With that, tens of millions of people drive by every year 
the International Center for Automotive Research, ICAR. When 
they look at this, I want them to think of what we are doing 
today, which is promoting job development. Can you tell us, 
again, some specific examples of how, due to the research here, 
that jobs have been created across our country?
    Mr. Barker. Well, if you think about the automobile, it is 
an extremely sophisticated platform of technology. In it, we 
deal with energy conservation. We deal with power train 
engines, drive trains. We deal with aesthetic issues of all 
types, you know, what color, what style, all those kinds of 
things. And so you have in an automobile some of the most 
sophisticated computer equipment, some of the most 
sophisticated seats. Just a seat in an automobile, how many 
times it moves back and forth, what it does to your back, 
whether it is heated or cooled or both, and that is a powerful 
piece of technology that is every day having options not just 
for the automobile, but the discoveries that are happening 
regarding energy conservation or power trains or, for that 
matter, furniture.
    So it is an extremely effective piece of technology, and 
the bits and pieces apply a lot of different parts of our 
economy. And it benefits from technical advances in terms of 
tier one suppliers, for example, which we work with, too, 
people that produce and manufacture some of the component parts 
that get assembled at BMW, and that is an important component 
of it as well.
    Mr. Wilson. And actually I saw that firsthand in visiting 
BMW a number of years ago. I was startled to find out that the 
paint on the vehicles is water-based, environmentally sound. I 
would have never imagined that it would be environmentally 
sound, water-based paint on vehicles.
    And, Dr. Miller, South Carolina has been a pioneer in 
technical and community colleges. Actually it was a committee 
like this that met 50 years ago with U.S. Senator Fritz 
Hollings and Congressman Floyd Spence, and they came up with 
the early pioneering view of creating institutions that would 
help train persons to be able to work immediately in 
manufacturing. Can you tell us how that is being done today?
    Mr. Miller. Certainly. And actually, the 50th anniversary 
of Greenville Tech is September 2012. So we are coming up on 
that anniversary, but how we do that, of course, has changed 
over the years dramatically, and there is not one way that it 
happens, which is important, because the needs of manufacturers 
tend to vary. There are a lot of similarities, but a lot of 
differences, too.
    But I will point out the most important component, which I 
believe that representatives of BMW also pointed out, too, and 
that is the apprenticeship model, the hands-on model. We 
certainly know from years of experience in higher education 
that what happens in the classroom is absolutely critical, but 
we now know that for that student to retain that, it has to be 
applied, and that is the importance of the apprenticeship model 
and the applied model, which is essentially the same.
    So we see that evolving not just with large manufacturers, 
such as BMW or Michelin, but even small businesses that we are 
about trying to set up consortia of small businesses where that 
same applied approach can be addressed. And I believe President 
Barker addressed that a little bit, too, because that is a 
critical aspect that helps with that retention of what happens 
in the classroom.
    Mr. Wilson. It just provides such opportunities for the 
people of our State, young people in particular.
    And, Dr. Moore, I am very grateful for the original 
campuses of USC. I represent Aiken, Buford, Salkehatchie, and 
so I know how important your regional campuses are. And can you 
tell--have any suggestions on how businesses and institutions 
can work better together to develop jobs?
    Mr. Moore. Oh, goodness. It is the whole subject of the 
hearing here, and it takes a partnership. It takes 
communication. It takes sitting at the table together and 
looking at the skills you need, and as Dr. Miller pointed out, 
those--what someone referred to as soft skills, being able to 
work in teams, critical thinking, analytical thinking, ability 
to solve problems in a way that is not more complex than 
historically has been the need, and identifying that; and the 
business people communicating directly with faculty and not 
just chancellors and presidents about what they need those 
people to have when they come out and go to work. We need more 
connection between the on-the-ground work of the institution, 
the classroom and laboratory education of students, and the 
business and industrial community.
    Mr. Wilson. And I know what you have done to provide an 
entry for young people to be able to begin higher education.
    I want to conclude. Ms. Hickman, the strong diversity of 
American higher education is one of our nation's greatest 
assets. Do you have any sense from your students how they 
selected your institution?
    Ms. Hickman. I think that probably the majority of them 
have been looking for something that they didn't find at more 
traditional institutions, and oftentimes for them that is a 
personal connection, a personal touch that keeps them connected 
to every faculty member, every staff person, every 
administrator that they encounter. Some of the students in our 
education system that we fail, we fail because they don't feel 
cared about, and they get shuffled away and lost. And so 
institutions like ours make a great effort to cater to those 
students who had previously perhaps been lost and to find that 
connection that is going to keep them coming to class where 
previously they might have given up and just stayed home.
    Mr. Wilson. You, again, provide a great opportunity. Thank 
you very much, and I return to the current chairman.
    Mr. Gowdy. Congressman Wilson, would you be amenable to me 
doing what I did last time, which is asking----
    Mr. Wilson. Actually, hey, I am so grateful to be in Trey 
Gowdy's district. Listen, I truly want to defer back, and, 
again, I am just so proud of you.
    Mr. Gowdy. Can I interpret that as a yes, that you would 
allow me a lightning round understanding----
    Mr. Wilson. Yes, please.
    Mr. Gowdy. Dr. Barker, I remember the first time you came 
to Congress because you did not ask for a single solitary 
thing, which puts you in a very small group of people, and I 
kept waiting the entire time, the entire time, what is he going 
to ask for, what he is going to ask for. And then 30 minutes 
after you had gone, it finally dawned on me he really is not 
going to ask for anything, and you didn't.
    So let me ask you, what does government do well, what does 
it do poorly, how can we do a better job at the federal level? 
Acknowledging there is a robust debate over where the 
responsibility for education lies, how can we do a better job?
    Mr. Barker. Let me make one suggestion here that may seem 
odd, but one thing you can do is measure the return on 
investment, measure the amount of tuition paid by a student 
with what their salary turns out to be 4 years out of school, 5 
years out of school, whatever your ratio you want to use. I 
think that kind of question about return on investment is one 
which I have seen some analysis done recently, and I wouldn't 
suggest this if Clemson didn't figure pretty well in it. We 
were number 6 in the United States ahead of all the Ivy League 
schools, I might mention, in terms of return on investment. 
That is a suggestion I would make.
    Mr. Gowdy. Thank you.
    Dr. Moore, you mentioned that University of South Carolina 
Upstate had its origins in nursing. I think you also mentioned 
in your testimony the number of your graduates that tend to 
stay in the area.
    Mr. Moore. Correct.
    Mr. Gowdy. Given the health challenges that we have in this 
country and the need for more physicians and presumably more 
nurses, what are you doing to meet that, and how can we help?
    Mr. Moore. Nursing education is very expensive. It is a 
very small student-to-faculty ratio, which is required by the 
accrediting bodies. We are up for accreditation this fall. We 
will have a site visit. Nursing is an area where I think the 
acknowledgment that higher education is a public good, not just 
a private good, is important. There are areas of life where the 
absence of people educated in certain ways are a huge detriment 
to that part of the world.
    So as we think about how we think about funding higher 
education, particularly in certain areas, to keep before us the 
fact that this education really is a public good and a 
necessity for the well-being in that community; being 
accessible and affordable; remaining affordable in nursing 
education; enabling people of less than great means to pursue a 
career in health care, a very meaningful career, and pursuing 
it; Pell grants, need-based aid, ways for those people to be 
able to afford the high cost, public and private, individual 
and collective, of educating in those particularly high-demand, 
high-needs, high-tech areas. It matters.
    Mr. Gowdy. Thank you.
    I am going to ask the same question of Dr. Miller and Ms. 
Hickman. Can you give us an example of perhaps a well-intended 
regulation in the educational realm that wound up having an 
unwittingly pernicious impact on education? I know how Pell 
grants would impact the various institutions, but are there 
other regulations, because from time to time they get proposed 
to us on E&W. Is there one that leaps to your head, I know what 
you all were thinking, but if you had been thinking right, you 
never would have done this?
    Mr. Miller. Certainly. I mentioned briefly the Workforce 
Investment Act, and that, as I saw, when that first came to the 
surface some years ago, the intent was to bring together the 
private sector and higher education partnership, which 
absolutely needs to happen, but I think over the years, and as 
it flowed through the federal government, through the State 
governments, we lost focus on that. And actually the most 
critical part now in how do those partners come together and 
identify the training and deliver the training almost seems 
secondary, and the primary thing is how do we function with the 
system, a lot of overhead and that type of thing.
    So I think the concept is still good, and the intent is 
still good, but I think we need to step back and readdress that 
a little bit.
    And then if I could mention one more thing. This isn't a 
regulation per se. There might be some regulations that prevent 
this, but I think if there was one big thing that the federal 
government could do to help promote more of what we are doing, 
and that is the economic development, the workforce training.
    When we think of education, we think of the K-12 sector. 
Then we have the 2-year colleges and 4-year colleges and 
universities, public and private, all along that sector. But 
quite often in this country, we think of them as three 
different components. I think what is more workable today is 
that we look at them as one total component, and I am not 
saying get rid of one of those components. I am just saying 
bring them together, reduce the gaps in between. So, if the 
federal government could ever incentivize us to that. There are 
wonderful partnerships here that exist already, but to 
incentivize that and take that a step further, I think we would 
see a lot of positive results out of that.
    Mr. Gowdy. Yes, sir.
    Ms. Hickman.
    Ms. Hickman. Well, as Mr. Barker alluded to legislation 
that might measure return on investment, and there certainly is 
legislation that has attempted to do that. Unfortunately, it 
has only been applied to one sector of the educational 
spectrum, and I think that any legislation that reduces the 
range of educational choices that are available to students is 
poor legislation. Certainly we do want our students to get 
their money's worth when they are paying tuition, but if we are 
going to set that as a standard for measuring an institution, 
we should measure all institutions that way.
    Mr. Gowdy. On behalf of Congressman Wilson and myself; and 
Chairman John Kline from Minnesota, who I hope each of you will 
have an opportunity to meet, a delightful Congressman, former 
Marine if I am not mistaken; Representative Wilson; Virginia 
Foxx from North Carolina, very grateful to them for allowing us 
to have--yes, sir.
    Mr. Wilson. And one bit of history you need to be aware. 
This subcommittee meeting today is the only subcommittee 
meeting on the issue of jobs this week, possibly this month, 
and so it is a real testament to Congressman Gowdy, to this 
community, our country certainly. We have 14 million Americans 
without jobs, and so we need to be focused on this issue, and I 
would just want to thank, as you have already done, our 
Chairman John Kline for authorizing this. Chairwoman Virginia 
Foxx. We have got people like Trey Gowdy who are sincerely 
interested in trying to help people get jobs.
    I know that next week--I am looking forward--every year I 
do a bus tour, week-long bus tour, around the district that I 
represent to thank educators, employers for helping create 
jobs, and, again, I am grateful to be here today, and thank you 
for your leadership, Congressman Gowdy.
    Mr. Gowdy. Thank you, Congressman Wilson, and I want to 
echo your words of thanks for the E&W Committee, who--I always 
smile when I see on television that we are on vacation this 
month. Let the record reflect there is at least 1 day where 
they got a little bit of work out of us. But for the folks who 
don't live in this area who traveled to help us put this 
hearing on, and especially the folks at CU-ICAR for their 
hospitality, and everything could not have been better handled 
and better run.
    And our panel of witnesses, again, I know I said it with 
the first panel. You are each worthy of a panel of your own. So 
thank you for sharing your perspective and visiting with us.
    With that, I am going to thank you personally and try to be 
a good steward of your time, and, Congressman Wilson, I look 
forward to seeing you very soon. And with that, I believe we 
are in recess.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
